No. _______
In The

Supreme Court of the United States
-------------------------- ♦ ---------------------------

FREDMAN BROS. FURNITURE
COMPANY, INC.,
Petitioner,
v.

BEDGEAR, LLC,
Respondent.
-------------------------- ♦ --------------------------

ON PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
-------------------------- ♦ --------------------------

PETITION FOR WRIT OF CERTIORARI
-------------------------- ♦ --------------------------

Abran Kean
Counsel of Record
ERISE IP, P.A.
7015 College Boulevard, Suite 700
Overland Park, Kansas 66211
(913) 777-5600
abran.kean@eriseip.com
Counsel for Petitioner

Dated: September 25, 2020

THE LEX GROUPDC i 1050 Connecticut Avenue, N.W. i Suite 500, #5190 i Washington, D.C. 20036
(202) 955-0001 i (800) 856-4419 i www.thelexgroup.com

i
QUESTIONS PRESENTED
Whether administrative patent judges are
“principal” or “inferior” Officers of the United States
within the meaning of the Appointments Clause.

ii
LIST OF PARTIES TO THE PROCEEDING
Petitioner
Fredman
Bros.
Furniture
Company, Inc. was the petitioner in proceedings
before the Patent Trial and Appeal Board and the
appellee in the court of appeals in Nos. 2018-2082,
2018-2083 & 18-2084 (consolidated) and in No. 20182170.
Respondent Bedgear, LLC was the patent
owner in proceedings before the Patent Trial and
Appeal Board and the appellant in the court of
appeals in Nos. 2018-2082, 2018-2083 & 18-2084
(consolidated) and in No. 2018-2170.
CORPORATE DISCLOSURE STATEMENT
Petitioner states that there is no parent or
publicly held company owning 10% or more of its
stock.
RELATED CASES
The following proceedings are directly related
to the case in this Court within the meaning of Rule
14.1(b)(iii):
x

Bedgear, LLC v. Fredman Bros. Furniture
Company, Inc., No. 2018-2170, U.S. Court of
Appeals for the Federal Circuit, rehearing
order entered April 29, 2020 and judgment
entered April 29, 2020;

x

Bedgear, LLC v. Fredman Bros. Furniture
Company, Inc., Nos. 2018-2082, 2018-2083,
and 2018-2084 (consolidated), U.S. Court of
Appeals for the Federal Circuit, judgment

iii
entered November 7, 2019, rehearing order
entered June 12, 2020;
x

Fredman Bros. Furniture Co., Inc. v. Bedgear,
LLC, Case IPR2017-00350 (P.T.A.B.), final
written decision entered June 12, 2018;

x

Fredman Bros. Furniture Co., Inc. v. Bedgear,
LLC, Case IPR2017-00351 (P.T.A.B.), final
written decision entered June 12, 2018;

x

Fredman Bros. Furniture Co., Inc. v. Bedgear,
LLC, Case IPR2017-00352 (P.T.A.B.), final
written decision entered June 12, 2018); and

x

Fredman Bros. Furniture Co., Inc. v. Bedgear,
LLC, Case IPR2017-00524 (P.T.A.B.), final
written decision entered July 13, 2018).

iv
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ........................................ i
LIST OF PARTIES TO THE PROCEEDING ............ ii
CORPORATE DISCLOSURE STATEMENT ............ ii
RELATED CASES ...................................................... ii
TABLE OF CONTENTS............................................ iv
TABLE OF AUTHORITIES ..................................... vii
OPINIONS BELOW ................................................... 1
JURISDICTION STATEMENT ................................. 2
CONSTITUTIONAL PROVISION INVOLVED ........ 3
STATEMENT OF THE CASE ................................... 4
REASON FOR GRANTING THE PETITION ........... 8
CONCLUSION ......................................................... 12
APPENDIX:
DECISIONS ON APPEAL:
Final Judgment of
The United States Court of Appeals
For the Federal Circuit
(2018-2170)
entered April 29, 2020 .............................. 1a

v
Unpublished Judgment of
The United States Court of Appeals
For the Federal Circuit
(2018-2082, 2018-2083, 2018-2084)
entered November 7, 2019 ....................... 2a
Judgment of
The United States Court of Appeals
For the Federal Circuit
(2018-2170)
entered October 11, 2019........................ 14a
BOARD DECISIONS:
Final Written Decision of
The United States Patent and Trademark Office
Patent Trial and Appeal Board
(IPR2017-00524)
entered July 13, 2018 ............................. 16a
Final Written Decision of
The United States Patent and Trademark Office
Patent Trial and Appeal Board
(IPR2017-00350)
entered June 12, 2018 ............................ 63a
Final Written Decision of
The United States Patent and Trademark Office
Patent Trial and Appeal Board
(IPR2017-00351)
entered June 12, 2018 .......................... 157a
Final Written Decision of
The United States Patent and Trademark Office
Patent Trial and Appeal Board
(IPR2017-00352)
entered June 12, 2018 .......................... 225a

vi
ORDERS ON REHEARING:
Order of
The United States Court of Appeals
For the Federal Circuit
Re: Denying Petition for Panel Rehearing and
Rehearing En Banc
(2018-2082, 2018-2083, 2018-2084)
entered June 12, 2020 .......................... 306a
Order of
The United States Court of Appeals
For the Federal Circuit
Re: Granting Petition for Panel Rehearing
(2018-2170)
entered April 29, 2020 .......................... 308a

vii
TABLE OF AUTHORITIES
Page(s)
CASES
Arthrex, Inc. v. Smith & Nephew, Inc.,
941 F.3d 1320 (Fed. Cir. 2019) .............. passim
Arthrex, Inc. v. Smith & Nephew, Inc.,
953 F.3d 760 (Fed. Cir. 2020) .......................... 7
Ciena Corp. v. Oyster Optics, LLC,
958 F.3d 1157 (Fed. Cir. 2020) ...................... 11
Customedia Techs., LLC v. Dish Network Corp.,
941 F.3d 1174 (Fed. Cir. 2019) .................. 6, 11
Edmond v. United States,
520 U.S. 651 (1997) .................................... 9, 10
Emerson Elec. Co. v. Sipco, LLC,
No. 19-966, 2020 WL 3146672
(U.S. June 15, 2020) ......................................... 9
Free Enter. Fund v.
Pub. Co. Accounting Oversight Bd.,
561 U.S. 477 (2010) ........................................ 10
Freytag v. Comm’r,
501 U.S. 868 (1991) ........................................ 11
General Order,
2020 WL 2119932
(P.T.A.B. May 1, 2020) ............................. 7, 8, 9
Lucia v. SEC,
138 S. Ct. 2044 (2018) ................................ 6, 11

viii
Ryder v. United States,
515 U.S. 177 (1995) ........................................ 11
Seila Law LLC v. CFPB,
140 S. Ct. 2183 (2020) .................................... 10
Thryv, Inc. v. Click-To-Call Techs., LP,
140 S. Ct. 1367 (2020) ...................................... 9
United States v. Germaine,
99 U.S. 508 (1879) ............................................ 9
CONSTITUTIONAL PROVISIONS
U.S. CONST. art. II, § 2 ................................................ 3
U.S. CONST. art. II, § 2, cl. 2 ................................. 4, 10
STATUTES
28 U.S.C. § 1254(1) ..................................................... 3
35 U.S.C. § 6(a) ........................................................... 5
RULE
Sup. Ct. R. 12.4 ........................................................... 1
OTHER AUTHORITIES
Pet. for Cert., Arthrex, Inc. v. Smith & Nephew,
Inc., No. 19-1458 (U.S. filed June 30, 2020) .......... 7, 8
Pet. for Cert., Duke Univ. v. Biomarin Pharm.
Inc., No. 19-1475 (U.S. filed July 2, 2020) ................. 7
Pet. for Cert., Polaris Innovations Ltd. v.
Kingston Tech. Co., No. 19-1459
(U.S. filed June 30, 2020) ........................................... 7

ix
Pet. for Cert., Sanofi-Aventis Deutschland
GMBH v. Mylan Pharm. Inc., No. 19-1451
(U.S. filed June 26, 2020) ........................................... 7
Pet. for Cert., Smith & Nephew, Inc. v.
Arthrex, Inc., No. 19-1452
(U.S. filed June 29, 2020) ........................... 7, 8, 10, 11
Pet. for Cert., United States v. Arthrex, Inc.,
No. 19-1434 (U.S. filed June 25, 2020) ...... 7, 8, 10, 11
Pet. for Cert., United States v. Image Processing
Tech. LLC, No. 19-72 (U.S. filed July 23, 2020) ........ 7

1
PETITION FOR A WRIT OF CERTIORARI
Fredman Bros. Furniture Company, Inc.
respectfully petitions for a writ of certiorari to
review the judgments of the United States Court of
Appeals for the Federal Circuit in these cases.
Pursuant to this Court’s Rule 12.4, Fredman is filing
a “single petition for a writ of certiorari” because the
judgments “sought to be reviewed” are from “the
same court and involve identical or closely related
questions.” Sup. Ct. R. 12.4. As explained further
below, Fredman respectfully submits that this
petition should be held pending the disposition of the
petitions for writs of certiorari in Arthrex, Inc. v.
Smith & Nephew, Inc., 941 F.3d 1320 (Fed. Cir.
2019). See Nos. 19-1434, 19-1452, and 19-1458.
OPINIONS BELOW
The final judgment of the court of appeals in
Bedgear, LLC v. Fredman Bros. Furniture Company,
Inc., No. 2018-2170, entered on April 29, 2020 (App.
1a) is unreported. The prior judgment of the court of
appeals in Bedgear, LLC v. Fredman Bros. Furniture
Company, Inc., No. 2018-2170, entered on October
11, 2019 (App. 14a-15a), is not published in the
Federal Reporter but is reprinted at 779 Fed. Appx.
748. The order of the court of appeals granting
rehearing in Bedgear, LLC v. Fredman Bros.
Furniture Company, Inc., No. 2018-2170, entered on
April 29, 2020 (App. 308a-309a), is not published in
the Federal Reporter but is reprinted at 803 Fed.
Appx. 407.
The judgment of the court of appeals in
Bedgear, LLC v. Fredman Bros. Furniture Company,
Inc., Nos. 2018-2082, 2018-2083, and 2018-2084

2
(consolidated), entered on November 7, 2019 (App.
2a-13a), is not published in the Federal Reporter but
is reprinted at 783 Fed. Appx. 1029. The order of the
court of appeals denying rehearing in Bedgear, LLC
v. Fredman Bros. Furniture Company, Inc., Nos.
2018-2082, 2018-2083, and 2018-2084 (consolidated),
entered on June 12, 2020 (App. 306a-307a), is
unreported.
The final written decisions of the Patent Trial
and Appeal Board in the four underlying inter partes
review cases, Nos. IPR2017-00350 (App. 63a-156a),
IPR2017-00351 (App. 157a-224a), IPR2017-00352
(App. 225a-305a), & IPR2017-00524 (App. 16a-62a)
are unreported.
JURISDICTION STATEMENT
The judgment of the court of appeals in
Bedgear, LLC v. Fredman Bros. Furniture Company,
Inc., Nos. 2018-2082, 2018-2083, and 2018-2084 was
entered on November 7, 2019, vacating and
remanding to the Board the Final Written Decisions
in Nos. IPR2017-00350, IPR2017-351, and IPR2017352. A combined petition for panel rehearing and
rehearing en banc was denied on June 12, 2020.
The judgment of the court of appeals in
Bedgear, LLC. v. Fredman Bros. Furniture
Company, Inc., No. 2018-2170 was entered on
October 11, 2019, affirming the Final Written
Decision in No. IPR2017-00524. A combined petition
for panel rehearing and rehearing en banc was
granted on April 29, 2020, and, after panel
rehearing, judgment was entered on April 29, 2020
vacating and remanding to the Board the Final
Written Decision in IPR2017-00524.

3
On March 19, 2020, the Court extended the
time within which to file any petition for a writ of
certiorari due on or after that date to 150 days from
the date of the lower-court judgment, order denying
discretionary review, or order denying a timely
petition for rehearing. The effect of that order was to
extend the deadline for filing a petition for a writ of
certiorari seeking review of the judgment and
rehearing decision in Bedgear, LLC. v. Fredman
Bros. Furniture Company, Inc., No. 2018-2170 to
September 28, 2020. Similarly, the effect of that
order was to extend the deadline for filing a petition
for a writ of certiorari seeking review of the
judgment and rehearing decision in Bedgear, LLC. v.
Fredman Bros. Furniture Company, Inc., Nos. 20182082, 2018-2083, and 2018-2084 to November 9,
2020.
In each case, the jurisdiction of this Court is
invoked under 28 U.S.C. § 1254(1).
CONSTITUTIONAL PROVISION INVOLVED
The Appointments Clause:
U.S. Const. art. II, § 2
Section 2. The President shall be Commander
in Chief of the Army and Navy of the United States,
and of the Militia of the several States, when called
into the actual Service of the United States; he may
re- quire the Opinion, in writing, of the principal
Officer in each of the executive Departments, upon
any Subject relating to the Duties of their respective
Offices, and he shall have Power to Grant Reprieves
and Pardons for Offences against the United States,
except in Cases of Impeachment.

4
He shall have Power, by and with the Advice
and Consent of the Senate, to make Treaties,
provided two thirds of the Senators present concur;
and he shall nominate, and by and with the Advice
and Consent of the Senate, shall appoint
Ambassadors, other public Ministers and Consuls,
Judges of the supreme Court, and all other Officers
of the United States, whose Appointments are not
herein otherwise provided for, and which shall be
established by Law: but the Congress may by Law
vest the Appointment of such inferior Officers, as
they think proper, in the President alone, in the
Courts of Law, or in the Heads of Departments.
The President shall have Power to fill up all
Vacancies that may happen during the Recess of the
Senate, by granting Commissions which shall expire
at the End of their next Session.
STATEMENT OF THE CASE
These cases concern whether, under the
Appointments Clause, U.S. Const. Art. II, § 2, Cl. 2,
administrative patent judges of the United States
Patent and Trademark Office (USPTO) are principal
officers who must be appointed by the President with
the advice and consent of the Senate, or “inferior
Officers” whose appointment Congress may vest in a
department head. In Arthrex, Inc. v. Smith &
Nephew, Inc., 941 F.3d 1320 (2019), petitions for
cert. pending, Nos. 19-1434 (filed June 25, 2020), 191452 (filed June 29, 2020), and 19-1458 (filed June
30, 2020), the Federal Circuit held that
administrative patent judges are principal officers
and that the statutorily prescribed method of
appointing administrative patent judges—by the

5
Secretary of Commerce acting alone, see 35 U.S.C.
6(a)—violates the Appointments Clause. 941 F.3d
at 1327-1335. In the judgments and rehearing
decisions encompassed by this consolidated petition,
the court of appeals vacated decisions of the Patent
Trial and Appeal Board (Board) based on Arthrex
and remanded for further proceedings.
1.
The Patent Trial and Appeal Board
(Board) entered final written decisions that all
challenged claims but one were unpatentable of the
four United States patents at issue in these cases.
See Fredman Bros. Furniture Co., Inc. v. Bedgear,
LLC, Case IPR2017-00350, Paper 41 (P.T.A.B. June
12, 2018) (final written decision); Fredman Bros.
Furniture Co., Inc. v. Bedgear, LLC, Case IPR201700351, Paper 41 (P.T.A.B. June 12, 2018) (final
written decision); Fredman Bros. Furniture Co., Inc.
v. Bedgear, LLC, Case IPR2017-00352, Paper 42
(P.T.A.B. June 12, 2018) (final written decision);
Fredman Bros. Furniture Co., Inc. v. Bedgear, LLC,
Case IPR2017-00524, Paper 35 (P.T.A.B. July 13,
2018) (final written decision).
At no time during any of the IPR review
proceedings did Bedgear assert a constitutional
challenge to the appointment of the designated
administrative patent judges (APJs) or the Board as
a whole.
2.
Bedgear timely appealed each of the
four Final Written Decisions at issue here. Case No.
18-2170 involved IPR2017-00524. Case Nos. 182082, 18-2083, and 18-2084 were consolidated and
involved, respectively, IPR2017-00350, IPR201700351, and IPR2017-00352.

6
While Bedgear’s appeals were pending, the
Federal Circuit held in Arthrex that APJs are
principal Officers and, therefore, their appointment
by the Secretary of Commerce pursuant to
congressional directive violates the Appointments
Clause. 941 F.3d at 1335. Like Bedgear here, the
patent owner in that case had not raised its
constitutional challenge before the Board. The
Arthrex panel nevertheless elected to excuse this
forfeiture, ibid., and—as a remedy—vacated the
Board’s final written decision and remanded for a
“new hearing” before a newly designated panel of
APJs, id. at 1338–40 (citing Lucia v. SEC, 138 S. Ct.
2044, 2055 (2018)). The panel concluded that this
relief was “appropriate” because “[t]he Board was
not capable of correcting the constitutional
infirmity,” id. at 1339–40, but “limited” its holding to
cases “where litigants present an Appointments
Clause challenge on appeal,” id. at 1340. The court of
appeals subsequently explained that litigants must
present such challenges in their opening briefs or in
motions filed prior to their opening briefs. See
Customedia Techs., LLC v. Dish Network Corp., 941
F.3d 1174, 1175 (Fed. Cir. 2019).
In Case No. 18-2170, following oral argument,
the court of appeals entered judgment affirming the
Board’s Final Written Decision in IPR2017-00524
prior to the court’s ruling in Arthrex. On a petition
for rehearing filed by Bedgear after Arthrex, the
court of appeals granted rehearing and entered
judgment vacating and remanding the Board’s Final
Written Decision in IPR2017-00524 in light of
Arthrex. In Case Nos. 18-2082, 18-2083, and 182084 (consolidated), after oral argument, the court of
appeals entered judgment vacating and remanding

7
the Board’s Final Written Decisions in IPR 201700350, IPR2017-00351, and IPR2017-00352 in light
of Arthrex. Fredman timely filed a petition for
rehearing, which was denied by the court of appeals.
3.
In Arthrex itself, the Federal Circuit
denied rehearing over the dissents of several judges.
Arthrex, Inc. v. Smith & Nephew, Inc., 953 F.3d 760,
761 (Fed. Cir. 2020). All three parties in Arthrex—
the United States, Smith & Nephew, and Arthrex—
have filed petitions for writs of certiorari seeking
this Court’s review of the panel decision. See Pet. for
Cert., United States v. Arthrex, Inc., No. 19-1434
(U.S. filed June 25, 2020) (“U.S. Pet.”); Pet. for Cert.,
Smith & Nephew, Inc. v. Arthrex, Inc., No. 19-1452
(U.S. filed June 29, 2020) (“Smith & Nephew Pet.”);
Pet. for Cert., Arthrex, Inc. v. Smith & Nephew, Inc.,
No. 19-1458 (U.S. filed June 30, 2020) (“Arthrex
Pet.”). Several other petitions raising similar issues
have already been filed in this Court, and more can
be expected to follow. See, e.g., Pet. for Cert., SanofiAventis Deutschland GMBH v. Mylan Pharm. Inc.,
No. 19-1451 (U.S. filed June 26, 2020); Pet. for Cert.,
Polaris Innovations Ltd. v. Kingston Tech. Co., No.
19-1459 (U.S. filed June 30, 2020); Pet. for Cert.,
Duke Univ. v. Biomarin Pharm. Inc., No. 19-1475
(U.S. filed July 2, 2020); Pet. for Cert., United States
v. Image Processing Tech. LLC, No. 19-72 (U.S. filed
July 23, 2020).
In light of Arthrex, the Federal Circuit has
now “vacated more than 100 decisions” by the
Board—as the panel did below—and has
“instruct[ed] the Board to conduct further
proceedings on remand before newly-designated
Board panels.” General Order, 2020 WL 2119932, at

8
*1 (P.T.A.B. May 1, 2020). The Board is currently
holding all such cases, including those at issue in
this petition, “in administrative abeyance until [this]
Court acts on a petition for certiorari” presenting the
Appointments Clause issue. Ibid.
REASON FOR GRANTING THE PETITION
1. The question presented by this petition—
whether APJs are principal or inferior Officers—is
directly presented in the petitions for writs of
certiorari filed in Arthrex, Inc. v. Smith & Nephew,
Inc., 941 F.3d 1320 (Fed. Cir. 2019). See Nos. 191434, 19-1452, and 19-1458. Both the United States
and Smith & Nephew have asked the Court to decide
whether APJs are principal or inferior Officers, and
Arthrex has presented a closely related question. See
U.S. Pet. I (question 1); Smith & Nephew Pet. i;
Arthrex Pet. i (question 2). Accordingly, this petition
should be held pending final disposition of the three
Arthrex petitions, and then disposed of as
appropriate. In the alternative, this petition should
be granted.
If the Court grants any or all of the petitions
in Arthrex (or any other case presenting the question
whether APJs are principal or inferior Officers), then
this petition should be held and disposed of in light
of the Court’s ultimate disposition of that case.
If, for example, the Court were to hold that
APJs are inferior Officers, the judgments in these
cases would have to be vacated and the cases
remanded to the Federal Circuit for consideration on
the merits. Even if the Court were to conclude that
APJs are principal Officers, that could alter the
remedial aspects of the decision below. If, for

9
example, the Court were to hold that the remedy of a
new hearing is only available if an Appointments
Clause challenge was presented to the Board, the
judgments in these cases would have to be vacated
and the cases remanded to the Federal Circuit for
consideration on the merits.
The PTAB is already holding these cases in
abeyance along with all others remanded from the
Federal Circuit in light of Arthrex, pending this
Court’s decision on the petitions. General Order,
2020 WL 2119932, at *1 (P.T.A.B. May 1, 2020).
Thus, holding this petition will cause no prejudice to
Bedgear, the Board, or the USPTO. Therefore, this
petition should be held pending the ultimate
disposition of Arthrex, and then disposed of
accordingly. See, e.g., Emerson Elec. Co. v. Sipco,
LLC, No. 19-966, 2020 WL 3146672, at *1 (U.S. June
15, 2020) (petition held pending the Court’s
disposition of Thryv, Inc. v. Click-To-Call Techs., LP,
140 S. Ct. 1367 (2020)).
2. Although Fredman seeks a hold for Arthrex
(or another case presenting the Appointments
Clause issue) rather than plenary review, Fredman
submits that the orders in this case reflect two core
errors—both of which are presented in the petitions
for writs of certiorari in Arthrex.
First, the Federal Circuit in this case followed
Arthrex’s erroneous holding that APJs are principal
Officers. The Appointments Clause “divides all its
officers into two classes,” United States v. Germaine,
99 U.S. 508, 509 (1879): “Officers” (i.e., “principal
(non-inferior) officers,” Edmond v. United States, 520
U.S. 651, 659 (1997)), who the President must

10
appoint with the advice and consent of the Senate;
and “inferior Officers,” whose appointment Congress
may vest “in the President alone, in the Courts of
Law, or in the Heads of Departments.” U.S. Const.
art. II, § 2, cl. 2. Whether an Officer is inferior
“depends on whether he has a superior.” Edmond,
520 U.S. at 662–63; see also Seila Law LLC v. CFPB,
140 S. Ct. 2183, 2199 n.3 (2020). Even if an Officer
otherwise exercises significant authority “largely
independently” from a superior, that Officer is an
inferior Officer so long as the superior “‘direct[s] and
supervise[s]’” the Officer’s work “‘at some level.’”
Free Enter. Fund v. Pub. Co. Accounting Oversight
Bd., 561 U.S. 477, 504, 510 (2010) (quoting Edmond,
520 U.S. at 663).
APJs are inferior Officers within the meaning
of the Appointments Clause because they are
“directed and supervised” by the Director of USPTO,
a principal Officer who is removable at will by the
President. Edmond, 520 U.S. at 663. This point has
been explained at length in two of the Arthrex
petitions (U.S. Pet. 16–26; Smith & Nephew Pet. 14–
27), and Fredman will not repeat those arguments
here; rather, Fredman adopts those arguments by
reference. The short of it is that because APJs are
inferior Officers, their appointments by the
Secretary of Commerce (a Head of Department) is
entirely consonant with the Constitution. The
Federal Circuit therefore erred in concluding that
APJs are principal Officers and that the governing
statutory scheme “violate[d] the Appointments
Clause.” Arthrex, 941 F.3d at 1335.
Second, the Federal Circuit relied on and
applied Arthrex to remand for proceedings before

11
new panels even though Bedgear had not presented
its constitutional challenge to the Board. The court
of appeals erred in Arthrex itself by excusing the
patent owner’s administrative forfeiture. See U.S.
Pet. 26–33. The Federal Circuit compounded that
error in this case because, whatever the circumstances in Arthrex itself, there are no exceptional
circumstances in this case that warrant excusing
Bedgear’s administrative forfeiture. Nevertheless,
the Federal Circuit has adopted, and applied in this
case, a blanket rule awarding patent owners a new
hearing whenever they raise an Appointments
Clause challenge on appeal, regardless of whether it
was presented to the Board. Customedia Techs., LLC
v. Dish Network Corp., 941 F.3d 1174, 1175 (Fed.
Cir. 2019); Ciena Corp. v. Oyster Optics, LLC, 958
F.3d 1157, 1162 (Fed. Cir. 2020). Such an approach
has no basis in the Court’s precedents allowing
courts to overlook administrative forfeitures only in
“rare cases.” Freytag v. Comm’r, 501 U.S. 868, 879
(1991). The Federal Circuit’s refusal to conduct a
case-by-case inquiry itself warrants review and
reversal.
Moreover, the remedy of a new hearing is
limited to those who “‘timely’” present constitutional
challenges, Lucia v. SEC, 138 S. Ct. 2044, 2055
(2018) (quoting Ryder v. United States, 515 U.S. 177,
182–83 (1995)); an administrative forfeiture means,
at minimum, that the challenger is limited to
declaratory relief. See Smith & Nephew Pet. 32–33.
Again, Fredman adopts the arguments previously
made by reference and will not repeat them here.
The bottom line is that Bedgear’s failure to preserve
its Appointments Clause challenge before the Board

12
could well require vacatur of the remand orders in
this case even if APJs are principal Officers.
Because Arthrex was wrongly decided in both
its substantive and remedial aspects, the panel in
this case erred in vacating the Board’s decisions and
remanding to the Board based on that decision. This
Court should therefore hold this petition pending
ultimate disposition of Arthrex (or another case
addressing an Appointments Clause challenge to
APJs), and then dispose of this petition in light of
the Court’s decision in that case.
CONCLUSION
This petition for a writ of certiorari should be
held pending this Court’s disposition of the petitions
for a writ of certiorari in United States v. Arthrex,
Inc. (Nos. 19-1434, 19-1452, and 19-1458) and then
disposed of accordingly. In the alternative, this
petition should be granted.
Respectfully submitted,
/s/ Abran Kean

_

Abran Kean
ERISE IP, P.A.
7015 College Blvd., Suite 700
Overland Park, KS 66211
(913) 777-5600 Telephone
(913) 777-5601 Facsimile
abran.kean@eriseip.com
Counsel for Petitioner
Fredman Bros. Furniture Co., Inc.
September 25, 2020

APPENDIX

ia
APPENDIX TABLE OF CONTENTS
Page
DECISIONS ON APPEAL:
Final Judgment of
The United States Court of Appeals
For the Federal Circuit
(2018-2170)
entered April 29, 2020 ................................... 1a
Unpublished Judgment of
The United States Court of Appeals
For the Federal Circuit
(2018-2082, 2018-2083, 2018-2084)
entered November 7, 2019 ............................. 2a
Judgment of
The United States Court of Appeals
For the Federal Circuit
(2018-2170)
entered October 11, 2019 ............................. 14a
BOARD DECISIONS:
Final Written Decision of
The United States Patent and Trademark Office
Patent Trial and Appeal Board
(IPR2017-00524)
entered July 13, 2018................................... 16a
Final Written Decision of
The United States Patent and Trademark Office
Patent Trial and Appeal Board
(IPR2017-00350)
entered June 12, 2018 .................................. 63a

iia
Final Written Decision of
The United States Patent and Trademark Office
Patent Trial and Appeal Board
(IPR2017-00351)
entered June 12, 2018 ................................ 157a
Final Written Decision of
The United States Patent and Trademark Office
Patent Trial and Appeal Board
(IPR2017-00352)
entered June 12, 2018 ................................ 225a
ORDERS ON REHEARING:
Order of
The United States Court of Appeals
For the Federal Circuit
Re: Denying Petition for Panel Rehearing and
Rehearing En Banc
(2018-2082, 2018-2083, 2018-2084)
entered June 12, 2020 ................................ 306a
Order of
The United States Court of Appeals
For the Federal Circuit
Re: Granting Petition for Panel Rehearing
(2018-2170)
entered April 29, 2020 ............................... 308a

1a
[ENTERED: April 29, 2020]
United States Court of Appeals
for the Federal Circuit
__________________________
BEDGEAR, LLC,
Appellant
v.
FREDMAN BROS. FURNITURE
COMPANY, INC.,
Appellee
__________________________
2018-2170
__________________________
Appeal from the United States Patent and
Trademark Office, Patent Trial and Appeal Board in
No. IPR2017-00524.
__________________________
JUDGMENT
__________________________
THIS CAUSE having been considered, it is
ORDERED AND ADJUDGED:
VACATED AND REMANDED
ENTERED BY ORDER OF THE COURT
April 29, 2020

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

2a
[ENTERED: November 7, 2019]
NOTE: This disposition is nonprecedential.
United States Court of Appeals
for the Federal Circuit
______________________
BEDGEAR, LLC,
Appellant
v.
FREDMAN BROS. FURNITURE
COMPANY, INC.,
Appellee
______________________
2018-2082, 2018-2083, 2018-2084
______________________
Appeals from the United States Patent and
Trademark Office, Patent Trial and Appeal Board in
Nos. IPR2017-00350, IPR2017-00351, IPR201700352.
______________________
Decided: November 7, 2019
______________________
K. LEE MARSHALL, Bryan Cave Leighton
Paisner LLP, San Francisco, CA, argued for
appellant. Also represented by JOSEPH J. RICHETTI,
ALEXANDER DAVID WALDEN, New York, NY.
JASON R. MUDD, Erise IP, P.A., Overland Park,
KS, argued for appellee. Also represented by ERIC
ALLAN BURESH.
______________________

3a
Before NEWMAN, DYK, and STOLL, Circuit Judges.
Opinion for the court filed PER CURIAM.
Opinion concurring in the judgment filed by Circuit
Judge DYK, in which Circuit Judge NEWMAN joins.
PER CURIAM.
In its opening brief, Bedgear, LLC argues that
the three final written decisions at issue in this
appeal exceed the scope of the Patent Trial and
Appeal Board’s authority and violate the
Constitution’s Appointments Clause. See Appellant’s
Br. 66 (citing U.S. Const. art. II, § 2, cl. 2). This court
recently decided this issue in Arthrex, Inc. v. Smith &
Nephew, Inc., No. 18-2140 (Fed. Cir. Oct. 31, 2019).
Accordingly, the Board’s decisions in Nos. IPR201700350, IPR2017-00351, and IPR2017-00352 are
vacated and the case is remanded to the Board for
proceedings consistent with this court’s decision in
Arthrex.
VACATED AND REMANDED
COSTS
No costs.

4a
NOTE: This disposition is nonprecedential.
United States Court of Appeals
for the Federal Circuit
______________________
BEDGEAR, LLC,
Appellant
v.
FREDMAN BROS. FURNITURE
COMPANY, INC.,
Appellee
______________________
2018-2082, 2018-2083, 2018-2084
______________________
Appeals from the United States Patent and
Trademark Office, Patent Trial and Appeal Board in
Nos. IPR2017-00350, IPR2017-00351, IPR201700352.
______________________
DYK, Circuit Judge, with whom Circuit Judge
NEWMAN joins, concurring in the judgment.
I agree that the panel here is bound to follow
Arthrex, Inc. v. Smith & Nephew, Inc., No. 2018-2140,
2019 WL 5616010 (Fed. Cir. Oct. 31, 2019). But, even
putting to one side the question of whether
Administrative Patent Judges (“APJs”) would have
been improperly appointed (if not subject to at will
removal), it seems to me that the remedy aspect of
Arthrex (requiring a new hearing before a new panel)
is not required by Lucia v. S.E.C., 138 S. Ct. 2044
(2018), imposes large and unnecessary burdens on the

5a
system of inter partes review, requiring potentially
hundreds of new proceedings, and involves
unconstitutional prospective decision-making.
I
In Arthrex, the panel held that the
appointment of Administrative Patent Judges
(“APJs”) would be unconstitutional if subject to the
removal provisions of title 5. The panel avoids this
result by holding that those removal provisions are
unconstitutional as applied to APJs, and that the
unconstitutional removal provision may be severed
from the remainder of the statute “to render the APJs
inferior officers and remedy the constitutional
appointment problem.” Arthrex, 2019 WL 5616010, at
*1. Instead of holding past actions by APJs valid, the
Arthrex majority held those past actions invalid and
remanded for a new hearing before a new panel
“[b]ecause the Board’s decision in this case was made
by a panel of APJs that were not constitutionally
appointed at the time the decision was rendered.”
Arthrex, 2019 WL 5616010, at *11.
This holding is in part constitutional
interpretation and part statutory construction. In
essence, the panel improperly makes the application
of its decision prospective only, so that only PTAB
decisions after the date of the panel’s opinion are
rendered by a constitutionally appointed panel. In my
view, the panel improperly declined to make its ruling
retroactive so that the actions of APJs in the past
were compliant with the constitution and the statute.
In this respect, I think that the panel in Arthrex
ignored governing Supreme Court authority.

6a
II
I first address the Arthrex panel’s claim that
Lucia mandates remanding for a new hearing. In
Lucia, the issue was whether Securities and Exchange
Commission (“SEC”) Administrative Law Judges
(“ALJs”) were inferior officers that had to be appointed
by an agency head—the SEC. Lucia, 138 S. Ct. at
2051 & n.3 (2018). The Supreme Court held that
“[t]he Commission’s ALJs are ‘Officers of the United
States,’ subject to the Appointments Clause.” Id. at
2055. The ALJs were found to be unconstitutionally
appointed as “Officers of the United States” because
they were appointed by “[o]ther staff members, rather
than the Commission proper.” Id. at 2046, 2051.
While the case was pending, “the SEC issued
an order ‘ratif[ying]’ the prior appointments of its
ALJs,” thus curing the constitutional defect.1 Id. at
2055 n.6 (alteration in original) (quoting SEC Order,
In re: Pending Administrative Proceedings (Nov. 30,
2017), https://www.sec.gov/litigation/opinions/2017/
33-10440.pdf). The Supreme Court nevertheless held
that “the ‘appropriate’ remedy for an adjudication
tainted with an appointments violation is a new
‘hearing before a properly appointed’ official.” Id. at
2055 (quoting Ryder v. United States, 515 U.S. 183,
188 (1995)).
The difference between Lucia and Arthrex is
that the fix in Lucia was an agency fix, whereas the
fix in Arthrex is a judicial fix. Agencies and
legislatures generally act only prospectively, while a
The Court declined to decide whether the agency cured
the defect when it “ratified” the appointments. Lucia, 138 S. Ct.
at 2055 n.6.
1

7a
judicial construction of a statute or a holding that a
part of the statute is unconstitutional and construing
the statute to permit severance are necessarily
retrospective as well as prospective.
III
As the Supreme Court concluded in Rivers v.
Roadway Exp., Inc., 511 U.S. 298 (1994), “[i]n
construing a statute, courts are ‘explaining [their]
understanding of what the statute has meant
continuously since the date when it became law.’” Id.
at 313 n.12 (emphasis added). The same is true as to
constitutional decisions, as Harper v. Virginia Dep’t of
Taxation, 509 U.S. 86 (1993) confirmed: “‘[B]oth the
common law and our own decisions’ have ‘recognized
a general rule of retrospective effect for the
constitutional decisions of this Court.’” Id. at 94
(alteration in original) (quoting Robinson v. Neil, 409
U.S. 505, 507 (1973)). As Justice Scalia put it in his
concurrence in the later Reynoldsville decision:
In fact, what a court does with regard to
an unconstitutional law is simply to ignore
it. It decides the case “disregarding the
[unconstitutional] law,” Marbury v.
Madison, 1 Cranch 137, 178 (1803)
(emphasis added), because a law
repugnant to the Constitution “is void,
and is as no law,” Ex parte Siebold, 100
U.S. 371, 376 (1880).
Reynoldsville Casket Co. v. Hyde, 514 U.S. 749, 760
(1995) (Scalia, J., concurring) (alterations in original).
In other words, “[w]hen [a c]ourt applies a rule of
federal law to the parties before it, that rule is the
controlling interpretation of federal law and must be

8a
given full retroactive effect in all cases still open on
direct review and as to all events, regardless of
whether such events predate or postdate [the court’s]
announcement of the rule.” Harper, 509 U.S. at 97
(1993).2
The requirement for retroactivity applies to
remedies as well, such as the remedy in this case. In
Reynoldsville Casket Co. v. Hyde, 514 U.S. 749 (1995),
the Court reversed an Ohio Supreme Court decision
declining to apply a constitutional decision as to a
limitations period retroactively. The Court rejected
the respondent’s argument that the Ohio Supreme
Court’s decision was based on “remedy” rather than
“non-retroactivity” and held that accepting the Ohio
Supreme Court’s “remedy” would “create what
amounts to an ad hoc exemption from retroactivity.”
Id. at 758. The Court noted only four circumstances
where retroactive application of a constitutional
ruling is not outcome-determinative.3 None is
remotely relevant to Arthrex.
2
Harper overruled prior caselaw that provided for
exceptions allowing prospective application of a new rule of law
in constitutional and other cases. Reynoldsville Casket Co. v.
Hyde, 514 U.S. 749, 752 (1995) (“Harper overruled [a prior
Supreme Court decision] insofar as the [prior] case (selectively)
permitted the prospective-only application of a new rule of
law.”).

Namely, where there is: “(1) an alternative way of curing
the constitutional violation, or (2) a previously existing,
independent legal basis (having nothing to do with retroactivity)
for denying relief, or (3) as in the law of qualified immunity, a
well-established general legal rule that trumps the new rule of
law, which general rule reflects both reliance interests and other
significant policy justifications, or (4) a principle of law, such as
that of ‘finality’ . . . , that limits the principle of retroactivity
itself.” Reynoldsville, 514 U.S. at 759.
3

9a
Thus, to be consistent with Harper, the statute
here must be read as though the PTAB judges had
always been constitutionally appointed, “disregarding”
the unconstitutional removal provisions. Marbury v.
Madison, 1 Cranch 137, 178, 2 L.Ed. 60 (1803). Since
no Congressional or agency action is required in order
to render the appointment of the PTAB judges
constitutional, when the PTAB judges decided cases
in the past, they did not act improperly. Thus, the
past opinions rendered by the PTAB should be
reviewed on the merits, not vacated for a new hearing
before a different panel.
IV
While the Circuits appear to be divided as to
the retroactivity issue in Appointments Clause and
similar cases,4 the very Supreme Court decisions
4
In Collins v. Mnuchin, 938 F.3d 553 (5th Cir. 2019), the
en banc Fifth Circuit found that the Federal Housing Finance
Agency (“FHFA”) was unconstitutionally structured because
Congress “[g]rant[ed] both removal protection and full agency
leadership to a single FHFA Director.” 938 F.3d at 591. It
declined to invalidate prior agency actions. Id. at 592. It
concluded that the only appropriate remedy, and one that “fixes
the . . . purported injury,” is a declaratory judgment “removing
the ‘for cause’ provision found unconstitutional.” Id. 595.

In Intercollegiate Broadcasting and Kuretski, the D.C.
Circuit reached the opposite result. See Intercollegiate Broad.
Sys., Inc. v. Copyright Royalty Bd., 684 F.3d 1332 (D.C. Cir.
2012); Kuretski v. Comm’r, 755 F.3d 929 (D.C. Cir. 2014). In
Intercollegiate Broadcasting, the D.C. Circuit found that the
appointments of the Copyright Royalty Judges in the Library of
Congress violated the Appointments Clause because they could
be removed only for cause. Intercollegiate Broad. Sys., Inc., 684
F.3d at 1334. The court invalidated the for-cause restriction on
the removal of the judges, rendering them “validly appointed
inferior officers.” Id. at 1340–41. Yet, the D.C. Circuit declared

10a
relied on in Arthrex have given retroactive effect to
statutory constructions or constitutional decisions
that remedied potential Appointment Clause
violations. In Free Enterprise Fund v. Public Co.
Accounting Oversight Bd., 561 U.S. 477 (2010), the
SEC’s Public Company Accounting Oversight Board
had instituted an investigation against an accounting
firm, Beckstead and Watts (“B&W”). Id. at 487. B&W
and another affiliated organization, Free Enterprise
Fund, filed suit, asking the district court to enjoin the
investigation as improperly instituted because
members of the Board had not been constitutionally
appointed. Id. The Supreme Court found that the
statutory removal protections afforded to members of
the Board were unconstitutional. Id. at 484. “By
granting the Board executive power without the
Executive’s oversight [i.e., by limiting removal], this
Act subverts the President’s ability to ensure that the
laws are faithfully executed—as well as the public’s
ability to pass judgment on his efforts.” Id. at 498. But
the Court severed the unconstitutional removal
provisions from the remainder of the statute, leaving
the rest of relevant act fully operational and
constitutional. Id. at 509.
The Court did not view this action as fixing the
problem only prospectively. It refused to invalidate or
enjoin the prior actions of the Board in instituting the
investigation, explaining that “properly viewed,
under the Constitution, . . . the Board members are
that “[b]ecause the Board’s structure was unconstitutional at the
time it issued its determination, we vacate and remand the
determination.” Id. at 1342. These two cases were not based on
Supreme Court precedent, did not consider the Supreme Court
precedent suggesting a different result, and were an apparent
departure from the Court’s rulings in similar circumstances.

11a
inferior officers” and “have been validly appointed by
the full Commission.” Id. at 510, 513. The Court
remanded for further proceedings, but explained that
Plaintiffs are only “entitled to declaratory relief
sufficient to ensure that the reporting requirements
and auditing standards to which they are subject will
be enforced only by a constitutional agency
accountable to the Executive.” Id. at 513.5
So too in Edmond, past actions by the Coast
Guard Court of Criminal Appeals were not set aside.
The criminal defendants’ convictions had been
affirmed by the Coast Guard Court of Criminal
Appeals. Edmond v. United States, 520 U.S. 651, 655
(1997). The defendants contended that the Coast
Guard Court of Criminal Appeals judges had not been
properly appointed, rendering the convictions invalid.
See id. The issue was “whether Congress ha[d]
authorized the Secretary of Transportation to appoint
civilian [judges to] the Coast Guard Court of Criminal
Appeals, and if so, whether this authorization [wa]s
constitutional under the Appointments Clause of
Article II [because the judges were inferior officers].”
Id. at 653.
The Court construed the relevant statutes so
that “Article 66(a) d[id] not give Judge Advocates
General authority to appoint Court of Criminal
Appeals judges; [and] that § 323(a) d[id] give the
Secretary of Transportation authority to do so.” Id. at
On remand, the parties agreed that the Supreme Court’s
decision did not require invalidating the Board’s prior actions.
The agreed-upon judgment stated: “[a]ll relief not specifically
granted by this judgment is hereby DENIED.” See Judgment
Order, Free Enter. Fund v. Pub. Co. Accounting Oversight Bd.,
C.A. No. 06-0217-JR (D.D.C. Feb. 23, 2011), ECF No. 66.
5

12a
658. The Court explained that “no other way to
interpret Article 66(a) that would make it consistent
with the Constitution” because “Congress could not
give the Judge Advocates General power to ‘appoint’
even inferior officers of the United States.” Id. The
Court then found that the judges of the Coast Guard
Court of Criminal Appeals are inferior officers and
that “[their] judicial appointments [by the Secretary]
. . . are therefore valid.” Id. at 666. Most significantly,
the Court did not remand for a new hearing but rather
“affirm[ed] the judgment of the Court of Appeals for
the Armed Forces.” Id. Nowhere did the Court suggest
that the actions taken before the Court’s construction
were rendered invalid.
In Appointments Clause cases, the Supreme
Court has required a new hearing only where the
appointment’s defect had not been cured6 or where
the cure was the result of non-judicial action.7 The
6
See Ryder v. United States, 515 U.S. 177, 182–83 (1995)
(declining to apply the de facto officer doctrine to preserve
rulings made by an unconstitutionally appointed panel); Nguyen
v. United States, 539 U.S. 69, 77, 83 (2003) (declining to leave
“undisturbed” the judgments of an unconstitutionally composed
panel); N.L.R.B. v. Noel Canning, 573 U.S. 513, 519, 520 (2014)
(affirming the DC Circuit in vacating an NLRB order finding a
violation because the Board lacked a quorum as “the President
lacked the power to make the [Board] recess appointments here
at issue”); see also Bandimere v. Sec. & Exch. Comm’n, 844 F.3d
1168, 1171, 1188 (10th Cir. 2016) (setting aside opinion of an
improperly appointed SEC ALJ where “the SEC conceded the
ALJ had not been constitutionally appointed”).

See Lucia, 138 S. Ct. at 2055 n.6; see also Jones Bros.,
Inc. v. Sec’y of Labor, 898 F.3d 669, 679 (6th Cir. 2018)
(improperly appointed ALJ’s decision vacated despite Mine
Commission’s attempt to cure the improper appointment during
judicial review).
7

13a
contrary decision in Arthrex is inconsistent with
binding Supreme Court precedent and creates a host
of problems in identifying the point in time when the
appointments became valid.8
***
I respectfully suggest that Arthrex was wrongly
decided on the issue of remedy. As a result of the
Arthrex construction, APJs were properly appointed
by the PTO Director/Under-Secretary of Commerce
and their prior decisions are not invalid.

The difficulty of identifying at what point in time the
appointments became effective is evident. Is it when then panel
issues the decision, when the mandate issues, when en banc
review is denied, when certiorari is denied, or (if there is an en
banc proceeding) when the en banc court affirms the panel, or (if
the Supreme Court grants review) when the Supreme Court
affirms the court of appeals decision?
8

14a
[ENTERED: October 11, 2019]
NOTE: This disposition is nonprecedential.
United States Court of Appeals
for the Federal Circuit
______________________
BEDGEAR, LLC,
Appellant
v.
FREDMAN BROS. FURNITURE
COMPANY, INC.,
Appellee
______________________
2018-2170
______________________
Appeal from the United States Patent and
Trademark Office, Patent Trial and Appeal Board in
No. IPR2017-00524.
______________________
JUDGMENT
______________________
JOSEPH J. RICHETTI, Bryan Cave Leighton
Paisner LLP, New York, NY, argued for appellant.
Also represented by ALEXANDER DAVID WALDEN; K.
LEE MARSHALL, San Francisco, CA.
JASON R. MUDD, Erise IP, P.A., Overland Park,
KS, argued for appellee. Also represented by ERIC
ALLAN BURESH.
______________________

15a
THIS CAUSE having been heard and considered, it is
ORDERED and ADJUDGED:
PER CURIAM (LOURIE, MAYER, and TARANTO,
Circuit Judges).
AFFIRMED. See Fed. Cir. R. 36.
ENTERED BY ORDER OF THE COURT
October 11, 2019
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

16a
Trials@uspto.gov
571-272-7822

Paper No. 35
Entered: July 13, 2018

UNITED STATES PATENT AND
TRADEMARK OFFICE
BEFORE THE PATENT TRIAL AND
APPEAL BOARD
FREDMAN BROS. FURNITURE COMPANY, INC.,
Petitioner,
v.
BEDGEAR, LLC,
Patent Owner.
Case IPR2017-00524
Patent 9,155,408 B2
Before HYUN J. JUNG, BART A. GERSTENBLITH,
and AMANDA F. WIEKER, Administrative Patent
Judges.
JUNG, Administrative Patent Judge.
FINAL WRITTEN DECISION
35 U.S.C. § 318(a) and 37 C.F.R. § 42.73
I.

INTRODUCTION

We have jurisdiction under 35 U.S.C. § 6. This
Final Written Decision is issued pursuant to 35
U.S.C. § 318(a) and 37 C.F.R. § 42.73. For the reasons
that follow, we determine that Petitioner has shown

17a
by a preponderance of the evidence that claim 12, the
only challenged claim of U.S. Patent No. 9,155,408
B2, is unpatentable.
A. Procedural History
Fredman Bros. Furniture Company, Inc.
(“Petitioner”) filed a Petition, requesting institution of
an inter partes review of only claim 12 of U.S. Patent
No. 9,155,408 B2 (Ex. 1001, “the ’408 patent”) on a
single ground of unpatentability. Paper 1 (“Pet.”).
Bedgear, LLC (“Patent Owner”) timely filed a
Preliminary Response. Paper 6. Pursuant to 35 U.S.C.
§ 314(a), we instituted inter partes review of claim 12
of the ’408 patent. Paper 7 (“Dec. on Inst.”).
After institution, Patent Owner filed a
Response (Paper 12, “PO Resp.”), to which Petitioner
filed a Reply (Paper 19, “Pet. Reply”). Petitioner
proffered a Declaration of Jennifer Frank Rhodes (Ex.
1012, “Rhodes Declaration” or “Rhodes Decl.”) with its
Petition, and a Reply Declaration of Jennifer Frank
Rhodes (Ex. 1030, “Rhodes Reply Decl.”) with its
Reply. Patent Owner proffered a Declaration of Dr.
Radhakrishnaiah Parachuru in support of its
Preliminary Response (Ex. 2001) and in support of its
Response (Ex. 2014, “Parachuru Declaration” or
“Parachuru Decl.”). Deposition transcripts for Dr.
Parachuru (Ex. 1028) and Ms. Rhodes (Exs. 2011,
2016) were filed.
Patent Owner also filed Observations on CrossExamination of Petitioner’s Reply Witness Jennifer
Frank Rhodes (Paper 25), to which Petitioner filed a
response (Paper 28). As authorized in our Order
(Paper 27), Patent Owner further filed a List of

18a
Improper Reply Arguments (Paper 29), to which
Petitioner also filed a response (Paper 30).
An oral hearing in this proceeding and Cases
IPR2017-00350, IPR2017-00351, and IPR2017-00352
was held on March 20, 2018; a transcript of the
hearing is included in the record (Paper 34, “Tr.”).
B. Sole Ground of Unpatentability at Issue
We instituted inter partes review on the only
presented ground that claim 12, under 35 U.S.C.
§ 103(a), is unpatentable over Fry1 and Shelby2. Dec.
on Inst. 2, 17.
C. Related Proceedings
The parties indicate that the ’408 patent has
been asserted in Bedgear, LLC v. Fredman Bros.
Furniture Co., Case No. 1:15-cv-6759 (E.D.N.Y.). See
Pet. 76 (citing Ex. 1015); Paper 3, 2; Ex. 1015.
Petitioner also indicates that it filed a lawsuit seeking
declaratory judgment of non-infringement, which was
dismissed without prejudice. See Pet. 76; Exs. 1017,
1018.
D. The ’408 Patent (Ex. 1001)
The ’408 patent issued October 13, 2015, from
an application filed January 10, 2014, and claims
priority to a provisional application filed January 10,
2013. Ex. 1001, [22], [45], [60], 1:5–7.
The ’408 patent relates to “pillow protectors
configured to prevent contamination of pillows
1

US 2009/0083908 A1, published Apr. 2, 2009 (Ex. 1005).

2

US 2007/0283498 A1, published Dec. 13, 2007 (Ex. 1011).

19a
disposed within the pillow protectors and to provide
proper air flow around the pillows.” Id. at 1:11–14.
Figures 1 and 2 of the ’408 patent are reproduced
below.

20a

Figure 1 shows a top view of a pillow cover or
protector, and Figure 2 is a side, cross-sectional view
of the pillow cover or protector shown in Figure 1. Id.
at 2:19–21, 2:22–23. “The system 10 including pillow
cover 12 comprising a first panel 14 and a second
panel 16 perimetrically joined with first panel 14 such
that inner surfaces 18, 20 of first and second panels
14, 16 define a cavity 22 having a void volume
configured for disposal of a pillow, such as, for
example, pillow 24 of system 10.” Id. at 3:4–9; see also
id. at 1:41–2:12 (describing embodiments of a pillow
protector or pillow cover with “first and second panels
[that] define a cavity having a void volume” and a
“pillow disposed in the cavity”).
Opening 30 extends through first panel 14 and
provides a pathway for air to the cavity. Id. at 4:12–
14. Patch 32 engages surface 26 of first panel 14 to
cover opening 30. Id. at 4:29–30. Pillow cover 12 can
also include filter 34 that engages an inner surface so
that opening 30 is between patch 32 and filter 34. Id.
at 4:55–57.
“By disposing pillow 24 in pillow cover 12,
pillow cover 12 acts as a barrier to prevent staining of

21a
pillow 24 by perspiration, oil, etc.,” “allow[s] air
surrounding pillow 24 to escape through opening 30,”
“allows heat that may build up in cavity 22 to escape
cavity 22 through opening 30,” and “cool[s] pillow 24
to provide a more comfortable sleep surface, as would
be apparent to one of ordinary skill in the art.” Id. at
5:65–6:7. “Pillow 24 may be removed from pillow cover
12 by moving panel 14 from the second configuration
to the first configuration and withdrawing pillow
through opening 46.” Id. at 6:7–10.
“In some embodiments, pillow 24 includes a
cover 54 having a first panel 56.” Id. at 5:49–50. In
another embodiment, instead of a pillow, “pillow cover
12 is disposed in cavity 68” defined by an inner
surface of pillowcase 48. Id. at 6:13–15. “[P]illow
cover 12 is disposed in cavity 68 such that surfaces 26,
28 engage surface 66.” Id. at 6:14–16.
E. Claim 12
Of the 17 claims in the ’408 patent, the only
claim at issue, claim 12, is reproduced below:
12.

A bedding system, comprising:
a pillow cover comprising:
a first panel, and

a second panel perimetrically
joined with the first panel such that
inner surfaces of the first and second
panels define a cavity having a void
volume, the first and second panels each
being made from a first material,
wherein an opening extends through the
inner surface of the first panel and an
outer surface of the first panel, the

22a
opening having a size, shape and
arrangement,
the
pillow
cover
comprising a patch covering the opening,
the patch being made from a second
material that is different than the first
material, the second material being
more porous than the first material;
a pillow disposed in the cavity,
wherein the second panel is free of
any openings having the size, shape and
arrangement of the opening in the first
panel; and
wherein
the
pillow
cover
comprises a filter that engages an inner
surface of the first panel such that the
opening is positioned between the patch
and the filter, the filter comprises a third
material that is different than the first
material, the third material being more
porous than the first material.
Ex. 1001, 9:1–25.
II.

CLAIM INTERPRETATION

In an inter partes review, claim terms in an
unexpired patent are interpreted according to their
broadest reasonable construction in light of the
specification of the patent in which they appear. 37
C.F.R. § 42.100(b); Cuozzo Speed Techs., LLC v. Lee,
136 S. Ct. 2131, 2144–46 (2016) (upholding the use of
the broadest reasonable interpretation standard).
A. “pillow cover”
Petitioner did not propose an interpretation for
“pillow cover.” See Pet. 24–26. For the Decision on

23a
Institution, we interpreted claim 12 to require a
“pillow” that is “disposed in the cavity” of a “pillow
cover.” Dec. on Inst. 9. Patent Owner agrees that “the
claimed ‘pillow cover’ is separate and distinct from the
claimed ‘pillow’ disposed therein.” PO Resp. 16.
According to Patent Owner, Petitioner’s implicit
interpretation is “that the fabric cover or covering of
these pillows is the ‘pillow cover,’ and that the fill
material or filler inside these pillows is the ‘pillow’
required by claim 12.” Id.
In view of the record before us, we interpret
“pillow cover” to be separate and distinct from “pillow”
(discussed further below), and we determine that no
further express interpretation of “pillow cover” is
necessary to resolve the parties’ disputes. Vivid
Techs., Inc. v. Am. Sci. & Eng’g, Inc., 200 F.3d 795,
803 (Fed. Cir. 1999) (determining that only those
terms in controversy need to be construed, and only to
the extent necessary to resolve the controversy).
B. “pillow”
Petitioner did not propose an interpretation for
“pillow.”
See Pet. 24–26. For the Decision on
Institution, we disagreed with Patent Owner that the
term “pillow” requires a fill material inside a fabric
cover. Dec. on Inst. 9 (citing Ex. 1001, 5:49–50).
Patent Owner responds that one of ordinary
skill in the art “would have understood the ordinary
and customary meaning of a pillow to be a cover
containing one or more fill materials.” PO Resp. 18
(citing Ex. 2011, 17:11–20:23, 22:13–23:1); see also id.
at 25 (arguing “the term ‘pillow’ should be given its
ordinary and customary meaning”) (citing Parachuru
Decl. ¶ 92); Tr. 46:8–9.

24a
Patent Owner contends that, based on
Petitioner’s
arguments,
“Petitioner’s
implicit
construction is that fill material, by itself, satisfies
the claimed ‘pillow,’” which is at odds with the plain
and ordinary meaning of pillow, the ’408 patent,
Petitioner’s asserted references, and its declarant’s
testimony. PO Resp. 16–17. Patent Owner also argues
that Petitioner’s arguments rely on “pillow” as being
“virtually anything that a person can comfortably rest
his or her head upon, including a rolled up T-shirt.”
Id. at 27 (citing Ex. 2011, 36:5–38:20). According to
Patent Owner, there is no support for “such a strained
and overly broad interpretation,” other than a “bald
statement from [Petitioner’s] expert that [one of
ordinary skill in the art] would understand fill
material (e.g., foams) to be a pillow” with no
underlying objective support. Id. (citing Rhodes Decl.
¶¶ 77–78; Ex. 2011, 25:20–26:15, 31:24–35:19).
Petitioner replies that Patent Owner’s
interpretation of “pillow” would require two covers.
Pet. Reply 3 (citing Dec. on Inst. 9; PO Resp. 12, 17–
18; Ex. 1028, 27:1–5). Petitioner contends that our
Decision on Institution rejected that position and no
further evidence justifies changing that conclusion.
Id. at 4 (citing Dec. on Inst. 9; PO Resp. 38–39; Ex.
1001, 5:49–50; Parachuru Decl. ¶ 80).
Having the benefit of a fully developed record
before us, we review anew the record and evidence to
interpret “pillow.” We agree with Patent Owner that
“the parties’ dispute is centered around the proper
meaning of the claimed ‘pillow.’” PO Resp. 16; see also
Tr. 46:4–5 (Patent Owner’s counsel arguing “the main
dispute is over the two terms ‘pillow cover’ and ‘pillow’
in claim 12”).

25a
1. Language of Claim 12
Turning first to the language of the claim,
claim 12 requires “a pillow cover comprising: a first
panel, and a second panel perimetrically joined with
the first panel such that inner surfaces of the first and
second panels define a cavity having a void volume . .
. [and] a pillow disposed in the cavity.” Ex. 1001, 9:2–
15. Claim 12, thus, expressly and plainly requires a
pillow cover that defines a cavity and a pillow
disposed in that cavity. See PO Resp. 16. However, the
language of claim 12 does not by itself indicate the
scope of the term “pillow,” specifically whether the
“pillow” requires its own cover surrounding fill
material. See also Tr. 46:17–18 (Patent Owner’s
counsel arguing “express claim language requires a
pillow that’s disposed in the cavity of a pillow cover”),
57:22 (Petitioner’s counsel arguing “claim language
does not require a conventional pillow”).
“Pillow” is also used in other claims of the ’408
patent. For example, claim 14, which depends from
claim 12, recites “layers being configured to engage
one another when a pillow is not positioned in the
cavity.” Ex. 1001, 9:31–36. Similarly, claim 6, which
depends from claim 1, recites “layers being configured
to engage one another when a pillow is not positioned
in the cavity.” Id. at 8:43–47. Independent claim 16
recites a bedding system comprising a pillow cover
having first and second panels that “define a cavity
having a void volume” and “a pillow disposed in the
cavity.” Id. at 10:4–26. Although these claims support
“pillow cover” being separate and distinct from a
“pillow” disposed therein, these claims also do not
indicate the scope of the term “pillow.”

26a
2. Specification
Patent Owner argues that the ’408 patent uses
“pillow” in a manner consistent with its plain and
ordinary meaning. PO Resp. 25. According to Patent
Owner, the Specification of the ’408 patent “confirms
that the claimed ‘pillow’ includes its own cover that
holds the fill material.” PO Resp. 25–26 (citing Ex.
1001, 1:1–14, 1:31–37, 5:45–6:10, Figs. 1, 3;
Parachuru Decl. ¶¶ 63, 73–79, 86, 93–96). Patent
Owner also argues that the ’408 patent’s description
that “[i]n some embodiments, pillow 24 includes a
cover 54 . . . ” (Ex. 1001, 5:49–50) does not support a
determination that “‘pillow’ is broad enough to
encompass fill material without a fabric cover.” Id. at
28–29 (quoting Dec. on Inst. 9). Patent Owner
contends that the context surrounding that
description indicates that “the panel making up the
pillow’s cover may be configured in various manners
using material with particular properties.” Id. at 29
(citing Ex. 1001, 5:49–51, 5:56–64; Parachuru Decl.
¶¶ 87–90); see also Tr. 49:6–15, 50:2–12.
Patent Owner further contends that the ’408
patent (1) does not suggest or discuss pillows without
some form of cover, (2) does not equate any form of fill
material with a pillow, and (3) does not use the terms
fill material and pillow interchangeably. PO Resp. 30
(citing Parachuru Decl. ¶¶ 91, 94–96). Patent Owner
argues that the ’408 patent provides examples of fill
material that would not be considered a pillow and
consistently uses the terms pillow and fill material “to
refer to the pillow as a whole and the material
contained inside the pillow.” Id. at 30 (citing Ex.
1001, 5:51–64). Patent Owner, thus, asserts that
interpreting “pillow” to include fill material without a

27a
cover would be inconsistent with the Specification as
a whole and contrary to the intrinsic and extrinsic
evidence. Id. at 30–31; see also Tr. 48:3–19.
Petitioner replies that, according to the ’408
patent, “cover 54 having first panel 56 is only present
in some embodiments—thus, it is not required.” Pet.
Reply 7 (citing Dec. on Inst. 9; PO Resp. 29; Ex. 1001,
3:4–9, 5:49–50; Ex. 1028, 8:16–18, 11:5–16; Rhodes
Decl. ¶¶ 13–14); see also Tr. 24:4–6, 58:10–11, 59:11–
15 (Petitioner’s counsel arguing that pillow 24 is
exemplary).
We find that the ’408 patent describes pillow 24
as an example. See, e.g., Ex. 1001, 3:4–9 (“The system
10 including pillow cover 12 . . . having a void volume
configured for disposal of a pillow, such as, for
example, pillow 24 of system 10.”). Further, the ’408
patent states that “this disclosure is not limited to the
specific devices, conditions or parameters described
and/or shown herein, and that the terminology used
herein is for the purpose of describing particular
embodiments by way of example only and is not
intended to be limiting of the claimed disclosure” and
that the “description should not be construed as
limiting, but merely as exemplification of the various
embodiments.” Id. at 2:40–44, 8:4–6.
In the “Summary,” the ’408 patent describes
embodiments of a pillow protector or pillow cover with
“first and second panels [that] define a cavity having
a void volume.” Id. at 1:41–2:12. Some embodiments
comprise a “pillow disposed in the cavity.” Id. at
1:64, 2:10. We also find that the ’408 patent describes
other embodiments with at least one of the
claimed features. See, e.g., id. at 4:55–57 (“In some

28a
embodiments, pillow cover 12 includes a filter 34 that
engages inner surface 18 such that opening 30 is
positioned between patch 32 and filter 34.”), 5:49–50
(“In some embodiments, pillow 24 includes a cover 54
having a first panel 56.”), 6:11–13 (“In one
embodiment, system 10 includes a pillowcase 48
having a first panel 62 and a second panel 64
perimetrically bounding, and joining second first
panel 62.”). In another embodiment, instead of a
pillow, “pillow cover 12 is disposed in cavity 68”
defined by an inner surface of pillowcase 48. Id. at
6:14–16 (“In one embodiment, pillow cover 12 is
disposed in cavity 68 such that surfaces 26, 28 engage
surface 66.”). By describing various features of the
many embodiments, the ’408 patent indicates that
these features need not be present in all
embodiments. See id. at 8:1–4 (“It will be understood
that various modifications may be made to the
embodiments disclosed herein. For example, features
of any one embodiment can be combined with features
of any other embodiment.”).
The ’408 patent explains that “[b]y disposing
pillow 24 in pillow cover 12, pillow cover 12 acts as a
barrier to prevent staining of pillow 24” (id. at 5:65–
66), “[b]ecause pillow 24 is disposed in cavity 22,
cooling cavity 22 will also cool pillow 24” (id. at 6:4–
6), and “[p]illow 24 may be removed from pillow cover
12” (id. at 6:7–8). We find that the ’408 patent
indicates that the features of the various
embodiments need not be present as long as pillow
cover 12 acts as a barrier to prevent staining, cools
pillow 24, and allows pillow 24 to be removed. See id.
at 5:65–66, 6:4–8, 8:1–4. We do not find, and the
record does not provide, any reason why a pillow
consisting only of fill material that is not loose, e.g., a

29a
foam block, cannot be pillow 24 and still allow pillow
cover 12 to provide the described benefits of stain
prevention, cooling, and removal of pillow 24.
Patent Owner states that “[i]t is undisputed
that the term ‘pillow’ is not expressly defined in the
specification or prosecution history” and that there is
no disavowal of claim scope with respect to “pillow.”
PO Resp. 25. Petitioner states that, “the ’408 patent
does not ‘disavow or disclaim any claim scope related
to the term ‘pillow.’” Pet. Reply 8 (quoting Parachuru
Decl. ¶ 92); see also Tr. 59:14–15 (Petitioner’s counsel
arguing “the term ‘pillow’ itself unless disclaimed is
broad to encompass something that doesn’t require its
own cover”). We agree with the parties that “the term
‘pillow’ is not expressly defined in the specification”
and that “the specification . . . does not set forth any
disavowal of claim scope with respect to the claimed
‘pillow.’”
For the reasons above, our findings regarding
the Specification of the ’408 patent do not provide a
persuasive reason to interpret “pillow” so that it must
always have a cover to hold fill material, as argued by
Patent Owner.
3. Prosecution History
Patent Owner states that “[i]t is undisputed
that the term ‘pillow’ is not expressly defined in . . .
[the] prosecution history” and that the “prosecution
history does not set forth any disavowal of claim scope
with respect to the claimed ‘pillow.’” PO Resp. 25.
Petitioner does not rely on the prosecution history of
the ’408 patent to argue for a meaning of “pillow.” Pet.
Reply 3–9.

30a
We agree with Patent Owner that the
prosecution history of the ’408 patent (Ex. 1002) does
not address the meaning of “pillow” and does not
indicate that “pillow” was given a meaning other than
its ordinary and customary meaning. See, e.g., Ex.
1002, 16, 25–37, 22, 106–129, 153–174 (Applicant’s
responses to Office Actions and interview summaries).
We note that the Specification originally read
that “[i]n some embodiments, pillow 24 includes a
cover 54 having a first panel 56 and a second panel 58
perimetrically bounding, and joining first and second
panels 56, 58” but was amended to read that “[i]n
some embodiments, pillow 24 includes a cover 54
having a first panel 56.” See id. at 154 (Applicant’s
amendments to the Specification include: “In some
embodiments, pillow 24 includes a cover 54 having a
first panel 56 and a second panel 58 perimetrically
bounding, and joining first and second panels 56,
58.”), 222 (amending the corresponding sentence in
¶ 26 of the originally filed Specification that states
“cover 54 having a first panel 56 and a second panel
58”). Although this particular amendment does not
broaden pillow 24 to be only fill material, it makes
clear that Applicant intended to broaden cover 54 to
include only a single panel and thus, broaden “pillow”
from having a cover with two panels 56, 58 to one
panel 56 for embodiments including cover 54.
4. Extrinsic Evidence
The parties’ dispute acknowledges that the
intrinsic record fails to provide enough guidance for
us to rely on it exclusively for the proper
interpretation of “pillow.” Both parties provide
extrinsic evidence to argue the meaning of “pillow.”

31a
See PO Resp. 17–24, 27–28; Pet. Reply 3–4, 6, 8. We,
therefore, turn to the extrinsic evidence of record to
assist us in resolving between the parties’ conflicting
positions concerning the ordinary and customary
meaning of “pillow,” as it would have been understood
by one of ordinary skill in the art in the context of the
entire disclosure.
a. Dictionary Definitions
Patent Owner provides dictionary definitions
of pillow that Patent Owner contends define pillow as
“a fabric cover or case that is stuffed with a soft
material, such as feathers or foam.” PO Resp. 21
(citing Ex. 2003, 4; Ex. 2004, 3–4; Parachuru Decl. ¶
84); see also Tr. 47:3–17 (Patent Owner’s counsel
arguing that dictionary definitions require pillow to
have a fabric cover). Petitioner does not address
directly Patent Owner’s dictionary definitions. See
Pet. Reply 3–9.
Regarding Exhibit 2003, we find that the most
relevant definitions for “pillow” in the context of the
’408 patent are “a usu. oblong support for the head,
esp. in bed, with a cloth cover stuffed with feathers,
down, foam rubber, etc.” and “any pillow-shaped block
or support.” Ex. 2003, 4. Regarding Exhibit 2004, we
find that the most relevant definition is “[a] cloth case
stuffed with something soft, such as down, feathers,
or foam rubber, used to cushion the head, especially
during sleep.” Ex. 2004, 3–4. We note that the only
definition in the record that relates to fill material
that is not loose is Exhibit 2003’s “any pillow-shaped
block or support,” which is also consistent with
Petitioner’s interpretation.

32a
We, therefore, determine that Patent Owner’s
dictionary
definitions
include
both
parties’
interpretation of “pillow,” in that the provided
dictionary definitions indicate that “pillow” can mean
“any pillow-shaped block or support,” “support for the
head . . . with a cloth cover stuffed with feathers,
down, foam rubber, etc.,” or “cloth case stuffed with
something soft, such as down, feathers, or foam
rubber, used to cushion the head.”
b. Other Patents and Asserted
References
Patent Owner cites other contemporaneous
patents by the same inventor that use “pillow” to refer
to fill material and a cover containing the fill
material. PO Resp. 24 (quoting, in part, Ex. 2005,
claims 1, 11, 17, and 22; Ex. 2006, claims 8, 19, 20, 31;
Ex. 2007, claim 8) (referring to Parachuru Decl. ¶¶
82–83). Patent Owner further argues that Petitioner’s
asserted references, Fry and Shelby, contradict
Petitioner’s implicit interpretation. Id. at 21–23
(quoting Ex. 1005 ¶¶ 3, 17, 18; Ex. 1011 ¶ 53;
Parachuru Decl. ¶¶ 80, 81, 83, 85, 93–96). Petitioner
replies that Patent Owner’s references do not show
that “pillow” requires its own cover. Pet. Reply 6
(citing PO Resp. 24; Ex. 1005 ¶ 3; Ex. 1028, 16:7–
21:22; Ex. 2005, 1:17–18).
The portions of Exhibits 2005–2007 cited by
Patent Owner indicate that the “pillow” claimed in
those exhibits requires fill material and a cover
containing the fill material. Those same exhibits,
however, also state in their description of the
background that the “use of a pillow made typically of
a fabric cover stuffed with a compliant soft material

33a
is known in the prior art.” Ex. 2005, 1:17–18; Ex.
2006, 1:21–22; Ex. 2007, 1:24–25. As indicated by the
word “typically,” these are non-limiting examples of
pillows. Thus, these descriptions do not limit the
ordinary and customary meaning of “pillow,” and
“pillow” can be used more broadly than Patent
Owner’s asserted interpretation.
c. Declarant Testimony
Relying on its declarant’s testimony, Patent
Owner argues that “pillows are made up of fill
material.” PO Resp. 17 (citing Parachuru Decl. ¶¶
80–86; Ex. 2011, 36:5–38:20); see also id. at 20–21
(arguing “to be a pillow there must at least be some
form of fabric covering that holds the fill material
together”) (citing Parachuru Decl. ¶¶ 93–96). Patent
Owner asserts that one of ordinary skill in the art
“would have also understood that such fill materials,
by themselves, do not constitute a pillow.” Id. (citing
Parachuru Decl. ¶¶ 80–86, 93–96). Patent Owner
argues that similar fill material is described in the
’408 patent and the asserted references. Id. at 20
(citing Ex. 1001, 5:52–56; Ex. 1005 ¶¶ 3, 17, 18; Ex.
1011 ¶ 53; Parachuru Decl. ¶¶ 80, 81, 83, 85).
Petitioner replies that Patent Owner’s
interpretation “reads out other forms of pillows,
including solid memory foam pillows, which do not
require a cover to hold fill material” (Pet. Reply 3–4
(citing Rhodes Reply Decl. ¶¶ 5–15)) and is
inconsistent with the understanding of one of
ordinary skill in the art (id. at 5 (citing Rhodes Reply
Decl. ¶¶ 5–15)). Petitioner also contends that Patent
Owner’s declarant did not consider solid foam pillows
and uses “pillow” inconsistently. Id. at 5 (citing PO

34a
Resp. 17; Ex. 1028, 11:21–24, 12:15–13:3, 27:6–16; Ex.
1029, 21:9–13; Rhodes Decl. ¶ 11; Parachuru Decl. ¶¶
80, 93). Petitioner contends that solid fill materials
were known and not required to be loose. Id. at 8
(citing Ex. 1028, 8:16–18, 11:10–16, 24:5–7; Rhodes
Reply Decl. ¶ 15). Petitioner further asserts that
“pillow” was understood by persons of ordinary skill
in the art to not require its own cover. Id. at 8.
Turning to deposition testimony, Patent Owner
contends that Petitioner’s declarant admitted that
“fill materials without any covering would not be
considered a pillow.” PO Resp. 18–20 (quoting Ex.
2011, 27:8–28:5). Patent Owner points to statements
in the deposition that it asserts undermines the basis
of this opinion of Petitioner’s declarant. Id. at 27–28
(citing Ex. 2011, 17:11–20, 18:22–20:23, 22:13–23:1,
29:20–30:7); see also Paper 25, 1–9 (observations on
cross-examination of Ms. Rhodes) (citing Ex. 2016);
Tr. 51:15–24 (Patent Owner’s counsel discussing
Petitioner’s declarant testimony). Petitioner clarifies
that its declarant agreed that loose fill material would
require a cover to create a pillow but not that all
pillows required a cover. Pet. Reply 8 (citing PO Resp.
26; Ex. 2011, 25:22–26:9, 26:19–29:4); see also Paper
28 (Petitioner’s response to Patent Owner’s
observations) (discussing Ex. 2016).
Both parties’ declarants agree that pillows
include at least fill material. Rhodes Decl. ¶¶ 39–42,
48–51, 68, 69; Rhodes Reply Decl. ¶¶ 7–11; Ex. 2011,
25:22–26:9, 26:19–29:4; Parachuru Decl. ¶¶ 73–75,
80–85. The parties also agree that a cover is required
to hold loose fill material, such as feathers and pieces
of foam material. PO Resp. 20–21; Pet. Reply 3–5, 8.

35a
However, the record does not provide a
persuasive reason for why fill material that is not
loose cannot be a pillow by itself. For example,
according to Patent Owner’s declarant, solid memory
foam, which is fill material that is not loose, is not a
pillow because it can absorb moisture and other
substances. See Ex. 1028, 11:19–12:6 (Patent Owner’s
declarant explained that “I do not consider a memory
foam pillow without a cover as a pillow” because “a
porous memory foam can absorb a lot of moisture, a
lot of stuff that comes out of the skin . . . . ”), 14:1–9
(Patent Owner’s declarant, in response to “if I then
removed the cover, does it then cease to be a pillow?,”
answered: “Yes . . . [b]ecause . . . the memory foam is
liable to -- liable to go through deficiencies . . . . ”). The
record, however, does not indicate why solid memory
foam, even if it can absorb undesirable substances,
fails to benefit from the described advantages of cover
12 of the ’408 patent (Ex. 1001, 5:65–66, 6:4–8) or be
a “block or support” (Ex. 2003, 4). Thus, the
declarants’ testimony in the record does not provide a
reason for excluding a pillow that is merely fill
material that is not loose.
5. Determination as to “Pillow”
In view of the intrinsic and extrinsic evidence
in the record developed during trial, we determine
that the ordinary and customary meaning of “pillow”
includes “at least fill material that is not loose and
with or without a cover to hold the fill material.” See
also Google LLC v. Network-1 Techs., Inc., 726
F.App’x 779, 785 (Fed. Cir. 2018) (“In other words,
under the broadest reasonable construction standard,
where two claim constructions are reasonable, the
broader construction governs.”).

36a
C. Other Terms
Petitioner
proposes
interpreting
“third
material” versus “second material.” Pet. 24–26.
Petitioner, however, notes that “construction [of
“third material” versus “second material”] is
ultimately immaterial to the patentability of claim
12.” Id. at 26 n.3. For the Decision on Institution, we
determined that express interpretations of these
terms were not necessary. Dec. on Inst. 6.
Patent Owner responds that deciding whether
the second and third materials encompass being the
same material “does not appear to be relevant to
Petitioner’s sole asserted ground or any disputes
between the parties.” PO Resp. 15. “Patent Owner
submits that no specific construction is needed for
these claim terms.” Id. Petitioner replies that it
“agrees that construction of [‘second material’ and
‘third material’] is not necessary to resolve its
challenge to Claim 12.” Pet. Reply 2–3.
Based on the full record, we agree with the
parties that interpreting “second material” and “third
material” is not necessary for deciding whether
Petitioner has demonstrated the unpatentability of
claim 12 by a preponderance of the evidence. Vivid
Techs., 200 F.3d at 803. We also determine that
interpreting any other term is not necessary for
deciding the parties’ disputes. Id.
III.

CHALLENGE OF CLAIM 12

Petitioner contends that claim 12 would have
been obvious over Fry and Shelby with citations to
these references and the Rhodes Declaration (Ex.
1012). Pet. 23, 27–75. Patent Owner disputes the

37a
alleged unpatentability of claim 12, supported by
citations to the asserted references and the
declarations of Dr. Parachuru (Exs. 2001, 2014). See
PO Resp. 37–53.
To prevail in its challenge, under 35 U.S.C.
§ 103(a), of claim 12 as unpatentable over Fry and
Shelby, Petitioner must prove unpatentability by a
preponderance of the evidence. 35 U.S.C. § 316(e); 37
C.F.R. § 42.1(d). A claim is unpatentable under 35
U.S.C. § 103(a) “if the differences between the subject
matter sought to be patented and the prior art are
such that the subject matter as a whole would have
been obvious at the time the invention was made to a
person having ordinary skill in the art to which said
subject matter pertains.” KSR Int’l Co. v. Teleflex Inc.,
550 U.S. 398, 406 (2007). The question of obviousness
is resolved on the basis of underlying factual
determinations including: (1) the scope and content of
the prior art; (2) any differences between the claimed
subject matter and the prior art; (3) the level of
ordinary skill in the art; and (4) objective evidence of
nonobviousness. See Graham v. John Deere Co., 383
U.S. 1, 17–18 (1996).
As discussed below, the parties’ disputes are
related to the scope and content of the prior art,
differences between claim 12 and the prior art,
Petitioner’s rationale for combining Fry and Shelby,
and the level of ordinary skill in the art. The parties
do not dispute and do not direct us to any objective
evidence of nonobviousness.
After reviewing the complete record, we
conclude that Petitioner has shown by a
preponderance of the evidence that Fry and Shelby

38a
teach or suggest each limitation of claim 12, that a
person of ordinary skill in the art would have had a
reason to combine the teachings of Fry and Shelby,
and that a person of ordinary skill in the art would
have had a reasonable expectation of success in
combining the teachings of Fry and Shelby.
A. Level of Ordinary Skill in the Art
Petitioner asserts that a person of ordinary
skill in the art would have
at least a bachelor’s degree in textile
design, textile science, textile engineering
or a similar field and at least one year of
experience in the design of pillows and
other sleep-related textile products; or,
alternatively, a person having at least
three to five years of experience in the
design of pillows and other sleep-related
textile products.
Pet. 24 (citing Rhodes Decl. ¶¶ 53–56). Patent Owner
responds that a person of ordinary skill in the art
would have
at least a bachelor’s degree in textile
science, textile engineering or a similar
field along with several years of industry
experience in applying the moisture and
heat transfer properties of materials
which typically come into close direct or
indirect contact with human skin.
Additional graduate education in textile
or material sciences might substitute for
experience.

39a
PO Resp. 6 (citing Parachuru Decl. ¶¶ 18–24). Patent
Owner also argues that Petitioner’s proposed level of
skill in the art does not reflect adequately relevant
technical experience and knowledge. Id. (citing
Parachuru Decl. ¶ 25).
Petitioner replies that the ’408 patent relates
to pillows and pillow covers, not their thermodynamic
details, and that Patent Owner’s asserted level of skill
“fails to include any experience in designing pillows
or, at the very least, sleep products.” Pet. Reply 9
(citing PO Resp. 9; Rhodes Decl. ¶¶ 2–3). Petitioner
also argues that Patent Owner’s declarant “lacks any
actual pillow design experience.” Id. at 10 (citing Ex.
1029, 21:9–13).
Factual indicators of the level of ordinary skill
in the art include “the various prior art approaches
employed, the types of problems encountered in the
art, the rapidity with which innovations are made, the
sophistication of the technology involved, and the
educational background of those actively working in
the field.” Jacobson Bros., Inc. v. U.S., 512 F.2d 1065,
1071 (Ct. Cl. 1975); see also Orthopedic Equip. Co. v.
U.S., 702 F.2d 1005, 1011 (Fed. Cir. 1983) (quoting
with approval Jacobson Bros.). We find, based on our
review of the record before us, that Petitioner’s stated
level of ordinary skill in the art is reasonable because
it is consistent with the record’s indication of “the
various prior art approaches employed, the types of
problems encountered in the art, the rapidity with
which innovations are made, the sophistication of the
technology involved, and the educational background
of those actively working in the field.” See, e.g., Pet.
15–23; PO Resp. 3–4; Ex. 1005 ¶¶ 1–11; Ex. 1011 ¶¶
2–5; Ex. 2001 ¶¶ 36–54.

40a
We resolve any differences in favor of including
“several years of industry experience in applying the
moisture and heat transfer properties of materials” as
part of “at least one year of experience in the design
of pillows and other sleep-related textile products” of
a person holding a “bachelor’s degree in textile
science, textile engineering or a similar field.” See
Rhodes Decl. ¶ 5 (“I am also an adjunct professor . . .
teaching . . . an entry level course for textile and
fashion majors.”), ¶ 6 (“I received a Bachelor of
Science degree in Textile Design.”), ¶ 56 (“I met at
least these minimum qualifications to be a person
having ordinary skill in the art at the time of the
claimed invention.”); Rhodes Reply Decl. ¶ 4 (“I teach
concepts relating to moisture and heat transfer in my
textile curriculum in my academic role as a
professor”).
Therefore, we apply Petitioner’s definition,
quoted above, in our analysis of claim 12. Pet. 24.
B. Scope and Content of the Prior Art
1. Fry (Ex. 1005)
Fry relates to “bed pillows and methods for
covering and protecting pillows from organic
contamination.” Ex. 1005 ¶ 1. Figures 1A and 1B of
Fry are reproduced below.

41a

42a
Figure 1A shows a hypoallergenic pillow, and
Figure 1B shows “a partial cross-section drawing of a
hypoallergenic pillow.” Id. ¶¶ 12, 13. “[P]illow 100 is
constructed by sewing two pieces of fabric together
around the circumference of the fabric, allowing an
opening for filling the resulting cover with a filling
material, filling the cover with filling material, and
closing the cover by sewing all of the remaining open
edges together.” Id. ¶ 18. The “filling material can
include . . . latex foam, viscoelastic foam, or any other
material known in the art suitable for filling a pillow.”
Id. ¶ 19.
Covering 102 is made of fabric 101, and “fabric
101 is coated with a monolithic or microporous
material 103.” Id. ¶¶ 20, 23. The “pillow includes a
filter 104 sewn into the covering 102.” Id. ¶ 22.
“[F]ilter 104 is a portion of the covering 102 that does
not include the monolithic material 103,” and “filter
104 can be positioned anywhere in the pillow covering
102 . . . so long as the filter 104 allows the ingress and
egress of air 106 in and out of the pillow.” Id. ¶¶ 26,
27. Filter 104 is made of fabric 105 that “may be the
same type as fabric 101” or “[a]lternatively, the filter
104 can be of a different material.” Id. ¶ 26. According
to Fry, “filter 104 is constructed of a material that has
a high degree of filtration pathogens.” Id. ¶ 22.
“[F]ilter 104 includes fabric 105,” and “fabric 105 may
be the same type as fabric 101” or “filter 104 can be of
a different material.” Id. ¶ 26.
2. Shelby (Ex. 1011)
Shelby relates to “mattresses that resist and
detect tampering, tearing and alteration” and to
“mattresses
including
vents
which
provide

43a
ventilation.” Ex. 1011 ¶¶ 2, 5. Shelby states that its
“concepts . . . are not limited in application to just
mattresses” and “may be adapted to form a pillow,
such as pillow 110.” Id. ¶ 53. Figure 7 of Shelby is
reproduced below.

Figure 7 shows a sectional view of a pillow. Id.
¶ 20. Pillow 110 includes core 112 and covering 114
that surrounds core 112. Id. ¶ 53. Pillow 110 can
include vents (shown in Figure 10) to provide
ventilation through covering 114. Id. ¶ 55. Figure 10
of Shelby is reproduced below.

44a
Figure 10 shows a sectional view of a mattress.
Id. ¶ 23. In connection with the mattress shown in its
Figures 8–10, Shelby states that “vent 224 includes at
least one hole 226 through covering 214, and a
microporous membrane 228” that is positioned over
hole 226. Id. ¶¶ 22, 58, Fig. 10. “Microporous
membrane 228 may be fastened to inner surface 216
(FIG. 10) using any suitable means” and
“[m]icroporous membrane 228 may be comprised of
any suitable filter as described herein.” Id. ¶ 58, Fig.
10.
C. Differences Between Claim 12 and the Prior
Art
1. “a pillow cover comprising: a first
panel,
and
a
second
panel
perimetrically joined with the first
panel such that inner surfaces of the
first and second panels define a cavity
having a void volume”
Petitioner contends that Fry teaches or
suggests a “bedding system” with “a pillow cover” that
includes “a first panel, and a second panel
perimetrically joined with the first panel such that
inner surfaces of the first and second panels define a
cavity having a void volume,” as required by claim 12.
Pet. 37–40 (citing Ex. 1005 ¶¶ 1, 17–19, 23, Figs. 1A,
1B; Rhodes Decl. ¶ 68); see also id. at 28–30 (arguing
asserted teachings of Fry).
We find Petitioner’s citations to Fry teach that
“pillow 100 is constructed by sewing two pieces of
fabric together around the circumference of the fabric,
allowing an opening for filling the resulting cover
with a filling material, filling the cover with filling

45a
material, and closing the cover by sewing all of the
remaining open edges together.” Ex. 1005 ¶ 18.
Patent Owner responds that Petitioner’s
asserted combination of Fry and Shelby fails to teach
the recited “pillow cover.” PO Resp. 37–45. In
particular, Patent Owner argues that “both Fry and
Shelby are solely directed to a pillow” and “expressly
teach incorporating their vent structures into the
pillow itself.” Id. at 38.
Patent Owner also responds that “‘pillow’ must
have its own cover, which is different from the
claimed outer pillow cover.” PO Resp. 38–39 (citing
Dec. on Inst. 9; Ex. 1001, 6:7–10, Fig. 3). Patent
Owner asserts that one of ordinary skill in the art
“would not consider taking loose fill material (e.g.,
feathers) from within a pillow cover to be the removal
of a ‘pillow.’” Id. at 39 (citing Ex. 2001 ¶¶ 77–78; Ex.
2011, 27:8–29:4). Patent Owner also asserts that
“claim 12 is directed to a vented and versatile, outer
pillow cover,” a critical aspect of the ’408 patent, and
“not merely a cover for holding the fill material.” Id.
at 39–40 (citing Ex. 1001, 5:65–6:7; Ex. 2001 ¶¶ 57–
59, 80–84).
Patent Owner further responds that Petitioner
“does not cite to anything in either Fry or Shelby that
teaches or suggests a pillow cover that is separate
from a pillow” and that “both references, at most,
teach a traditional pillow.” Id. at 40–42 (citing Ex.
1001, Fig. 3; Ex. 1005, Fig. 1B; Ex. 1011, Fig. 7; Ex.
2001 ¶¶ 72–84, 107–109; Parachuru Decl. ¶¶ 116–
121). According to Patent Owner, Petitioner conflates
“pillow cover” with “pillow,” thus failing to account for
either one. Id. at 42 (citing Pet. 55–57). Patent Owner

46a
also contends that Petitioner’s position is at odds with
Fry and Shelby, inconsistent with the understanding
of one of ordinary skill in the art, and divorced from
the claim language and Specification. Id. at 42–44
(citing Ex. 1005 ¶¶ 3, 17, 18; Ex. 1011 ¶ 53; Ex. 2001
¶¶ 75–78, 111–114; Ex. 2011, 27:8–29:4).
For the reasons discussed above in Section II.,
we interpret “pillow cover” to be separate and distinct
from “pillow,” and we determine that the ordinary and
customary meaning of “pillow” includes “at least fill
material that is not loose and with or without a cover
to hold the fill material.” Thus, Petitioner persuades
us that Fry teaches or suggests the claimed pillow
cover having panels perimetrically joined such that
the inner surfaces of the panels define a cavity having
a void volume.
Patent Owner also responds that Petitioner
fails to show Fry and Shelby teach a pillow disposed
in a “cavity having a void volume,” as required by the
claim. PO Resp. 46–47. Patent Owner contends that
Petitioner fails to show that either Fry or Shelby
disposes a pillow “leaving room for some volume of air
to fill the space between the pillow and the pillow
cover,” as shown in the ’408 patent, and “Petitioner
concedes that ‘void volume [is] filled with pillow filler
material.’” Id. (citing Pet. 39; Parachuru Decl. ¶¶ 58–
60, 64, 65, 72, 77, 78, 128–133). Patent Owner, thus,
argues that Fry’s or Shelby’s “fill material precludes
any ‘void volume’ from existing in the cavity . . . failing
to meet the express language required by the claim.”
Id. at 47.
Claim 12 recites “a second panel perimetrically
joined with the first panel such that inner surfaces of

47a
the first and second panels define a cavity having a
void volume.” Ex. 1001, 9:4–6. The record does not
indicate that the “cavity having a void volume”
requires a pillow that is subsequently disposed
therein to “leav[e] room for some volume of air to fill
the space between the pillow and the pillow cover,” as
argued by Patent Owner. See PO Resp. 47. In other
words, claim 12 requires “a pillow disposed in the
cavity,” not a pillow disposed in the cavity such that
there is still void volume for air to fill the space
between the pillow and the inner surfaces of the first
and second panels.
For the reasons above, we determine that
Petitioner has shown that Fry teaches “a pillow cover
comprising: a first panel, and a second panel
perimetrically joined with the first panel such that
inner surfaces of the first and second panels define a
cavity having a void volume.”
2. “the first and second panels each
being made from a first material”
Petitioner contends that Fry teaches “the first
and second panels each being made from a first
material,” as required by claim 12. Pet. 42–43 (citing
Ex. 1005 ¶¶ 17, 18, 20, Figs. 1A, 1B; Rhodes Decl. ¶
71); see also id. at 28–30 (arguing asserted teachings
of Fry). Patent Owner does not specifically address
this limitation. See PO Resp. 32–53.
We find that a cited portion of Fry teaches that
“pillow 100 is constructed by sewing two pieces of
fabric together around the circumference of the
fabric” to form a cover. Ex. 1005 ¶ 18. We also find Fry
teaches that cover 102 includes or is constructed of
fabric 101. Id. ¶¶ 17, 20. Further, Figure 1B shows

48a
that cover 102, which can be two pieces of fabric,
includes fabric 101.
Thus, we determine that Petitioner has shown
that Fry teaches “the first and second panels each
being made from a first material.”
3. “wherein an opening extends through
the inner surface of the first panel and
an outer surface of the first panel, the
opening having a size, shape and
arrangement”
Petitioner contends that Fry teaches “wherein
an opening extends through the inner surface of the
first panel and an outer surface of the first panel, the
opening having a size, shape and arrangement,” as
required by claim 12. Pet. 45–46 (citing Ex. 1005 ¶¶
22–27, Figs. 1A–1B); see also id. at 28–30 (arguing
asserted teachings of Fry). Patent Owner does not
specifically address this limitation. See PO Resp. 32–
53.
We find Petitioner’s citations to Fry teach and
depict that Fry’s “pillow includes a filter 104 sewn
into the covering 102,” “fabric 101 is coated with a
monolithic or microporous material 103,” “filter 104 is
a portion of the covering 102 that does not include the
monolithic material 103,” and “filter 104 can be
positioned anywhere in the pillow covering 102.” Ex.
1005 ¶¶ 22, 23, 26, 27. Figure 1B of Fry shows
covering 102 has an opening that extends from its
outer surface to its inner surface and the opening has
a size, shape, and arrangement that includes filter
104.

49a
Therefore, we determine that Petitioner has
shown that Fry teaches “wherein an opening extends
through the inner surface of the first panel and an
outer surface of the first panel, the opening having a
size, shape and arrangement.”
4. “the pillow cover comprising a patch
covering the opening, the patch being
made from a second material that is
different than the first material, the
second material being more porous
than the first material”
Petitioner contends that Fry teaches “the
pillow cover comprising a patch covering the opening,
the patch being made from a second material that is
different than the first material, the second material
being more porous than the first material,” as
required by claim 12. Pet. 50–52 (citing Ex. 1005 ¶ 26,
Fig. 1B; Rhodes Decl. ¶ 74); see also id. at 28–30
(arguing asserted teachings of Fry). Patent Owner
does not specifically address this limitation. See PO
Resp. 32–53.
We find Petitioner’s citations to Fry teach and
depict fabric 105 covering an opening that includes
filter 104, “filter 104 includes a fabric 105,” and
“[f]abric 105 may be a different fabric . . . from fabric
101” of cover 102. Ex. 1005 ¶ 26, Fig. 1B. We also
credit the testimony of Petitioner’s declarant that one
of ordinary skill in the art would understand that
“fabric 105 to be more porous than the material used
for the rest of the cover.” Rhodes Decl. ¶ 74
(addressing Ex. 1005 ¶ 26, Fig. 1B).
For the reasons above, we determine that
Petitioner has shown that Fry teaches a “pillow cover

50a
comprising a patch covering the opening, the patch
being made from a second material that is different
than the first material, the second material being
more porous than the first material.”
5. “a pillow disposed in the cavity”
Petitioner argues that Fry teaches or suggests
“a pillow disposed in the cavity,” as required by claim
12. Pet. 55–56 (citing Ex. 1005 ¶¶ 18, 19, 23, Figs. 1A,
1B; Rhodes Decl. ¶ 77); see also id. at 28–30 (arguing
asserted teachings of Fry).
We find that Fry teaches “pillow 100 is
constructed by sewing two pieces of fabric together
around the circumference of the fabric, allowing an
opening for filling the resulting cover with a filling
material” and “filling material can include . . . latex
foam, viscoelastic foam, or any other material known
in the art suitable for filling a pillow.” Ex. 1005 ¶¶
18, 19. We also credit the testimony of Petitioner’s
declarant that one of ordinary skill in the art would
have understood Fry teaches a pillow disposed in a
cavity formed by its panels. Rhodes Decl. ¶ 77 (“A
person of ordinary skill would understand these latex
foam or viscoelastic foam fillers to form a pillow that
deforms when a person lays their head on it.”).
Patent Owner responds that Petitioner’s
combination of Fry and Shelby fails to teach a pillow
disposed in a cavity, as required by the claim. PO
Resp. 45–46. In particular, Patent Owner argues that
Petitioner points to filler material 112 of Fry as
teaching the pillow of claim 12, but one of ordinary
skill in the art “would have understood fill material to
be a component of a pillow—not a pillow by itself.” Id.
at 45 (citing Ex. 1005 ¶¶ 13, 18; Ex. 2011, 27:8–29:4;

51a
Parachuru Decl. ¶ 111); Tr. 52:14–24 (Patent Owner’s
counsel arguing that Fry’s fill material is not a
pillow). Patent Owner also argues that Petitioner
thus “fails to account for the claimed ‘pillow’ disposed
within the cavity defined by the claimed pillow cover.”
PO Resp. 46 (citing Pet. 37–40). Patent Owner further
argues that Petitioner’s position requires the asserted
“pillow” of Fry to be filled with itself. Id. at 45 (citing
Pet. 55–56). Patent Owner provides similar
arguments for core 112 of Shelby, which Petitioner
contends is a pillow. Id. (citing Pet. 40–41, 56–57; Ex.
1011 ¶ 53; Parachuru Decl. ¶¶ 122–127).
For the reasons discussed above in Section
II.B., we determine that the ordinary and customary
meaning of “pillow” includes “at least fill material
that is not loose and with or without a cover to hold
the fill material.”
We credit the testimony of
Petitioner’s declarant that a person of ordinary skill
would have understood “latex foam or viscoelastic
foam fillers to form a pillow that deforms when a
person lays their head on it.” Rhodes Decl. ¶ 77.
Although both parties’ declarants agree that loose
filler material without a cover would not be a pillow,
in view of our interpretation of “pillow,” Petitioner
persuades us by a preponderance of the evidence that
filler material that is not loose, such as a block of latex
or viscoelastic foam, would have been understood by
one of ordinary skill in the art to be a pillow. Rhodes
Decl. ¶ 77; Ex. 2011, 17:11–20, 18:22–20:23, 22:13–
23:1, 29:20–30:7; Parachuru Decl. ¶¶ 80–86, 93–96.
For the reasons above, we determine that
Petitioner has shown that Fry teaches “a pillow
disposed in the cavity.”

52a
6. “wherein the second panel is free of
any openings having the size, shape
and arrangement of the opening in
the first panel”
Petitioner contends that Fry teaches “wherein
the second panel is free of any openings having the
size, shape and arrangement of the opening in the
first panel,” as recited by claim 12. Pet. 58–60 (citing
Ex. 1005, Figs. 1A, 1B; Rhodes Decl. ¶ 79); see also id.
at 28–30 (arguing asserted teachings of Fry).
Patent Owner responds that Petitioner fails to
show Fry and Shelby teach a “second panel [that] is
free of any openings having the size, shape and
arrangement of the opening in the first panel.” PO
Resp. 47–51. Specifically, for Fry, Patent Owner
argues that “Petitioner points to a partial schematic
in Fry, which does not even fully depict both panels,”
and thus, is “unclear as to whether there may be other
openings located elsewhere.” Id. at 48 (citing Pet. 60).
Patent Owner also argues that “Petitioner does not
cite to any portion of Fry’s specification” or “any
description in which Fry differentiates between the
panels,” and “does not explain the significance,
purpose or effect of having only one opening in Fry’s
panel.” Id.
Petitioner, however, relies on the testimony of
its declarant. Pet. 59 (citing Rhodes Decl. ¶ 79).
Petitioner’s declarant states that a “person of
ordinary skill in the art would understand that Fry
teaches [the limitation]” and “would appreciate this
from reading Fry’s written description, as well as
from a simple inspection of Fry’s figures, which depict
no second opening/vent having the same size, shape,

53a
and arrangement of the first.” Rhodes Decl. ¶ 79
(discussing Ex. 1005, Figs. 1A, 1B).
The record supports Petitioner’s declarant
testimony. Figure 1B is a “partial cross-section
drawing of a hypoallergenic pillow.” Ex. 1005 ¶ 13.
We find that it teaches or suggests a “second panel”
that “is free of any openings having the size, shape
and arrangement of the opening in the first panel,” as
required by claim 12. In its description of Figures 1A
and 1B, Fry describes explicitly only filter 104. See
Ex. 1005 ¶¶ 17–27. We find that Fry explicitly teaches
or suggests at least one filter 104 in a first panel and
thus, a second panel free of any openings having the
size, shape and arrangement of the opening in the
first panel. Therefore, we find that Fry supports the
testimony of Petitioner’s declarant, and we credit that
testimony.
Moreover, in setting forth its arguments,
Patent Owner does not contest that the one explicitly
described filter of Fry is sufficient. See PO Resp. 52–
53 (arguing that “Petitioner does not assert that Fry’s
filter (or filter position) is inadequate” and “Petitioner
does not dispute that Fry’s pillow works for its
intended purpose”). Thus, for this additional reason,
the record persuades us that Fry teaches or suggests
at least one filter 104 in a first panel and a second
panel free of any openings, and we do not agree that
Fry is “unclear as to whether there may be other
openings located elsewhere” (see id. at 48).
As for Shelby, Patent Owner argues that
Petitioner only relies on Figure 12 of Shelby, but the
“embodiment described with respect to figure 12 only
has a single sheet and not a second panel.” PO Resp.

54a
49–50 (citing Pet. 60; Ex. 1011 ¶¶ 63–70). According
to Patent Owner, “Petitioner does not account for the
differences between a mattress and a pillow when
applying these teachings to a pillow generally” and
“fails to account for the differences . . . when applying
these particular teaching[s] of Shelby[‘s] mattress to
a pillow which requires two distinct (i.e., first and
second) panels.” Id. at 50. Patent Owner also
contends that Petitioner cites a portion of Shelby that
teaches “minimizing the waste of filter material as to
a specific vent,” not “whether additional vents (and
corresponding filter material) would be wasteful,” as
argued by Petitioner in support of its reason for the
combination of Fry and Shelby. Id. at 50–51 (citing
Pet. 61; Ex. 2011, 47:5–47:16; Parachuru Decl. ¶¶
134–137).
For the reasons stated above, the record
persuades us that Petitioner shows by a
preponderance of the evidence that Fry, not Shelby,
teaches the limitation.
7. “wherein the pillow cover comprises a
filter that engages an inner surface of
the first panel such that the opening
is positioned between the patch and
the filter”
Petitioner argues that Fry teaches that “the
pillow cover comprises a filter,” as required by claim
12. Pet. 63–64 (citing Ex. 1005 ¶¶ 8–11, 22, 26, 27,
Fig. 1B); see also id. at 28–30 (arguing asserted
teachings of Fry). We find that the cited portions of
Fry teach “filter 104 sewn into the covering 102.” Ex.
1005 ¶ 22.

55a
Petitioner states that “Fry, however, does not
appear to precisely describe that the filter 104
specifically engages the inner surface of the first
panel.” Pet. 65. Petitioner contends that “Shelby . . .
expressly teaches a filter (membrane/filter 228 . . . )
that engages an inner surface of the first panel.” Id.;
see also id. at 31–35 (arguing asserted teachings of
Shelby), 66–67 (citing Ex. 1011 ¶¶ 5, 45, 55, 57, 58,
60, Figs. 7, 10).
We find that the cited portions of Shelby teach
“[m]icroporous membrane 228 may be fastened to
inner surface 216 (FIG. 10) using any suitable means”
and “[m]icroporous membrane 228 may be comprised
of any suitable filter as described herein.” Ex. 1011
¶ 58. We also find that Shelby teaches that the
“concepts of the present invention may be adapted to
form a pillow, such as pillow 110” that “includes core
112 and covering 114, which surrounds core 112,”
“may also include vents (not shown), which provide
ventilation through covering 114,” and “[c]overing 114
includes inner surface 116.” Id. ¶¶ 53–55.
Petitioner asserts that it would have been
obvious to use Shelby’s vent structure in Fry because
“Shelby provides an express motivation that [its]
concepts . . . can be applied to a pillow cover, including
a vented pillow cover,” “it would be beneficial to place
an opening in a pillow covering for the purpose of
providing such a vent,” and “it was beneficial . . . to
provide ventilation and cooling and to prevent an
uncomfortable ‘ballooning’ effect.” Pet. 35–36 (citing
Rhodes Decl. ¶¶ 39–41, 67); see also id. at 49–50
(citing Ex. 1005 ¶ 27; Rhodes Decl. ¶ 67), 57, 67–69
(citing Ex. 1005 ¶ 27; Rhodes Decl. ¶¶ 65, 84, 85)
(presenting similar arguments). Petitioner also

56a
asserts that one of ordinary skill in the art routinely
used design concepts interchangeably between
mattress covers and pillow covers, would have had a
reasonable expectation of success, and would have
appreciated that combining Shelby and Fry would not
have had a deleterious effect on Fry’s purpose of
filtering contaminants while allowing airflow. Id. at
36 (citing Rhodes Decl. ¶ 67), 50 (citing Rhodes Decl.
¶ 67), 68–69 (citing Rhodes Decl. ¶ 85).
Patent Owner responds that Petitioner does
not explain adequately how one of ordinary skill in
the art would combine Fry with Shelby. PO Resp. 51–
53. According to Patent Owner, Petitioner asserts
“‘many credible reasons to combine Shelby and Fry’”
but “fails to point to any such ‘credible reasons.’” Id.
at 51 (discussing Pet. 35–36).
Patent Owner also argues that Petitioner does
not sufficiently explain why one of ordinary skill in
the art would modify Fry so as to move its filter to the
position shown in Shelby because Fry’s pillow is
already vented, as acknowledged by Petitioner and its
declarant. Id. at 52 (citing Pet. 45, 68; Ex. 1005 ¶ 22).
Patent Owner contends that Petitioner does not
explain why “Fry’s filter (or filter position) is
inadequate,” “does not dispute that Fry’s pillow works
for its intended purpose,” “does not provide any
reason as to why a [person of ordinary skill in the art]
would have modified a reference that teaches a filter
than can be used in a vented pillow with another one
that has similar teachings,” and thus, engages in
impermissible hindsight. Id. at 52–53 (addressing
Pet. 35). Patent Owner also contends that Shelby
“explicitly specifies how its teachings result in a
vented pillow” and depicts “how vents can be placed

57a
directly in the pillow,” thus one of ordinary skill in the
art “could have followed Shelby’s own teachings in
order to create a vented pillow.” Id. (citing Ex. 1011
¶¶ 53, 55, Fig. 7).
Weighing Petitioner’s arguments and evidence
(Ex. 1005 ¶ 27; Rhodes Decl. ¶¶ 39–41, 67, 84, 85)
against Patent Owner’s arguments and evidence (Ex.
1005 ¶ 22; Ex. 1011 ¶¶ 53, 55, Fig. 7), we determine
that a preponderance of the evidence shows that one
of ordinary skill in the art would have modified Fry
with the teachings of Shelby in the manner asserted
by Petitioner with a reasonable expectation of
success. We find that Fry states “filter 104 can be
positioned anywhere in the pillow covering 102 . . . so
long as the filter 104 allows the ingress and egress of
air 106 in and out of the pillow.” Ex. 1005 ¶ 27; see
also id. ¶ 22 (“the pillow includes a filter 104 sewn
into the covering 102.”). As discussed above, we find
that Shelby teaches that the its concepts “may be
adapted to form a pillow, such as pillow 110” that
“includes core 112 and covering 114, which surrounds
core 112” and “may also include vents (not shown),
which provide ventilation through covering 114.” Ex.
1011 ¶¶ 53–55. Petitioner’s proposed modification of
Fry with the teachings of Shelby would result in filter
104 of Fry being moved from its position in the
opening of Fry’s cover 102 to the position shown in
Shelby, specifically the inner surface of Fry’s cover
102. The proposed modification would still allow
ingress and egress of air.
Further, we credit the testimony of Petitioner’s
declarant that repositioning the filter of Fry to the
position shown in Shelby is a “matter of routine
design choice” and one of “a finite number of options

58a
of how to attach the filter relative to the pillow
covering and the patch.” Rhodes Decl. ¶ 85. We also
credit the testimony of Petitioner’s declarant that one
of ordinary skill in the art would have had a
“reasonable expectation of success in combining
Shelby’s vent structure with Fry’s vent, as it would
have required minimal modifications of Fry’s vent
structure.” Id. ¶ 67.
For the reasons stated above, the record
persuades us that Petitioner shows by a
preponderance of the evidence that the proposed
combination of Fry and Shelby teaches “wherein the
pillow cover comprises a filter that engages an inner
surface of the first panel such that the opening is
positioned between the patch and the filter.”
8. “the filter comprises a third material
that is different than the first
material, the third material being
more porous than the first material”
Petitioner also argues that Fry teaches that
“the filter comprises a third material that is different
than the first material, the third material being more
porous than the first material.” Pet. 69–71 (citing Ex.
1005 ¶¶ 20, 22, 23, 25, 26, Fig. 1B; Rhodes Decl. ¶ 86);
see also id. at 28–30 (arguing asserted teachings of
Fry). Petitioner further contends that, if required by
claim interpretation, Shelby teaches or suggests a
second material being different from a third material.
Id. at 71. Patent Owner does not address specifically
this limitation of claim 12. See PO Resp. 32–53.
We find that the cited portions of Fry teach
“cover 102 is constructed of the fabric 101” (Ex. 1005
¶ 20), “filter 104 is constructed of a material that has

59a
a high degree of filtration pathogens” (id. ¶ 22), “filter
104 is a portion of the covering 102 that does not
include the monolithic material 103,” (id. ¶ 26) “filter
104 includes fabric 105” (id.), and “fabric 105 may be
the same type as fabric 101” or “filter 104 can be of a
different material” (id.). We also find that Fry teaches
that a “monolithic coating the fabric of an entire
pillow results in a pillow that traps air.” Id. ¶ 10.
Thus, we determine that Fry teaches filter 104 that
comprises fabric 105, that fabric 105 is different than
fabric 101 of cover 102, and that filter 104 is more
porous than monolithic material 103 of cover 102.
Accordingly, for the reasons above, Petitioner
has shown that Fry teaches “the filter comprises a
third material that is different than the first material,
the third material being more porous than the first
material.”
D. Conclusion as to the Challenge of Claim 12
Weighing Petitioner’s and Patent Owner’s
arguments and evidence, we determine that
Petitioner has shown by a preponderance of the
evidence that, under 35 U.S.C. § 103(a), claim 12
would have been obvious over Fry and Shelby to one
of ordinary skill in the art at the time of the invention.
IV.

PETITIONER’S REPLY ARGUMENTS

Patent Owner filed a List of Improper Reply
Arguments (Paper 29), to which Petitioner filed a
response (Paper 30). Patent Owner asserts that, in its
Reply, Petitioner relies on a different embodiment in
Fry for the first time and Patent Owner is precluded
any opportunity to reply. Paper 29, 1 (citing Pet.
Reply 14); see also Tr. 52:4–11 (Patent Owner’s

60a
counsel arguing that Petitioner points to new figure
and embodiment in its reply). Petitioner responds
that it “provided additional proper responsive
argument” and could not have foreseen that the
interpretation of “pillow” would be an issue. Paper 30,
1.
We agree with Patent Owner that Petitioner
did not assert Fry’s Figure 3 embodiment in the
Petition. See Pet. 27–30, 35–40, 42–43, 45–46, 49–52,
55–56, 58–60, 62–65, 67–71, 74 (discussing
embodiments of Fry associated with its Figures 1A
and 1B); Paper 29, 1 (“Petitioner relied, for the first
time, on a different embodiment disclosed in Fig. 3
and ¶¶ 31–32 of Fry.”). Also, arguments in the
Petition implicitly interpret “pillow” as mere fill
material, and Petitioner’s declarant explicitly equates
filler material 112 of Fry or core 112 of Shelby to the
recited “pillow.” Pet. 55–57; Rhodes Decl. ¶¶ 68, 69.
We are not persuaded that the meaning of “pillow”
was not a foreseeable issue because the asserted
references describe “pillow 100 comprises a filling
material . . . and a covering 102” (Ex. 1005 ¶ 17) and
state that “[p]illow 110 generally includes core 112
and covering 114” (Ex. 1011 ¶ 53). Thus, we do not
consider arguments in Petitioner’s Reply related to
the embodiment shown in Fry’s Figure 3 in
determining
whether
Petitioner
shows
the
unpatentability of claim 12 by a preponderance of the
evidence. See Pet. Reply 14–17.
Moreover, even if we were to consider
substantively Petitioner’s arguments regarding Fry’s
Figure 3 embodiment, those arguments do not
identify a reason for modifying Fry’s Figure 3
embodiment with the teachings of Shelby. See Pet.

61a
Reply 17; see also Paper 29, 1 n.1 (“Petitioner provided
no explanation or rationale for combining this newly
cited embodiment in Fry with the cited portions of
Shelby.”). Petitioner’s arguments, instead, appear to
rely on its previous reason for modifying Fry in view
of Shelby. See Pet. Reply 17. Petitioner’s previous
reason does not address sufficiently why one of
ordinary skill in the art would have applied Shelby’s
teachings regarding a filter for a cover surrounding
fill material to a cover encasing a pillow, such as the
one shown in Fry’s Figure 3. See Pet. Reply 15–17;
Rhodes Reply Decl. ¶ 19; see also 37 C.F.R. § 42.6(a)(3)
(“Arguments must not be incorporated by reference
from one document into another document.”). Thus,
Petitioner’s additional arguments, even if made
properly, would not demonstrate persuasively that
claim 12 is unpatentable over Fry’s Figure 3.
Patent Owner also asserts that Petitioner, in
its Reply, asserts that a person of ordinary skill in the
art “would have understood fill material taught by
Fry . . . to also be teaching solid fill material, such as
solid foam, in addition to loose fill material.” Paper
29, 2 (citing Pet. 55–56; Pet. Reply 14; Exs. 1031–
1034). We do not rely on such arguments in our
analysis above, and thus, Patent Owner’s position is
moot on this point.
The parties also jointly filed unresolved
objections to the demonstratives, in which Patent
Owner objects to one of Petitioner’s slides because
Petitioner relies on a different embodiment in Fry for
the first time. See Paper 32. Although we do not rely
on the demonstratives, we sustain Patent Owner’s
objection to the slide containing arguments regarding
the embodiment of Fry shown in its Figure 3.

62a
V.

CONCLUSION

For the foregoing reasons, based on the full
record before us, we determine Petitioner has
demonstrated, by a preponderance of the evidence,
that claim 12 of the ’408 patent is unpatentable.
VI.

ORDER

Accordingly, it is:
ORDERED that claim 12 of U.S. Patent No.
9,155,408 B2 has been shown, by a preponderance of
the evidence, to be unpatentable; and
FURTHER ORDERED that, because this is a
Final Written Decision, the parties to the proceeding
seeking judicial review of the decision must comply with
the notice and service requirements of 37 C.F.R. § 90.2.
PETITIONER:
Jason R. Mudd
Eric A. Buresh
ERISE IP, P.A.
jason.mudd@eriseip.com
eric.buresh@eriseip.com
ptab@eriseip.com
PATENT OWNER:
Joseph J. Richetti
Frank M. Fabiani
Alexander Walden (pro hac vice)
BRYAN CAVE LLP
joe.richetti@bryancave.com
frank.fabiani@bryancave.com
alexander.walden@bryancave.com
PTAB-NY@bryancave.com

63a
Trials@uspto.gov
571-272-7822

Paper No. 41
Entered: June 12, 2018

UNITED STATES PATENT AND
TRADEMARK OFFICE
BEFORE THE PATENT TRIAL AND
APPEAL BOARD
FREDMAN BROS. FURNITURE COMPANY, INC.,
Petitioner,
v.
BEDGEAR, LLC,
Patent Owner.
Case IPR2017-00350
Patent 8,887,332 B2
Before HYUN J. JUNG, BART A. GERSTENBLITH,
and AMANDA F. WIEKER, Administrative Patent
Judges.
JUNG, Administrative Patent Judge.
FINAL WRITTEN DECISION
35 U.S.C. § 318(a) and 37 C.F.R. § 42.73
I.

INTRODUCTION

We have jurisdiction under 35 U.S.C. § 6. This
Final Written Decision is issued pursuant to 35
U.S.C. § 318(a) and 37 C.F.R. § 42.73. For the reasons
that follow, we determine that Petitioner has shown

64a
by a preponderance of the evidence that, of all the
challenged claims, claims 1–11, 13, 15–22, 24, 25, and
27–34 of U.S. Patent No. 8,887,332 B2 are
unpatentable, but has not shown by a preponderance
of the evidence that claim 23 is unpatentable.
A. Procedural History
Fredman Bros. Furniture Company, Inc.
(“Petitioner”) filed a Petition, requesting institution of
an inter partes review of claims 1–11, 13, 15–25, and
27–34 of U.S. Patent No. 8,887,332 B2 (Ex. 1001, “the
’332 patent”). Paper 1 (“Pet.”). Bedgear, LLC (“Patent
Owner”) timely filed a Preliminary Response. Paper
7. Pursuant to 35 U.S.C. § 314(a), we instituted an
inter partes review of all challenged claims of the ’332
patent. Paper 8 (“Dec. on Inst.”).
After institution, Patent Owner filed a
Response (Paper 14, “PO Resp.”), to which Petitioner
filed a Reply (Paper 21, “Pet. Reply”). Petitioner
proffered a Declaration of Jennifer Frank Rhodes (Ex.
1005, “Rhodes Declaration” or “Rhodes Decl.”) with its
Petition, and a Declaration of Jennifer Frank Rhodes
in Support of Petitioner’s Reply (Ex. 1062). Patent
Owner proffered a Declaration of Dr. Radhakrishnaiah
Parachuru in Support of Patent Owner’s Preliminary
Response (Ex. 2001) and in Support of Patent Owner’s
Response (Ex. 2004, “Parachuru Declaration” or
“Parachuru Decl.”). Deposition transcripts for Dr.
Parachuru (Ex. 1061) and Ms. Rhodes (Exs. 2016,
2020) were filed.
Patent Owner filed Observations on CrossExamination of Petitioner’s Reply Witness Jennifer
Frank Rhodes (Paper 27), to which Petitioner filed a
response (Paper 30). As authorized in our Order

65a
(Paper 29), Patent Owner filed a List of Improper
Reply Arguments (Paper 31), to which Petitioner also
filed a response (Paper 32).
An oral hearing in this proceeding and Cases
IPR2017-00351, IPR2017-00352, and IPR2017-00524
was held on March 20, 2018; a transcript of the
hearing is included in the record (Paper 36, “Tr.”).
B. Grounds of Unpatentability at Issue
We instituted inter partes review on the
grounds that
claims 1–3, 6–9, 13, 16, 18–20, 22, 27, 29–31,
33, and 34, under 35 U.S.C. § 102(b) or § 102(e), are
anticipated by Rasmussen1;
claims 1–3, 6–9, 11, 13, 15, 16, 18–20, 22, 23,
27, and 31–34, under 35 U.S.C. § 102(b) or § 102(e),
are anticipated by Rasmussen, separately and
independently of the ground above, based on an
alternative interpretation of Rasmussen;
claim 17, under 35 U.S.C. § 103(a), is
unpatentable over Rasmussen,
claims 4, 5, and 28, under 35 U.S.C. § 103(a),
are unpatentable over Rasmussen and Doak2;
claims 24 and 25, under 35 U.S.C. § 103(a), are
unpatentable over Rasmussen and Schlussel3;

1

WO 2010/075294 A1, published July 1, 2010 (Ex. 1006).

2

US 3,109,182, issued Nov. 5, 1963 (Ex. 1008).

3

US 2007/0261173 A1, published Nov. 15, 2007 (Ex. 1009).

66a
claim 17, under 35 U.S.C. § 103(a), is
unpatentable over Rasmussen and Schecter4;
claims 10 and 21, under 35 U.S.C. § 103(a), are
unpatentable over Rasmussen and Mason5; and
claim 28, under 35 U.S.C. § 103(a), is
unpatentable over Rasmussen and Burton.6 Dec. on
Inst. 37–38.
In an Order following SAS Institute Inc. v.
Iancu, 138 S. Ct. 1348 (2018), we modified our Decision
on Institution to institute on all of the grounds
presented in the Petition. Paper 37, 2; see also Dec. on
Inst. 19–20, 22, 23, 25, 27, 29–32 (determining
Petitioner had not demonstrated a reasonable
likelihood of prevailing on certain grounds). In
accordance with that same Order, the parties
conferred and reached agreement to withdraw the
grounds upon which we did not institute review. See
Papers 37, 38. After receiving authorization (Paper
38), the parties filed a Joint Motion to Limit the
Petition (Paper 39), which we granted (Paper 40).
Thus, the review is limited to the grounds listed above,
and this Decision addresses only those grounds.
C. Related Proceedings
The parties indicate that the ’332 patent has
been asserted in Bedgear, LLC v. Fredman Bros.
Furniture Co., Inc., Case No. 1:15-cv-6759 (E.D.N.Y.)
and Cabeau, Inc. v. Bedgear, LLC, Case No. 2:16-cv09238 (C.D. Ca.). Pet. 77; Paper 4, 2; Ex. 1052.
4

US 6,988,286 B2, issued Jan. 24, 2006 (Ex. 1011).

5

US 2007/0246157 A1, published Oct. 25, 2007 (Ex. 1012).

6

US 6,760,935 B1, issued July 13, 2004 (Ex. 1013).

67a
The ’332 patent issued from a continuation of
an application that issued as U.S. Patent No.
8,646,134 B1 (Ex. 1049, “the ’134 patent”), which is
challenged in Case IPR2017-00352. The ’332 patent is
also related to the patent at issue in Case IPR201700351 (Ex. 1047).
D. The ’332 Patent (Ex. 1001)
The ’332 patent issued November 18, 2014,
from an application filed December 16, 2013, which is
a continuation of an application filed June 22, 2012,
and claims priority to a provisional application filed
June 22, 2011. Ex. 1001, [22], [45], [60], [63], 1:7–12.
The ’332 patent relates to an “upper neck and
head support in the form of a pillow for the human
body.” Id. at 1:18–19. Figure 1 of the ’332 patent is
reproduced below.

68a
Figure 1 shows a perspective view of a pillow of
the ’332 patent. Id. at 1:51–52. Pillow 10 has cover 12,
and cover 12 includes opposing first and second
panels 16, 18 and gusset 20 that joins panels 16, 18.
Id. at 1:64–2:2. Gusset 20 is formed of an open cell
construction and has sufficient width to separate
panels 16, 18 so as to define an airflow channel
through the panels. Id. at 2:2–8. The specification
states that an “‘open cell construction’ as used herein
refers to a construction having overall porosity
greater than the inherent porosity of the constituent
material or inherently having high porosity.” Id. at
1:41–44. The “open cell construction of the gusset 20
may be defined by various constructions.” Id. at 2:20–
21. The specification describes gusset 20 providing
venting, permitting air exchange, and having porous
or open cell construction panels. See id. at 1:37–40,
2:10–13, 4:19–36, 4:53–55.
In connection with Figure 3, the open cell
construction of gusset 20 may be defined by a
“plurality of interlaced or spaced-apart strands 26
arranged randomly or in various patterns, such as a
‘x’ pattern (FIG. 1) or a rectangular pattern.” Id. at
2:21–24.
Gusset 20 may be formed of base material 30
and has apertures 32 that are larger in size than any
pores that may be inherently defined in base material
30. Id. at 2:36–41. The porosity of base material 30
may be “substantially greater” than the porosity of
first panel 16 or second panel 18. Id. at 2:55–58.
“‘Substantially greater’ refers to being at least greater
than, but preferably being at least twice greater than”
the reference value. Id. at 2:58–60.

69a
The ’332 patent states that “with reference to
FIG. 5, the gusset 20 may be formed with the base
material 30 being inherently significantly porous” (id.
at 2:47–49) and that the “porosity of the base material
30 may be substantially greater than the porosity of
the material forming the first panel 16 and/or . . . the
second panel 18” (id. at 2:55–58). “[G]usset 20 may
include one or more of the open cell configurations
described above in connection with FIGS. 3–5
singularly or in any combination.” Id. at 2:65–67.
E. Challenged Independent Claims
The ’332 patent has 34 claims, of which
Petitioner challenges claims 1–11, 13, 15–25, and 27–
34. Claims 1, 31, 33, and 34 are independent and
reproduced below:
1.

A pillow comprising:

a first panel having an edge
defining a perimeter;
a second panel having an edge
defining a perimeter; and
a gusset joining said first and
second panels,
wherein said first panel and said
second panel each comprise a porous
material, and wherein said gusset
comprises a material having a greater
porosity than the porous material.
31.

A pillow comprising:

a first panel;
a second panel opposite the first
panel; and

70a
a gusset perimetrically bounding
and joining said first and second panels,
wherein said first panel, said
second panel and said gusset define a
cover having an inner surface defining a
chamber for fill material,
wherein an interface between said
first panel and said gusset comprises a
zipper configured to provide access to the
chamber.
33.

A pillow comprising:

a first panel having an edge
defining a perimeter;
a second panel having an edge
defining a perimeter; and
a gusset joining said first and
second panels,
wherein said gusset is formed of
an open cell construction, said open cell
construction being formed by interlaced
strands.
34.

A pillow comprising:

a first panel having an edge
defining a perimeter;
a second panel having an edge
defining a perimeter; and
a gusset joining said first and
second panels,
wherein said gusset is formed of
an open cell construction, said open cell

71a
construction being formed by spacedapart strands.
Ex. 1001, 5:22–29, 6:57–67, 7:4–17.
II.

CLAIM INTERPRETATION

In an inter partes review, claim terms in an
unexpired patent are interpreted according to their
broadest reasonable construction in light of the
specification of the patent in which they appear. 37
C.F.R. § 42.100(b); Cuozzo Speed Techs., LLC v. Lee,
136 S. Ct. 2131, 2144–46 (2016) (upholding the use of
the broadest reasonable interpretation standard).
A. “open cell construction”(claims 13, 18, 22,
33, and 34)
Petitioner
proposes
that
“‘open
cell
construction’ need not be construed or given
independent patentable weight beyond the specific
structure recited in the claims” and that an
interpretation “does not impact the prior art analysis
herein.” Pet. 20 (citing Rhodes Decl. ¶¶ 81–84). In the
Decision on Institution, we did not interpret “open cell
construction” expressly. Dec. on Inst. 7.
Patent Owner states that “[b]oth parties agree
that the express definition for the term ‘open cell
construction’ . . . should be adopted, namely a
‘construction having overall porosity greater than the
inherent porosity of the constituent material or
inherently having high porosity.’” PO Resp. 38 (citing
Pet. 20). Petitioner also states that the parties “agree
that the specification expressly defines ‘open cell
construction’ as ‘a construction having overall
porosity greater than the inherent porosity of the

72a
constituent material or inherently having high
porosity.” Pet. Reply 2–3 (citing Pet. 19–20; PO Resp.
38; Ex. 1001, 1:41–44).
The specification of the ’332 patent states that
an “‘open cell construction’ as used herein refers to a
construction having overall porosity greater than the
inherent porosity of the constituent material or
inherently having high porosity.” Ex. 1001, 1:41–44.
Based on the full record, we agree with parties that
“open cell construction” is defined in the specification,
and we interpret it in accordance with that definition
to mean “a construction having overall porosity
greater than the inherent porosity of the constituent
material or inherently having high porosity.” See In
re Paulsen, 30 F.3d 1475, 1480 (Fed. Cir. 1994)
(“Although an inventor is indeed free to define the
specific terms used to describe his or her invention,
this must be done with reasonable clarity,
deliberateness, and precision.”).
B. “said open cell construction is formed by
porosity of said base material being
substantially greater than porosity of
material forming said first panel and . . .
said second panel” (claim 13)
Patent Owner contends that “distinct ‘open cell
construction’ phrases should be construed separately
to properly account for the different structures
expressly recited in these claims.” PO Resp. 38. In
support of its position, Patent Owner cites the claim
language (id. at 39–40 (citing claims 13, 22, 33, and
34)), the specification (id. at 39 (citing Ex. 1001, Figs.
3, 4)), the prosecution history of the related ’134
patent (id. at 40–41), and Dr. Parachuru’s testimony

73a
(id. at 39–41 (citing Ex. 2001 ¶¶ 50, 55–56; Parachuru
Decl. ¶¶ 101, 115–119)).
Patent Owner proposes interpreting “said open
cell construction is formed by porosity of said base
material being substantially greater than porosity of
material forming said first panel and . . . said second
panel,” as recited by claim 13, to mean “a construction
made up of a constituent material that, by itself, has
substantially higher porosity than the material of the
first and second panels.” PO Resp. 44–45. In support,
Patent Owner cites the claim language, the
specification (Ex. 1001, 2:47–64, Fig. 5), the
prosecution history of the ’134 patent (Ex. 1003, 47),
and Dr. Parachuru’s testimony (Parachuru Decl. ¶¶
132–134). Id. Patent Owner argues that the claim
phrase is directed to the “Using High-Porosity
Materials Embodiment (FIG. 5).” Id.
As for “substantially greater,” Petitioner
contends that the ’332 patent “expressly defined this
term to mean simply ‘greater than.’” Pet. 20 (citing
Ex. 1001, 2:58–60). “Patent Owner agrees to adopt
[Petitioner’s proposed construction] solely for the
purposes of this IPR.” PO Resp. 46.
The specification states that “‘[s]ubstantially
greater’ refers to being at least greater than, but
preferably being at least twice greater than.” Ex.
1001, 2:58–60. Based on the full record, we interpret
“substantially greater” to mean “greater than.” See In
re Paulsen, 30 F.3d at 1480.
The language of claim 13 does not require
expressly that the constituent material by itself has
higher porosity than the material of the first and
second panels. Patent Owner’s proposed interpretation

74a
also narrows the interpretation of “open cell
construction,” that is analyzed above in Section II.A.
We find that the specification of the ’332 patent
describes that an open cell construction has overall
porosity greater than the inherent porosity of a
constituent material. Ex. 1001, 1:41–44. We also find
that the ’332 patent states that “with reference to
FIG. 5, the gusset 20 may be formed with the base
material 30 being inherently significantly porous” (id.
at 2:47–49) (emphasis added) and that the “porosity
of the base material 30 may be substantially greater
than the porosity of the material forming the first
panel 16 and/or . . . the second panel 18” (id. at 2:55–
58) (emphasis added). We find that these portions of
the ’332 patent contemplate embodiments in addition
to ones encompassed by Patent Owner’s proposed
interpretation. The specification also expressly states
that open cell construction can be the embodiment of
Figure 5 combined with other configurations. See id.
at 2:20–21 (“open cell construction of the gusset 20
may be defined by various constructions”), 2:65–67
(“gusset 20 may include one or more of the open cell
configurations described above in connection with
FIGS. 3–5 singularly or in any combination”).
The prosecution history of the related ’134
patent indicates that the claim was amended to
include “said open cell construction is formed by
interlaced or spaced-apart strands” in response to
what the Examiner believed was allowable subject
matter in the dependent claims. See Ex. 1003, 45
(Claim 1 amended to include “said open cell
construction is formed by interlaced or spaced-apart
strands.”), 49 (“By way of this amendment, Claim 1
has been amended to incorporate the allowable

75a
subject matter of Claim 2.”). However, the prosecution
history does not indicate that Applicant intended the
amendment to result necessarily in Patent Owner’s
proposed interpretation. See id. In view of our
determinations
above,
the
claim
language,
specification, and prosecution history do not provide a
sufficiently persuasive reason for further specifying
“a constituent material that, by itself, has
substantially higher porosity than the material of the
first and second panels” for the interpretation of “said
open cell construction is formed by porosity of said
base material being substantially greater than
porosity of material forming said first panel and . . .
said second panel.”
Thus, based on the full record, we interpret
“said open cell construction is formed by porosity of
said base material being substantially greater than
porosity of material formed said first panel and . . .
said second panel,” as recited by claim 13, to mean
that the open cell construction is formed by at least
the porosity of the base material being greater than
the porosity of the material of the first and second
panels.
C. “configured to have air enter the cavity
through pores in the first and second panels
and have the air exit the cavity through
pores in the gusset” (claim 16)
Patent
Owner
proposes
interpreting
“configured to have air enter the cavity through pores
in the first and second panels and have the air exit
the cavity through pores in the gusset” to mean “the
pillow is designed to have air which enters the pillow
through the first or second panel then exit the pillow

76a
through the gusset.” PO Resp. 46. In support, Patent
Owner refers to the language of claims 1 and 16 (id.
at 46–49), the specification (id. at 48–49 (citing Ex.
1047, 1:37–40, 2:10–13, 4:19–36, 4:53–55)), and Dr.
Parachuru’s testimony (id. at 46–49 (citing
Parachuru Decl. ¶¶ 135–144)).
Patent Owner argues that “the claim language
itself explicitly requires that the pillow be configured
to have air enter through the first and second panels
to then have this same air exit through the gusset”
and “does not address (i.e., require or restrict) air
entering through a structure other than a panel (e.g.,
a gusset) nor any such air exiting the pillow in a
particular manner (e.g., through a panel, gusset, or
other structure).” Id. at 46–47 (citing Parachuru Decl.
¶¶ 137, 138). Patent Owner also states that the “claim
language is . . . unambiguous on its face in requiring
that at least some air which enters through the
panels, must then exit through the gusset.” Id. at 47.
Petitioner
replies
that
the
proposed
interpretation rewrites the express claim language, is
illogical, and is unsupported by the specification. Pet.
Reply 6–7 (citing Ex. 1001, 2:10–13; Ex. 1061, 35:11–
15, 61:17–62:12). Petitioner also contends that
express construction is unnecessary because Patent
Owner’s proposed interpretation is disclosed by
Rasmussen. Id. at 7.
We agree with Patent Owner that “configured
to have air enter the cavity through pores in the first
and second panels and have the air exit the cavity
through pores in the gusset” does not restrict air
entering through another structure, such as the
gusset, and does not address air exiting through other

77a
structures, such as the panel. See PO Resp. 47. The
claim language requires “at least some air which
enters through the panels” exits through the gusset
alone or in combination with another structure. See
id. The portions of the specification cited by Patent
Owner support its above-quoted statements because
the cited portions describe gusset 20 providing
venting, permitting air exchange, and having porous
or open cell construction panels. See PO Resp. 48–49;
Ex. 1047, 1:37–40, 2:10–13, 4:19–36, 4:53–55. Further
interpretation is not required for determining
whether Petitioner shows by a preponderance of the
evidence the unpatentability of claim 16. See Vivid
Techs., Inc. v. Am. Sci. & Eng’g, Inc., 200 F.3d 795,
803 (Fed. Cir. 1999) (construing explicitly only those
claim terms in controversy and only to the extent
necessary to resolve the controversy).
D. “said open cell construction being formed by
strands defining a mesh configuration”
(claim 22)
Patent Owner proposes interpreting “said open
cell construction being formed by strands defining a
mesh configuration,” recited by claim 22, to mean “a
construction in which open cells are defined by
strands arranged in mesh configuration, such that the
overall porosity is greater than the porosity of the
constituent material itself.” PO Resp. 43–44; see also
id. at 38–42 (arguing that open cell construction claim
phrases should be construed separately). In support,
Patent Owner cites the claim language, the
specification (Ex. 1001, 2:20–35, Fig. 3), the
prosecution history of the related ’134 patent, and Dr.
Parachuru’s testimony (Parachuru Decl. ¶¶ 126–128).
Id. at 43–44. Patent Owner argues that the claim

78a
phrase is “directed to the Arranging Strands
Embodiment (FIG. 3).” Id. at 43.
The language of claim 22 does not include
expressly “such that the overall porosity is greater
than the porosity of the constituent material itself.”
Also, in view of the parties’ agreed-to interpretation
of “open cell construction” discussed above in Section
II.A.,
Patent
Owner’s
proposed
additional
requirement of “such that the overall porosity is
greater than the porosity of the constituent material
itself” is substantially included in the interpretation
of “open cell construction.” See Ex. 1001, 1:41–44
(“‘open cell construction’ as used herein refers to a
construction having overall porosity greater than the
inherent porosity of the constituent material”)
(emphasis added).
We further find that the specification of the
’332 patent does not expressly describe that an open
cell construction formed by strands defining a mesh
configuration results in overall porosity that is
greater than the porosity of the constituent material.
See Ex. 1001, 2:20–35. The specification associates
open cell construction with venting or air exchange.
See, e.g., id. at 2:10–13, 4:31–33. For the embodiment
of Figure 3, the specification describes that open cell
construction may be defined by interlaced or spacedapart strands made of various materials and
arranged randomly or in various patterns. Id. at 2:15–
31.
The specification also expressly states that
open cell construction can be the embodiment of
Figure 3 combined with other disclosed embodiments.
See Ex. 1001, 2:20–21 (“open cell construction of the

79a
gusset 20 may be defined by various constructions”),
2:65–67 (“gusset 20 may include one or more of the
open cell configurations described above in connection
with FIGS. 3–5 singularly or in any combination”).
The specification, thus, indicates that strands
defining a mesh configuration need not be the only
structure that results in overall porosity greater than
the porosity of the constituent material.
The prosecution history of the related ’134
patent indicates that the claim was amended to
include “said open cell construction is formed by
interlaced or spaced-apart strands” in response to
what the Examiner believed was allowable subject
matter in the dependent claims. See Ex. 1003, 45
(Claim 1 was amended to include “said open cell
construction is formed by interlaced or spaced-apart
strands.”), 49 (“By way of this amendment, Claim 1
has been amended to incorporate the allowable
subject matter of Claim 2.”). However, the prosecution
history of the related ’134 patent does not indicate
that Applicant intended the amendment to result in
Patent Owner’s proposed interpretation. See id.
Additionally, to the extent that Patent Owner
is interpreting “said open cell construction is formed
by strands defining a mesh configuration” to mean
that the open cell construction is formed only by
strands defining a mesh configuration, we do not
agree because the specification expressly states that
open cell construction can be a combination of the
embodiment shown in Figure 3 combined with other
disclosed embodiments. See Ex. 1001, 2:20–21, 2:65–
67.

80a
Thus, based on the full record, we interpret
“said open cell construction is formed by strands
defining a mesh configuration,” as recited by claim 22,
to mean that the open cell construction is formed by
at least strands defining a mesh configuration.
E. “said open cell construction being formed by
interlaced strands” (claim 33)
Patent Owner proposes interpreting “said open
cell construction being formed by interlaced strands,”
as recited by claim 33, to mean “a construction in
which open cells are defined by strands arranged in
an [interlaced] manner, such that the overall porosity
is greater than the porosity of the constituent
material itself.” PO Resp. 42, 43. In support, Patent
Owner cites the claim language, the specification (Ex.
1001, 2:20–35, Fig. 3), the prosecution history of the
related ’134 patent (Ex. 1003, 45), and its declarant
testimony (Parachuru Decl. ¶¶ 120–125). Id. at 42–
43.
For the same reasons discussed above in
Section II.D., we determine that the language of claim
33, the specification of the ’332 patent (Ex. 1001,
2:21–35), and the prosecution history of the related
’134 patent (Ex. 1003, 45, 49) do not support Patent
Owner’s proposed interpretation. Based on the full
record, we interpret “said open cell construction being
formed by interlaced strands,” as recited by claim 33,
to mean that the open cell construction is formed by
at least interlaced strands.

81a
F. “said open cell construction being formed by
spaced-apart strands” (claim 34)
Patent Owner proposes interpreting “said open
cell construction being formed by spaced-apart
strands,” as recited by claim 34, to mean “a
construction in which open cells are defined by
strands arranged in [a spaced-apart] manner, such
that the overall porosity is greater than the porosity
of the constituent material itself.” PO Resp. 42, 43. In
support, Patent Owner cites the claim language, the
specification (Ex. 1001, 2:20–35, Fig. 3), the
prosecution history of the related ’134 patent (Ex.
1003, 45), and its declarant testimony (Parachuru
Decl. ¶¶ 120–125). Id. at 42–43.
For the same reasons discussed above in
Section II.D., we determine that the language of claim
34, the specification of the ’332 patent (Ex. 1001,
2:21–35), and the prosecution history of the related
’134 patent (Ex. 1003, 45, 49) do not support Patent
Owner’s proposed interpretation. Thus, based on the
full record, we interpret “said open cell construction
being formed by spaced-apart strands,” as recited by
claim 34, to mean that the open cell construction
being formed by at least spaced-apart strands.
G. Other Terms
The term “gusset” appears in independent
claims 1, 31, 33, and 34. Ex. 1001, 5:25, 6:60, 7:7, 7:14.
Petitioner proposes that the “broadest reasonable
construction of ‘gusset’ is ‘a generally verticallyoriented portion of a pillow between the top and
bottom panels of a pillow to provide for enlargement
or expansion of the pillow.’” Pet. 18–19 (citing Rhodes
Decl. ¶ 80). In our Decision on Institution, we agreed

82a
with Patent Owner that claims 1, 31, 33, and 34 did
not require that the gusset be “generally vertically
oriented” or that it “provide for enlargement or
expansion of the pillow.” Dec. on Inst. 6; see also PO
Resp. 37 (“[T]he Board decided that ‘gusset’ did not
require an express interpretation.”); Pet. Reply 2
(“The Board determined no construction was
necessary.”).
Patent Owner responds that “there is no need
to construe the term” “[f]or purposes of this IPR.” PO
Resp. 37. “Petitioner also agrees express construction
is unnecessary for this proceeding.” Pet. Reply 2.
Based on the full record, we concur with the
parties that an express interpretation for “gusset” is
not necessary for determining whether Petitioner has
demonstrated by a preponderance of the evidence that
the challenge claims are unpatentable. See Vivid
Techs., 200 F.3d at 803. We also determine that
express interpretation of any other claim term is not
necessary. See id.
III.

ANTICIPATION CHALLENGES

Petitioner contends that claims 1–3, 6–9, 11,
13, 15, 16, 18–20, 22, 23, 27, and 29–34 are
anticipated by Rasmussen (Ex. 1006) with citations to
Rasmussen and the Rhodes Declaration. Pet. 14, 21–
59. Patent Owner responds to the alleged anticipation
with citations to Rasmussen, the Parachuru
Declaration, and other record evidence. PO Resp. 53–
75.
To prevail in its anticipation challenges,
Petitioner must prove unpatentability by a
preponderance of the evidence. 35 U.S.C. § 316(e); 37

83a
C.F.R. § 42.1(d). To anticipate a claim under 35 U.S.C.
§ 102, “a single prior art reference must expressly or
inherently disclose each claim limitation.” Finisar
Corp. v. DirecTV Group, Inc., 523 F.3d 1323, 1334
(Fed. Cir. 2008). That “single reference must describe
the claimed invention with sufficient precision and
detail to establish that the subject matter existed in
the prior art.” Verve, LLC v. Crane Cams, Inc., 311
F.3d 1116, 1120 (Fed. Cir. 2002).
Petitioner also argues that the claims of the
’332 patent are not entitled to a priority date before
June 22, 2012. Pet. 21. Petitioner argues that
Rasmussen (Ex. 1006) is § 102(b) prior art, if the
challenged claims are entitled only to a priority date
of June 22, 2012. Petitioner alternatively argues that
a provisional application (Ex. 1007, to which
Rasmussen claims priority, see Ex. 1006, [30]) is
§ 102(e) prior art, if the challenged claims are entitled
to the earlier priority date of June 22, 2011. Pet. 21.
Petitioner, thus, provides parallel citations to
Rasmussen and the provisional application, which
Petitioner asserts is identical to Rasmussen. Pet. 21
n.1; Ex. 1057 (comparison of Rasmussen and its
provisional).
As discussed below, the full record persuades
us that Petitioner has proven by a preponderance of
the evidence that claims 1–3, 6–9, 11, 13, 15, 16, 18–
20, 22, 27, and 29–34, but not claim 23, are
anticipated by Rasmussen under 35 U.S.C. § 102(b)
and § 102(e).
A. Rasmussen (Ex. 1006)
Rasmussen describes a “pillow assembly
including a visco-elastic foam core and a cover having

84a
a top portion and a side portion that is more
permeable than the top portion.” Ex. 1006, [57].
Figure 1 of Rasmussen is reproduced below.

Figure 1 shows a perspective view of a pillow
with a portion of its cover removed to expose its core.
Id. ¶ 10. Pillow 100 includes core 110, and core 110
includes top layer 140, bottom layer 150, and
sidewalls 160 connecting top layer 140 and bottom
layer 150. Id. ¶¶ 14, 15.
Sidewalls 160 can be “highly porous, and
therefore provide a significant degree of ventilation
for the pillow,” and “this capability is achieved
through the use of a 3D textile core sidewall 160.” Id.
¶ 29. Top layer 140, bottom layer 150, and sidewalls
160 define cavity 170 that receives filler material 180.
Id. ¶ 15, Fig. 2. “[F]iller material 180 of the pillow 100
can include, but is not limited to, granulated viscoelastic foam” with “hardness . . . for desirable softness
and body-conforming qualities.” Id. ¶¶ 19, 30.

85a
Pillow 100 can include a rib where top layer
140 and sidewall 160 “meet and are joined.” Id. ¶ 15.
According to Rasmussen,
top layer 140, bottom layer 150 and
sidewalls 160 can include one or more
releasable fasteners (e.g., zippers,
buttons, clasps, laces, hook and loop
fastener material pieces, hook and eye
sets, tied ribbons, strings, cords, or other
fastener elements) . . . located between
the top layer 140 and sidewall 160,
between a sidewall 160 and the bottom
layer 150, or within an opening in the
top layer 140, sidewall 160, and/or
bottom layer 150.
Id. ¶ 18.
The “core can be enclosed within a cover having
highly porous sides.” Id. ¶ 6. Cover 190 includes top
portion 200, bottom portion 210, and side portions
220. Id. ¶ 48. Top portion 200 “can be less porous than
the side portions 220 or the bottom portion 210 of the
cover 190.” Id. ¶ 50. Side portions 220 “can be highly
porous (e.g., made of a 3D textile material or a velour
or stretch velour material) . . . and covering the highly
porous material of the core sidewalls 160.” Id. ¶ 49.
“[S]ide portions 220 of the cover 190 . . . can permit
significant ventilation into and out of the pillow.” Id.
“Alternatives to the materials described above for the
pillow cover 190 include any sheet material desired,
including without limitation . . . polyester [and] a
cotton/polyester blend.” Id. ¶ 52. “[C]over 190 can
have one or more seams” that “can be attached by . . .
conventional fasteners (e.g., zippers, buttons, clasps,

86a
laces, hook and loop fastener material, hook and eye
sets, tied ribbons, strings, cords, or other similar
elements, and the like).” Id.
For embodiments “in which reticulated or nonreticulated visco-elastic foam is used to construct
portions of the core (e.g., the top layer 140, the bottom
layer 150, and/or the filler material 180), the pillow
100 provides a soft and comfortable surface for a
user’s body” and “can also conform to a user’s body,
thereby distributing the force applied by the user’s
body upon the top layer 140.” Id. ¶ 46. The “use of
reticulated foam can also enhance the ability of the
pillow 100 to wick moisture away from the user’s body
thereon.” Id. ¶ 22.
B. Independent Claims 1, 31, 33, and 34
Petitioner states that “Rasmussen anticipates
claim 1 both by virtue of: i) its ‘core 110’ structure,
including top layer 140, bottom layer 150, and
sidewalls 160, as well as, separately and
independently, by virtue of ii) its pillow ‘cover 190’
structure, including top portion 200, bottom portion
210, and side portions 220.” Pet. 26; see also id. at 22–
26 (asserting what Rasmussen discloses).
1. Challenge Based on the Core of
Rasmussen
In its description of Rasmussen, Petitioner
provides an annotated Figure 2 from Rasmussen that
is reproduced below. Id. at 23.

87a

The annotated Figure 2 from Rasmussen
illustrates the components of core 110. Id.
a. Uncontested Limitations of
Independent Claims 1, 31, 33,
and 34
For claim 1, Petitioner argues that Rasmussen
discloses a pillow comprising “a first panel having an
edge defining a perimeter; a second panel having an
edge defining a perimeter; and a gusset joining said
first and second panels.” Pet. 26–27 (citing Ex. 1006 ¶
15, Figs. 1, 2; Ex. 1007 ¶ 11, Figs. 1, 2; Rhodes Decl.
¶¶ 107, 108).
Petitioner also argues that Rasmussen
discloses a pillow comprising “a first panel; a second
panel opposite the first panel; and a gusset . . . joining
said first and second panels,” as recited by
independent claim 31, for the reasons asserted
against claims 1–3, 8, and 19. Pet. 55; see also id. at
32–35 (for claims 2 and 3, additionally citing Rhodes
Decl. ¶¶ 115–119; Ex. 1006, Figs. 1, 2; Ex. 1007, Figs.

88a
1, 2), 40–41 (for claims 8 and 19, additionally citing
Ex. 1006 ¶¶ 15, 19, 30–45, Figs. 1, 2; Ex. 1007 ¶¶ 11,
15, 26–41, Figs. 1, 2).
For independent claims 33 and 34, Petitioner
further argues that Rasmussen discloses a pillow
comprising “a first panel having an edge defining a
perimeter; a second panel having an edge defining a
perimeter; and a gusset joining said first and second
panels” for the reasons asserted against claim 1. Pet.
57 (“Each of claim 33 and claim 34’s first three
limitations are identical to the first three limitations
of claim 1.”).
Patent Owner does not present arguments
addressing these limitations of claims 1, 31, 33, and
34. See PO Resp. 53–74.
We find that the cited portions of Rasmussen
disclose and depict that “core 110 of the illustrated
pillow 100 includes a top layer 140, a bottom layer 150
opposite the top layer 140, and sidewalls 160
connecting the top layer 140 and the bottom layer
150.” Ex. 1006 ¶ 15, Figs. 1, 2; Ex. 1007 ¶ 11, Figs. 1,
2. In particular, we find that top layer 140 of
Rasmussen discloses “a first panel having an edge
defining a perimeter,” bottom layer 150 of Rasmussen
discloses “a second panel having an edge defining a
perimeter,” and Rasmussen’s sidewall 160 connecting
the top and bottom layers 140, 150 discloses “a gusset
joining said first and second panels,” as recited by
independent claims 1, 33, and 34. Ex. 1006 ¶ 15, Figs.
1, 2; Ex. 1007 ¶ 11, Figs. 1, 2.
For independent claim 31, we find that top
layer 140 of Rasmussen discloses “a first panel,”
bottom layer 150 of Rasmussen discloses “a second

89a
panel opposite the first panel,” and Rasmussen’s
sidewall 160 connecting the top and bottom layers
140, 150 discloses “a gusset . . . joining said first and
second panels,” as recited by independent claim 31.
Id.
Also for claim 31, Petitioner argues that
Rasmussen discloses “wherein said first panel, said
second panel and said gusset define a cover having an
inner surface defining a chamber for fill material” and
“an interface between said first panel and said gusset
comprises a zipper configured to provide access to the
chamber.” Pet. 54–55. Petitioner additionally argues
that core 110 of Rasmussen discloses the limitations
of independent claim 31 for the same reasons given
for claims 1, 2, 3, 8, and 19. Id. Petitioner further
argues that Rasmussen discloses a zipper at the seam
where the top layer and sidewalls are joined. Id. at 55
(citing Ex. 1006 ¶ 18; Ex. 1007 ¶ 14), 56 (citing Rhodes
Decl. ¶¶ 167–170).
We find that the cited portion of Rasmussen
teaches “top layer 140, bottom layer 150 and sidewalls
160 can include one or more releasable fasteners (e.g.,
zippers . . . ) . . . located between the top layer 140 and
sidewall 160, between a sidewall 160 and the bottom
layer 150, or within an opening in the top layer 140,
sidewall 160, and/or bottom layer 150.” Ex. 1006 ¶ 18;
Ex. 1007 ¶ 14. We, thus, find that Rasmussen
discloses “wherein said first panel, said second panel
and said gusset define a cover having an inner surface
defining a chamber for fill material” and “an interface
between said first panel and said gusset comprises a
zipper configured to provide access to the chamber,”
as recited by independent claim 31.

90a
b. “wherein said first panel and
said second panel each
comprise a porous material,
and wherein said gusset
comprises a material having a
greater porosity than the
porous material” (claim 1)
Petitioner contends that Rasmussen describes
that top and bottom layers 140, 150 are porous
material. Pet. 29 (citing Ex. 1006 ¶¶ 8, 19–24; Ex.
1007 ¶¶ 15–20; Rhodes Decl. ¶ 109). Petitioner also
contends that sidewall 160 is more porous. Id. at 29–
30 (citing Ex. 1006 ¶¶ 8, 29; Ex. 1007 ¶ 25; Rhodes
Decl. ¶ 110).
We find that Rasmussen discloses porous top
and bottom layers 140, 150. Ex. 1006 ¶ 22 (“by
utilizing reticulated visco-elastic foam for the top
layer 140 and/or bottom layer 150 . . . reticulated foam
can provide significantly increased ventilation for the
top and/or bottom layer 140, 150”); see also Ex. 1007
¶ 18 (disclosing the same). We also find that
Rasmussen discloses highly porous sidewalls 160. Ex.
1006 ¶¶ 8 (“side layer is more permeable than the top
layer and the bottom layer”), 29 (“the pillow 100 is
provided with sidewalls 160 that are highly porous,
and therefore provide a significant degree of
ventilation for the pillow, allowing air to enter and
exit the pillow 100 readily through the sides of the
pillow 100” and “this capability is achieved through
the use of a 3D textile core sidewall 160”); see also Ex.
1007 ¶ 25 (disclosing the same).
Patent Owner responds that Rasmussen does
not disclose the “gusset material itself is more porous

91a
that the materials of the first and second panels.”
PO Resp. 68. Patent Owner argues that, under
either of Petitioner’s interpretations of Rasmussen,
Rasmussen teaches at best that Petitioner’s alleged
gusset “as a whole” is more porous than the alleged
panels, not that the base material of the alleged
gusset is more porous than the materials of the
alleged panels. Id. (citing Pet. 26, 29, 30; Ex. 1006 ¶¶
8, 50; Parachuru Decl. ¶¶ 175–178). According to
Patent Owner, “even if the alleged gusset in
Rasmussen is more porous than the first and second
panels, this does not necessarily mean (and is, thus,
not inherent) that the material making up the gusset
has a greater porosity than the material(s) forming
the first and second panels.” Id. at 68–69.
Petitioner, however, cites portions of
Rasmussen that disclose the “side layer is more
permeable than the top layer and the bottom layer”
and “highly porous” sidewalls 160 allow air to enter
and exit its sides “achieved through use of a 3D textile
core sidewall 160.” Pet. 29–30 (citing Ex. 1006 ¶ 29;
Ex. 1007 ¶ 25). In connection with “3D textile,”
Rasmussen states that the “sides of the core can be
defined by highly porous material (such as a 3D
textile material).” Ex. 1006 ¶ 6; Ex. 1007 ¶ 5. We,
therefore, find that Rasmussen discloses that the 3D
textile making up its sidewalls 160 has a greater
porosity than the material forming its top and bottom
layers 140, 150.
Thus, based on the full record, we determine
that Petitioner shows by a preponderance of the
evidence that Rasmussen anticipates claim 1 based
on disclosures related to its core.

92a
c. “a
gusset
perimetrically
bounding and joining said first
and second panels” (claim 31)
Petitioner argues that Rasmussen discloses “a
gusset perimetrically bounding and joining said first
and second panels,” as recited by claim 31 for the
reasons given for claims 1–3, 8, and 19. Pet. 54–55;
see also id. at 33–35 (for claims 2 and 3, citing Rhodes
Decl. ¶ 116; Ex. 1006, Figs. 1, 2; Ex. 1007, Figs. 1, 2),
40–41 (for claims 8 and 19, citing Ex. 1006 ¶ 15, Figs.
1, 2; Ex. 1007 ¶ 11, Figs. 1, 2).
We find that Figures 1 and 2 show sidewall 160
of core 110 joined to top and bottom layers 140, 150.
As discussed above in connection with claim 1, we find
that Rasmussen discloses “sidewalls 160 connecting
the top layer 140 and the bottom layer 150” and that
the “top layer 140, bottom layer 150 and sidewalls 160
define a cavity 170 shaped to receive filler material
180.” Ex. 1006 ¶ 15; Ex. 1007 ¶ 18. We also credit the
testimony of Petitioner’s declarant. Ex. 2016, 95:11–
15 (stating, during deposition, that “[a]s a person with
many years of experience in the industry, one can
read the Rasmussen patent and completely
understand and expect to find that as described, the
side wall goes around all of the edges of the pillow”),
103:3–9 (stating that “a person with experience, such
as mine, in understanding of the product and that the
consumer is expecting to find a cover that covers all
sides of the pillow, Rasmussen makes it clear through
description and illustration that the cover is on all
sides of the pillow”).
Patent Owner responds that “[n]othing in these
cited portions of Rasmussen (or anywhere else),
however, discloses that the sidewalls of Rasmussen’s

93a
core or the side portions of Rasmussen’s cover
‘perimetrically bound’ the entirety of the corresponding
top and bottom layers/portions.” PO Resp. 74 (citing
Pet. 33–37; Ex. 2016, 94:18–95:15, 102:20–103:9).
After weighing Petitioner’s evidence (Ex. 1006
¶¶ 15, 48; Ex. 1007 ¶¶ 18, 44; Rhodes Decl. ¶ 120) and
Patent Owner’s evidence (Ex. 2016, 94:18–95:15,
102:20–103:9), we determine that Petitioner carries
its burden of showing by a preponderance of the
evidence that Rasmussen anticipates claim 31 based
on disclosures related to the core.
d. “wherein said gusset is formed
of an open cell construction, said
open cell construction being
formed by interlaced strands”
(claim 33) and “wherein said
gusset is formed of an open cell
construction, said open cell
construction being formed by
spaced-apart strands” (claim
34)
Independent claims 33 and 34 have similar
limitations as claim 1 but require the gusset to be
formed of a specific open cell constructions. Ex. 1001,
7:4–17. Specifically, independent claim 33 recites
“wherein said gusset is formed of an open cell
construction, said open cell construction being formed
by interlaced strands,” and independent claim 34
recites “wherein said gusset is formed of an open cell
construction, said open cell construction being formed
by spaced-apart strands.” Id.
For independent claims 33 and 34, Petitioner
cites previous arguments for limitations that are

94a
identical to ones in claim 1. Pet. 57. Petitioner also
argues that the core of Rasmussen has a gusset with
interlaced strands or spaced-apart strands because
one of ordinary skill in the art would understand
Rasmussen’s “3D textile material” to have an open
cell construction formed by interlaced and spaced
apart strands or 3D spacer fabric. Pet. 59 (citing
Rhodes Decl. ¶¶ 175–179).
As discussed above, we find that Rasmussen
discloses highly porous sidewalls 160. Ex. 1006 ¶¶ 8
(“side layer is more permeable than the top layer and
the bottom layer”), 29 (“the pillow 100 is provided
with sidewalls 160 that are highly porous, and
therefore provide a significant degree of ventilation
for the pillow, allowing air to enter and exit the pillow
100 readily through the sides of the pillow 100” and
“this capability is achieved through the use of a 3D
textile core sidewall 160”); see also Ex. 1007 ¶ 25
(disclosing the same). In view of our interpretation of
“open cell construction” to mean a “construction
having overall porosity greater than the inherent
porosity of the constituent material or inherently
having high porosity,” as determined above in Section
II.A., we determine that “highly porous” sidewalls 160
disclose “said gusset is formed of an open cell
construction,” as recited by claims 33 and 34.
Petitioner’s declarant states that
“highly porous” “3D textile material”
used for the gusset of Rasmussen’s core
110 has interlaced strands in that the
fibers are interlaced to create the three
dimensional textile structure of the
material, and that the material has

95a
spaced apart strands in that the fibers
have spacing sufficient to make the
material “highly porous.”
Rhodes Decl. ¶ 178.
Patent Owner states that the “building block of
textiles is the fiber(s)” (PO Resp. 4), “fibers can then
be ‘spun’ into yarn to create various textiles” (id. at 5),
“there are four primary techniques for constructing
fabrics, namely: weaving, knitting, braiding, and
nonwoven manufacturing” (id. at 12), “[s]tandard
weaving used two perpendicular yarn sets” (id.),
“knitting is characterized by rows and columns of
interconnected yarn loops” (id.), “[b]raiding can use a
single yarn set, wherein two oriented braiders are
intertwined/interlaced with each other” (id.), and
“non-wovens use fibers, rather than yarns” (id. at 13).
Reproduced below is a figure of non-woven fabric that
Patent Owner provides.

96a
The figure shows “[b]asic non-woven fabric.”
PO Resp. 13 (citing Ex. 2007, 6). Thus, the parties
agree that a fabric or textile material would include
strands. See also Ex. 2016, 27:12–13 (“A fabric in its
most generic description would be a textile.”), 27:15–
19 (In response to “are there differences between a
fabric and a textile,” Petitioner’s declarant answers “I
would say that the terms are largely synonymous.”).
Patent Owner also states that “[b]y extending
the basic 2-D techniques of knitting, weaving,
braiding, and non-wovens and adding further
complexity a wide array of different 3-D textiles can
be created.” PO Resp. 13. Patent Owner provides
examples of 3D textiles, all of which include
“interlaced strands.” See PO Resp. 14–27. In view of
the above, we find that Rasmussen’s “highly porous”
“3D textile material” discloses “said open cell
construction being formed by interlaced strands,” as
recited by claim 33. For example, reproduced below is
a figure of 3-D non-woven structures that Patent
Owner provides.

The figures shows “[e]xamples of 3-D nonwoven structures.” PO Resp. 25 (citing Ex. 2007, 26).

97a
Both parties also agree that highly porous
textiles have spaced-apart strands. PO Resp. 27 (“The
tightness of the 3D structure itself can also impact the
overall porosity. Tighter structures tend to have lower
porosity because there is less space between the yarns
forming the structure.”); Rhodes Decl. ¶ 178;
Parachuru Decl. ¶ 93 (“Similarly, loose structures
tend to have higher porosity due to the increased
space between the yarns forming the structure.”).
Thus, we find that Rasmussen’s “highly porous” “3D
textile material” discloses “said open cell construction
being formed by spaced-apart strands,” as recited by
claim 34.
Patent Owner responds that Rasmussen does
not disclose expressly the specific open cell
configurations of independent claims 33 and 34. PO
Resp. 53. In particular, Patent Owner contends that
Rasmussen does not disclose expressly an open cell
construction formed by “interlaced strands,” as
required by claim 33, or “spaced-apart strands,” as
required by claim 34. Id. at 53–55; see also id. at 54
(describing the disclosure of the ’334 patent) (citing
Ex. 1001, 2:21–24; Ex. 2016, 19:2–11, 140:13–22).
According to Patent Owner, Petitioner’s declarant
admitted that Rasmussen does not disclose the open
cell constructions of these claims. Id. at 54–55 (citing
Ex. 2016, 76:17–78:7). Patent Owner also argues that
Rasmussen’s “3D textile material” or “highly porous
3D textiles” are broad terms that encompass many
different types of material and fall short of
demonstrating that Rasmussen discloses the specific
claimed structures of the claims. Id. at 55.
Patent Owner also responds that “Petitioner
never even argues that the ‘interlaced,’ ‘spaced-apart,’

98a
or ‘mesh’ strand structures are inherent from
Rasmussen’s disclosure of 3-D textiles.” PO Resp. 55.
Patent Owner states that “both parties’ experts
acknowledge that 3D textiles, as well as highly porous
3D textiles, can have numerous possible
configurations other than the specific open cell
constructions recited in the claims,” and thus,
Rasmussen does not disclose inherently the claimed
structures. Id. at 55–57 (citing Parachuru Decl. ¶¶
67–73, 92–94, 158–164, 168–169; Ex. 2016, 15:23–
16:7, 31:21–32:6, 36:3–7, 36:14–18, 37:7–21, 49:4–12,
50:15–51:12, 52:19–53:3, 123:7–23, 135:23–136:24).
The record, however, indicates that “highly porous”
“3D textile material” has “interlaced strands” and
“spaced-apart strands,” as argued by Petitioner and
as required by claims 33 and 34.
Patent Owner further responds that
Rasmussen’s generic reference to 3D textiles does not
disclose sufficiently the species set forth in the claims.
PO Resp. 57. Patent Owner argues that both parties’
experts agree that “3D textiles” is a broad genus that
covers an exponential number of materials. Id. at 57–
59 (citing Parachuru Decl. ¶¶ 91–94; Ex. 2016, 31:21–
32:6, 37:7–21).
Patent Owner additionally responds that
Rasmussen’s generic disclosure does not enable the
specific, claimed species, and thus, does not anticipate
the challenged claims. PO Resp. 59–60. Specifically,
Patent Owner argues that Rasmussen discloses “3D
textiles,” which undisputedly encompasses an
exponential number of materials and “is also
completely devoid of any discussion of any particular
species within such a broad genus.” Id. at 60–61.
Patent Owner also argues that the claimed structures

99a
“result from [] modifying or transforming a
constituent base material,” and Rasmussen provides
no guidance regarding how to transform constituent
materials to arrive at the claimed structures. Id. at 61
(citing Parachuru Decl. ¶ 153). Patent Owner
additionally argues that undue experimentation
would be required to arrive at the claimed structure
and one of ordinary skill in the art would not be
motivated to try based on Rasmussen’s generic
disclosure. Id. at 61–62.
Relying on its proposed interpretation of “open
cell construction,” Patent Owner argues that
Rasmussen does not disclose open cells defined by
“interlaced” or “spaced-apart strands,” as required by
claims 33 and 34. PO Resp. 64–66; see also id. at 66
(citing Parachuru Decl. ¶¶ 154–157). Patent Owner
also argues that Petitioner does not indicate where
Rasmussen teaches such open cell construction. Id. at
65–66 (citing Pet. 51, 59; Rhodes Decl. ¶¶ 157, 175–
178). Patent Owner contends that “3D textile
material” would not be understood to have such a
structure, as asserted by Petitioner and Petitioner’s
declarant. Id. at 65. Patent Owner further argues that
3D textiles and highly porous textiles do not require
interlaced or spaced-apart strands. Id. at 66–67
(citing Parachuru Decl. ¶¶ 154–162). Patent Owner
further contends that Petitioner’s analysis renders
claim limitations meaningless. Id. at 67 (citing
Parachuru Decl. ¶ 161). Patent Owner additionally
asserts that Rasmussen’s generic reference to 3D
textiles is not enabling and cannot anticipate the
claims. Id. Based on the full record, Petitioner
sufficiently shows that Rasmussen’s “highly porous”
“3D textile material” discloses the open cell
constructions of claims 33 and 34. Also, even if

100a
Rasmussen uses the “3D textile” broadly, the full
record persuades us that Rasmussen discloses the
limitations of claims 33 and 34. PO Resp. 4, 5, 12–27;
Rhodes Decl. ¶ 178; Ex. 1006 ¶¶ 8, 29; Ex. 1007 ¶ 25;
Parachuru Decl. ¶ 93. Also, our interpretation of the
limitations of claims 33 and 34 do not require
modifying or transforming a constituent base
material.
Patent Owner contends that Rasmussen does
not disclose 3D spacer fabric, which is disclosed in the
’332 patent as a preferred type of gusset material. PO
Resp. 62–64 (citing Pet. 51, 57, 59; Ex. 1006 ¶ 49; Ex.
2016, 34:7–13, 36:14–18, 47:24–48:12, 46:9–47:3,
137:2–17, 138:2–10); Ex. 1001, 2:47–49.
The full record indicates that both parties’
declarants agree that “spacer fabric” is also known as
“3-dimensional fabric.” Ex. 1009 ¶ 16 (“Spacer fabric,
also known as double needle bar fabrics (typically
knitted on a double needle bar machine) or 3dimensional fabric, is typically made by knitting two
fabric layers.”) (emphases added); Rhodes Decl. ¶ 60
(quoting Ex. 1009 ¶ 16); Parachuru Decl. ¶ 83
(quoting Ex. 1009 ¶ 16); see also PO Resp. 21–22
(quoting the same). As discussed above, Rasmussen
discloses a highly porous 3D textile material.
Second, the full record indicates that both
parties agree that 3D spacer material is “highly
porous.” Pet. 11 (“it was known to use spacer fabrics
for breathability and cooling in bedding” and “were
already being used for their ‘airy’ and ‘mesh’
construction to provide laterally ventilated side walls
to ‘optimize the sleeping climate’ for mattresses”), 12
(“spacer fabric was known for use in pillows, including

101a
for pillow covers, and, as demonstrated by the
Rasmussen reference discussed in detail below in
Section IV, to provide a breathable gusset comprised
of a highly porous 3D textile for lateral ventilation
and cooling”); PO Resp. 21 (“The spacer fabric is
highly porous because the sides of the fabrics between
the top and bottom layers are only partially filled with
spacer fibers.”); Rhodes Decl. ¶ 55 (“3D spacer fabrics
have been well known by skilled artisans before the
’332 Patent to be ‘highly breathable’ based on their
high air permeability, ability to transport water
vapor, and thermal conductivity”) (citing Ex. 1009
¶ 16; Ex. 1029, 1; Ex. 1030, 22–25); Parachuru Decl.
¶ 84 (“spacer fabric is highly porous”).
Further, Rasmussen discloses
a cover having highly porous sides (e.g.,
made of a 3D textile material or a velour
or stretch velour material) corresponding
to and covering the sides of the core
and/or a highly porous bottom (e.g.,
again, made of a 3D textile material or a
velour or a stretch velour material).
Ex. 1006 ¶ 6; Ex. 1007 ¶ 5. We find that Rasmussen’s
disclosure of “velour or a stretch velour material” as
an alternative to “3D textile material” indicates that
“3D textile material” has similar specificity as “velour
or a stretch velour material.” See also Ex. 2016,
36:14–17 (In response to “[c]an you give me some
examples of 3D knitted textiles,” Petitioner’s
declarant answering “[v]elour, you can knit Terry
cloth as well, fleece, 3D spacer fabrics,” thus
indicating 3D spacer fabric and velour are in a same
group). If “3D textile material” has less specificity,

102a
especially in the manner contended by Patent Owner,
then the additional alternative of “velour or a stretch
velour material” would be unnecessary. Thus, the
record provides evidence that “3D textile material” is
3D spacer material and not materials that include 3D
spacer material and “velour or stretch velour
material.”
In the context of Rasmussen’s description of
materials that are highly porous and applicable for its
sidewalls and side portions of a pillow, we find that
“3D textile” must mean something appropriate for a
pillow, and therefore mean something more specific,
like “velour or stretch velour material.” Record
evidence does not indicate which other material is
highly porous, 3-dimensional, and appropriate for a
ventilated pillow. See Tr. 16:15–17:21, 18:3–19:10.
Finally, Patent Owner’s declarant indicates that
spacer fabric includes a mesh component. Parachuru
Decl. ¶ 83 (“spacer fabric . . . is typically made by
knitting two fabric layers” that “could be the same or
different, i.e. mesh or solid”).
In view of the above, we find that the “3D
textile material” of Rasmussen is 3D spacer fabric, not
a generic reference to any 3D fabric. Therefore,
Petitioner persuades us by a preponderance of the
evidence that Rasmussen’s “highly porous” “3D textile
material” is 3D spacer fabric and anticipates claims
33 and 34 for another reason.
For the above reasons, Petitioner persuades us
by a preponderance of the evidence that Rasmussen
anticipates claims 33 and 34 based on disclosures
related to its core.

103a
2. Challenge Based on the Cover of
Rasmussen
Separate and independent of its arguments
based on core 110, Petitioner also contends that
Rasmussen’s cover 190 with top portion 200, bottom
portion 210, and side portions 220 discloses the
limitations of claim 1. Pet. 26; see also id. at 22–26
(asserting what Rasmussen discloses). In its
description of Rasmussen, Petitioner provides an
annotated Figure 2 from Rasmussen that is
reproduced below. Id. at 24.

The annotated Figure 2 from Rasmussen
illustrates components of cover 190. Id.
a. Uncontested Limitations of
Independent Claims 1, 31, 33,
and 34
For independent claims 1, 33, and 34,
Petitioner argues that Rasmussen discloses a pillow
comprising “a first panel having an edge defining a

104a
perimeter; a second panel having an edge defining a
perimeter; and a gusset joining said first and second
panels.” Pet. 27–28 (citing Ex. 1006 ¶¶ 48, 52, Figs. 1,
2; Ex. 1007 ¶¶ 44, 48, Figs. 1, 2; Rhodes Decl. ¶¶ 107,
108).
For independent claim 31, Petitioner also
argues that Rasmussen discloses a pillow comprising
“a first panel; a second panel opposite the first panel;
and a gusset . . . joining said first and second panels”
for the reasons asserted against claims 1–3, 8, and 19.
Pet. 55–56; see also id. at 32–35 (for claims 2 and 3,
additionally citing Rhodes Decl. ¶¶ 115–119; Ex.
1006, Figs. 1, 2; Ex. 1007, Figs. 1, 2), 40–41 (for claims
8 and 19, additionally citing Ex. 1006 ¶¶ 15, 19, 30–
45, Figs. 1, 2; Ex. 1007 ¶¶ 11, 15, 26–41, Figs. 1, 2).
Patent Owner does not present arguments
addressing these limitations of claims 1 and 31. See
PO Resp. 53–74.
We find that the cited portions of Rasmussen
disclose and depict that “pillow 100 can have a cover
190 substantially enclosing the pillow 100” and that
“cover 190 can include a top portion 200, a bottom
portion 210 opposite the top portion 200, and side
portions 220 extending between the top portion 200
and the bottom portion 210.” Ex. 1006 ¶ 48, Figs. 1, 2;
Ex. 1007 ¶ 44, Figs. 1, 2.
In particular, we find that top portion 200 of
Rasmussen discloses “a first panel having an edge
defining a perimeter,” bottom portion 210 of
Rasmussen discloses “a second panel having an edge
defining a perimeter,” and Rasmussen’s side portions
220 extending between top and bottom portions 200,
210 discloses “a gusset joining said first and second

105a
panels,” as recited by independent claims 1, 33, and
34. Ex. 1006 ¶ 15, Figs. 1, 2; Ex. 1007 ¶ 11, Figs. 1, 2.
For independent claim 31, we find that top
portion 200 discloses “a first panel,” bottom portion
210 discloses “a second panel opposite the first panel,”
and side portions 220 disclose “a gusset . . . joining
said first and second panels.” Id.
Also for claim 31, Petitioner argues that
Rasmussen discloses “wherein said first panel, said
second panel and said gusset define a cover having an
inner surface defining a chamber for fill material” and
“an interface between said first panel and said gusset
comprises a zipper configured to provide access to the
chamber.” Pet. 54–56. Petitioner contends that cover
190 of Rasmussen disclose the limitations of
independent claim 31 for the same reasons given for
claims 1, 2, 3, 8, and 19. Id. at 55–56. Petitioner
further argues that Rasmussen discloses a zipper at
either or both of the seams between top portion 200
and side portion 220 and between bottom portion 210
and side portion 220. Id. at 56 (citing Ex. 1006 ¶¶ 52,
53; Ex. 1007 ¶¶ 48, 49; Rhodes Decl. ¶¶ 167–170).
We find that Rasmussen discloses that “cover
190 can have one or more seams” that “can be attached
by . . . conventional fasteners (e.g., zippers . . . ).” Ex.
1006 ¶ 52; Ex. 1007 ¶ 48. We also find that
Rasmussen discloses that “cover 190 is removable
from such layers 140, 150 and sidewalls 160 . . . by
one or more releasable fasteners (e.g., zippers . . . )”
and that “[a]ny such fasteners can be positioned to
releasably secure at least one portion of a cover 190 to
another portion of the cover 190.” Ex. 1006 ¶ 53; Ex.
1007 ¶ 49.

106a
b. “wherein said first panel and
said second panel each
comprise a porous material,
and wherein said gusset
comprises a material having a
greater porosity than the
porous material” (claim 1)
Petitioner contends that Rasmussen describes
that top and bottom portions 200, 210 are less porous
than side portions 220. Pet. 30 (citing Ex. 1006 ¶¶ 6,
49, 50, Fig. 2, claims 11, 12; Ex. 1007 ¶¶ 5, 45, 46, Fig.
2; Rhodes Decl. ¶¶ 111–113).
We find that Petitioner’s citations to
Rasmussen disclose that “the core can be enclosed
within a cover having highly porous sides,” “the top of
the cover can be less porous than the sides or bottom
of the cover,” and “the top and bottom of the cover are
less porous than the sides of the cover.” Ex. 1006 ¶ 6;
Ex. 1007 ¶ 5. We also find that Rasmussen discloses
highly porous side portions 220. Ex. 1006 ¶¶ 49 (“side
portions 220 of the cover 190 can be highly porous
(e.g., made of a 3D textile material or a velour or
stretch velour material)” and “can permit significant
ventilation into and out of the pillow”); see also Ex.
1007 ¶ 45 (disclosing the same).
We, thus, find that less porous top and bottom
portions 200, 210 and highly porous side portions 220
made of 3D textile material disclose “wherein said
first panel and said second panel each comprise a
porous material, and wherein said gusset comprises a
material having a greater porosity than the porous
material,” as recited by claim 1.

107a
Patent Owner responds Rasmussen does not
disclose that the “gusset material itself is more
porous that the materials of the first and second
panels.” PO Resp. 68. Patent Owner argues that,
under either of Petitioner’s interpretations of
Rasmussen, Rasmussen teaches at best that
Petitioner’s alleged gusset “as a whole” is more porous
than the alleged panels, not that the base material of
the alleged gusset is more porous than the materials
of the alleged panels. Id. (citing Pet. 26, 29, 30; Ex.
1006 ¶¶ 8, 50; Parachuru Decl. ¶¶ 175–178).
According to Patent Owner, “even if the alleged gusset
in Rasmussen is more porous than the first and
second panels, this does not necessarily mean (and is,
thus, not inherent) that the material making up the
gusset has a greater porosity than the material(s)
forming the first and second panels.” Id. at 68–69.
Based on our findings above, Petitioner
sufficiently shows that Rasmussen discloses that the
material of the side portions 220 has a greater
porosity than the material of its top and bottom
portions 200, 210. See also Ex. 1006 ¶ 6; Ex. 1007 ¶ 5
(disclosing “highly porous material (such as a 3D
textile material)”).
Thus, based on the full record, we determine
that Petitioner shows by a preponderance of the
evidence that Rasmussen anticipates claim 1 based
on disclosures related to its cover.
c. “a
gusset
perimetrically
bounding and joining said first
and second panels” (claim 31)
Petitioner argues that Rasmussen discloses “a
gusset perimetrically bounding and joining said first

108a
and second panels,” as recited by claim 31 for the
reasons given for claims 1–3, 8, and 19. Pet. 54–55;
see also id. at 35–36 (for claims 2 and 3, citing Rhodes
Decl. ¶ 118; Ex. 1006 ¶ 48, Fig. 2; Ex. 1007 ¶ 44, Fig.
2), 42 (for claims 8 and 19, citing Rhodes Decl. ¶ 133;
Ex. 1006 ¶ 48, Figs. 1, 2; Ex. 1007 ¶ 44, Figs. 1, 2).
We find that “side portions 220 extend[]
between the top portion 200 and the bottom portion
210” and that the inner surfaces of top portion 200,
bottom portion 210, and side portions 220 define an
inner cavity. Ex. 1006 ¶ 48; Ex. 1007 ¶ 44. We also
credit the testimony of Petitioner’s declarant. Ex.
2016, 95:11–15 (stating, during deposition, that “[a]s
a person with many years of experience in the
industry, one can read the Rasmussen patent and
completely understand and expect to find that as
described, the side wall goes around all of the edges of
the pillow”), 103:3–9 (stating that “a person with
experience, such as mine, in understanding of the
product and that the consumer is expecting to find a
cover that covers all sides of the pillow, Rasmussen
makes it clear through description and illustration
that the cover is on all sides of the pillow”).
Patent Owner responds that “[n]othing in these
cited portions of Rasmussen (or anywhere else),
however, discloses that the sidewalls of Rasmussen’s
core or the side portions of Rasmussen’s cover
‘perimetrically bound’ the entirety of the
corresponding top and bottom layers/portions.” PO
Resp. 74 (citing Pet. 33–37; Ex. 2016, 94:18–95:15,
102:20–103:9).
After weighing Petitioner’s evidence (Ex. 1006
¶¶ 15, 48; Ex. 1007 ¶¶ 18, 44; Rhodes Decl. ¶ 120) and

109a
Patent Owner’s evidence (Ex. 2016, 94:18–95:15,
102:20–103:9), we determine that Petitioner carries
its burden of showing by a preponderance of the
evidence that Rasmussen anticipates claim 31 based
on disclosures related to the cover.
d. “wherein said gusset is formed
of an open cell construction,
said open cell construction
being formed by interlaced
strands” (claim 33) and
“wherein said gusset is formed
of an open cell construction,
said open cell construction
being formed by spaced-apart
strands” (claim 34)
Independent claims 33 and 34 have similar
limitations as claim 1 but require the gusset to be
formed of an open cell construction. Ex. 1001, 7:4–17.
Specifically, independent claim 33 recites “wherein
said gusset is formed of an open cell construction, said
open cell construction being formed by interlaced
strands,” and independent claim 34 recites “wherein
said gusset is formed of an open cell construction, said
open cell construction being formed by spaced-apart
strands.” Id.
For independent claims 33 and 34, Petitioner
cites previous arguments for limitations that are
identical to ones in claim 1. Pet. 57. Petitioner also
argues that the cover of Rasmussen has a gusset with
interlaced strands or spaced-apart strands because
one of ordinary skill in the art would understand
Rasmussen’s “3D textile material” to have an open
cell construction formed by interlaced and spaced-

110a
apart strands or 3D spacer fabric. Id. at 59 (citing
Rhodes Decl. ¶¶ 175–179).
As discussed above, we find that Petitioner’s
citations to Rasmussen disclose that “the core can be
enclosed within a cover having highly porous sides,”
“the top of the cover can be less porous than the sides
or bottom of the cover,” and “the top and bottom of the
cover are less porous than the sides of the cover.” Ex.
1006 ¶ 6; Ex. 1007 ¶ 5. We also find that Rasmussen
discloses highly porous side portions 220. Ex. 1006 ¶¶
49 (“side portions 220 of the cover 190 can be highly
porous (e.g., made of a 3D textile material or a velour
or stretch velour material)” and “can permit
significant ventilation into and out of the pillow”); see
also Ex. 1007 ¶ 45 (disclosing the same). Patent
Owner asserts the same arguments for Petitioner’s
anticipation challenges based on the core and cover
for these limitations, which we address above. See PO
Resp. 53–67.
Thus, for the reasons discussed above for the
core of Rasmussen, Petitioner persuades us by a
preponderance of the evidence that Rasmussen
anticipates claims 33 and 34 based on disclosure
related to its cover.
C. Dependent Claims 2 and 3
Claims 2 and 3 depend from claim 1. Ex. 1001,
5:30–39. For the reasons discussed above in Section
III.B., the record persuades us that Petitioner shows
by a preponderance of the evidence that claim 1 is
anticipated by Rasmussen based on disclosures
related to its core and its cover.

111a
Claim 2 recites:
a first end of said gusset engages
said edge of said first panel such that
said gusset extends continuously about
an entire portion of the perimeter of the
first panel; and
a second end of said gusset
opposite said first end engages said edge
of said second panel such that said
gusset extends continuously about an
entire portion of the perimeter of the
second panel.
Id. at 5:30–37. Claim 3 recites “wherein said gusset
perimetrically bounds said first and second panels.”
Id. at 5:38–39.
Petitioner argues that the core of Rasmussen
discloses claims 2 and 3. Pet. 33–35 (citing Rhodes
Decl. ¶ 116; Ex. 1006, Figs. 1, 2; Ex. 1007, Figs. 1, 2).
Petitioner also argues that the cover of Rasmussen
discloses claims 2 and 3. Id. at 35–36 (citing Rhodes
Decl. ¶ 118; Ex. 1006 ¶ 48, Fig. 2; Ex. 1007 ¶ 44, Fig.
2).
We find that Figures 1 and 2 show sidewall 160
of core 110 joined to top and bottom layers 140, 150
and side portion 220 of cover 190 joined to top and
bottom portions 200, 210. As discussed above in
connection with claim 1, we find that Rasmussen
discloses “sidewalls 160 connecting the top layer 140
and the bottom layer 150” and that the “top layer 140,
bottom layer 150 and sidewalls 160 define a cavity
170 shaped to receive filler material 180.” Ex. 1006
¶ 15; Ex. 1007 ¶ 18. We also find that “side portions

112a
220 extend[] between the top portion 200 and the
bottom portion 210” and that the inner surfaces of top
portion 200, bottom portion 210, and side portions 220
define an inner cavity. Ex. 1006 ¶ 48; Ex. 1007 ¶ 44.
We also credit the testimony of Petitioner’s declarant
that “Rasmussen anticipates claims 2–3.” Rhodes
Decl. ¶ 120; see also Ex. 2016, 95:11–15 (stating,
during deposition, that “[a]s a person with many
years of experience in the industry, one can read the
Rasmussen patent and completely understand and
expect to find that as described, the side wall goes
around all of the edges of the pillow”), 103:3–9
(stating that “a person with experience, such as mine,
in understanding of the product and that the
consumer is expecting to find a cover that covers all
sides of the pillow, Rasmussen makes it clear through
description and illustration that the cover is on all
sides of the pillow”).
Patent Owner responds that “[n]othing in these
cited portions of Rasmussen (or anywhere else),
however, discloses that the sidewalls of Rasmussen’s
core or the side portions of Rasmussen’s cover
‘perimetrically bound’ the entirety of the
corresponding top and bottom layers/portions.” PO
Resp. 74 (citing Pet. 33–37; Ex. 2016, 94:18–95:15,
102:20–103:9).
After weighing Petitioner’s evidence (Ex. 1006
¶¶ 15, 48; Ex. 1007 ¶¶ 18, 44; Rhodes Decl. ¶ 120) and
Patent Owner’s evidence (Ex. 2016, 94:18–95:15,
102:20–103:9), we determine that Petitioner carries
its burden of showing by a preponderance of the
evidence that Rasmussen anticipates claims 2 and 3
in its challenge based on the core and its challenge
based on the cover.

113a
D. Dependent Claims 6–9, 19, and 20
1. Challenge Based on the Core of
Rasmussen
Claims 6–8, 19, and 20 depend from claim 1.
Ex. 1001, 5:45–53, 6:21–29. Claim 9 depends from
claim 8. Id. at 5:54–55. For the reasons discussed
above in Section III.B.1., the record persuades us that
Petitioner shows by a preponderance of the evidence
that claim 1 is anticipated by Rasmussen based on
disclosures related to its core.
Petitioner argues that the core of Rasmussen
discloses “wherein said first panel is formed with a
moisture dispersing material,” as recited by claim 6.
Pet. 38 (citing Ex. 1006 ¶¶ 22, 24; Ex. 1007 ¶¶ 18, 20;
Rhodes Decl. ¶ 124). We find that a cited portion of
Rasmussen teaches “advantages are achieved by
utilizing reticulated visco-elastic foam for the top
layer 140 and/or bottom layer 150 of the pillow” and
“use of reticulated foam can also enhance the ability
of the pillow 100 to wick moisture away from the
user’s body thereon.” Ex. 1006 ¶ 22; Ex. 1007 ¶ 18.
Petitioner argues that Rasmussen discloses
“wherein said cover is formed by at least two partially
or wholly separable portions, with said separable
portions being selectively joinable by a fastening
means,” as recited by claim 7. Pet. 39 (citing Ex. 1006
¶ 18; Ex. 1007 ¶ 14; Rhodes Decl. ¶ 126). We find that
the cited portion of Rasmussen teaches
top layer 140, bottom layer 150 and
sidewalls 160 can include one or more
releasable fasteners (e.g., zippers,
buttons, clasps, laces, hook and loop

114a
fastener material pieces, hook and eye
sets, tied ribbons, strings, cords, or other
fastener elements) . . . located between
the top layer 140 and sidewall 160,
between a sidewall 160 and the bottom
layer 150, or within an opening in the
top layer 140, sidewall 160, and/or
bottom layer 150.
Ex. 1006 ¶ 18; Ex. 1007 ¶ 14.
Petitioner argues that Rasmussen discloses
“wherein said first panel, said second panel and said
gusset define a cover, said pillow further comprising
a fill material disposed within said cover,” as recited
by claim 8, and “wherein said first panel, said second
panel and said gusset define a cover, said pillow
further comprising a fill material disposed within said
cover such that an outer surface of said fill material
engages inner surfaces of said first and second panels”
as recited by claim 19. Pet. 40–41 (citing Ex. 1006 ¶
15, Figs. 1, 2; Ex. 1007 ¶ 11, Figs. 1, 2). We find that
the cited portions of Rasmussen teach and depict that
“top layer 140, bottom layer 150 and sidewalls 160
define a cavity 170 shaped to receive filler material
180” and that an outer surface of filler material 180
engages inner surfaces of top and bottom layers 140,
150. Ex. 1006 ¶ 15, Figs. 1, 2; Ex. 1007 ¶ 11, Figs. 1,
2.
Claim 9 depends from claim 8, and claim 20
depends from claim 1. Ex. 1001, 5:54–55, 6:26–29.
Petitioner argues that Rasmussen discloses “wherein
said fill material comprises a compliant material,” as
recited by claim 9, and “wherein said first panel, said
second panel and said gusset define a cover, said

115a
pillow further comprising a fill material disposed
within said cover, said fill material comprising
memory foam,” as recited by claim 20. Pet. 41 (citing
1006 ¶¶ 19, 30–45; Ex. 1007 ¶¶ 15, 26–41; Rhodes
Decl. ¶¶ 131–132). We find that the cited portions
teach that “visco-elastic foam (sometimes referred to
as ‘memory foam’ . . . ) . . . can have a hardness of at
least 30 N and no greater than about 175 N for
desirable softness and body-conforming qualities” and
that “filler material 180 of the pillow 100 can include,
but is not limited to, granulated visco-elastic foam.”
Ex. 1006 ¶¶ 19, 30; Ex. 1007 ¶¶ 15, 26.
Patent Owner states that “[f]or at least the
reasons discussed above for why Rasmussen does not
anticipate any of the challenged independent claims,
Rasmussen also does not anticipate any of the
challenged dependent claims.” PO Resp. 74–75; see
also Pet. Reply 10 (“PO makes no separate arguments
regarding claims 6–9, 11, and 18–20, which are,
therefore, also anticipated, for the reasons identified
in the Petition.”).
Based on the full record, Petitioner persuades
us by a preponderance of the evidence that claims 6–
9, 19, and 20 are anticipated by Rasmussen based on
disclosures related to its core.
2. Challenge Based on the Cover of
Rasmussen
Claims 6–8, 19, and 20 depend from claim 1.
Ex. 1001, 5:45–53, 6:21–29. Claim 9 depends from
claim 8. Id. at 5:54–55. For the reasons discussed
above in Section III.B.1., the record persuades us that
Petitioner shows by a preponderance of the evidence

116a
that claim 1 is anticipated by Rasmussen based on
disclosures related to its cover.
Petitioner argues that the cover of Rasmussen
discloses “wherein said first panel is formed with a
moisture dispersing material,” as recited by claim 6.
Pet. 37–38 (citing Ex. 1006 ¶¶ 50, 52; Ex. 1007 ¶¶ 46,
48; Rhodes Decl. ¶¶ 122–123). We find that the cited
portions of Rasmussen teach “[a]lternatives to the
materials described above for the pillow cover 190
include any sheet material desired, including without
limitation . . . polyester [or] a cotton/polyester blend,”
a moisture wicking material. Ex. 1006 ¶ 52; Ex. 1007
¶ 48; Rhodes Decl. ¶ 129.
Petitioner argues that Rasmussen discloses
“wherein said cover is formed by at least two partially
or wholly separable portions, with said separable
portions being selectively joinable by a fastening
means,” as recited by claim 7. Pet. 39–40 (citing Ex.
1006 ¶¶ 52, 53; Ex. 1007 ¶¶ 48, 49; Rhodes Decl. ¶
127). We find that Rasmussen teaches that “cover 190
can have one or more seams” that “can be attached by
. . . conventional fasteners (e.g., zippers, buttons,
clasps, laces, hook and loop fastener material, hook
and eye sets, tied ribbons, strings, cords, or other
similar elements, and the like).” Ex. 1006 ¶ 52; Ex.
1007 ¶ 48. We also find that Rasmussen teaches that
“fasteners can be positioned to releasably secure at
least one portion of a cover 190 to another portion of
the cover 190.” Ex. 1006 ¶ 53; Ex. 1007 ¶ 49.
Petitioner argues that Rasmussen discloses
“wherein said first panel, said second panel and said
gusset define a cover, said pillow further comprising
a fill material disposed within said cover,” as recited

117a
by claim 8, and “wherein said first panel, said second
panel and said gusset define a cover, said pillow
further comprising a fill material disposed within said
cover such that an outer surface of said fill material
engages inner surfaces of said first and second panels”
as recited by claim 19. Pet. 42 (citing Ex. 1006 ¶ 48,
Figs. 1, 2; Ex. 1007 ¶ 44, Figs. 1, 2). We find that the
cited portions of Rasmussen disclose and depict that
“pillow 100 can have a cover 190 substantially
enclosing the pillow 100” and that “cover 190 can
include a top portion 200, a bottom portion 210
opposite the top portion 200, and side portions 220
extending between the top portion 200 and the bottom
portion 210.” Ex. 1006 ¶ 48, Figs. 1, 2; Ex. 1007 ¶ 44,
Figs. 1, 2. We also find that Rasmussen teaches and
depicts that cover 190 encloses core 110 which
includes “cavity 170 shaped to receive filler material
180.” Ex. 1006 ¶ 15, Figs. 1, 2; Ex. 1007 ¶ 11, Figs. 1,
2.
Claim 9 depends from claim 8, and claim 20
depends from claim 1. Ex. 1001, 5:54–55, 6:26–29.
Petitioner argues that Rasmussen discloses “wherein
said fill material comprises a compliant material,” as
recited by claim 9, and “wherein said first panel, said
second panel and said gusset define a cover, said
pillow further comprising a fill material disposed
within said cover, said fill material comprising
memory foam,” as recited by claim 20. Pet. 41–43
(citing Ex. 1006 ¶¶ 19, 30–31, 36; Ex. 1007 ¶¶ 15, 26–
27, 32; Rhodes Decl. ¶¶ 133–134). We find that the
cited portions teach that “visco-elastic foam
(sometimes referred to as ‘memory foam’ . . . ) . . . can
have a hardness of at least 30 N and no greater than
about 175 N for desirable softness and bodyconforming qualities” and that “filler material 180 of

118a
the pillow 100 can include, but is not limited to,
granulated visco-elastic foam.” Ex. 1006 ¶¶ 19, 30; Ex.
1007 ¶¶ 15, 26.
Patent Owner states that “[f]or at least the
reasons discussed above for why Rasmussen does not
anticipate any of the challenged independent claims,
Rasmussen also does not anticipate any of the
challenged dependent claims.” PO Resp. 74–75; see
also Pet. Reply 10 (“PO makes no separate arguments
regarding claims 6–9, 11, and 18–20, which are,
therefore, also anticipated, for the reasons identified
in the Petition.”).
Based on the full record, Petitioner persuades
us by a preponderance of the evidence that claims 6–
9, 19, and 20 are anticipated by Rasmussen based on
disclosures related to its cover.
E. Dependent Claims 11 and 32
Claim 11 depends from claim 8, which depends
from claim 1. Ex. 1001, 5:58–60. Claim 32 depends
from independent claim 31. Id. at 7:1–3. For the
reasons discussed above in Section III.B.1., the record
persuades us that Petitioner shows by a
preponderance of the evidence that claims 1 and 31
are anticipated by Rasmussen based on disclosures
related to its cover.
Petitioner argues that Rasmussen discloses a
pillow “further comprising an inner cover disposed
inside of said cover, at least a portion of said fill
material being disposed within said inner cover,” as
recited by claim 11. Pet. 43–44 (citing Ex. 1006 ¶ 15,
Fig. 2; Ex. 1007 ¶ 11, Fig. 2; Rhodes Decl. ¶ 136).
Petitioner asserts the same arguments for claim 32,

119a
which depends from independent claim 31 and recites
“further comprising an inner cover disposed inside of
said cover, at least a portion of said fill material being
disposed within said inner cover.” Id. at 57 (also citing
Rhodes Decl. ¶ 172).
We find that the cited portions of Rasmussen
teach and depict that cover 190 encloses core 110
which includes “cavity 170 shaped to receive filler
material 180.” Ex. 1006 ¶ 15, Figs. 1, 2; Ex. 1007 ¶ 11,
Figs. 1, 2.
Patent Owner states that “[f]or at least the
reasons discussed above for why Rasmussen does not
anticipate any of the challenged independent claims,
Rasmussen also does not anticipate any of the
challenged dependent claims.” PO Resp. 74–75; see
also Pet. Reply 10 (“PO makes no separate arguments
regarding claims 6–9, 11, and 18–20, which are,
therefore, also anticipated, for the reasons identified
in the Petition.”).
Based on the full record, Petitioner persuades
us by a preponderance of the evidence that claims 11
and 32 are anticipated by Rasmussen based on
disclosures related to its cover.
F. Dependent Claim 13
Dependent claim 13 depends from claim 8,
which, in turn, depends from claim 1. Ex. 1001, 5:51–
53; 5:65–6:3. For the reasons stated above in Sections
III.B. and III.D., Petitioner persuades us by a
preponderance of the evidence that Rasmussen
anticipates claims 1 and 8 based on disclosures
related to its core and cover.

120a
Claim 13 recites that “wherein said gusset is
formed of an open cell construction and a base
material, and said open cell construction is formed by
porosity of said base material being substantially
greater than porosity of material forming said first
panel and substantially greater than porosity of
material forming said second panel.” Ex. 1001, 5:65–
6:3. Petitioner argues that Rasmussen describes
sidewalls 160 and side portion 220 can be formed of a
“highly porous” material, such as “3D textile
material.” Pet. 45 (citing Rhodes Decl. ¶¶ 138–141).
As discussed above in Section III.B.1.b., we find
that Rasmussen discloses porous top and bottom
layers. Ex. 1006 ¶ 22 (“by utilizing reticulated viscoelastic foam for the top layer 140 and/or bottom layer
150 . . . reticulated foam can provide significantly
increased ventilation for the top and/or bottom layer
140, 150”); see also Ex. 1007 ¶ 18 (disclosing the same).
We also find that Rasmussen discloses highly porous
sidewalls 160. Ex. 1006 ¶¶ 8 (“side layer is more
permeable than the top layer and the bottom layer”),
29 (“the pillow 100 is provided with sidewalls 160 that
are highly porous, and therefore provide a significant
degree of ventilation for the pillow, allowing air to
enter and exit the pillow 100 readily through the sides
of the pillow 100” and “this capability is achieved
through use of a 3D textile core sidewall 160”); see also
Ex. 1007 ¶ 25 (disclosing the same).
Also, as discussed above in Section III.B.2.b.,
we find that Rasmussen discloses that the “the core
can be enclosed within a cover having highly porous
sides,” “the top of the cover can be less porous than
the sides or bottom of the cover,” and “the top and
bottom of the cover are less porous than the sides of

121a
the cover.” Ex. 1006 ¶ 6; Ex. 1007 ¶ 5. We also find
that Rasmussen discloses highly porous side portions
220. Ex. 1006 ¶ 49 (“side portions 220 of the cover 190
can be highly porous (e.g., made of a 3D textile
material or a velour or stretch velour material)” and
“can permit significant ventilation into and out of the
pillow”); see also Ex. 1007 ¶ 45 (disclosing the same).
We, thus, find (1) that 3D textile making up
sidewalls 160 of core 110 has a greater porosity than
the material forming top and bottom layers 140, 150
and (2) that cover 190 has highly porous side portions
220 made of 3D textile material and less porous top
and bottom portions 200, 210.
Patent Owner responds with the same
arguments asserted against claim 1. PO Resp. 68
(citing Pet. 26, 29, 30; Ex. 1006 ¶¶ 8, 50; Parachuru
Decl. ¶¶ 175–178). In particular, Patent Owner
argues that, “even if the alleged gusset in Rasmussen
is more porous than the first and second panels, this
does not necessarily mean (and is, thus, not inherent)
that the material making up the gusset has a greater
porosity than the material(s) forming the first and
second panels.” Id. at 68–69.
Based on our findings above, Petitioner
sufficiently shows that Rasmussen discloses that the
material of sidewalls 160 and side portions 220 have
a greater porosity than the material of its top and
bottom layers 140, 150 and its top and bottom
portions 200, 210. See also Ex. 1006 ¶ 6; Ex. 1007 ¶ 5
(disclosing “highly porous material (such as a 3D
textile material)”).
Thus, based on the full record, we determine
that Petitioner shows by a preponderance of the

122a
evidence that Rasmussen anticipates claim 13 based
on disclosures related to its core and cover.
G. Dependent Claim 15
Claim 15 depends from claim 1 and recites
“wherein at least one of said first panel and said
second panel comprise a material selected from a
group consisting of: a 100% polyester fabric, rayon,
nylon, or a spandex-blend fabric.” Ex. 1001, 6:6–9. For
the reasons stated above in Section III.B.2.b.,
Petitioner persuades us by a preponderance of the
evidence that Rasmussen anticipates claim 1 based
on disclosures related to its cover.
Petitioner argues that Rasmussen’s cover
discloses claim 15. Pet. 46–47 (citing Rhodes Decl. ¶
145; Ex. 1006 ¶¶ 50–52; Ex. 1007 ¶¶ 46–48). We find
that cited portions of Rasmussen disclose that at least
one of the components of its cover 190 can be
polyester. Ex. 1006 ¶ 52; Ex. 1007 ¶ 48 (“Alternatives
to the materials described above for the pillow cover
190 include any sheet material desired, including
without limitation . . . polyester, a cotton/polyester
blend.”).
Patent Owner responds that Petitioner relies
on properties of Rasmussen’s original materials for
independent claim 1 but for claim 15, relies on an
alternative to those materials. PO Resp. 69–70 (citing
Pet. 26–32, 51–52; Ex. 1006 ¶ 52). As described above
in Section III.B.2.b., Petitioner relies on highly porous
side portions 220 made of 3D textile material for the
gusset of claim 1 and less porous top and bottom
portions 200, 210 for the first and second panels.
Petitioner persuades us that the asserted first and
second panels (top and bottom portions 200, 210) can

123a
be both less porous and a polyester or polyester blend
sheet material.
Thus, in view of the full record, we determine
that Petitioner demonstrates by a preponderance of
the evidence that Rasmussen anticipates claim 15
based on disclosures related to its cover.
H. Dependent Claim 16
Claim 16 depends from claim 1 and recites
“wherein: inner surfaces of said first panel, said
second panel and said gusset define an inner cavity;
and said pillow is configured to have air enter the
cavity through pores in the first and second panels
and have the air exit the cavity through pores in the
gusset.” Ex. 1001, 6:10–15. For the reasons stated
above in Section III.B., Petitioner persuades us by a
preponderance of the evidence that Rasmussen
anticipates claim 1 based on disclosures related to its
core and cover. Petitioner argues that Rasmussen’s
core and cover disclose claim 16. Pet. 48–49 (citing
Rhodes Decl. ¶¶ 150–151; Ex. 1006 ¶¶ 24, 29; Ex.
1007 ¶¶ 20, 25).
Regarding Rasmussen’s core, as discussed
above for claim 1, we further find that Rasmussen
discloses that “top layer 140, bottom layer 150 and
sidewalls 160 define a cavity 170 shaped to receive
filler material 180.” Ex. 1006 ¶ 15, Figs. 1, 2; Ex. 1007
¶ 11, Figs. 1, 2. Regarding Rasmussen’s cover, we find
that Rasmussen discloses that the “the core can be
enclosed within a cover having highly porous side.”
Ex. 1006 ¶ 6; Ex. 1007 ¶ 5. We, thus, find that
Rasmussen discloses “wherein: inner surfaces of said
first panel, said second panel and said gusset define
an inner cavity,” as required by claim 16.

124a
Also, as discussed above for claim 1, we find
that Rasmussen discloses porous top and bottom
layers. Ex. 1006 ¶ 22 (“by utilizing reticulated viscoelastic foam for the top layer 140 and/or bottom layer
150 . . . reticulated foam can provide significantly
increased ventilation for the top and/or bottom layer
140, 150”); see also Ex. 1007 ¶ 18 (disclosing the
same). We also find that Rasmussen discloses highly
porous sidewalls 160. Ex. 1006 ¶¶ 8 (“side layer is
more permeable than the top layer and the bottom
layer”), 29 (“the pillow 100 is provided with sidewalls
160 that are highly porous, and therefore provide a
significant degree of ventilation for the pillow,
allowing air to enter and exit the pillow 100 readily
through the sides of the pillow 100” and “this
capability is achieved through use of a 3D textile core
sidewall 160”); see also Ex. 1007 ¶ 25 (disclosing the
same).
We find that Petitioner’s citations to
Rasmussen disclose that “pillow 100 is provided with
sidewalls 160 that are highly porous, and therefore
provide a significant degree of ventilation for the
pillow, allowing air to enter and exit the pillow 100
readily through the sides of the pillow 100.” Ex. 1006
¶ 29; Ex. 1007 ¶ 25. In view of our findings, we find
that reticulated visco-elastic foam top and bottom
layers 140, 150 that provide increased ventilation and
highly porous sidewalls 160 that allow air to move
through the sides of pillow 100 disclose “said pillow is
configured to have air enter the cavity through pores
in the first and second panels and have the air exit
the cavity through pores in the gusset.”
Regarding Rasmussen’s cover, as discussed
above for claim 1, we find that Rasmussen discloses

125a
that “the top of the cover can be less porous than the
sides or bottom of the cover” and “the top and bottom
of the cover are less porous than the sides of the
cover.” Ex. 1006 ¶ 6; Ex. 1007 ¶ 5. We also find that
Rasmussen discloses highly porous side portions 220.
Ex. 1006 ¶ 49 (“side portions 220 of the cover 190 can
be highly porous (e.g., made of a 3D textile material
or a velour or stretch velour material)” and “can
permit significant ventilation into and out of the
pillow”); see also Ex. 1007 ¶ 45 (disclosing the same).
We, thus, find that less porous top and bottom
portions and highly porous side portions disclose “said
pillow is configured to have air enter the cavity
through pores in the first and second panels and have
the air exit the cavity through pores in the gusset.”
Patent Owner responds that “[n]owhere does
Petitioner point to any evidence to support that
Rasmussen’s pillow enables the air which enters the
pillow through either panel to then exit through the
gusset,” “Petitioner erroneously asserts that the claim
merely requires air to enter and exit through both the
panels and the gusset,” and Petitioner “never
attempts to make any connection with respect to the
direction of the airflow through the inner cavity (i.e.,
into one of the panels and out of the gusset).” PO Resp.
71 (addressing Pet. 48–50).
Patent Owner also argues that, under
Petitioner’s anticipation challenge based on
Rasmussen’s core, the cited portions, at best, “teach[]
that air flows through Rasmussen’s top and bottom
layer (i.e., the asserted panels) – with no mention
whatsoever of the side layer (i.e., the asserted gusset)”
or “teach[] airflow through Rasmussen’s side layer
(i.e., asserted gusset) – with no mention of

126a
Rasmussen’s top or bottom layers (i.e., the asserted
panels).” Id. at 71–72 (discussing Pet. 48–49). Patent
Owner further argues that Petitioner’s anticipation
challenge based on Rasmussen’s cover cites portions
that “merely mention ‘ventilation into and out of the
pillow.’” Id. at 72 (discussing Pet. 48–49).
As discussed above, we find that Rasmussen
discloses a pillow with top and bottom layers 140, 150
that provide increased ventilation and sidewalls 160
that allow air to enter and exit the pillow. Also, as
discussed in Section II.C., we agreed with Patent
Owner that “configured to have air enter the cavity
through pores in the first and second panels and have
the air exit the cavity through pores in the gusset”
does not restrict air entering through another
structure, such as the gusset, and does not address air
exiting through other structures, such as the panel.
See PO Resp. 47. We also determined that this
limitation requires “at least some air which enters
through the panels” exits through the gusset alone or
in combination with another structure. In view of this
interpretation of “configured to have air enter the
cavity through pores in the first and second panels
and have the air exit the cavity through pores in the
gusset,” we are persuaded that Petitioner sufficiently
shows that Rasmussen discloses “said pillow is
configured to have air enter the cavity through pores
in the first and second panels and have the air exit
the cavity through pores in the gusset,” as recited by
claim 16. We also note that claim 16 is an apparatus
claim, and Petitioner has shown sufficiently that the
structures disclosed by Rasmussen are so configured.
Thus, based on the full record, we determine
that Petitioner demonstrates by a preponderance of

127a
the evidence that Rasmussen anticipates claim 16
based on disclosures related to its core and cover.
I. Dependent Claim 18
Claim 18 depends from claim 1 and recites
“wherein said porous material comprises an open cell
construction.” Ex. 1001, 6:19–20. Claim 1 recites, in
relevant part, “wherein said first panel and said second
panel each comprise a porous material, and wherein
said gusset comprises a material having a greater
porosity than the porous material.” Id. at 5:26–29.
Petitioner contends that the core of Rasmussen
discloses claim 18. Pet. 50–51 (citing Rhodes Decl. ¶¶
153–154; Ex. 1006 ¶¶ 22–24; Ex. 1007 ¶¶ 18–22). We
find that a cited portion of Rasmussen teaches
“advantages are achieved by utilizing reticulated
visco-elastic foam for the top layer 140 and/or bottom
layer 150 of the pillow” and that “reticulated foam can
provide significantly increased ventilation for the top
and/or bottom layer 140, 150.” Ex. 1006 ¶ 22; Ex. 1007
¶ 18.
In view of our interpretation of “open cell
construction” to mean “a construction having overall
porosity greater than the inherent porosity of the
constituent material or inherently having high
porosity,” as determined above in Section II.A., we
determine that “reticulated foam” top and bottom
layers of Rasmussen’s core that “provide significantly
increased ventilation” disclose “wherein said porous
material comprises an open cell construction,” as
recited by claim 18.
Petitioner also contends that the “highly
porous” “velour or stretch velour” cover of Rasmussen

128a
discloses claim 18. Pet. 50–51 (citing Rhodes Decl. ¶¶
153–154). We find that Rasmussen discloses that
“side portions 220 of the cover 190 can be highly
porous (e.g., made of a 3D textile material or a velour
or stretch velour material),” that “bottom portion 210
of the cover 190 can also be highly porous (e.g., again,
made of a 3D textile material or a velour or stretch
velour material),” and that “[e]xamples of material
that can be used for the top portion 200 of the cover
190 include a double jersey fabric, velour, or stretch
velour.” Ex. 1006 ¶¶ 49, 50; see also Ex. 1007 ¶ 45, 46
(disclosing the same). In view of our interpretation of
“open cell construction” to mean “a construction
having overall porosity greater than the inherent
porosity of the constituent material or inherently
having high porosity,” we determine that the “highly
porous” top and bottom portions of Rasmussen’s cover
also disclose “wherein said porous material comprises
an open cell construction,” as recited by claim 18.
Thus, based on the full record, we determine
that Petitioner demonstrates by a preponderance of
the evidence that Rasmussen anticipates claim 18
based on disclosures related to its core and cover.
J. Dependent Claim 22
Claim 22 depends from claim 1 and recites
“wherein said gusset is formed of an open cell
construction, said open cell construction being formed
by strands defining a mesh configuration.” Ex. 1001,
6:35–39. Petitioner contends that Rasmussen’s
disclosure of “3D textile material” for the sidewalls
160 of core 110 and the side portions 220 of cover 190
disclose claim 22. Pet. 51–52 (citing Rhodes Decl. ¶¶
157–158).

129a
Because we interpret “open cell construction”
to mean “a construction having overall porosity
greater than the inherent porosity of the constituent
material or inherently having high porosity,” we
determine that the “highly porous” sidewalls 160 and
side portions 220 disclose “wherein said gusset is
formed of an open cell construction,” as recited by
claim 22.
As for “said open cell construction being formed
by strands defining a mesh configuration,” for the
reasons discussed in connection with claims 33 and
34, the full record persuades us by a preponderance of
the evidence that “highly porous” “3D textile
material” of sidewalls 160 and side portions 220
discloses the limitation. The record indicates,
whether 2D or 3D, “textile material” includes “strands
defining a mesh configuration.” See, e.g., PO Resp. 4–
27.
Based on the full record, we determine that
Petitioner demonstrates by a preponderance of the
evidence that Rasmussen anticipates claim 22 based
on disclosures related to its core and cover.
K. Dependent Claim 23
Claim 23 depends from independent claim 22
and recites “wherein said strands comprise
polyester.” Ex. 1001, 6:38–39. Petitioner contends
that side portions 220 of cover 190 can be polyester or
polyester blend and thus, the strands in the asserted
gusset can comprise polyester. Pet. 52 (citing Rhodes
Decl. ¶ 160; Ex. 1006 ¶ 52; Ex. 1007 ¶ 48).
We find that cited portion of Rasmussen
discloses that at least one of the components of its

130a
cover 190 can be polyester as an alternative for a
material described previously, which includes the “3D
textile material” for side portions 220. Ex. 1006 ¶¶ 49
(“The side portions 220 of the cover 190 can be highly
porous (e.g., made of a 3D textile material . . . ).”),
52 (“Alternatives to the materials described above for
the pillow cover 190 include any sheet material
desired, including without limitation . . . polyester, a
cotton/polyester blend.”); see also Ex. 1007 ¶¶ 45, 48
(disclosing the same).
Thus, according to Rasmussen, 3D textile
material and polyester sheet material are
alternatives for side portions 220. It is not disclosed
and it is not inherent that these materials are
alternatives for side portions 220. Petitioner provides
insufficient argument and evidence that this
disclosure indicates “3D textile material” can be made
from polyester or cotton/polyester blend.
Accordingly, Petitioner has not persuaded us
that claim 23 is anticipated by Rasmussen.
L. Dependent Claim 27
Claim 27 depends from claim 22 and recites
“wherein said strands are disposed in multiple
layers.” Ex. 1001, 6:46–47. Petitioner contends that
Rasmussen’s disclosure of “3D textile material” for
the sidewalls 160 of core 110 and the side portions 220
of cover 190 discloses claim 27. Pet. 53 (citing Rhodes
Decl. ¶¶ 161–162).
The full record persuades us by a preponderance
of the evidence that “highly porous” “3D textile
material” of sidewalls 160 and side portions 220
discloses claim 27. The record indicates, whether 2D

131a
or 3D, “textile material” includes “strands defining a
mesh configuration.” See, e.g., PO Resp. 4–27.
The full record also persuades us by a
preponderance of the evidence that “3D textile
material” is 3D spacer fabric and that 3D spacer
fabric has strands defining a mesh configuration.”
Parachuru Decl. ¶ 83 (“spacer fabric . . . is typically
made by knitting two fabric layers” that “could be the
same or different, i.e. mesh or solid”).
For the reasons above, we determine that
Petitioner demonstrates by a preponderance of the
evidence that Rasmussen anticipates claim 27 based
on disclosures related to its core and cover.
M. Dependent Claims 29 and 30
Claim 29 recites that the pillow of claim 1
further comprises “a reinforcing material provided at
points of connection between the gusset and each of
the first and second panels.” Ex. 1001, 6:52–54. Claim
30 depends from claim 29 and recites “wherein said
reinforcing material is piping.” Id. at 6:55–56.
Petitioner argues that Rasmussen’s core
discloses that “piping can be included at points of
connection between the gusset and each of the first
and second panels.” Pet. 53–54 (citing Rhodes Decl. ¶
165; Ex. 1006 ¶ 15; Ex. 1007 ¶ 11). We find that
Rasmussen discloses “pillow 100 can include a rib
where the top layer 140 and sidewalls 160 meet and
are joined, and/or a rib where the bottom layer 150
and the sidewalls 160 meet and are joined.” Ex. 1006
¶ 15; Ex. 1007 ¶ 11. We credit the testimony of
Petitioner’s declarant regarding Rasmussen’s rib and

132a
that Rasmussen discloses the limitations of claims 29
and 30. Rhodes Decl. ¶¶ 164–165.
Patent Owner responds that Petitioner “lacks
any explanation or evidence to support that
Rasmussen’s ‘rib’ is a reinforcing material,” that
“Rasmussen does not disclose that the ‘rib’ is
reinforcing material,” and that Petitioner does not
explain why a “rib” would be “piping.” PO Resp. 73–
74 (citing Pet. 53–54).
The evidence cited in the Petition (Rhodes Decl.
¶ 165; Ex. 1006 ¶ 15; Ex. 1007 ¶ 11) in view of
arguments in Patent Owner’s Response (PO Resp. 73–
74) persuades us that Petitioner carries its burden of
showing by a preponderance of the evidence that
Rasmussen anticipates claims 29 and 30 based on
disclosures related to the core. For example, we are
persuaded that a person of ordinary skill in the art
would understand that Rasmussen’s rib portion
where the top or bottom layers join the sidewalls is a
reinforcing piping. Rhodes Decl. ¶¶ 164–165 (“A
person of ordinary skill in the art would understand
these references to ‘ribs’ at the seams between these
components to be piping—ribs or cording are other
terms used to refer to piping.”).
N. Conclusion as to Anticipation Based on
Rasmussen
Based on the full record before us, we
determine that Petitioner demonstrates by a
preponderance of the evidence that claims 1–3, 6–9,
11, 13, 15, 16, 18–20, 22, 27, and 29–34, but not claim
23, are anticipated by Rasmussen based on either
Petitioner’s arguments regarding core 110 or its
arguments regarding cover 190.

133a
IV.

OBVIOUSNESS CHALLENGES

Petitioner contends that, under 35 U.S.C. §
103(a), claim 17 is unpatentable over Rasmussen in
view of knowledge of one of ordinary skill in the art
(Pet. 14, 47–48) and that claims 4, 5, 10, 17, 21, 24,
25, and 28 are unpatentable over Rasmussen in view
of either Doak (id. at 14, 60–63), Schlussel (id. at 14,
67–69), Schecter (id. at 14, 71–72, 74), Mason (id. at
15, 74–75), or Burton (id. at 15, 76), with citations to
these asserted references and the Rhodes
Declaration. Patent Owner responds to the alleged
obviousness with support from the references, the
Parachuru Declaration, and the deposition transcript
of Ms. Rhodes. PO Resp. 75–76.
To prevail in its challenges, under 35 U.S.C.
§ 103(a), Petitioner must prove unpatentability by a
preponderance of the evidence. 35 U.S.C. § 316(e); 37
C.F.R. § 42.1(d). A claim is unpatentable under 35
U.S.C. § 103(a) if the differences between the subject
matter sought to be patented and the prior art are
such that the subject matter as a whole would have
been obvious at the time the invention was made to a
person having ordinary skill in the art to which said
subject matter pertains. KSR Int’l Co. v. Teleflex Inc.,
550 U.S. 398, 406 (2007). The question of obviousness
is resolved on the basis of underlying factual
determinations including: (1) the scope and content of
the prior art; (2) any differences between the claimed
subject matter and the prior art; (3) the level of
ordinary skill in the art; and (4) objective evidence of
nonobviousness. See Graham v. John Deere Co., 383
U.S. 1, 17–18 (1996).
As discussed below, the parties’ disputes are
related to the scope and content of the prior art,

134a
differences between claims 4, 5, and 28 and the prior
art, and the level of ordinary skill in the art. The
parties do not dispute and do not direct us to any
objective evidence of nonobviousness.
After reviewing the complete record, we
conclude that Petitioner has shown by a
preponderance of the evidence that the asserted
references teach or suggest each limitation of claims
4, 5, 10, 17, 21, 24, 25, and 28, that a person of
ordinary skill in the art would have had a reason to
combine the teachings of the asserted references, and
that a person of ordinary skill in the art would have
had a reasonable expectation of success in combining
the teachings of those references.
A. Level of Ordinary Skill
Petitioner asserts that a person of ordinary
skill in the art, whether the priority date is June 2011
or June 2012, would have
at least a bachelor’s degree in textile
design, textile science, textile engineering
or a similar field and at least one year of
experience in the design of pillows and
other sleep-related textile products; or,
alternatively, a person having at least
three to five years of experience in the
design of pillows and other sleep-related
textile products.
Pet. 15 (citing Rhodes Decl. ¶¶ 70–72).
Patent Owner does not propose a level of
ordinary skill in the art. See PO Resp. 3–35, 49–76;
see also Pet. Reply 7 (“PO’s Response does not propose

135a
a POSITA definition.”). However, Dr. Parachuru
testifies that
a person of ordinary skill in the art at the
time of the [’332 patent] would have a
bachelor’s degree in textile science,
textile engineering or a similar degree
along with several years of industry
experience in applying the moisture and
heat transfer properties of materials
which typically come into close direct or
indirect contact with human skin.
Additional graduate education in textile
or material sciences might substitute for
experience.
Parachuru Decl. ¶¶ 20–25. Petitioner replies that
Patent Owner’s declarant “conceded that the
challenged patent is directed to ‘pillow design’ . . . and
that it was ‘desirable’ for a [person of ordinary skill in
the art] to have pillow design experience.” Pet. Reply
7–8 (citing Ex. 1061, 26:16–19, 31:9–13).
Factual indicators of the level of ordinary skill
in the art include “the various prior art approaches
employed, the types of problems encountered in the
art, the rapidity with which innovations are made, the
sophistication of the technology involved, and the
educational background of those actively working in
the field.” Jacobson Bros., Inc. v. U.S., 512 F.2d 1065,
1071 (Ct. Cl. 1975); see also Orthopedic Equip. Co. v.
U.S., 702 F.2d 1005, 1011 (Fed. Cir. 1983) (quoting
with approval Jacobson Bros.). We find, based on our
review of the record before us, that Petitioner’s stated
level of ordinary skill in the art is reasonable because
it is consistent with the record’s indication of “the
various prior art approaches employed, the types of

136a
problems encountered in the art, the rapidity with
which innovations are made, the sophistication of the
technology involved, and the educational background
of those actively working in the field.” See, e.g., Pet.
7–13 (“Technology Background”); PO Resp. 3–28
(“Background of the Relevant Technology at the Time
of the ’332 Patent”); Ex. 1006 ¶¶ 2–4; Exs. 1008, 1009,
1011–1013; Ex. 2001 ¶¶ 36–54.
We resolve any differences in favor of including
“several years of industry experience in applying the
moisture and heat transfer properties of materials” as
part of “at least one year of experience in the design
of pillows and other sleep-related textile products” of
a person holding a “bachelor’s degree in textile
science, textile engineering or a similar field.” See
Rhodes Decl. ¶ 5 (“I am also an adjunct professor . . .
teaching . . . an entry level course for textile and
fashion majors.”), ¶ 6 (“I received a Bachelor of
Science degree in Textile Design.”), ¶ 72 (“I met at
least these minimum qualifications to be a person
having ordinary skill in the art at the time of the
claimed invention.”); Ex. 1062 ¶ 4 (“I teach concepts
relating to moisture and heat transfer in my textile
curriculum in my academic role as a professor”).
Therefore, we apply Petitioner’s definition,
quoted above, in our analysis of the challenges under
35 U.S.C. § 103(a). Pet. 15.
B. Rasmussen and Knowledge of One of
Ordinary Skill
1. Dependent Claim 17
Claim 17 depends from claim 1. Ex. 1001, 6:16–
17. For the reasons discussed above in Section III.B.,

137a
Petitioner persuades us by a preponderance of the
evidence that Rasmussen anticipates claim 1.
Claim 17 recites “wherein said porous material
comprises rayon.” Ex. 1001, 6:16–17. Petitioner states
that “Rasmussen does not expressly teach using
rayon in either the core or cover” but argues the use
of rayon would have been obvious in view of
Rasmussen’s teaching that top portion 140 and
bottom portion 150 can “include any sheet material
desired, including . . . any synthetic . . . fabric.” Pet.
47–48 (citing Rhodes Decl. ¶ 48; Ex. 1006 ¶ 52; Ex.
1007 ¶ 48). Petitioner also argues that rayon has the
known advantages of “softness, durability, and low
cost.” Id. at 48 (citing Rhodes Decl. ¶ 48; Ex. 1006
¶ 52; Ex. 1007 ¶ 48).
Patent Owner responds that the “Petition does
not rely on any additional disclosure in Mason,
Schecter, or Schlussel with respect to any of the
features of claims 1 or 22 discussed above that are
entirely missing from Rasmussen” and thus,
“Petitioner has failed to meet its burden of showing
that any of these dependent claims are unpatentable.”
PO Resp. 76.
We
find
that
Rasmussen
teaches
“[a]lternatives to the materials described above for
the pillow cover 190 include any sheet material
desired including without limitation any synthetic . . .
fabric.” Ex. 1006 ¶ 52; Ex. 1007 ¶ 48. We also
determine that one of ordinary skill in the art would
have used rayon because of its “softness, durability,
and low cost” with a reasonable expectation of
success. Pet. 47–48; Rhodes Decl. ¶ 48; Ex. 1006 ¶ 52;
Ex. 1007 ¶ 48.

138a
Based on the full record, we determine
Petitioner carries its burden of showing by a
preponderance of the evidence that claim 17 is
unpatentable over Rasmussen.
C. Rasmussen and Doak
Petitioner contends that claims 4, 5, and 28
would have been obvious in view of Rasmussen and
Doak with citations to these asserted references and
the Rhodes Declaration. Pet. 14, 60–63. Claims 4, 5,
and 28 depend directly from claim 1. Ex. 1001, 5:40–
44, 6:48–51.
Claim 4 recites “wherein said first and second
panels each define a generally rectangular footprint
common with said gusset;” claim 5 recites “wherein
said first and second panels are arcuately bowed out
in opposing directions;” and claim 28 recites “wherein
said gusset comprises two longer longitudinal
portions joined by two shorter end portions, the
longitudinal portions being contiguous with the end
portions.” Id.
1. Doak (Ex. 1008)
Doak relates to “pillows . . . or the like.” Ex.
1008, 1:9–10. Figures 1 and 4 of Doak are reproduced
below.

139a

Figure 1 shows pillow 10, and Figure 4 is a
sectional view taken along line 4–4 of Figure 1. Id. at
1:51–52, 1:58–59. Pillow 10 has filling 12 enclosed in
cover 20. Id. at 1:63–67, 2:12–15. Cover 20 comprises
web portion 25, “which extends around the perimeter
of the pillow and may be of substantial width.” Id. at
2:15–17.
2. Claims 4, 5, and 28
Petitioner argues that Rasmussen teaches the
limitations of claim 1, from which claims 4, 5, and 28
depend. Pet. 61. For the reasons stated above in
Section III.B., Petitioner persuades us by a
preponderance of the evidence that Rasmussen
teaches the limitations of claim 1.
Petitioner also argues that Doak teaches first
and second panels that each define a generally
rectangular footprint common with a gusset, as
required by claim 4; panels that are arcuately bowed
in opposing directions, as required by claim 5; and a
gusset with longer longitudinal portions joined
contiguously with shorter end portions, as required by

140a
claim 28. Id. at 61–62 (citing Ex. 1008, Figs. 1, 4;
Rhodes Decl. ¶¶ 187–189). We find that Petitioner’s
citations to Figures 1 and 4 of Doak teach the
limitations of claims 4, 5, and 28.
Petitioner contends that it would have been
obvious “to modify the shape of the pillows taught by
Rasmussen to utilize the shape taught by Doak” (Pet.
62 (citing Rhodes Decl. ¶ 190)), that the shapes of
Doak are basic pillow designs that have been
“commonplace for at least decades” (id.), that “it
would have been a simple combination . . . to utilize
[Doak’s shape] for Rasmussen’s pillow,” (id.), that a
reason to combine was to “satisfy known consumer
expectations for a conventionally shaped pillow and to
provide known aesthetic and functional benefits of a
perimetric gusset” (id. (citing Rhodes Decl. ¶ 190)),
and that one of ordinary skill in the art would have
been motivated to combine “based on their common
teaching of a pillow having a gusset designed to
enhance lateral ventilation through the pillow” (id. at
63).
We also determine that one of ordinary skill in
the art would have had a reason to combine
Rasmussen and Doak to “satisfy known consumer
expectations for a conventionally shaped pillow.” Pet.
62; Rhodes Decl. ¶ 190 (“A person of ordinary skill in
the art would have had a credible reason to combine
Rasmussen with Doak to use the shape of Doak to
satisfy consumer expectations for a conventionally
shaped pillow.”); see also KSR, 550 U.S. at 421 (“When
there is a design need or market pressure to solve a
problem and there are a finite number of identified,
predictable solutions, a person of ordinary skill has

141a
good reason to pursue the known options within his
or her technical grasp.”).
We further determine that Petitioner shows a
reasonable expectation of success for combining
Rasmussen and Doak in the manner asserted by
Petitioner. Rhodes Decl. ¶ 190 (“The use of arcuately
bowed out opposing top and bottom panels joined by a
perimetric gusset that shares a rectangular footprint
with the top and bottom panels is a basic pillow design
that has been commonplace . . . as Doak itself
demonstrates . . . modifying the pillow of Rasmussen
to have the shape characteristics of the pillow of Doak
would have been a simple combination for a POSITA
that would have yielded predictable results without
requiring undue experimentation.”).
Patent Owner responds that Rasmussen does
not anticipate claim 1, from which claims 5, 6, and 19
depend. PO Resp. 75. Patent Owner also argues that
Petitioner does not rely on Doak for features of claim
1 that are missing in Rasmussen. Id. For the reasons
discussed above in Section III.B., we determine that
Petitioner has met its burden of showing by a
preponderance of the evidence that Rasmussen
anticipates claim 1.
Patent Owner further responds for claims 4
and 28 that one of ordinary skill in the art would not
have been motivated to modify Rasmussen to have a
rectangular shape because “such a modification would
undermine
the
fundamental
principles
of
Rasmussen’s design, which relies on a pillow having
a plurality of ‘lobes,’” a feature that Patent Owner
contends is critical and provides benefits. Id. at 75
(citing Ex. 1006 ¶ 14, Fig. 1; Parachuru Decl. ¶¶ 179–

142a
180). Patent Owner additionally argues that
Petitioner provides no evidence why one of ordinary
skill in the art would make the modification and
forego the associated benefits and that Rasmussen
does not indicate a rectangular shape would be
appropriate. Id. Patent Owner contends that
Petitioner’s declarant admitted to not understanding
Rasmussen’s lobes. Id. (citing Ex. 2016, 58:13–22).
Petitioner replies that Rasmussen does not teach that
“its lobes are ‘fundamental’ or ‘critical’” and “merely
teaches various embodiments having lobes.” Pet.
Reply 26 (citing Ex. 1006 ¶¶ 6, 14, claims 1–9, 11–19;
Ex. 1062 ¶¶ 35–37).
Patent Owner points us to paragraph 14 of
Rasmussen, and in that paragraph, we find that
Rasmussen teaches that “in other embodiments, . . .
the lobes 120, 130 can have different sizes” and “[a]ny
combination of lobes having the same size or different
sizes is possible.” See PO Resp. 74–75. This paragraph
does not address whether these embodiments of
Rasmussen “define a generally rectangular footprint
common with said gusset,” as recited by claim 4.
Second, it does not indicate that a rectangular
lobed pillow would fail to provide the benefits of a
lobed pillow, thereby undermining the asserted
fundamental principles of Rasmussen’s design. See
Ex. 1006 ¶ 14 (“The lobed shape of the pillow 100
provides a number of support surfaces for a user,”
“can enhance breathing of a user resting his or her
head against the pillow 100,” and “can also provide
support for the shoulder and/or neck of the user when
the user is sleeping on his or her side or back.”).
Further, we find that Rasmussen teaches that
the same listed benefits can be provided by a

143a
rectangular pillow. See Ex. 1006 ¶ 2 (“Conventional
pillows can be found in a wide variety of shapes and
sizes, and are often adapted for supporting one or
more body parts of a user.”). Even if the lobes of
Rasmussen are critical, as contended by Patent
Owner, Rasmussen does not indicate having a
rectangular shape would somehow be incompatible
with having lobes, as argued by Patent Owner. See id.
¶¶ 2, 14.
For the reasons above, the full record
persuades us that Petitioner carries its burden of
showing by a preponderance of the evidence that
claims 4, 5, and 28 would have been obvious over
Rasmussen and Doak.
D. Rasmussen and Schlussel
Petitioner contends that claims 24 and 25 are
obvious in view of Rasmussen and Schlussel with
citations to these asserted references and the Rhodes
Declaration. Pet. 14, 63–68.
Claims 24 and 25 depend from claim 22, which,
in turn, depends from claim 1. Ex. 1001, 6:42–45.
Claim 24 requires “wherein said strands are
connected at points of intersection of said strands,”
and claim 25 requires “wherein said strands are
arranged in a ‘x’ pattern.” Id.
1. Schlussel (Ex. 1009)
Schlussel relates to an “infant mattress pad
which incorporates a spacer fabric.” Ex. 1009 ¶ 2.
Figure 1 of Schlussel is reproduced below.

144a

Figure 1 shows a mattress pad applied to a
mattress. Id. ¶ 14. Mattress pad 11 includes body
portion 13 defined by single layer 16 made of a spacer
fabric material. Id. ¶ 17. The “spacer fabric has three
parts or components knitted together to form a fabric
defined by two breathable outer fabric layers and a
breathable cushioned middle comprising yarns
interconnecting the two layers.” Id. ¶ 7. Spacer fabric
is also known as 3-dimensional fabric and “[s]uch
spacer fabrics and their manufacture are well known
in the art.” Id. ¶ 16. It includes “separator yarns
interdisposed between the two layers, creating a 3
dimensional cushioned material fabric construction
which is highly breathable.” Id.
2. Claims 24 and 25
For the reasons discussed above in Sections
III.B. and III.J., Petitioner persuades us by a
preponderance of the evidence that Rasmussen

145a
anticipates claim 1 and claim 22, which depends from
claim 1.
Petitioner argues that one of ordinary skill in
the art “would understand that Schlussel’s 3D spacer
fabric has strands connected at points of intersection,
at a minimum, by being knitted.” Pet. 68 (citing
Rhodes Decl. ¶¶ 200–202). Petitioner also argues that
Schlussel has strands arranged in an “x” pattern, as
required by claim 25. Id. at 68–69 (citing Rhodes Decl.
¶¶ 207–210; Ex. 1009, Fig. 1).
We find that Schlussel teaches the limitations
of claims 24 and 25. Ex. 1009 ¶ 7, Fig. 1. We also
determine that one of ordinary skill in the art would
have modified Rasmussen in view of Schlussel with a
reasonable expectation of success to arrive at the
subject matter of claim 24. Rhodes Decl. ¶ 202 (citing
Ex. 1009 ¶¶ 16, 20). We further determine that one of
ordinary skill in the art would have modified
Rasmussen in view of Schlussel with a reasonable
expectation of success to arrive at the subject matter
of claim 25. Id. ¶ 208 (“X pattern would have been an
obvious design choice.”).
Patent Owner responds that Petitioner “does
not rely on any additional disclosure in Mason,
Schecter, or Schlussel with respect to any of the
features of claims 1 or 22 discussed above that are
entirely missing from Rasmussen.” PO Resp. 76.
Patent Owner, thus, argues that Petitioner has not
met its burden of showing that claims 24 and 25 are
unpatentable over Rasmussen and Schlussel. See id.
For the reasons discussed above in Section III.B., we
determine that Petitioner has met its burden of

146a
showing by a preponderance of the evidence that
Rasmussen anticipates claim 1.
For the reasons above, the record after trial
persuades us that Petitioner carries its burden of
showing by a preponderance of the evidence that
claims 24 and 25 would have been obvious over
Rasmussen and Schlussel.
E. Rasmussen and Schecter
Petitioner contends that claim 17 is
unpatentable over Rasmussen and Schecter with
citations to these references and the Rhodes
Declaration. Pet. 14, 71–74. Claim 17 depends from
claim 1 and recites “wherein said porous material
comprises rayon.” Ex. 1001, 6:16–17.
1. Schecter (Ex. 1011)
Schecter is “directed at providing a cushioning
device such as a pillow.” Ex. 1011, 1:44–45. Figure 1
of Schecter is reproduced below.

Figure 1 shows a perspective view of a pillow.
Id. at 2:53–54. Pillow 20 includes cover 22 made of a

147a
flexible material such as textile material. Id. at 3:22–
26. Cover 20 includes upper top layer 24, intermediate
gusset zone 34, and lower bottom layer 36. Id. at 3:42–
43, 3:57–59, 3:66–4:1. The “cover material is a
breathable fabric such as cotton (e.g. 100% or
mixtures with other materials such as polyester or
rayon).” Id. at 3:32–35. External, border edge or bead
edge 38 can be provided at the border between gusset
34 and upper top layer 24. Id. at 4:11–15. A second
gusset bead or external border edge 66 can be between
intermediate gusset zone 34 and lower bottom layer
36. Id. at 5:20–23.
2. Claim 17
Petitioner argues that “Rasmussen teaches the
limitations of claim 1.” Pet. 74. For the reasons stated
above in Section III.B., Petitioner persuades us by a
preponderance of the evidence that Rasmussen
teaches the limitations of claim 1.
Petitioner also argues that Schecter teaches
“wherein said porous material comprises rayon,” as
recited by claim 17. Pet. 72, 74 (citing Ex. 1011, 3:32–
34;). We find that Schecter teaches that its “cover
material is a breathable fabric such as cotton (e.g.,
100% or mixtures with other materials such as
polyester or rayon).” Ex. 1011, 3:32–35.
We agree with Petitioner that “rayon was a
well known material for pillow covers” (Pet. 74) and
as discussed above, we find that Rasmussen teaches
“[a]lternatives to the materials described above for
the pillow cover 190 include any sheet material
desired including without limitation any synthetic . . .
fabric” (Ex. 1006 ¶ 52; Ex. 1007 ¶ 48). We, therefore,
determine that one of ordinary skill in the art would

148a
have had reason to modify Rasmussen in view of
Schecter with a reasonable expectation of success.
Rhodes Decl. ¶ 218 (“rayon was a well known material
for pillow covers . . . and Rasmussen[] teach[es] that
‘any natural and/or synthetic fabric’ can be used in its
cover”).
Patent Owner responds that Petitioner “does
not rely on any additional disclosure in Mason,
Schecter, or Schlussel with respect to any of the
features of claims 1 or 22 discussed above that are
entirely missing from Rasmussen.” PO Resp. 76.
Patent Owner, thus, argues that Petitioner has not
met its burden of showing that claim 17 is
unpatentable over Rasmussen and Schecter. See id.
We determine above that Petitioner has met its
burden of showing by a preponderance of the evidence
that Rasmussen anticipates claim 1.
For the reasons above, the full record
persuades us that Petitioner carries its burden of
showing by a preponderance of the evidence that
claim 17 would have been obvious over Rasmussen
and Schecter.
F. Rasmussen and Mason
Petitioner contends that claims 10 and 21
would have been obvious in view of Rasmussen and
Mason with citations to these references and the
Rhodes Declaration. Pet. 15, 74–75.
Claim 10 depends from claim 8, which depends
from claim 1. Ex. 1001, 5:56–57. Claim 10 recites
“wherein said fill material comprise a gel.” Id. Claim
21 depends from claim 1 and recites “wherein said
first panel, said second panel and said gusset define a

149a
cover, said pillow further comprising a fill material
disposed with said cover, said fill material comprising
a gel.” Id. at 6:30–33.
1. Mason (Ex. 1012)
Mason “is directed to methods of preparing
apparatuses comprising a gel layer and an additional
layer, such as a foam layer.” Ex. 1012 ¶ 2. The
apparatus according to Mason “generally comprises a
gel layer” and “can also comprise a covering
overlaying the gel layer.” Id. ¶¶ 8, 13. “Non- limiting
examples of further support apparatuses prepared
according to the methods of the invention include . . .
pillows.” Id. ¶ 14; see also id. ¶¶ 57, 58, 64 (listing
pillows as an embodiment).
According to Mason, “while the initial warmth
maintained by the contact with the foam may be of a
comfortable level, an eventual heat build-up leads to
discomfort for the user” and the “heat exchange
capacity of the gel materials used in the methods of
the invention therefore further contributes to the
good ‘feel’ users desire . . . in a . . . pillow.” Id. ¶¶ 41,
43. Mason states that “[i]n light of the desirable
properties afforded by gel materials, it is not
surprising that demand for support apparatuses
comprising gels continues to increase.” Id. ¶ 6. The gel
layer can be combined with a foam layer, a cover
layer, or optional further layers. Id. ¶¶ 8, 84, 85, 94,
95.
2. Claims 10 and 21
Petitioner argues that Rasmussen teaches the
limitations of claims 1 and 8. Pet. 75. For the reasons
stated above in Sections III.B. and III.D., Petitioner

150a
persuades us by a preponderance of the evidence that
Rasmussen teaches the limitations of claims 1 and 8.
Petitioner also argues that Mason teaches
“wherein said fill material comprises a gel,” as
required by claim 10. Pet. 74–75 (citing Ex. 1012 ¶¶
8, 13, 14, 41–43, 57, 58, 64, 80–85, 94, 95, Fig. 2;
Rhodes Decl. ¶ 220). We find that Petitioner’s
citations to Mason teach the limitation of claim 10.
Ex. 1012 ¶¶ 8 (“The apparatus prepared according to
the invention generally comprises a gel layer.”), 13
(“[T]he apparatus can also comprise a covering
overlaying the gel layer.”), 14 (“Non-limiting
examples of further support apparatuses prepared
according to the methods of the invention include . . .
pillows.”), 57, 58, 64.
For the reasons stated above for claim 8, we
find that Rasmussen teaches “wherein said first
panel, said second panel and said gusset define a
cover, said pillow further comprising a fill material
disposed within said cover,” as required by claim 21.
We also find that the cited portions of Mason teaches
“said fill material comprising a gel,” as further recited
by claim 21. Ex. 1012 ¶¶ 8, 13, 14, 57, 58, 64.
We also determine that one of ordinary skill in
the art would have had a reason to combine
Rasmussen and Mason because the “addition of ‘gel’
can be used to provide a cooling effect to address the
known problem of heat buildup in foam,” “can
‘contribute[] to the “good” feel users desire in a
support apparatus,’” and addresses “increased
demand, known ability to address heat buildup in
foam with gel, and Rasmussen’s stated desire to
enhance cooling,” as argued by Petitioner. Ex. 1012

151a
¶¶ 6 (“In light of the desirable properties afforded by
gel materials, it is not surprising that demand for
support apparatuses comprising gels continues to
increase.”), 41 (“[W]hile the initial warmth
maintained by the contact with the foam may be of a
comfortable level, an eventual heat build-up leads to
discomfort for the user.”), 42, 43 (“The heat exchange
capacity of the gel materials used in the methods of
the invention therefore further contributes to the
good ‘feel’ users desire . . . in a . . . pillow.”); Rhodes
Decl. ¶¶ 221, 222; see also Pet. 75 (citing Ex. 1012 ¶¶
6, 41–43; Rhodes Decl. ¶¶ 221, 222).
We further determine that Petitioner shows a
reasonable expectation of success for combining
Rasmussen and Mason in the manner asserted by
Petitioner. Rhodes Decl. ¶¶ 221 (“[U]se [of gel] was
increasingly common prior to the alleged invention.”),
222 (“Use of fill material comprising gel in the pillow
taught by Rasmussen would have yielded predictable
results with little or no experimentation.”).
Patent Owner responds that Petitioner “does
not rely on any additional disclosure in Mason,
Schecter, or Schlussel with respect to any of the
features of claims 1 or 22 discussed above that are
entirely missing from Rasmussen.” PO Resp. 76.
Patent Owner, thus, argues that Petitioner has not
met its burden of showing that claims 10 and 21 are
unpatentable over Rasmussen and Mason. See id. We
determine above that Petitioner has met its burden of
showing by a preponderance of the evidence that
Rasmussen anticipates claim 1.
For the reasons above, the full record
persuades us that Petitioner carries its burden of
showing by a preponderance of the evidence that

152a
claims 10 and 21 would have been obvious over
Rasmussen and Mason.
G. Rasmussen and Burton
Petitioner contends that claim 28 is
unpatentable over Rasmussen and Burton, in
addition to the challenge discussed above based on
Rasmussen and Doak. Pet. 15, 76.
Claim 28 depends from claim 1 and recites
“wherein said gusset comprises two longer
longitudinal portions joined by two shorter end
portions, the longitudinal portions being contiguous
with the end portions.” Ex. 1001, 6:48–51.
1. Burton (Ex. 1013)
Burton “concerns a gusseted pillow being a
particular top and bottom section arrangement and
an intermediate gusset portion.” Ex. 1013, 1:8–10.
Figure 2 of Burton is reproduced below.

153a
Figure 2 is a diagram showing the
configuration of top and bottom sections and gusset
portion of a pillow. Id. at 1:52–54. Pillow 10 includes
top fabric section 12 and intermediate gusset portion
16 (shown in Figure 1). Id. at 1:66–2:2. Burton
explains that the gusset portion of the pillow of Figure
2 includes pillow length parts 21 that are
approximately 22 inches and pillow width parts 23
that are 16 inches. Id. at 2:13–24.
2. Claim 28
For the reasons stated above in Section III.B.,
Petitioner persuades us by a preponderance of the
evidence that Rasmussen teaches the limitations of
claim 1. Petitioner argues that Burton teaches or
suggests the limitations of claim 28. Pet. 76 (citing Ex.
1013, 2:15–14, Fig. 2; Rhodes Decl. ¶¶ 224–225). We
find that Petitioner’s citations to Burton teach the
limitations of claim 28. Ex. 1013, 2:14–15 (“FIG. 2 also
shows the length and width of the gusset portion.”);
see also id. at 2:16–19 (“Typically, the gusset portion
16 is a continuous strip; it is shown in individual parts
in FIG. 2 to match the four sides of the top and bottom
sections.”).
We also determine that one of ordinary skill in
the art would have had a reason to modify Rasmussen
with the teachings of Burton with a reasonable
expectation of success. Rhodes Decl. ¶ 226 (“Burton’s
basic rectangular gusseted pillow design . . . has long
been a well known and common pillow design” and
“many consumers would prefer the more conventional
and common pillow shape formed by rectangular top
and bottom panels joined by perimetric gusset”); see
also Pet. 76 (citing id.).

154a
Patent Owner argues that a person of ordinary
skill in the art “would not have modified Rasmussen’s
pillow to have a standard rectangular shape” for the
same reasons asserted against the challenge based on
Rasmussen and Doak. PO Resp. 76. For the same
reasons discussed above in Section IV.B.2., Petitioner
persuades us that one of ordinary skill in the art
would have modified Rasmussen to have a generally
rectangular footprint.
For the reasons above, the full record
persuades us that Petitioner carries its burden of
showing by a preponderance of the evidence that
claim 28 would have been obvious over Rasmussen
and Burton.
V.

IMPROPER REPLY ARGUMENTS

Patent Owner filed a List of Improper Reply
Arguments (Paper 31), to which Petitioner also filed a
response (Paper 32). Patent Owner asserts that, in its
Reply, Petitioner argues for the first time that air will
travel a path of least resistance through the pillow,
that “material” and “base material” of claims 1 and 13
can be fibers, that Rasmussen’s rib would be
understood as reinforcing, and that Rasmussen’s
design can be modified to have lobes and a
rectangular shape. Paper 31, 1–2 (citing Pet. Reply 9,
23, 24, 26). The parties also filed a Joint Notice of
Unresolved Demonstrative Objections (Paper 34), in
which Patent Owner alleges that slides 13, 26, 29, 31,
and 32 contain new arguments as discussed above
and Petitioner alleges that slide 47 contains a new
argument from Patent Owner’s Observations (Paper
27).

155a
We do not rely on any of the portions of the
Petitioner’s Reply that argue air will travel a path of
least resistance through the pillow, “material” and
“base material” of claims 1 and 13 can be fibers, or
Rasmussen’s rib would be understood as reinforcing.
We also do not rely on the demonstratives.
Further, because Petitioner initially argued
that one of ordinary skill in the art would “modify the
shape of the pillows taught by Rasmussen to utilize
the shape taught by Doak, including . . . its
rectangular shape” (Pet. 62), Petitioner’s argument in
its Reply–that “four subtle lobes at the corner could
even be maintained, if desired, and still yield a
‘generally rectangular’ pillow” (Pet. Reply 26)—is not
a new argument, as contended by Patent Owner. A
lobed and generally rectangular pillow would be the
result of Petitioner’s proposed modification and would
still “satisfy known consumer expectations for a
conventionally shaped pillow,” as discussed above in
Section IV.C.2.
VI.

CONCLUSION

For the foregoing reasons, based on the full
record before us, we determine that Petitioner has
demonstrated, by a preponderance of the evidence,
that claims 1–11, 13, 15–22, 24, 25, and 27–34, but
not claim 23, of the ’332 patent are unpatentable.
VII.

ORDER

Accordingly, it is:
ORDERED that claims 1–11, 13, 15–22, 24, 25,
and 27–34 of U.S. Patent No. 8,887,332 B2 have been

156a
shown, by a preponderance of the evidence, to be
unpatentable; and
FURTHER ORDERED that, because this is a
Final Written Decision, the parties to the proceeding
seeking judicial review of the decision must comply
with the notice and service requirements of 37 C.F.R.
§ 90.2.
PETITIONER:
Jason R. Mudd
Eric A. Buresh
ERISE IP, P.A.
jason.mudd@eriseip.com
eric.buresh@eriseip.com
ptab@eriseip.com
PATENT OWNER:
Joseph J. Richetti
Frank M. Fabiani
Alexander Walden (pro hac vice)
BRYAN CAVE LLP
joe.richetti@bryancave.com
frank.fabiani@bryancave.com
alexander.walden@bryancave.com
PTAB-NY@bryancave.com

157a
Trials@uspto.gov
571-272-7822

Paper No. 41
Entered: June 12, 2018

UNITED STATES PATENT AND
TRADEMARK OFFICE
BEFORE THE PATENT TRIAL AND
APPEAL BOARD
FREDMAN BROS. FURNITURE COMPANY, INC.,
Petitioner,
v.
BEDGEAR, LLC,
Patent Owner.
Case IPR2017-00351
Patent 9,015,883 B2
Before HYUN J. JUNG, BART A. GERSTENBLITH,
and AMANDA F. WIEKER, Administrative Patent
Judges.
JUNG, Administrative Patent Judge.
FINAL WRITTEN DECISION
35 U.S.C. § 318(a) and 37 C.F.R. § 42.73
I.

INTRODUCTION

We have jurisdiction under 35 U.S.C. § 6. This
Final Written Decision is issued pursuant to 35
U.S.C. § 318(a) and 37 C.F.R. § 42.73. For the reasons
that follow, we determine that Petitioner has shown

158a
by a preponderance of the evidence that all challenged
claims 1–10, 12–15, and 17–20 of U.S. Patent No.
9,015,883 B2 are unpatentable.
A. Procedural History
Fredman Bros. Furniture Company, Inc.
(“Petitioner”) filed a Petition, requesting institution of
an inter partes review of claims 1–10, 12–15, and 17–
20 of U.S. Patent No. 9,015,883 B2 (Ex. 1047, “the ’883
patent”). Paper 1 (“Pet.”). Bedgear, LLC (“Patent
Owner”) timely filed a Preliminary Response. Paper
7. Pursuant to 35 U.S.C. § 314(a), we instituted inter
partes review of all challenged claims of the ’883
patent. Paper 8 (“Dec. on Inst.”).
After institution, Patent Owner filed a
Response (Paper 14, “PO Resp.”), to which Petitioner
filed a Reply (Paper 21, “Pet. Reply”). Petitioner
proffered a Declaration of Jennifer Frank Rhodes (Ex.
1059, “Rhodes Declaration” or “Rhodes Decl.”) with its
Petition, and a Declaration of Jennifer Frank Rhodes
in Support of Petitioner’s Reply (Ex. 1062). Patent
Owner proffered Declarations of Dr. Radhakrishnaiah
Parachuru in support of its Preliminary Response
(Ex. 2001) and in support of its Response (Ex. 2004,
“Parachuru Declaration” or “Parachuru Decl.”).
Deposition transcripts for Dr. Parachuru (Ex. 1061)
and Ms. Rhodes (Exs. 2016, 2020) were filed.
Patent Owner filed Observations on CrossExamination of Petitioner’s Reply Witness Jennifer
Frank Rhodes (Paper 27), to which Petitioner filed a
response (Paper 30). As authorized in our Order
(Paper 29), Patent Owner filed a List of Improper
Reply Arguments (Paper 31), to which Petitioner also
filed a response (Paper 32).

159a
An oral hearing in this proceeding and Cases
IPR2017-00350, IPR2017-00352, and IPR2017-00524
was held on March 20, 2018; a transcript of the
hearing is included in the record (Paper 36, “Tr.”).
B. Grounds of Unpatentability at Issue
We instituted inter partes review on the
grounds that
claims 1–4, 7–10, 14, 15, 18, and 20, under 35
U.S.C. § 102(b) or § 102(e), are anticipated by
Rasmussen1,
claims 1–4, 7–10, 13–15, 17, 18, and 20, under
35 U.S.C. § 102(b) or § 102(e), are anticipated by
Rasmussen, separately and independently of the
ground above, based on an alternative interpretation
of Rasmussen,
claims 5, 6, and 19, under 35 U.S.C. § 103(a),
are unpatentable over Rasmussen and Doak2,
claim 12, under 35 U.S.C. § 103(a), is
unpatentable over Rasmussen and Mason3, and
claim 19, under 35 U.S.C. § 103(a), is
unpatentable over Rasmussen and Burton4. Dec. on
Inst. 32.
In an Order following SAS Institute Inc. v.
Iancu, 138 S. Ct. 1348 (2018), we modified our Decision
on Institution to institute on all of the grounds
1

WO 2010/075294 A1, published July 1, 2010 (Ex. 1006).

2

US 3,109,182, issued Nov. 5, 1963 (Ex. 1008).

3

US 2007/0246157 A1, published Oct. 25, 2007 (Ex. 1012).

4

US 6,760,935 B1, issued July 13, 2004 (Ex. 1013).

160a
presented in the Petition. Paper 37, 2; see also Dec. on
Inst. 17–20, 22, 25, 29–31 (determining Petitioner
had not demonstrated a reasonable likelihood of
prevailing on certain grounds). In accordance with
that same Order, the parties conferred and reached
agreement to withdraw the grounds upon which we
did not institute review. See Papers 37, 38. After
receiving authorization (Paper 38), the parties filed a
Joint Motion to Limit the Petition (Paper 39), which
we granted (Paper 40). Thus, the review is limited to
the grounds listed above, and this Decision addresses
only those grounds.
C. Related Proceedings
The parties indicate that the ’883 patent has
been asserted in Bedgear, LLC v. Fredman Bros.
Furniture Co., Inc., Case No. 1:15-cv-6759 (E.D.N.Y.)
and Cabeau, Inc. v. Bedgear, LLC, Case No. 2:16-cv09238 (C.D. Ca.). Pet. 74; Paper 4, 2; Ex. 1052.
The ’883 patent issued from a continuation of
an application that issued as the patent challenged in
case IPR2017-00350 (Ex. 1001). The patent
challenged in Case IPR2017-00350 issued from a
continuation of an application that issued as U.S.
Patent No. 8,646,134 B1 (Ex. 1049, “the ’134 patent”),
which is challenged in Case IPR2017-00352.
D. The ’883 Patent (Ex. 1047)
The ’883 patent issued April 28, 2015, from an
application filed July 10, 2014, which is a
continuation of an application filed December 16,
2013, and claims priority to another application filed
June 22, 2012, and a provisional application filed
June 22, 2011. Ex. 1047, [22], [45], [60], [63], 1:6–14.

161a
The ’883 patent relates to an “upper neck and
head support in the form of a pillow for the human
body.” Id. at 1:22–23. Figure 1 of the ’883 patent is
reproduced below.

Figure 1 shows a perspective view of a pillow of
the ’883 patent. Id. at 1:53–54. Pillow 10 has cover
12, and cover 12 includes opposing first and second
panels 16, 18 and gusset 20 that joins panels 16, 18.
Id. at 1:66–2:4.
Gusset 20 is formed of an open cell construction
and has sufficient width to separate the panels 16, 18
so as to define an airflow channel through the panels.
Id. at 2:4–10. The specification states that an “‘open
cell construction’ as used herein refers to a
construction having overall porosity greater than the
inherent porosity of the constituent material or
inherently having high porosity.” Id. at 1:44–47. Open

162a
cell construction is associated with venting or air
exchange. See, e.g., id. at 2:14–15, 4:34–36.
The open cell construction of gusset 20 may be
defined by a “plurality of interlaced or spaced-apart
strands 26 arranged randomly or in various patterns,
such as a ‘x’ pattern (FIG. 1) or a rectangular pattern.”
Id. at 2:23–26. Gusset 20 may be formed of base
material 30 and has apertures 32 defining open cells
and being larger than any pores that may be present
inherently in base material 30. Id. at 2:39–44.
Gusset 20 “may be formed with the base
material 30 being inherently significantly porous” (id.
at 2:50–52), and the “porosity of the base material 30
may be substantially greater than the porosity of the
material forming the first panel 16 and/or . . . the
second panel 18” (id. at 2:58–61). Base material 30
may be 3D spacer fabric. Id. at 2:53–54.
“‘Substantially greater’ refers to being at least greater
than, but preferably being at least twice greater
than.” Id. at 2:61–63.
The “open cell construction of the gusset 20
may be defined by various constructions” (id. at 2:22–
23), and “gusset 20 may include one or more of the
open cell configurations described above in connection
with FIGS. 3–5 singularly or in any combination.” (id.
at 3:1–3).
E. Illustrative Claim
The ’883 patent has 20 claims, of which
Petitioner challenges claims 1–10, 12–15, and 17–20.
Of the challenged claims, claim 1, reproduced below,
is the sole independent claim.

163a
1.

A pillow comprising:

a first panel having an edge
defining a perimeter;
a second panel having an edge
defining a perimeter; and
a gusset joining said first and
second panels,
wherein inner surfaces of said
first panel, said second panel and said
gusset define an inner cavity; and
said pillow is configured to have
air enter the cavity through pores in the
first and second panels and have the air
exit the cavity through pores in the
gusset.
Ex. 1047, 5:25–33.
II.

CLAIM INTERPRETATION

In an inter partes review, claim terms in an
unexpired patent are interpreted according to their
broadest reasonable construction in light of the
specification of the patent in which they appear. 37
C.F.R. § 42.100(b); Cuozzo Speed Techs., LLC v. Lee,
136 S. Ct. 2131, 2144–46 (2016) (upholding the use of
the broadest reasonable interpretation standard).
A. “configured to have air enter the cavity
through pores in the first and second panels
and have the air exit the cavity through
pores in the gusset” (claim 1)
Patent Owner proposes interpreting “configured
to have air enter the cavity through pores in the first
and second panels and have the air exit the cavity

164a
through pores in the gusset,” as recited by claim 1, to
mean “the pillow is designed to have air which enters
the pillow through the first or second panel then exit
the pillow through the gusset.” PO Resp. 46. In
support, Patent Owner refers to the language of claim
1 (id. at 46–48), the specification (id. at 48–49 (citing
Ex. 1001,5 1:37–40, 2:10–13, 4:19–36, 4:53–55)), and
Dr. Parachuru’s testimony (id. at 46–49 (citing Ex.
2004 ¶¶ 135–142)).
Patent Owner argues that “the claim language
itself explicitly requires that the pillow be configured
to have air enter through the first and second panels
to then have this same air exit through the gusset”
and “does not address (i.e., require or restrict) air
entering through a structure other than a panel (e.g.,
a gusset) nor does it address any such air exiting the
pillow in a particular manner (e.g., through a panel,
gusset, or other structure).” Id. at 46–47 (citing
Parachuru Decl. ¶¶ 137, 138). Patent Owner also
states that the “claim language is [] unambiguous on
its face in requiring that at least some air which
enters through the panels, must then exit through the
gusset.” Id. at 47.
Petitioner
replies
that
the
proposed
interpretation rewrites the express claim language, is
illogical, and is unsupported by the specification. Pet.
Reply 7 (citing Ex. 1001, 2:10–13; Ex. 1061, 35:11–15,
61:17–62:12). Petitioner also contends that express
The parties cite to the specification of related U.S. Patent No.
8,887,332 B2, which has substantially the same specification
(Ex. 1001). See also Parachuru Decl. ¶ 3 (“I also understand that
the ’134, ’332, and ’883 Patents share substantially the same
specification.”). We cite to the corresponding portion of the
specification of the ’883 patent (Ex. 1047).
5

165a
construction is unnecessary because Patent Owner’s
proposed interpretation is disclosed by Rasmussen.
Id. at 7.
We agree with Patent Owner’s statement that
the claim language “does not address (i.e., require or
restrict) air entering through a structure other than a
panel (e.g., a gusset) nor does it address any such air
exiting the pillow in a particular manner (e.g.,
through a panel, gusset, or other structure).” See PO
Resp. 47. The claim language requires “at least some
air which enters through the panels” exits through
the gusset alone or in combination with another
structure. See id. The portions of the specification
cited by Patent Owner support its above-quoted
statement because the cited portions describe that the
pillow allows lateral ventilation, gusset 20 provides
venting, gusset 20 permits air exchange, and the
panels can be made of open cell construction. See PO
Resp. 48–49; Ex. 1047, 1:37–40, 2:12–15, 4:34–36,
4:56–58. Further interpretation is not required for
determining whether Petitioner shows by a
preponderance of the evidence the unpatentability of
claim 1. See Vivid Techs., Inc. v. Am. Sci. & Eng’g,
Inc., 200 F.3d 795, 803 (Fed. Cir. 1999) (construing
explicitly only those claim terms in controversy and
only to the extent necessary to resolve the
controversy).
B. “open cell construction” (claims 4, 14, 15, 18)
Petitioner argues that “‘open cell construction’
need not be construed or given independent
patentable weight beyond the specific structure
recited in the claims” and that “construction does not
impact the prior art analysis herein.” Pet. 23 (citing

166a
Rhodes Decl. ¶¶ 85–86). In the Decision on
Institution, we did not interpret “open cell
construction” expressly. Dec. on Inst. 7.
Patent Owner states that “[b]oth parties agree
that the express definition for the term ‘open cell
construction’ . . . should be adopted, namely a
‘construction having overall porosity greater than the
inherent porosity of the constituent material or
inherently having high porosity.’” PO Resp. 38–39
(citing Pet. 23). Also, specifically for claim 4, Patent
Owner states that it “does not expressly specify a
structure for the ‘open cell construction,’” “is not
constrained to a specific type of open cell structure,”
and “covers the various embodiments disclosed.” Id.
at 45. Patent Owner contends it should be construed
according to the definition in the specification. Id. at
45–46. Petitioner also states that the parties “agree
that the specification expressly defines ‘open cell
construction’ as ‘a construction having overall
porosity greater than the inherent porosity of the
constituent material or inherently having high
porosity.” Pet. Reply 2–3 (citing Pet. 22–23; PO Resp.
38–39; Ex. 1001, 1:41–44).
The specification of the ’883 patent states that
an “‘open cell construction’ as used herein refers to a
construction having overall porosity greater than the
inherent porosity of the constituent material or
inherently having high porosity.” Ex. 1047, 1:44–47.
Based on the full record, we agree with parties that
“open cell construction” is defined in the specification,
and we interpret it in accordance with that definition
to mean “a construction having overall porosity
greater than the inherent porosity of the constituent
material or inherently having high porosity.” See In

167a
re Paulsen, 30 F.3d 1475, 1480 (Fed. Cir. 1994)
(“Although an inventor is indeed free to define the
specific terms used to describe his or her invention,
this must be done with reasonable clarity,
deliberateness, and precision.”).
C. “said open cell construction is formed by
porosity of said base material being
substantially greater than porosity of
material forming said first panel and . . .
said second panel” (claims 14, 15)
Patent Owner contends that “distinct ‘open cell
construction’ phrases should be construed separately
to properly account for the different structures
expressly recited in these claims.” PO Resp. 39. In
support of its position, Patent Owner cites the claim
language (id. at 40–41 (citing claims 14, 15, and 18)),
the specification (id. at 39–40 (citing Ex. 1047, Figs.
3, 4)), the prosecution history of the related ’134
patent (id. at 41), and Dr. Parachuru’s testimony (id.
at 39–41 (citing Ex. 2001 ¶¶ 50, 55–56; Ex. 2004 ¶¶
101, 115–117, 119)). Patent Owner also refers to
related district court litigation. Id. at 42 (citing Ex.
2017, 18).
Patent Owner proposes interpreting “said open
cell construction is formed by porosity of said base
material being substantially greater than porosity of
material forming said first panel and . . . said second
panel” to mean “a construction made up of a
constituent material that, by itself, has substantially
higher porosity than the material of the first and
second panels.” PO Resp. 44, 45. In support, Patent
Owner cites the claim language, the specification (Ex.
1047, 2:47–64, Fig. 5), the prosecution history of the

168a
’134 patent (Ex. 1003, 47), and Dr. Parachuru’s
testimony (Ex. 2004 ¶¶ 132–134). Id. at 44–45. Patent
Owner also argues that the phrase at issue is
“directed to the Using High-Porosity Materials
Embodiment (FIG. 5).” Id. at 44–45.
As for “substantially greater,” Petitioner
contends that the ’883 patent “expressly defined this
term to mean simply ‘greater than.’” Pet. 23; Ex. 1047,
2:61–63. “Patent Owner agrees to adopt Petitioner’s
proposed construction solely for the purposes of this
IPR.” PO Resp. 49–50.
The specification states that “‘[s]ubstantially
greater’ refers to being at least greater than, but
preferably being at least twice greater than.” Ex.
1047, 2:54–56. Based on the full record, we interpret
“substantially greater” to mean “greater than” the
reference value. See Paulsen, 30 F.3d at 1480.
The language of claims 14 and 15 does not
require expressly that the constituent base material
by itself has higher porosity than the material of the
first and second panels. Patent Owner’s proposed
interpretation also narrows the interpretation of
“open cell construction,” that is analyzed above in
Section II.B.
We find that the specification of the ’883 patent
describes that an open cell construction has overall
porosity greater than the inherent porosity of a
constituent material. Ex. 1047, 1:44–47. We also find
that the ’883 patent states that “with reference to
FIG. 5, the gusset 20 may be formed with the base
material 30 being inherently significantly porous” (id.
at 2:50–52) (emphasis added) and that the “porosity
of the base material 30 may be substantially greater

169a
than the porosity of the material forming the first
panel 16 and/or . . . the second panel 18” (id. at 2:58–
61) (emphasis added). We find that these portions of
the ’883 patent contemplate embodiments in addition
to ones encompassed by Patent Owner’s proposed
interpretation. The specification also expressly states
that open cell construction can be the embodiment of
Figure 5 combined with other configurations. See id.
at 2:22–23 (“open cell construction of the gusset 20
may be defined by various constructions”), 3:1–3
(“gusset 20 may include one or more of the open cell
configurations described above in connection with
FIGS. 3–5 singularly or in any combination”).
The prosecution history of the related ’134
patent indicates that a claim was amended to include
“said open cell construction is formed by interlaced or
spaced-apart strands” in response to what the
Examiner believed was allowable subject matter in
the dependent claims. See Ex. 1003, 45 (Claim 1 was
amended to include “said open cell construction is
formed by interlaced or spaced-apart strands.”), 49
(“By way of this amendment, Claim 1 has been
amended to incorporate the allowable subject matter
of Claim 2.”). However, the prosecution history does
not indicate that Applicant intended the amendment
to result necessarily in Patent Owner’s proposed
interpretation for “said open cell construction is
formed by porosity of said base material being
substantially greater than porosity of material
forming said first panel and . . . said second panel.”
See id.
In view of our determinations above, the claim
language, specification, and prosecution history do
not provide a sufficiently persuasive reason for

170a
further specifying the “constituent material [], by
itself, has substantially higher porosity than the
material of the first and second panels” for the
interpretation of “said open cell construction is
formed by porosity of said base material being
substantially greater than porosity of material
forming said first panel and . . . said second panel.”
Thus, based on the full record, we interpret “said open
cell construction is formed by porosity of said base
material being substantially greater than porosity of
material forming said first panel and . . . said second
panel,” as recited by claims 14 and 15, to mean that
the open cell construction is formed by at least the
porosity of the base material being greater than the
porosity of the material of the first and second panels.
D. “said open cell construction being formed by
strands defining a mesh configuration”
(claim 18)
Patent Owner proposes interpreting “said open
cell construction being formed by strands defining a
mesh configuration” to mean “a construction in which
open cells are defined by strands arranged in mesh
configuration, such that the overall porosity is greater
than the porosity of the constituent material itself.”
PO Resp. 43, 44; see also id. at 39–41 (arguing that
open cell claim phrases should be construed
separately). In support, Patent Owner cites the claim
language, the specification (Ex. 1047, 2:20–35, Fig. 3),
and declarant testimony (Ex. 2004 ¶¶ 126–128). Id. at
43. Patent Owner asserts that the “claim phrase is
clearly directed to the Arranging Strands
Embodiment (FIG. 3).” Id.

171a
The language of claim 18 does not include
expressly “such that the overall porosity is greater
than the porosity of the constituent material itself.”
Also, this portion of Patent Owner’s proposed
interpretation is substantially included in the parties’
agreed-to interpretation of “open cell construction,”
which we adopted, as discussed above in Section II.B.
See Ex. 1047, 1:44–47 (“‘open cell construction’ as
used herein refers to a construction having overall
porosity greater than the inherent porosity of the
constituent material”) (emphasis added).
We further find that the specification of the
’883 patent describes that an open cell construction
has overall porosity greater than the inherent
porosity of a constituent material (Ex. 1047, 1:44–47),
and in certain embodiments, such as the one depicted
in Figure 3, may be defined by interlaced or spacedapart strands made of various materials and
arranged randomly or in various patterns (id. at 2:15–
31). The specification also associates open cell
construction with venting or air exchange. See, e.g.,
id. at 2:14–15, 4:34–36. The specification expressly
states that open cell construction can be the
embodiment of Figure 3 combined with other
configurations. See id. at 2:22–23, 3:1–3.
Also, for the same reasons discussed above in
Section II.C., we determine that the prosecution
history of the related ’134 patent does not indicate
that Applicant intended the amendment to result
necessarily
in
Patent
Owner’s
proposed
interpretation. See Ex. 1003, 45, 49. In view of our
determinations
above,
the
claim
language,
specification, and prosecution history of the related
’134 patent do not provide a sufficiently persuasive

172a
reason for further specifying “such that the overall
porosity is greater than the porosity of the constituent
material itself” for the interpretation of “said open cell
construction being formed by strands defining a mesh
configuration.”
Thus, based on the full record, we interpret
“said open cell construction is formed by strands
defining a mesh configuration,” as recited by claim 18,
to mean that the open cell construction is formed by
at least strands defining a mesh configuration.
E. Other Terms
Petitioner proposes that the “broadest
reasonable construction of ‘gusset’ is ‘a generally
vertically-oriented portion of a pillow between the top
and bottom panels of a pillow to provide for
enlargement or expansion of the pillow.’” Pet. 22
(citing Rhodes Decl. ¶ 82). In our Decision on
Institution, we agreed with Patent Owner that claim
1 does not require the gusset to be “generally
vertically-oriented” or that it “provide for
enlargement or expansion.” Dec. on Inst. 6; see also
PO Resp. 37 (“[T]he Board decided that ‘gusset’ did
not require an express interpretation.”); Pet. Reply 2
(“The Board determined no construction was
necessary.”).
Patent Owner responds that “there is no need
to construe the term” “[f]or purposes of this IPR
proceeding.” PO Resp. 37. “Petitioner also agrees
express construction is unnecessary for this
proceeding.” Pet. Reply 2.
Based on the full record, we concur with the
parties that an express interpretation for “gusset” is

173a
not necessary for determining whether Petitioner has
demonstrated by a preponderance of the evidence that
the challenge claims are unpatentable. See Vivid
Techs., 200 F.3d at 803. We also determine that
express interpretation of any other claim term is not
necessary. See id.
III.

ANTICIPATION CHALLENGES

Petitioner contends that claims 1–4, 7–10, 13–
15, 17, 18, and 20 are anticipated by Rasmussen (Ex.
1006) with citations to Rasmussen and the Rhodes
Declaration. Pet. 17, 24–35, 37–50, 52–59. Patent
Owner responds to the alleged anticipation with
citations to Rasmussen, the Parachuru Declaration,
and other record evidence. PO Resp. 52–74.
To prevail in its anticipation challenges,
Petitioner must prove unpatentability by a
preponderance of the evidence. 35 U.S.C. § 316(e); 37
C.F.R. § 42.1(d). To anticipate a claim under 35 U.S.C.
§ 102, “a single prior art reference must expressly or
inherently disclose each claim limitation.” Finisar
Corp. v. DirecTV Group, Inc., 523 F.3d 1323, 1334
(Fed. Cir. 2008). That “single reference must describe
the claimed invention with sufficient precision and
detail to establish that the subject matter existed in
the prior art.” Verve, LLC v. Crane Cams, Inc., 311
F.3d 1116, 1120 (Fed. Cir. 2002).
Petitioner also argues that the claims of the
’883 patent are not entitled to a priority date before
June 22, 2012. Pet. 24. Petitioner argues that
Rasmussen (Ex. 1006) is § 102(b) prior art, if the
challenged claims are entitled only to a priority date
of June 22, 2012. Petitioner alternatively argues that
a provisional application (Ex. 1007, to which

174a
Rasmussen claims priority, see Ex. 1006, [30]) is
§ 102(e) prior art, if the challenged claims are entitled
to the earlier priority date of June 22, 2011. Pet. 24.
Petitioner, thus, provides parallel citations to
Rasmussen and the provisional application, which
Petitioner asserts is identical to Rasmussen. Pet. 24
n.1; Ex. 1057 (comparison of Rasmussen and its
provisional).
As discussed below, the full record persuades
us that Petitioner has proven by a preponderance of
the evidence that claims 1–4, 7–10, 13–15, 17, 18, and
20 are anticipated by Rasmussen under 35 U.S.C.
§ 102(b) or § 102(e).
A. Rasmussen (Ex. 1006)
Rasmussen describes a “pillow assembly
including a visco-elastic foam core and a cover having
a top portion and a side portion that is more
permeable than the top portion.” Ex. 1006, [57].
Figure 1 of Rasmussen is reproduced below.

175a
Figure 1 shows a perspective view of a pillow
with a portion of its cover removed to expose its core.
Ex. 1006 ¶ 10. Pillow 100 includes core 110, and core
110 includes top layer 140, bottom layer 150, and
sidewalls 160 connecting top layer 140 and bottom
layer 150. Id. ¶¶ 14, 15.
Sidewalls 160 can be “highly porous, and
therefore provide a significant degree of ventilation
for the pillow,” and “this capability is achieved
through use of a 3D textile core sidewall 160.” Id. ¶
29. Top layer 140, bottom layer 150, and sidewalls 160
define cavity 170 that receives filler material 180. Id.
¶ 15, Fig. 2. “[F]iller material 180 of the pillow 100
can include, but is not limited to, granulated viscoelastic foam” with “hardness . . . for desirable softness
and body-conforming qualities.” Id. ¶¶ 19, 30.
Pillow 100 can include a rib where top layer
140 and sidewall 160 “meet and are joined.” Id. ¶ 15.
According to Rasmussen,
top layer 140, bottom layer 150 and
sidewalls 160 can include one or more
releasable fasteners (e.g., zippers,
buttons, clasps, laces, hook and loop
fastener material pieces, hook and eye
sets, tied ribbons, strings, cords, or other
fastener elements) . . . located between
the top layer 140 and sidewall 160,
between a sidewall 160 and the bottom
layer 150, or within an opening in the
top layer 140, sidewall 160, and/or
bottom layer 150.
Id. ¶ 18.

176a
The “core can be enclosed within a cover having
highly porous sides.” Id. ¶ 6. Cover 190 includes top
portion 200, bottom portion 210, and side portions
220. Id. ¶ 48. Top portion 200 “can be less porous than
the side portions 220 or the bottom portion 210 of the
cover 190.” Id. ¶ 50. Side portions 220 “can be highly
porous (e.g., made of a 3D textile material or a velour
or stretch velour material) . . . and covering the highly
porous material of the core sidewalls 160.” Id. ¶ 49.
“[S]ide portions 220 of the cover 190 . . . can permit
significant ventilation into and out of the pillow.” Id.
“Alternatives to the materials described above for the
pillow cover 190 include any sheet material desired,
including without limitation . . . polyester [and] a
cotton/polyester blend.” Id. ¶ 52.
“[C]over 190 can have one or more seams” that
“can be attached by . . . conventional fasteners (e.g.,
zippers, buttons, clasps, laces, hook and loop fastener
material, hook and eye sets, tied ribbons, strings,
cords, or other similar elements, and the like).” Id.
For embodiments “in which reticulated or nonreticulated visco-elastic foam is used to construct
portions of the core (e.g., the top layer 140, the bottom
layer 150, and/or the filler material 180), the pillow
100 provides a soft and comfortable surface for a
user’s body” and “can also conform to a user’s body,
thereby distributing the force applied by the user’s
body upon the top layer 140.” Id. ¶ 46. The “use of
reticulated foam can also enhance the ability of the
pillow 100 to wick moisture away from the user’s body
thereon.” Id. ¶ 22.

177a
B. Independent Claim 1
Petitioner states that “Rasmussen anticipates
claim 1 both by virtue of: i) its ‘core’ structure,
including top layer 140, bottom layer 150, and
sidewalls 160, as well as, separately and
independently, by virtue of ii) its pillow ‘cover’
structure, including top portion 200, bottom portion
210, and side portions 220.” Pet. 29; see also id. at 25–
29 (asserting what Rasmussen discloses).
1. Challenge Based on the Core of
Rasmussen
In its description of Rasmussen, Petitioner
provides an annotated Figure 2 from Rasmussen that
is reproduced below. Id. at 26.

The annotated Figure 2 from Rasmussen
illustrates the components of core 110. Id.

178a
a. Uncontested Limitations
Petitioner argues that Rasmussen discloses
pillow 100 comprising “a first panel having an edge
defining a perimeter,” “a second panel having an edge
defining a perimeter,” and “a gusset joining said first
and second panels.” Pet. 29–30 (citing Ex. 1006 ¶ 15,
Figs. 1, 2; Ex. 1007 ¶ 11, Figs. 1, 2; Rhodes Decl. ¶¶
106–107). Patent Owner does not present arguments
addressing these limitations of claim 1. See PO Resp.
50–74.
We find that the cited portions of Rasmussen
disclose and depict that “core 110 of the illustrated
pillow 100 includes a top layer 140, a bottom layer 150
opposite the top layer 140, and sidewalls 160
connecting the top layer 140 and the bottom layer
150.” Ex. 1006 ¶ 15, Figs. 1, 2; Ex. 1007 ¶ 11, Figs. 1,
2; see also Pet. 29–30 (citing id.). In particular, we find
that top layer 140 of Rasmussen discloses “a first
panel having an edge defining a perimeter,” bottom
layer 150 of Rasmussen discloses “a second panel
having an edge defining a perimeter,” and
Rasmussen’s sidewall 160 connecting the top and
bottom layers 140, 150 discloses “a gusset joining said
first and second panels.” Ex. 1006 ¶ 15, Figs. 1, 2; Ex.
1007 ¶ 11, Figs. 1, 2.
Petitioner argues that Rasmussen discloses
“wherein inner surfaces of said first panel, said
second panel and said gusset define an inner cavity.”
Pet. 32 (citing Ex. 1006 ¶ 15, Figs. 1, 2; Ex. 1007 ¶ 11,
Figs. 1, 2). We find that Petitioner’s citations to
Rasmussen disclose and depict that the “top layer
140, bottom layer 150 and sidewalls 160 define a
cavity 170 shaped to receive filler material 180” and
thus disclose “wherein inner surfaces of said first

179a
panel, said second panel and said gusset define an
inner cavity.” Ex. 1006 ¶ 15, Figs. 1, 2; Ex. 1007 ¶ 11,
Figs. 1, 2.
b. “said pillow is configured to
have air enter the cavity
through pores in the first and
second panels and have the air
exit the cavity through pores in
the gusset”
Petitioner argues that Rasmussen discloses
“said pillow is configured to have air enter the cavity
through pores in the first and second panels and have
the air exit the cavity through pores in the gusset.”
Pet. 32–33 (citing Ex. 1006 ¶¶ 8, 15, 19–24, 29, Figs.
1, 2; Ex. 1007 ¶¶ 15–20, 25, Figs. 1, 2; Rhodes Decl.
¶¶ 108–109).
We find that Petitioner’s citations to
Rasmussen disclose that the “side layer is more
permeable than the top layer and the bottom layer”
(Ex. 1006 ¶ 8), “the top layer 140 and/or bottom layer
150 comprises visco-elastic foam (sometimes referred
to as ‘memory foam’ or ‘low resilience foam’)” (Ex.
1006 ¶ 19; Ex. 1007 ¶ 15), “significant advantages are
achieved by utilizing reticulated visco-elastic foam for
the top layer 140 and/or bottom layer 150” (Ex. 1006
¶ 22; Ex. 1007 ¶ 18), “reticulated foam can provide
significantly increased ventilation for the top and/or
bottom layer 140, 150” (Ex. 1006 ¶ 15; Ex. 1007 ¶ 18),
and “the pillow 100 is provided with sidewalls 160
that are highly porous, and therefore provide a
significant degree of ventilation for the pillow,
allowing air to enter and exit the pillow 100 readily
through the sides of the pillow 100” (Ex. 1006 ¶ 29;
Ex. 1007 ¶ 25). We, thus, find that reticulated visco-

180a
elastic foam top and bottom layers 140, 150 that
provide increased ventilation and highly porous
sidewalls 160 that allow air to move through the sides
of pillow 100 disclose “said pillow is configured to have
air enter the cavity through pores in the first and
second panels and have the air exit the cavity through
pores in the gusset.”
Patent Owner responds that Rasmussen does
not disclose the limitation “said pillow is configured to
have air enter the cavity through pores in the first
and second panels and have the air exit the cavity
through pores in the gusset.” PO Resp. 68. Patent
Owner argues that “[n]owhere does Petitioner point
to any evidence to support that Rasmussen’s pillow
enables the air which enters the pillow through either
panel to then exit through the gusset,” “Petitioner
erroneously asserts that the claim merely requires air
to enter and exit through both the panels and the
gusset,” and Petitioner “never attempts to make any
connection with respect to the direction of the airflow
through the inner cavity (i.e., into one of the panels
and out of the gusset).” Id. at 69 (citing Pet. 33;
Parachuru Decl. ¶¶ 190–193).
Patent Owner also argues that, under
Petitioner’s anticipation challenge based on
Rasmussen’s core, the cited portions, at best, “teaches
that air flows through Rasmussen’s top and bottom
layer (i.e., the asserted panels) – with no mention
whatsoever of the side layer (i.e., the asserted gusset)”
or “teaches airflow into, through, and out of
Rasmussen’s side layer (i.e., asserted gusset) – with
no mention of Rasmussen’s top or bottom layers (i.e.,
the asserted panels).” Id. at 69–70 (citing Pet. 32–34;
Parachuru Decl. ¶¶ 194–195).

181a
As discussed above, we find that Rasmussen
discloses a pillow with top and bottom layers 140, 150
that provide increased ventilation and sidewalls 160
that allow air to enter and exit the pillow. Also, as
discussed in Section II.A., we agreed with Patent
Owner that “configured to have air enter the cavity
through pores in the first and second panels and have
the air exit the cavity through pores in the gusset”
does not restrict air entering through another
structure, such as the gusset, and does not address air
exiting through other structures, such as the panel.
See PO Resp. 47. We also determined that this
limitation requires “at least some air which enters
through the panels” exits through the gusset alone or
in combination with another structure. In view of this
interpretation of “configured to have air enter the
cavity through pores in the first and second panels
and have the air exit the cavity through pores in the
gusset,” we are persuaded that Petitioner sufficiently
shows that Rasmussen discloses “said pillow is
configured to have air enter the cavity through pores
in the first and second panels and have the air exit
the cavity through pores in the gusset,” as recited by
claim 1. We also note that claim 1 is an apparatus
claim, and Petitioner has shown sufficiently that the
structures disclosed by Rasmussen are so configured.
Thus, based on the full record, we determine
that Petitioner demonstrates by a preponderance of
the evidence that Rasmussen anticipates claim 1
based on disclosures related to its core.
2. Challenge Based on the Cover of
Rasmussen
Separate and independent of its arguments
based on core 110, Petitioner also contends that

182a
Rasmussen’s cover 190 with top portion 200, bottom
portion 210, and side portions 220 discloses the
limitations of claim 1. Pet. 29; see also id. at 25–29
(asserting what Rasmussen discloses). In its
description of Rasmussen, Petitioner provides an
annotated Figure 2 from Rasmussen that is
reproduced below. Id. at 27.

The annotated Figure 2 from Rasmussen
illustrates components of cover 190. Id. at 27.
a. Uncontested Limitations
Petitioner argues that Rasmussen discloses
pillow 100 comprising “a first panel having an edge
defining a perimeter,” “a second panel having an edge
defining a perimeter,” and “a gusset joining said first
and second panels.” Pet. 30–31 (citing Ex. 1006 ¶¶ 48,
52, Figs. 1, 2; Ex. 1007 ¶¶ 44, 48, Figs. 1, 2; Rhodes
Decl. ¶¶ 106–107). Patent Owner does not present
arguments addressing these limitations of claim 1.
See PO Resp. 50–74.

183a
We find that the cited portions of Rasmussen
disclose and depict that “pillow 100 can have a cover
190 substantially enclosing the pillow 100” and that
“cover 190 can include a top portion 200, a bottom
portion 210 opposite the top portion 200, and side
portions 220 extending between the top portion 200
and the bottom portion 210.” Ex. 1006 ¶ 48, Figs. 1, 2;
Ex. 1007 ¶ 44, Figs. 1, 2; see also Pet. 30–31 (citing
id.). In particular, we find that top portion 200 of
Rasmussen discloses “a first panel having an edge
defining a perimeter,” bottom portion 210 of
Rasmussen discloses “a second panel having an edge
defining a perimeter,” and Rasmussen’s side portions
220 extending between top and bottom portions 200,
210 discloses “a gusset joining said first and second
panels.” Ex. 1006 ¶ 15, Figs. 1, 2; Ex. 1007 ¶ 11, Figs.
1, 2.
Petitioner argues that the inner surfaces of top
portion 200, bottom portion 210, and side portions 220
define an inner cavity. Pet. 33–34 (citing Ex. 1006 ¶
48, Fig. 2; Ex. 1007 ¶ 44, Fig. 2). We find that
Petitioner’s citations to Rasmussen disclose and
depict “wherein inner surfaces of said first panel, said
second panel and said gusset define an inner cavity.”
Ex. 1006 ¶ 48, Fig. 2; Ex. 1007 ¶ 44, Fig. 2.
b. “said pillow is configured to
have air enter the cavity
through pores in the first and
second panels and have the air
exit the cavity through pores in
the gusset”
Petitioner argues that Rasmussen discloses
“said pillow is configured to have air enter the cavity
through pores in the first and second panels and have

184a
the air exit the cavity through pores in the gusset.”
Pet. 34–35 (citing Ex. 1006 ¶¶ 6, 49, 50, Fig. 2, claims
11–12; Ex. 1007 ¶¶ 5, 45, 46, Fig. 2; Rhodes Decl. ¶¶
111–112).
We find that Petitioner’s citations to
Rasmussen disclose that “the core can be enclosed
within a cover having highly porous sides” (Ex. 1006
¶ 6; Ex. 1007 ¶ 5), “the top of the cover can be less
porous than the sides or bottom of the cover” (Ex. 1006
¶ 6; Ex. 1007 ¶ 5), “the top and bottom of the cover are
less porous than the sides of the cover” (Ex. 1006 ¶ 6;
Ex. 1007 ¶ 5), “side portions 220 of the cover 190 can
be highly porous” (Ex. 1006 ¶ 49; Ex. 1007 ¶ 45), “the
bottom portion 210 of the cover 190 can also be highly
porous” (Ex. 1006 ¶ 49; Ex. 1007 ¶ 45), and “the side
portions 220 of the cover 190 . . . can permit
significant ventilation into and out of the pillow” (Ex.
1006 ¶ 49; Ex. 1007 ¶ 45). We, thus, find that less
porous top and bottom portions 200, 210 and highly
porous side portions 220 that permit significant
ventilation of Rasmussen’s pillow disclose “said pillow
is configured to have air enter the cavity through
pores in the first and second panels and have the air
exit the cavity through pores in the gusset.”
Patent Owner responds that Rasmussen does
not disclose the limitation because “[n]owhere does
Petitioner point to any evidence to support that
Rasmussen’s pillow enables the air which enters the
pillow through either panel to then exit through the
gusset,” “Petitioner erroneously asserts that the claim
merely requires air to enter and exit through both the
panels and the gusset,” and Petitioner “never
attempts to make any connection with respect to the
direction of the airflow through the inner cavity (i.e.,

185a
into one of the panels and out of the gusset).” PO Resp.
68–69 (citing Pet. 33; Parachuru Decl. ¶¶ 190–193).
Patent Owner also argues that, under
Petitioner’s anticipation challenge based on
Rasmussen’s cover, “the cited portions of Rasmussen
only mention ‘ventilation into and out of the pillow’
through the side portions (i.e., the asserted gusset)”
and “lack[] any discussion whatsoever with respect to
any airflow into or out of the top or bottom portions
(i.e., the asserted panels).” Id. at 70 (citing Pet. 32–
36; Parachuru Decl. ¶¶ 196–197).
As discussed above, we find that Rasmussen
discloses a pillow with less porous top and bottom
portions 200, 210 and highly porous side portions 220
that permit significant ventilation. Also, as discussed
in Section II.A., we agreed with Patent Owner that
“configured to have air enter the cavity through pores
in the first and second panels and have the air exit
the cavity through pores in the gusset” does not
restrict air entering through another structure, such
as the gusset, and does not address air exiting
through other structures, such as the panel. See PO
Resp. 47. We also determined that this limitation
requires “at least some air which enters through the
panels” exits through the gusset alone or in
combination with another structure. In view of this
interpretation, we are persuaded that Petitioner
sufficiently shows that Rasmussen discloses “said
pillow is configured to have air enter the cavity
through pores in the first and second panels and have
the air exit the cavity through pores in the gusset,” as
recited by claim 1. We also note that claim 1 is an
apparatus claim, and Petitioner has shown

186a
sufficiently that the structures
Rasmussen are so configured.

disclosed

by

Thus, based on the full record, we determine
that Petitioner demonstrates by a preponderance of
the evidence that Rasmussen anticipates claim 1
based on disclosures related to its cover.
C. Dependent Claims 2 and 3
Claims 2 and 3 depend from claim 1. Ex. 1047,
5:34–43. For the reasons discussed above in Section
III.B., the record persuades us that Petitioner shows
by a preponderance of the evidence that claim 1 is
anticipated by Rasmussen based on disclosures
related to its core and its cover.
Claim 2 recites:
a first end of said gusset engages
said edge of said first panel such that
said gusset extends continuously about
an entire portion of the perimeter of the
first panel; and
a second end of said gusset
opposite said first end engages said edge
of said second panel such that said
gusset extends continuously about an
entire portion of the perimeter of the
second panel.
Ex. 1047, 5:34–41. Claim 3 recites “wherein said
gusset permetrically bounds said first and second
panels.” Id. at 5:42–43.
Petitioner argues that the core of Rasmussen
discloses claims 2 and 3. Pet. 37–39, 41 (citing Ex.
1006, Figs. 1, 2; Rhodes Decl. ¶¶ 114–118). Petitioner

187a
also argues that the cover of Rasmussen discloses
claims 2 and 3. Pet. 39–41 (citing Ex. 1006 ¶ 48, Figs.
1, 2; Ex. 1007 ¶ 44; Rhodes Decl. ¶¶ 114–118).
We find that Figures 1 and 2 show sidewall 160
of core 110 joined to top and bottom layers 140, 150
and side portion 220 of cover 190 joined to top and
bottom portions 200, 210. As discussed above in
connection with claim 1, we find that Rasmussen
discloses “sidewalls 160 connecting the top layer 140
and the bottom layer 150” and that the “top layer 140,
bottom layer 150 and sidewalls 160 define a cavity
170 shaped to receive filler material 180.” Ex. 1006 ¶
15; Ex. 1007 ¶ 18. We also find that “side portions 220
extend[] between the top portion 200 and the bottom
portion 210” and that the inner surfaces of top portion
200, bottom portion 210, and side portions 220 define
an inner cavity. Ex. 1006 ¶ 48; Ex. 1007 ¶ 44. We also
credit the testimony of Petitioner’s declarant that
“Rasmussen teaches all of the limitations of claims 2–
3.” Rhodes Decl. ¶ 114; see also Ex. 2016, 95:11–15
(stating, during deposition, that “[a]s a person with
many years of experience in the industry, one can
read the Rasmussen patent and completely
understand and expect to find that as described, the
side wall goes around all of the edges of the pillow”),
103:3–9 (stating that “a person with experience, such
as mine, in understanding of the product and that the
consumer is expecting to find a cover that covers all
sides of the pillow, Rasmussen makes it clear through
description and illustration that the cover is on all
sides of the pillow”).
Patent Owner responds, for claims 2 and 3,
that Rasmussen does not disclose that “the sidewalls
of Rasmussen’s core or the side portions of

188a
Rasmussen’s cover ‘perimetrically bound’ the
corresponding top and bottom layers/portions.” PO
Resp. 72–73 (citing Pet. 37–41; Ex. 2016, 94:18–95:15,
102:20–103:9).
After weighing Petitioner’s evidence (Ex. 1006
¶¶ 15, 48; Ex. 1007 ¶¶ 18, 44; Rhodes Decl. ¶ 114) and
Patent Owner’s evidence (Ex. 2016, 94:18–95:15,
102:20–103:9), we determine that Petitioner carries
its burden of showing by a preponderance of the
evidence that Rasmussen anticipates claims 2 and 3
in its challenge based on the core and its challenge
based on the cover.
D. Dependent Claims 14 and 15
Claim 14 depends from claim 1 and recites
“wherein said gusset is formed of an open cell
construction and a base material, and said open cell
construction is formed by porosity of said base
material being substantially greater than porosity of
material forming said first panel and substantially
greater than porosity of material forming said second
panel.” Ex. 1047, 6:21–26.
Claim 15 depends from claim 1 and recites
“wherein said gusset is formed of an open cell
construction and a base material, and said open cell
construction is formed by porosity of said base
material being substantially greater than porosity of
material forming said first panel and substantially
greater than porosity of material forming said second
panel.” Id. at 6:27–32; see also Pet. 51 (“Claims 14 and
15 are identical.”).
Petitioner contends that Rasmussen describes
sidewalls 160 and side portion 220 can be formed of a

189a
“highly porous” material, such as “3D textile
material,” which is 3D spacer fabric. Pet. 52–53
(citing Ex. 1006 ¶¶ 8, 29, 49, 50, Fig. 2, claims 11, 12;
Ex. 1007 ¶¶ 25, 45, 46, Fig. 2; Rhodes Decl. ¶¶ 144–
147). We find that Rasmussen discloses highly porous
sidewall 160 and side portion 220. Ex. 1006 ¶¶ 29
(“the pillow 100 is provided with sidewalls 160 that
are highly porous, and therefore provide a significant
degree of ventilation for the pillow, allowing air to
enter and exit the pillow 100 readily through the sides
of the pillow 100” and “this capability is achieved
through use of a 3D textile core sidewall 160”), 49
(“side portions 220 of the cover 190 can be highly
porous (e.g., made of a 3D textile material or a velour
or stretch velour material)” and “can permit
significant ventilation into and out of the pillow”); see
also Ex. 1007 ¶¶ 25, 45, 46 (disclosing the same).
Patent Owner responds Rasmussen does not
disclose the limitation of an “open cell construction . .
. formed by porosity of said base material being
substantially greater than porosity of material
forming said first panel and . . . said second panel.”
PO Resp. 66–67. Patent Owner argues that, under
either of Petitioner’s interpretations of Rasmussen, it
teaches at best that Petitioner’s alleged gusset “as a
whole” is more porous than the alleged panels, not
that the base material of the alleged gusset is more
porous than the materials of the alleged panels. Id. at
67–68 (citing Pet. 46; Ex. 1006 ¶¶ 8, 50; Parachuru
Decl. ¶¶ 175–178). According to Patent Owner, “even
if the alleged gusset in Rasmussen is more porous
than the first and second panels, it is not necessary
(and thus not inherent) for the gusset base material
to be of a greater porosity than the material forming

190a
the first and second panels.” Id. at 68. Patent Owner
additionally asserts that Rasmussen’s generic
reference to 3D textiles is not enabling and cannot
anticipate the claims. Id.
The portions of Rasmussen cited in the
Petition, however, disclose that the “side layer is more
permeable than the top layer and the bottom layer”
and that “highly porous” sidewalls 160 allow air to
enter and exit its sides “achieved through use of a 3D
textile core sidewall 160.” Pet. 52–53 (citing Ex. 1006
¶ 29; Ex. 1007 ¶ 25). In connection with “3D textile,”
Rasmussen states that the “sides of the core can be
defined by highly porous material (such as a 3D
textile material).” Ex. 1006 ¶ 6; Ex. 1007 ¶ 5. We,
therefore, find that Rasmussen discloses that the 3D
textile making up its sidewalls 160 has a greater
porosity than the material forming top and bottom
layers 140, 150.
Petitioner also shows sufficiently that
Rasmussen discloses that the material of the side
portions 220 has a greater porosity than the material
of its top and bottom portions 200, 210. See also Ex.
1006 ¶ 6; Ex. 1007 ¶ 5 (disclosing “highly porous
material (such as a 3D textile material)”).
Thus, based on the full record, we determine
that Petitioner shows by a preponderance of the
evidence that Rasmussen anticipates claims 14 and
15 based on disclosures related to both its core and
cover.
E. Dependent Claim 17
Claim 17 depends from claim 1 and recites
“wherein at least one of said first panel and said

191a
second panel comprise a material selected from a
group consisting of: a 100% polyester fabric, rayon,
nylon, or a spandex-blend fabric. Ex. 1047, 6:36–39.
Petitioner argues that Rasmussen describes
that its top and bottom portions of its cover 190 can
comprise “polyester.” Pet. 54–55 (citing Ex. 1006 ¶¶
50–52; Ex. 1007 ¶¶ 46–48). As discussed above in
Section III.B.2.b., we determine that Rasmussen’s
less porous top and bottom portions 200, 210 and
highly porous side portions 220 that permit
significant ventilation of its pillow disclose “said
pillow is configured to have air enter the cavity
through pores in the first and second panels and have
the air exit the cavity through pores in the gusset,” as
recited by claim 1. We also find that Rasmussen
discloses that at least one of the components of its
cover 190 can be polyester. Ex. 1006 ¶ 52; Ex. 1007 ¶
48 (“Alternatives to the materials described above for
the pillow cover 190 include any sheet material
desired, including without limitation . . . polyester, a
cotton/polyester blend.”).
Patent Owner responds that Petitioner relies
on properties of Rasmussen’s original materials for
independent claim 1 but for claim 17, relies on an
alternative to those materials. PO Resp. 71–72 (citing
Pet. 32–36; Ex. 1006 ¶ 52). As described above in
Section III.B.2.b., Petitioner does not rely on a
particular material for claim 1 for its challenge based
on the cover of Rasmussen.
Thus, in view of the full record, we determine
that Petitioner demonstrates by a preponderance of
the evidence that Rasmussen anticipates claim 17
based on disclosures related to its cover.

192a
F. Dependent Claim 18
Claim 18 depends from claim 1 and recites
“wherein said gusset is formed of an open cell
construction, said open cell construction being formed
by strands defining a mesh configuration.” Ex. 1047,
6:40–42.
Petitioner
contends
that
Rasmussen’s
description of “highly porous” and “3D textile
materials” for sidewall 160 of core 110 and for side
portions 220 of cover 190 discloses “strands defining a
mesh configuration.” Pet. 55–56 (citing Ex. 1041;
Rhodes Decl. ¶¶ 155–156). Petitioner’s declarant cites
Rasmussen for support. Rhodes Decl. ¶ 155 (Ex. 1006
¶¶ 29, 49, 50; Ex. 1007 ¶¶ 25, 45, 46).
We find that the cited portions of Rasmussen
disclose that “pillow 100 is provided with sidewalls
160 that are highly porous . . . achieved through use
of a 3D textile core sidewall 160” (Ex. 1006 ¶ 29), “side
portions 220 of the cover 190 can be highly porous
(e.g., made of a 3D textile material or a velour or
stretch velour material), corresponding to and
covering the highly porous material of the core
sidewalls 160” (id. ¶ 49), and “the top portion 200 and
bottom portion 210 of the cover 190 are less porous
than the side portions 220 of the cover 190” (id. ¶ 50).
See also Ex. 1007 ¶¶ 25, 45, 46 (disclosing the same).
Petitioner’s declarant also states that “the term ‘3D
spacer fabric’ and simply ‘spacer fabric’ were often
referred to and used interchangeably as ‘3D textile
structure’ and as ‘3-dimensional fabric.’” Rhodes Decl.
¶ 125; see also id. ¶ 155 (referring to ¶ 125).
In view of our interpretation of “open cell
construction” to mean “a construction having overall

193a
porosity greater than the inherent porosity of the
constituent material or inherently having high
porosity,” as determined above in Section II.B., we
determine that “highly porous” sidewalls 160 and side
portions 220 of Rasmussen disclose “said gusset
formed of an open cell construction,” as recited by
claim 18. Ex. 1006 ¶¶ 29, 49; Ex. 1007 ¶¶ 25, 45.
Also, as determined above in Section II.D., we
interpret “said open cell construction is formed by
strands defining a mesh configuration” to mean that
the open cell construction is formed by at least
strands defining a mesh configuration. For the
reasons below, we determine that sidewalls 160 and
side portions 220 made of “3D textile” disclose “said
open cell construction being formed by strands
defining a mesh configuration,” as recited by claim 18.
Ex. 1006 ¶¶ 29, 49; Ex. 1007 ¶¶ 25, 45.
Patent Owner states that the “building block of
textiles is the fiber(s)” (PO Resp. 4), “fibers can then
be ‘spun’ into yarn to create various textiles” (id.),
“there are four primary techniques for constructing
fabrics, namely: weaving, knitting, braiding, and
nonwoven manufacturing” (id. at 11), “[s]tandard
weaving used two perpendicular yarn sets” (id.),
“knitting is characterized by rows and columns of
interconnected yarn loops” (id.), “[b]raiding can use a
single yarn set, wherein two oriented braiders are
intertwined/interlaced with each other” (id. at 11–12),
and “non-wovens use fibers, rather than yarns” (id. at
12). Reproduced below is a figure of non-woven fabric
that Patent Owner provides.

194a

The figure shows “[b]asic non-woven fabric.”
PO Resp. 12 (citing Ex. 2007, 6). Thus, the parties
agree that a fabric or textile material would include
strands. See also Ex. 2016, 27:12–13 (“A fabric in its
most generic description would be a textile.”), 27:18–
19 (In response to “are there differences between a
fabric and a textile,” Petitioner’s declarant answers “I
would say that the terms are largely synonymous.”).
Patent Owner also states that “[b]y extending
the basic 2-D techniques of knitting, weaving,
braiding, and non-wovens and adding further
complexity a wide array of different 3-D textiles can
be created.” PO Resp. 12. Patent Owner provides
examples of 3D textiles, all of which include strands
in a “mesh configuration.” See PO Resp. 13–27;
Parachuru Decl. ¶¶ 75–90. For example, reproduced
below is a figure of 3-D non-woven structures that
Patent Owner provides.

195a

The figures shows “[e]xamples of 3-D nonwoven structures.” PO Resp. 24 (citing Ex. 2007, 26).
Both parties also agree that highly porous
textiles have spaced-apart strands. PO Resp. 26 (“The
tightness of the 3D structure itself can also impact the
overall porosity. Tighter structures tend to have lower
porosity because there is less space between the yarns
forming the structure.”); Rhodes Decl. ¶ 155 (“The
pores between the network of interlaced strands in
the 3D textile that make it highly porous would be
understood to skilled artisans to provide a
breathable/porous mesh configuration.”); Parachuru
Decl. ¶ 93 (“Similarly, loose structures tend to have
higher porosity due to the increased space between
the yarns forming the structure.”). Thus, we find that
Rasmussen’s “highly porous” “3D textile material”
discloses “said open cell construction being formed by
strands defining a mesh configuration,” as recited by
claim 18.
Patent Owner responds that Rasmussen does
not disclose expressly an open cell construction
formed by “strands defining a mesh configuration,” as
recited by claim 18. PO Resp. 52–53; see also id. at 53–

196a
54 (describing the disclosure of the ’883 patent) (citing
Ex. 1001, 2:21–24). According to Patent Owner,
Petitioner’s declarant admitted that Rasmussen does
not disclose the open cell construction of claim 18. Id.
at 53 (citing Ex. 2016, 76:17–78:7). Patent Owner also
argues that Rasmussen’s “3D textile material” or
“highly porous 3D textiles” are broad terms that
encompass many different types of material and fall
short of demonstrating that Rasmussen discloses the
specific claimed structure of claim 18. Id. at 54. For
the reasons stated above, we find that Rasmussen
discloses “strands defining a mesh configuration.”
Patent Owner also responds that “Petitioner
never argues that ‘mesh’ strand structure are
inherent from Rasmussen’s disclosure of 3-D textiles.”
PO Resp. 54. Patent Owner states that “both parties’
experts acknowledge that 3D textiles, as well as
highly porous 3D textiles, can have multiple possible
configurations other than the ones recited in the
claims,” and thus, Rasmussen does not disclose
inherently the claimed structures. Id. at 55–56 (citing
Parachuru Decl. ¶¶ 67–73, 92–94, 158–162; Ex. 2016,
15:23–16:7, 31:21–32:6, 36:3–7, 36:14–18, 37:7–21,
49:4–12, 50:15–51:12, 52:19–53:3, 123:7–23, 135:23–
136:24). Based on both parties’ evidence and
arguments, we find that Rasmussen discloses
“strands defining a mesh configuration.”
Patent Owner further responds that
Rasmussen’s generic reference to 3D textiles does not
disclose sufficiently the species set forth in claim 18.
PO Resp. 56. Patent Owner argues that both parties’
experts agree that “3D textiles” is a broad genus that
covers an exponential number of materials. Id. at 58–
59 (citing Parachuru Decl. ¶¶ 91–94; Ex. 2016, 31:21–

197a
32:6, 37:7–21). The cited portions of the deposition of
Ms. Rhodes relate to different techniques to make
three dimensional textile (Ex. 2016, 31:21–32:6) and
different types of 3D spacer fabrics (id. at 37:7–21).
As discussed above, we find that the record indicates
Rasmussen’s “3D textile” anticipates claim 18.
Patent Owner also argues that the claimed
structures “result from . . . modifying or transforming
a constituent base material,” and Rasmussen
provides no guidance regarding how to transform
constituent materials to arrive at the claimed
structures. PO Resp. 60 (citing Parachuru Decl. ¶
153). Our interpretation of the limitations of claim 18
does not require modifying or transforming a
constituent base material.
Patent Owner additionally responds that
Rasmussen’s generic disclosure does not enable the
specific, claimed species, and thus, does not anticipate
claim 18. PO Resp. 59, 66. Specifically, Patent Owner
argues that Rasmussen discloses “3D textiles,” which
undisputedly encompasses an exponential number of
materials and “is completely devoid of any discussion
of any particular species within such a broad genus.”
Id. at 59. Patent Owner further argues that undue
experimentation would be required to arrive at the
claimed structure and one of ordinary skill in the art
would not be motivated to try based on Rasmussen’s
generic disclosure. Id. at 60–61. Patent Owner notes
that Rasmussen never issued as a patent in any
country and is not entitled to a presumption of
enablement. Id. at 61. Patent Owner contends that,
even if presumed to be enabling, the presumption can
be overcome when a patentee provides persuasive
evidence of nonenablement. Id. Patent Owner argues

198a
that “Petitioner’s conclusory assertion that one of skill
in the art could arrive at Patent Owner’s claimed
invention without undue experimentation falls far
short of meeting its burden.” Id. at 70 (citing Pet. 36).
For the reasons discussed above, we find that the
record indicates “3D textile” is an “open cell
construction being formed by strands defining a mesh
configuration” and thus, enablement arguments are
not persuasive.
Patent Owner contends that Rasmussen does
not disclose 3D spacer fabric, which is disclosed in the
’883 patent as a preferred type of gusset material. PO
Resp. 61–63; Ex. 1047, 2:52–54. Patent Owner,
however, responds to Petitioner’s contention for
claims 14 and 15, not claim 18. See id. at 61 (citing
Pet. 53); Pet. 53 (arguing claims 14 and 15 are
anticipated by Rasmussen).
In view of our determinations for claims 14 and
15 discussed above, considering these additional
arguments for those claims does not affect our
conclusion that claims 14 and 15 are anticipated by
Rasmussen. Considering Patent Owner’s arguments
for claim 18, we find that, for the reasons stated
above, Rasmussen’s “3D textile” discloses an “open
cell construction being formed by strands defining a
mesh configuration.”
Relying on its proposed interpretation of “said
open cell construction being formed by strands
defining a mesh configuration,” Patent Owner argues
that Rasmussen does not disclose open cells defined
by “strands defining a mesh configuration,” as
required by claim 18. PO Resp. 63–64 (citing
Parachuru Decl. ¶¶ 154–155). Patent Owner argues

199a
that “3D textile material” would not be understood to
have such a structure, as asserted by Petitioner and
Petitioner’s declarant. Id. at 64 (citing Pet. 56; Rhodes
Decl. ¶ 159). Patent Owner also argues that
Petitioner does not indicate where Rasmussen
teaches such open cell construction. Id. at 65–66
(citing Pet. 56; Rhodes Decl. ¶¶ 155–156). Patent
Owner further contends that Petitioner’s analysis
renders claim limitations meaningless. Id. at 66
(citing Parachuru Decl. ¶ 161). For the reasons stated
above, we are persuaded that Petitioner sufficiently
shows that Rasmussen discloses “strands defining a
mesh configuration” and does not render the claim
limitation meaningless.
G. Dependent Claim 20
Claim 20 depends from claim 1 and recites
“wherein said inner cavity is filled with a fill material
configured to facilitate support of said pillow in a
specific position of sleep.” Ex. 1047, 6:47–49.
Petitioner argues that “as long as the fill of the
pillow is configured to provide support for any
position of sleep, then claim 20 is satisfied.” Pet. 57.
Petitioner also refers to the lobed shape and portions
made of foam. Id. at 57–58 (citing Ex. 1006 ¶¶ 14, 46,
47; Ex. 1007 ¶¶ 10, 42, 43; Rhodes Decl. ¶¶ 159, 160).
In our analysis of claim 1, we find that
Rasmussen discloses that “top layer 140, bottom layer
150 and sidewalls 160 define a cavity 170 shaped to
receive filler material 180” and “pillow 100 can have
a cover 190 substantially enclosing the pillow 100.”
Ex. 1006 ¶¶ 15, 48, Figs. 1, 2; Ex. 1007 ¶¶ 10, 42, Figs.
1, 2. We also find that Rasmussen discloses that “in
those embodiments . . . in which reticulated or non-

200a
reticulated visco-elastic foam is used to construct
portions of the core (e.g., the top layer 140, the bottom
layer 150, and/or the filler material 180), the pillow
100 provides a soft and comfortable surface for a
user’s body” and “can also conform to a user’s body,
thereby distributing the force applied by the user’s
body upon the top layer 140.” Ex. 1006 ¶ 46; Ex. 1007
¶ 43. We, therefore, find that Rasmussen discloses
“wherein said inner cavity is filled with a fill material
configured to facilitate support of said pillow in a
specific position of sleep.”
In particular, for “fill material configured to
facilitate support of said pillow in a specific position
of sleep,” we find that Rasmussen discloses “in those
embodiments . . . in which reticulated or nonreticulated visco-elastic foam is used to construct
portions of the core (e.g., . . . the filler material 180),
the pillow 100 provides a soft and comfortable surface
for a user’s body” and “can also conform to a user’s
body.” Ex. 1006 ¶ 46; Ex. 1007 ¶ 43
Patent Owner responds that “Rasmussen at
best describes shaping or molding the entire pillow to
support a sleep position,” “does not teach configuring
the fill material to facilitate support of said pillow in
a specific position of sleep,” and “discloses shaping the
exterior of the pillow, rather than the fill.” PO Resp.
73–74 (citing Parachuru Decl. ¶¶ 198–199). In view of
our findings above, Petitioner persuades us by a
preponderance of the evidence that the fill material of
Rasmussen by providing a soft surface for and
conforming to a user’s body is configured to facilitate
support of its pillow in a specific position of sleep.

201a
Accordingly, we determine that Petitioner
carries its burden of showing by a preponderance of
the evidence that claim 20 is anticipated by
Rasmussen based on its disclosures related to its core
and cover.
H. Dependent Claims 4, 7–10, and 13
1. Challenge Based on the Core of
Rasmussen
Claims 4, 7, and 8 depend from claim 1. Ex.
1047, 5:44–45, 6:1–5. For the reasons discussed above
in Section III.B.1., the record persuades us that
Petitioner shows by a preponderance of the evidence
that claim 1 is anticipated by Rasmussen based on
disclosures related to its core.
Petitioner argues that Rasmussen discloses
“wherein said gusset is formed of an open cell
construction,” as recited by claim 4. Pet. 41–42 (citing
Ex. 1006 ¶¶ 29, 49; Ex. 1007 ¶¶ 25, 45; Rhodes Decl.
¶¶ 121–123). We find that a cited portion of
Rasmussen teaches “pillow 100 is provided with
sidewalls 160 that are highly porous, and therefore
provide a significant degree of ventilation for the
pillow, allowing air to enter and exit the pillow 100
readily through the sides of the pillow 100” and “this
capability is achieved through use of a 3D textile core
sidewall 160.” Ex. 1006 ¶ 29; Ex. 1007 ¶ 25. In view of
our interpretation of “open cell construction” as “a
construction having overall porosity greater than the
inherent porosity of the constituent material or
inherently having high porosity,” we find that
Rasmussen’s highly porous sidewalls 160 disclose
claim 4.

202a
Petitioner argues that Rasmussen discloses
“wherein said first panel is formed with a moisture
dispersing material,” as recited by claim 7. Pet. 44–45
(citing Ex. 1006 ¶¶ 22, 24; Ex. 1007 ¶¶ 18, 20; Rhodes
Decl. ¶ 130). We find that a cited portion of
Rasmussen teaches “advantages are achieved by
utilizing reticulated visco-elastic foam for the top
layer 140 and/or bottom layer 150 of the pillow” and
“use of reticulated foam can also enhance the ability
of the pillow 100 to wick moisture away from the
user’s body thereon.” Ex. 1006 ¶ 22; Ex. 1007 ¶ 18.
Petitioner argues that Rasmussen discloses
“wherein said first panel, said second panel and said
gusset define a cover, said pillow further comprising
a fill material disposed within said cover,” as recited
by claim 8. Pet. 45–46 (citing Ex. 1006 ¶ 15, Figs. 1,
2; Ex. 1007 ¶ 11, Figs. 1, 2; Rhodes Decl. ¶ 133). We
find that the cited portions of Rasmussen teach and
depict that “top layer 140, bottom layer 150 and
sidewalls 160 define a cavity 170 shaped to receive
filler material 180.” Ex. 1006 ¶ 15, Figs. 1, 2; Ex. 1007
¶ 11, Figs. 1, 2.
Claims 9 and 10 depend from claim 8.
Petitioner argues that Rasmussen discloses “wherein
said cover is formed by at least two partially or wholly
separable portions, with said separable portions being
selectively joinable by a fastening means,” as recited
by claim 9. Pet. 48 (citing Ex. 1006 ¶ 18; Ex. 1007 ¶
14; Rhodes Decl. ¶ 139). We find that the cited portion
of Rasmussen teaches
top layer 140, bottom layer 150 and
sidewalls 160 can include one or more
releasable fasteners (e.g., zippers,

203a
buttons, clasps, laces, hook and loop
fastener material pieces, hook and eye
sets, tied ribbons, strings, cords, or other
fastener elements) . . . located between
the top layer 140 and sidewall 160,
between a sidewall 160 and the bottom
layer 150, or within an opening in the
top layer 140, sidewall 160, and/or
bottom layer 150.
Ex. 1006 ¶ 18; Ex. 1007 ¶ 14.
Petitioner argues that Rasmussen discloses
“wherein said fill material comprises a compliant
material,” as recited by claim 10. Pet. 46 (citing Ex.
1006 ¶¶ 19, 30–45; Ex. 1007 ¶¶ 15, 26–41; Rhodes
Decl. ¶¶ 134–135). We find that the cited portions
teach that “visco-elastic foam . . . can have a hardness
of at least 30 N and no greater than about 175 N for
desirable softness and body-conforming qualities” and
that “filler material 180 of the pillow 100 can include,
but is not limited to, granulated visco-elastic foam.”
Ex. 1006 ¶¶ 19, 30; Ex. 1007 ¶¶ 15, 26.
Patent Owner responds that, “[b]ecause
dependent claims 2–20 include all the limitations of
base independent claim 1, Rasmussen also does not
anticipate these claims for at least the same reasons
above.” PO Resp. 74; see also Pet. Reply 10 (stating
“PO makes no separate arguments regarding
dependent claims 4, 7–10, and 13, which are,
therefore, also anticipated, for the reasons identified
in the Petition.”). For the reasons stated in Section
III.B.1., the record persuades us that Petitioner
shows by a preponderance of the evidence that claim

204a
1 is anticipated by Rasmussen based on disclosures
related to its core.
Thus, based on the full record, Petitioner
persuades us by a preponderance of the evidence that
claims 4 and 7–10 are anticipated by Rasmussen
based on disclosures related to its core.
2. Challenge Based on the Cover of
Rasmussen
For the reasons discussed above in Section
III.B.2., we are persuaded the Petitioner meets its
burden of showing by a preponderance of the evidence
that claim 1 is anticipated by Rasmussen based on
disclosures related to its cover.
Petitioner argues that Rasmussen discloses
“wherein said gusset is formed of an open cell
construction,” as recited by claim 4. Pet. 41–42 (citing
Ex. 1006 ¶¶ 29, 49; Ex. 1007 ¶¶ 25, 45; Rhodes Decl.
¶¶ 121–123). We find that a cited portion of
Rasmussen teaches “side portions 220 of the cover 190
can be highly porous,” “the bottom portion 210 of the
cover 190 can also be highly porous,” and “the side
portions 220 of the cover 190 . . . can permit
significant ventilation into and out of the pillow.” Ex.
1006 ¶ 49; Ex. 1007 ¶ 45. In view of our interpretation
of “open cell construction” as “a construction having
overall porosity greater than the inherent porosity of
the constituent material or inherently having high
porosity,” we find that Rasmussen’s highly porous
side portions 220 disclose claim 4.
Petitioner argues that Rasmussen discloses
“wherein said first panel is formed with a moisture
dispersing material,” as recited by claim 7. Pet. 44

205a
(citing Ex. 1006 ¶¶ 50, 52; Ex. 1007 ¶¶ 46, 48; Rhodes
Decl. ¶¶ 128–129). We find that the cited portions of
Rasmussen teach “[a]lternatives to the materials
described above for the pillow cover 190 include
any sheet material desired, including without
limitation . . . polyester [or] a cotton/polyester blend,”
a moisture wicking material. Ex. 1006 ¶ 52; Ex. 1007
¶ 48; Rhodes Decl. ¶ 129.
Petitioner argues that Rasmussen discloses
“wherein said first panel, said second panel and said
gusset define a cover, said pillow further comprising
a fill material disposed within said cover,” as recited
by claim 8. Pet. 46–47 (citing 1006 ¶ 48, Figs. 1, 2; Ex.
1007 ¶ 44, Figs. 1, 2; Rhodes Decl. ¶ 136). We find that
the cited portions of Rasmussen teach and depict
“wherein inner surfaces of said first panel, said
second panel and said gusset define an inner cavity.”
Ex. 1006 ¶ 48, Fig. 2; Ex. 1007 ¶ 44, Fig. 2. As
discussed above for the challenge of claim 8 based on
disclosures related to core 110, we also find that
Rasmussen teaches and depicts that filler material
180 is in a cavity defined by core 110. Ex. 1006 ¶ 15,
Figs. 1, 2; Ex. 1007 ¶ 11, Figs. 1, 2.
Claims 9, 10, and 13 depend from claim 8.
Petitioner argues that Rasmussen discloses “wherein
said cover is formed by at least two partially or wholly
separable portions, with said separable portions being
selectively joinable by a fastening means,” as recited
by claim 9. Pet. 49 (citing Ex. 1006 ¶¶ 52, 53; Ex. 1007
¶¶ 48, 49; Rhodes Decl. ¶ 140). We find that
Rasmussen teaches that “cover 190 can have one or
more seams” that “can be attached by . . . conventional
fasteners (e.g., zippers, buttons, clasps, laces, hook
and loop fastener material, hook and eye sets, tied

206a
ribbons, strings, cords, or other similar elements, and
the like).” Ex. 1006 ¶ 52; Ex. 1007 ¶ 48. We also find
that Rasmussen teaches that “fasteners can be
positioned to releasably secure at least one portion of
a cover 190 to another portion of the cover 190.” Ex.
1006 ¶ 53; Ex. 1007 ¶ 49.
Petitioner argues that Rasmussen discloses
“wherein said fill material comprises a compliant
material,” as recited by claim 10. Pet. 46–47 (citing
Ex. 1006 ¶¶ 19, 22, 30, 31, 36; Ex. 1007 ¶¶ 15, 18, 26,
27, 32; Rhodes Decl. ¶ 137). We find that the cited
portions teach that “visco-elastic foam . . . can have a
hardness of at least 30 N and no greater than about
175 N for desirable softness and body-conforming
qualities” and that “filler material 180 of the pillow
100 can include, but is not limited to, granulated
visco-elastic foam.” Ex. 1006 ¶¶ 19, 30; Ex. 1007 ¶¶
15, 26.
Petitioner argues that Rasmussen discloses the
pillow of claim 8, “further comprising an inner cover
disposed inside of said cover, at least a portion of said
fill material being disposed within said inner cover,”
as recited by claim 13. Pet. 50–51 (citing Ex. 1006 ¶
15; Ex. 1007 ¶ 11; Rhodes Decl. ¶ 142). We find that
Rasmussen teaches “core 110 of the illustrated pillow
100,” which is depicted to be disposed inside of cover
190. Ex. 1006 ¶ 15, Fig. 2; Ex. 1007 ¶ 11, Fig. 2. As
discussed above, we find that core 110 includes filler
material 180. Ex. 1006 ¶ 15, Figs. 1, 2; Ex. 1007 ¶ 11,
Figs. 1, 2.
Patent Owner responds that, “[b]ecause
dependent claims 2–20 include all the limitations of
base independent claim 1, Rasmussen also does not
anticipate these claims for at least the same reasons

207a
above.” PO Resp. 74; see also Pet. Reply 10 (stating
“PO makes no separate arguments regarding
dependent claims 4, 7–10, and 13, which are,
therefore, also anticipated, for the reasons identified
in the Petition”). For the reasons stated in Section
III.B.2., the record persuades us that Petitioner
shows by a preponderance of the evidence that claim
1 is anticipated by Rasmussen based on disclosures
related to its cover.
Thus, based on the full record, Petitioner
persuades us by a preponderance of the evidence that
claims 4, 7–10, and 13 are anticipated by Rasmussen
based on disclosures related to its core.
I. Conclusion
Challenges

as

to

the

Anticipation

For the reasons above and based on our review
of the full record, Petitioner persuades us by a
preponderance of the record (1) that claims 1–4, 7–10,
14, 15, 18, and 20 are anticipated by Rasmussen
based on disclosures related to its core and (2) that
claims 1–4, 7–10, 13–15, 17, 18, and 20 are
anticipated by Rasmussen based on disclosures
related to its cover.
IV.

OBVIOUSNESS CHALLENGES

Petitioner contends that, under 35 U.S.C.
§ 103(a), (1) claims 5, 6, and 19 are unpatentable over
Rasmussen and Doak (Pet. 17, 60–64); (2) claim 12 is
unpatentable over Rasmussen and Mason (id. at 17,
64–65); and (3) claim 19 is unpatentable over
Rasmussen and Burton (id. at 18, 68–69) with
citations to these references and the Rhodes
Declaration. Patent Owner disputes the alleged

208a
obviousness of these claims with citations to the
references, the Parachuru Declaration, and other
record evidence. PO Resp. 74–77.
To prevail in its challenges, under 35 U.S.C.
§ 103(a), Petitioner must prove unpatentability by a
preponderance of the evidence. 35 U.S.C. § 316(e); 37
C.F.R. § 42.1(d). A claim is unpatentable under 35
U.S.C. § 103(a) if the differences between the subject
matter sought to be patented and the prior art are
such that the subject matter as a whole would have
been obvious at the time the invention was made to a
person having ordinary skill in the art to which said
subject matter pertains. KSR Int’l Co. v. Teleflex Inc.,
550 U.S. 398, 406 (2007). The question of obviousness
is resolved on the basis of underlying factual
determinations including: (1) the scope and content of
the prior art; (2) any differences between the claimed
subject matter and the prior art; (3) the level of
ordinary skill in the art; and (4) objective evidence of
nonobviousness. See Graham v. John Deere Co., 383
U.S. 1, 17–18 (1996).
As discussed below, the parties’ disputes are
related to the scope and content of the prior art,
differences between claims 5, 6, and 19 and the prior
art, and the level of ordinary skill in the art. The
parties do not dispute and do not direct us to any
objective evidence of nonobviousness.
After reviewing the complete record, we
conclude that Petitioner has shown by a
preponderance of the evidence that the asserted
references teach or suggest each limitation of claims
5, 6, 12, and 19; that a person of ordinary skill in the
art would have had a reason to combine Rasmussen
with one of Doak, Mason, or Burton; and that a person

209a
of ordinary skill in the art would have had a
reasonable expectation of success in combining the
asserted references.
A. Level of Ordinary Skill
Petitioner asserts that a person of ordinary
skill in the art, whether the priority date is June 2011
or June 2012, would have
at least a bachelor’s degree in textile
design,
textile
science,
textile
engineering or a similar field and at
least one year of experience in the design
of pillows and other sleep-related textile
products; or, alternatively, a person
having at least three to five years of
experience in the design of pillows and
other sleep-related textile products.
Pet. 18 (citing Rhodes Decl. ¶¶ 72–74).
Patent Owner contends that a person of
ordinary skill in the art would have
at least a bachelor’s degree in textile
science, textile engineering or a similar
field along with several years of industry
experience in applying the moisture and
heat transfer properties of materials
which typically come into close direct or
indirect contact with human skin.
Additional graduate education in textile
or material sciences might substitute for
experience.
PO Resp. 27 (citing Parachuru Decl. ¶¶ 20–25).
Patent Owner also argues that Petitioner’s proposed
level of ordinary skill

210a
fails to adequately reflect the relevant
technical experience and knowledge that
would have been necessary to understand
and implement the technical aspects of
the ‘883 Patent and asserted references,
such as how the thermodynamic
processes of conduction, convection, and
radiation interact at the interface
between humans and various fabrics as
well as the moisture dispersing
properties of fabrics as they relate to
liquid and vapor forms of perspiration.
Id. (citing Parachuru Decl. ¶¶ 36–54). Petitioner
replies that Patent Owner’s declarant “conceded that
the challenged patent is directed to ‘pillow design’ . . .
and that it was ‘desirable’ for a [person of ordinary
skill in the art] to have pillow design experience.” Pet.
Reply 7 (citing Ex. 1061, 26:16–19, 31:9–13).
Factual indicators of the level of ordinary skill
in the art include “the various prior art approaches
employed, the types of problems encountered in the
art, the rapidity with which innovations are made, the
sophistication of the technology involved, and the
educational background of those actively working in
the field.” Jacobson Bros., Inc. v. U.S., 512 F.2d 1065,
1071 (Ct. Cl. 1975); see also Orthopedic Equip. Co. v.
U.S., 702 F.2d 1005, 1011 (Fed. Cir. 1983) (quoting
with approval Jacobson Bros.). We find, based on our
review of the record before us, that Petitioner’s stated
level of ordinary skill in the art is reasonable because
it is consistent with the record’s indication of “the
various prior art approaches employed, the types of
problems encountered in the art, the rapidity with
which innovations are made, the sophistication of the

211a
technology involved, and the educational background
of those actively working in the field.” See, e.g., Pet.
9–16 (“Technology Background”); PO Resp. 3–27
(“Background of the Relevant Technology at the Time
of the ’883 Patent”); Ex. 1006 ¶¶ 2–4; Ex. 1008; Ex.
1011; Ex. 1013; Ex. 2001 ¶¶ 36–54.
We resolve any differences in favor of including
“several years of industry experience in applying the
moisture and heat transfer properties of materials” as
part of “at least one year of experience in the design
of pillows and other sleep-related textile products” of
a person holding a “bachelor’s degree in textile
science, textile engineering or a similar field.” See
Rhodes Decl. ¶ 5 (“I am also an adjunct professor . . .
teaching . . . an entry level course for textile and
fashion majors.”), ¶ 6 (“I received a Bachelor of
Science degree in Textile Design.”), ¶ 74 (“I met at
least these minimum qualifications to be a person
having ordinary skill in the art at the time of the
claimed invention.”); Ex. 1062 ¶ 4 (“I teach concepts
relating to moisture and heat transfer in my textile
curriculum in my academic role as a professor”).
Therefore, we apply Petitioner’s definition,
quoted above, in our analysis of the challenges under
35 U.S.C. § 103(a). Pet. 18.
B. Rasmussen and Doak
Petitioner contends that claims 5, 6, and 19 are
unpatentable over Rasmussen and Doak. Pet. 62–63.
Claims 5, 6, and 19 depend directly from claim 1. Ex.
1047, 5:46–50, 6:42–45.
Claim 5 recites “wherein said first and second
panels each define a generally rectangular footprint

212a
common with said gusset;” claim 6 recites “wherein
said first and second panels are arctuatey bowed out
in opposing directions;” and claim 19 recites “wherein
said gusset comprises two longer longitudinal
portions joined by two shorter end portions, the
longitudinal portions being contiguous with the end
portions.” Id.
1. Doak (Ex. 1008)
Doak relates to “pillows . . . or the like.” Ex.
1008, 1:9–10. Figures 1 and 4 of Doak are reproduced
below.

213a
Figure 1 shows pillow 10, and Figure 4 is a
sectional view taken along line 4–4 of Figure 1. Id. at
1:51–52, 1:58–59. Pillow 10 has filling 12 enclosed in
cover 20. Id. at 1:63–67, 2:12–15. Cover 20 comprises
web portion 25, “which extends around the perimeter
of the pillow and may be of substantial width.” Id. at
2:15–17.
2. Claims 5, 6, and 19
Petitioner argues that Rasmussen teaches the
limitations of claim 1, from which claims 5, 6, and 19
depend. Pet. 61. For the reasons stated above in
Section III.B., Petitioner persuades us by a
preponderance of the evidence that Rasmussen
teaches the limitations of claim 1.
Petitioner also argues that Doak teaches first
and second panels that each define a generally
rectangular footprint common with a gusset, as
required by claim 5; panels that are arcuately bowed
in opposing directions, as required by claim 6; and a
gusset with longer longitudinal portions joined
contiguously with shorter end portions, as required by
claim 19. Pet. 62 (citing Ex. 1008, Figs. 1, 4; Rhodes
Decl. ¶¶ 167–168). We find that Petitioner’s citations
to Figures 1 and 4 of Doak teach the limitations of
claims 5, 6, and 19.
We also determine that one of ordinary skill in
the art would have had a reason to combine
Rasmussen and Doak to “satisfy known consumer
expectations for a conventionally shaped pillow.” Pet.
63; Rhodes Decl. ¶ 169 (“A person of ordinary skill in
the art would have had a credible reason to combine
Rasmussen with Doak to use the shape of Doak to
satisfy consumer expectations for a conventionally

214a
shaped pillow.”); see also KSR, 550 U.S. at 421 (“When
there is a design need or market pressure to solve a
problem and there are a finite number of identified,
predictable solutions, a person of ordinary skill has
good reason to pursue the known options within his
or her technical grasp.”).
We further determine that Petitioner shows a
reasonable expectation of success for combining
Rasmussen and Doak in the manner asserted by
Petitioner. Rhodes Decl. ¶ 169 (“The use of arcuately
bowed out opposing top and bottom panels joined by a
perimetric gusset that shares a rectangular footprint
with the top and bottom panels is a basic pillow design
that has been commonplace . . . as Doak itself
demonstrates . . . modifying the pillow of Rasmussen
to have the shape characteristics of the pillow of Doak
would have been a simple combination for a POSITA
that would have yielded predictable results without
requiring undue experimentation.”).
Patent Owner responds that Rasmussen does
not anticipate claim 1, from which claims 5, 6, and 19
depend. PO Resp. 74. Patent Owner also argues that
Petitioner does not rely on Doak for features of claim
1 that are missing in Rasmussen. Id. For the reasons
discussed above in Section III.B., we determine that
Petitioner has met its burden of showing by a
preponderance of the evidence that Rasmussen
anticipates claim 1.
Patent Owner further responds for claims 5
and 19 that one of ordinary skill in the art would
not have been motivated to modify Rasmussen to have
a rectangular shape because “such a modification
would undermine the fundamental principles of

215a
Rasmussen’s design, which relies on a pillow having
a plurality of lobes,” a feature that Patent Owner
contends is critical and provides benefits. Id. at 74–76
(citing Ex. 1006 ¶ 14, Fig. 1; Parachuru Decl. ¶¶ 101–
103, 178–180). Patent Owner additionally argues that
Petitioner provides no evidence why one of ordinary
skill in the art would make the modification and
forego the associated benefits and that Rasmussen
does not indicate a rectangular shape would be
appropriate. Id. at 75. Patent Owner contends that
Petitioner’s declarant admitted to not understanding
Rasmussen’s lobes. Id. (citing Ex. 2016, 58:13–22).
Petitioner replies that Rasmussen does not teach that
“its lobes are ‘fundamental’ or ‘critical’” and “merely
teaches various embodiments having lobes.” Pet.
Reply 24–25 (citing Ex. 1006 ¶¶ 6, 14, claims 1–9, 11–
19; Ex. 1062 ¶¶ 35–37).
Patent Owner points us to paragraph 14 of
Rasmussen, and in that paragraph, we find that
Rasmussen teaches that “in other embodiments, . . .
the lobes 120, 130 can have different sizes” and “[a]ny
combination of lobes having the same size or different
sizes is possible.” See PO Resp. 74–75. This paragraph
does not address whether these embodiments of
Rasmussen “define a generally rectangular footprint
common with said gusset,” as recited by claim 5.
Second, it does not indicate that a rectangular
lobed pillow would fail to provide the benefits of a
lobed pillow, thereby undermining the asserted
fundamental principles of Rasmussen’s design. See
Ex. 1006 ¶ 14 (“The lobed shape of the pillow 100
provides a number of support surfaces for a user,”
“can enhance breathing of a user resting his or her
head against the pillow 100,” and “can also provide

216a
support for the shoulder and/or neck of the user when
the user is sleeping on his or her side or back.”).
Further, we find that Rasmussen teaches that
the same listed benefits can be provided by a
rectangular pillow. See Ex. 1006 ¶ 2 (“Conventional
pillows can be found in a wide variety of shapes and
sizes, and are often adapted for supporting one or
more body parts of a user.”). Even if the lobes of
Rasmussen are critical, as contended by Patent
Owner, Rasmussen does not indicate having a
rectangular shape would somehow be incompatible
with having lobes, as argued by Patent Owner. See id.
¶¶ 2, 14.
For the reasons above, the full record
persuades us that Petitioner carries its burden of
showing by a preponderance of the evidence that
claims 5, 6, and 19 would have been obvious
Rasmussen and Doak.
C. Rasmussen and Mason
Petitioner contends that claim 12 is
unpatentable over Rasmussen and Mason. Pet. 64–
65. Claim 12 depends from claim 8, which, in turn,
depends from claim 1. Ex. 1047, 6:16–17. Claim 8
recites “wherein said first panel, said second panel
and said gusset define a cover, said pillow further
comprising a fill material disposed within said cover.”
Id. at 6:3–5. Claim 12 recites “wherein said fill
material comprises a gel.” Id. at 6:16–17.
1. Mason (Ex. 1012)
Mason “is directed to methods of preparing
apparatuses comprising a gel layer and an additional

217a
layer, such as a foam layer.” Ex. 1012 ¶ 2. The
apparatus according to Mason “generally comprises a
gel layer” and “can also comprise a covering
overlaying the gel layer.” Id. ¶¶ 8, 13. “Non-limiting
examples of further support apparatuses prepared
according to the methods of the invention include . . .
pillows.” Id. ¶ 14; see also id. ¶¶ 57, 58, 64 (listing
pillows as an embodiment).
According to Mason, “while the initial warmth
maintained by the contact with the foam may be of a
comfortable level, an eventual heat build-up leads to
discomfort for the user” and the “heat exchange
capacity of the gel materials used in the methods of
the invention therefore further contributes to the
good ‘feel’ users desire . . . in a . . . pillow.” Id. ¶¶ 41,
43. Mason states that “[i]n light of the desirable
properties afforded by gel materials, it is not
surprising that demand for support apparatuses
comprising gels continues to increase.” Id. ¶ 6. The gel
layer can be combined with a foam layer, a cover
layer, or optional further layers. Id. ¶¶ 8, 84, 85, 94,
95.
2. Claim 12
Petitioner argues that Rasmussen teaches the
limitations of claims 1 and 8. Pet. 64. For the reasons
stated above in Sections III.B. and III.H., Petitioner
persuades us by a preponderance of the evidence that
Rasmussen teaches the limitations of claims 1 and 8.
Petitioner also argues that Mason teaches
“wherein the compliant fill material includes gel,” as
required by dependent claim 12. Pet. 64 (citing Ex.
1012 ¶¶ 8, 13, 14, 43, 57, 58, 64, 80–85, 94, 95Fig. 2;
Rhodes Decl. ¶ 171). We find that Petitioner’s

218a
citations to Mason teach the limitation of claim 12.
Ex. 1012 ¶¶ 8 (“The apparatus prepared according to
the invention generally comprises a gel layer.”), 13
(“[T]he apparatus can also comprise a covering
overlaying the gel layer.”), 14 (“Non-limiting
examples of further support apparatuses prepared
according to the methods of the invention include . . .
pillows.”), 57, 58, 64.
We also determine that one of ordinary skill in
the art would have had a reason to combine
Rasmussen and Mason because the “addition of ‘gel’
can be used to provide a cooling effect to address the
known problem of heat buildup in foam,” “can
‘contribute[] to the “good” feel users desire in a
support apparatus,’” and addresses “increased
demand, known ability to address heat buildup in
foam with gel, and Rasmussen’s stated desire to
enhance cooling,” as argued by Petitioner. Ex. 1012
¶¶ 6 (“In light of the desirable properties afforded by
gel materials, it is not surprising that demand for
support apparatuses comprising gels continues to
increase.”), 41 (“[W]hile the initial warmth
maintained by the contact with the foam may be of a
comfortable level, an eventual heat build-up leads to
discomfort for the user.”), 42, 43 (“The heat exchange
capacity of the gel materials used in the methods of
the invention therefore further contributes to the
good ‘feel’ users desire . . . in a . . . pillow.”); Rhodes
Decl. ¶¶ 172, 173; see also Pet. 64–65 (citing Ex. 1012
¶¶ 6, 41–43; Rhodes Decl. ¶¶ 172, 173), 68.
We further determine that Petitioner shows a
reasonable expectation of success for combining
Rasmussen and Mason in the manner asserted by
Petitioner. Rhodes Decl. ¶¶ 172 (“[U]se [of gel] was

219a
increasingly common prior to the alleged invention.”),
173 (“Use of fill material comprising gel in the pillow
taught by Rasmussen would have yielded predictable
results with little or no experimentation.”).
Patent Owner argues that Petitioner “does not
rely on any disclosure in Mason with respect to any of
the features of claim 1 that are entirely missing from
Rasmussen” and thus, “has failed to meet its burden
of showing that Rasmussen in view of Mason renders
dependent claim 12 obvious.” PO Resp. 76–77. As
discussed above in Section III.B., Petitioner
persuades us by a preponderance of the evidence that
Rasmussen anticipates claim 1.
For the reasons above, the full record
persuades us that Petitioner carries its burden of
showing by a preponderance of the evidence that
claim 12 would have been obvious over Rasmussen
and Mason.
D. Rasmussen and Burton
Petitioner argues that claim 19 is unpatentable
over Rasmussen and Burton, in addition to the
challenge discussed above based on Rasmussen and
Doak. Pet. 68–69.
Claim 19 depends from claim 1 and recites
“wherein said gusset comprises two longer
longitudinal portions joined by two shorter end
portions, the longitudinal portions being contiguous
with the end portions.” Ex. 1047, 6:42–45.
1. Burton (Ex. 1013)
Burton “concerns a gusseted pillow being a
particular top and bottom section arrangement and

220a
an intermediate gusset portion.” Ex. 1013, 1:8–10.
Figure 2 of Burton is reproduced below.

Figure 2 is a diagram showing the
configuration of top and bottom sections and gusset
portion of a pillow. Id. at 1:52–54. Pillow 10 includes
top fabric section 12 and intermediate gusset portion
16 (shown in Figure 1). Id. at 1:66–2:2. Burton
explains that the gusset portion of the pillow of Figure
2 includes pillow length parts 21 that are
approximately 22 inches and pillow width parts 23
that are 16 inches. Id. at 2:13–24.
2. Claim 19
For the reasons stated above in Section III.B.,
Petitioner persuades us by a preponderance of the
evidence that Rasmussen teaches the limitations of
claim 1. Petitioner argues that Burton teaches or
suggests the limitations of claim 19. Pet. 68–69 (citing

221a
Ex. 1013, 2:14–15, Fig. 2; Rhodes Decl. ¶¶ 180–182).
We find that Petitioner’s citations to Burton teach the
limitations of claim 19. Ex. 1013, 2:14–15 (“FIG. 2 also
shows the length and width of the gusset portion.”);
see also id. at 2:16–19 (“Typically, the gusset portion
16 is a continuous strip; it is shown in individual parts
in FIG. 2 to match the four sides of the top and bottom
sections.”).
We also determine that one of ordinary skill in
the art would have had a reason to modify Rasmussen
with the teachings of Burton with a reasonable
expectation of success. Rhodes Decl. ¶ 183 (“Burton’s
basic rectangular gusseted pillow design . . . has long
been a well known and common pillow design” and
“many consumers would prefer the more conventional
and common pillow shape formed by rectangular top
and bottom panels joined by perimetric gusset”); see
also Pet. 69 (citing Rhodes Decl. ¶ 183).
Patent Owner argues that a person of ordinary
skill in the art “would not have modified Rasmussen’s
pillow to have a standard rectangular shape” for the
same reasons asserted against the challenge based on
Rasmussen and Doak. PO Resp. 76. For the same
reasons discussed above in Section IV.B.2., Petitioner
persuades us that one of ordinary skill in the art
would have been motivated to modify Rasmussen to
have a rectangular shape.
For the reasons above, the full record
persuades us that Petitioner carries its burden of
showing by a preponderance of the evidence that
claim 19 would have been obvious over Rasmussen
and Burton.

222a
V.

IMPROPER REPLY ARGUMENTS

Patent Owner filed a List of Improper Reply
Arguments (Paper 31), to which Petitioner also filed a
response (Paper 32). Patent Owner asserts that, in its
Reply, Petitioner argues for the first time that air will
travel a path of least resistance through the pillow,
that “material” and “base material” of claims 14 and
15 can be fibers, that Rasmussen’s lobed design is the
result of fill material configuration, and that
Rasmussen’s design can be modified to have lobes and
a rectangular shape. Paper 31, 1–2 (citing Pet. Reply
10, 13, 23, 25). The parties also filed a Joint Notice of
Unresolved Demonstrative Objections (Paper 34), in
which Patent Owner alleges that slides 13, 26, 29, 31,
and 32 contain new arguments as discussed above
and Petitioner alleges that slide 47 contains a new
argument from Patent Owner’s Observations (Paper
30).
We do not rely on any of the portions of the
Petitioner’s Reply that argue air will travel a path of
least resistance through the pillow, “material” and
“base material” of claims 14 and 15 can be fibers, or
Rasmussen’s lobed design is the result of fill material
configuration. We also do not rely on the
demonstratives.
Further, because Petitioner initially argued
that one of ordinary skill in the art would “modify the
shape of the pillows taught by Rasmussen to utilize
the shape taught by Doak, including . . . its
rectangular shape” (Pet. 63), Petitioner’s argument in
its Reply–that “four subtle lobes at the corner could
even be maintained, if desired, and still yield a
‘generally rectangular’ pillow” (Pet. Reply 25)–is not

223a
a new argument, as contended by Patent Owner. A
lobed and generally rectangular pillow would be the
result of Petitioner’s proposed modification and would
still “satisfy known consumer expectations for a
conventionally shaped pillow,” as discussed above in
Section IV.B.2.
VI.

CONCLUSION

For the foregoing reasons, based on the full
record before us, we determine that Petitioner has
demonstrated, by a preponderance of the evidence,
that claims 1–10, 12–15, and 17–20 of the ’883 patent
are unpatentable.
VII.

ORDER

Accordingly, it is:
ORDERED that claims 1–10, 12–15, and 17–20
of U.S. Patent No. 9,015,883 B2 have been shown, by
a preponderance of the evidence, to be unpatentable;
and
FURTHER ORDERED that, because this is a
Final Written Decision, the parties to the proceeding
seeking judicial review of the decision must comply
with the notice and service requirements of 37 C.F.R.
§ 90.2.
PETITIONER:
Jason R. Mudd
Eric A. Buresh
ERISE IP, P.A.
jason.mudd@eriseip.com
eric.buresh@eriseip.com
ptab@eriseip.com

224a
PATENT OWNER:
Joseph J. Richetti
Frank M. Fabiani
Alexander Walden (pro hac vice)
BRYAN CAVE LLP
joe.richetti@bryancave.com
frank.fabiani@bryancave.com
alexander.walden@bryancave.com
PTAB-NY@bryancave.com

225a
Trials@uspto.gov
571-272-7822

Paper No. 42
Entered: June 12, 2018

UNITED STATES PATENT AND
TRADEMARK OFFICE
BEFORE THE PATENT TRIAL AND
APPEAL BOARD
FREDMAN BROS. FURNITURE COMPANY, INC.,
Petitioner,
v.
BEDGEAR, LLC,
Patent Owner.
Case IPR2017-00352
Patent 8,646,134 B1
Before HYUN J. JUNG, BART A. GERSTENBLITH,
and AMANDA F. WIEKER, Administrative Patent
Judges.
JUNG, Administrative Patent Judge.
FINAL WRITTEN DECISION
35 U.S.C. § 318(a) and 37 C.F.R. § 42.73
I.

INTRODUCTION

We have jurisdiction under 35 U.S.C. § 6. This
Final Written Decision is issued pursuant to 35
U.S.C. § 318(a) and 37 C.F.R. § 42.73. For the reasons
that follow, we determine that Petitioner has shown

226a
by a preponderance of the evidence that all challenged
claims 1–6, 8–13, 15–18, and 20–24 of U.S. Patent No.
8,646,134 B1 are unpatentable.
A. Procedural History
Fredman Bros. Furniture Company, Inc.
(“Petitioner”) filed a Petition, requesting institution of
an inter partes review of claims 1–6, 8–13, 15–18, and
20–24 of U.S. Patent No. 8,646,134 B1 (Ex. 1049, “the
’134 patent”). Paper 1 (“Pet.”). Bedgear, LLC (“Patent
Owner”) timely filed a Preliminary Response. Paper
7. Pursuant to 35 U.S.C. § 314(a), we instituted inter
partes review of all challenged claims of the ’134
patent. Paper 8 (“Dec. on Inst.”).
After institution, Patent Owner filed a
Response (Paper 14, “PO Resp.”), to which Petitioner
filed a Reply (Paper 21, “Pet. Reply”). Petitioner
proffered a Declaration of Jennifer Frank Rhodes (Ex.
1060, “Rhodes Declaration” or “Rhodes Decl.”) with its
Petition, and a Declaration of Jennifer Frank Rhodes
in Support of Petitioner’s Reply (Ex. 1062, “Rhodes
Reply Declaration”). Patent Owner proffered a
Declaration of Dr. Radhakrishnaiah Parachuru in
support of its Preliminary Response (Ex. 2001) and in
support of its Response (Ex. 2004, “Parachuru
Declaration” or “Parachuru Decl.”). Deposition
transcripts for Dr. Parachuru (Ex. 1061) and Ms.
Rhodes (Exs. 2016, 2020) were filed.
Patent Owner filed Observations on CrossExamination of Petitioner’s Reply Witness Jennifer
Frank Rhodes (Paper 27), to which Petitioner filed a
response (Paper 31). As authorized in our Order
(Paper 29), Patent Owner filed a List of Improper

227a
Reply Arguments (Paper 32), to which Petitioner also
filed a response (Paper 33).
An oral hearing in this proceeding and Cases
IPR2017-00350, IPR2017-00351, and IPR2017-00524
was held on March 20, 2018; a transcript of the
hearing is included in the record (Paper 37, “Tr.”).
B. Grounds of Unpatentability at Issue
We instituted inter partes review on the
grounds that
claims 1, 4, 5, 11, 17, and 22, under 35 U.S.C.
§ 102(b) or § 102(e), are anticipated by Rasmussen1,
claims 1, 4–6, 8, 11, 13, 17, 18, 22, and 23,
under 35 U.S.C. § 102(b) or § 102(e), are anticipated
by Rasmussen, separately and independently of the
ground above, based on an alternative interpretation
of Rasmussen,
claims 2, 3, and 12, under 35 U.S.C. § 103(a),
are unpatentable over Rasmussen and Doak2,
claims 9, 15, and 20, under 35 U.S.C. § 103(a),
are unpatentable over Rasmussen and Vuiton3, and
claims 10, 16, 21, and 24, under 35 U.S.C.
§ 103(a), are unpatentable over Rasmussen and
Mason4. Dec. on Inst. 35.
1

WO 2010/075294 A1, published July 1, 2010 (Ex. 1006).

2

US 3,109,182, issued Nov. 5, 1963 (Ex. 1008).

EP 1 378 193 A1, published Jan. 7, 2004 (Ex. 1045). Petitioner
cites to the English translation of Vuiton (Ex. 1044) and provides
a declaration certifying the translation (Ex. 1046). In this
Decision, we also cite to the English translation (Ex. 1044).
3

4

US 2007/0246157 A1, published Oct. 25, 2007 (Ex. 1012).

228a
In an Order following SAS Institute Inc. v.
Iancu, 138 S. Ct. 1348 (2018), we modified our
Decision on Institution to institute on all of the
grounds presented in the Petition. Paper 38, 2; see
also Dec. on Inst. 19–20, 24–30 (determining
Petitioner had not demonstrated a reasonable
likelihood of prevailing on certain grounds). In
accordance with that same Order, the parties
conferred and reached agreement to withdraw the
grounds upon which we did not institute review. See
Papers 38, 39. After receiving authorization (Paper
39), the parties filed a Joint Motion to Limit the
Petition (Paper 40), which we granted (Paper 41).
Thus, the review is limited to the grounds listed
above, and this Decision addresses only those
grounds.
C. Related Proceedings
The parties indicate that the ’134 patent has
been asserted in Bedgear, LLC v. Fredman Bros.
Furniture Co., Inc., Case No. 1:15-cv-6759 (E.D.N.Y.)
and Cabeau, Inc. v. Bedgear, LLC, Case No. 2:16-cv09238 (C.D. Ca.). Pet. 69; Paper 4, 2; Ex. 1052.
The ’134 patent is also related to the patents
that are challenged in Cases IPR2017-00350 and
IPR2017-00351. See Exs. 1001, 1047.
D. The ’134 Patent (Ex. 1049)
The ’134 patent issued February 11, 2014, from
an application filed June 22, 2012, and claims priority
to a provisional application filed June 22, 2011. Ex.
1049, [22], [45], [60], 1:7–9.

229a
The ’134 patent relates to an “upper neck and
head support in the form of a pillow for the human
body.” Id. at 1:14–15. Figure 1 of the ’134 patent is
reproduced below.

Figure 1 shows a perspective view of a pillow of
the ’134 patent. Id. at 1:47–48. Pillow 10 has cover 12,
and cover 12 includes opposing first and second
panels 16, 18 and gusset 20 that joins panels 16, 18.
Id. at 1:60–64. Gusset 20 is formed of an open cell
construction and has sufficient width to separate the
panels 16, 18 so as to define an airflow channel
through the panels. Id. at 1:64–2:4. The specification
states that an “‘open cell construction’ as used herein
refers to a construction having overall porosity
greater than the inherent porosity of the constituent
material or inherently having high porosity.” Id. at
1:37–40. Open cell construction is associated with
venting, airflow, or air exchange. See, e.g., id. at 2:4–

230a
10, 4:9–14, 4:27–29. The “open cell construction of the
gusset 20 may be defined by various constructions.”
Id. at 2:15–16.
In connection with Figure 3, the open cell
construction of gusset 20 may be defined by a
“plurality of interlaced or spaced-apart strands 26
arranged randomly or in various patterns, such as a
‘x’ pattern (FIG. 1) or a rectangular pattern.” Id. at
2:16–20. Gusset 20 may be formed of base material 30
with apertures 32 defining open cells, and apertures
32 are larger than any pores that may be present
inherently in base material 30. Id. at 2:32–37. In
certain embodiments, such as the one depicted in
Figure 4, apertures defining open cells may be formed
in the base material during or after its manufacture.
Id. at 2:32–42.
Gusset 20 may also be formed of base material
30 being inherently, significantly porous, such as 3D
spacer fabric. Id. at 2:44–47. The porosity of base
material 30 may be “substantially greater” than the
porosity of first panel 16 or second panel 18. Id. at
2:51–54. “‘Substantially greater’ refers to being at
least greater than, but preferably being at least twice
greater than” the reference value. Id. at 2:54–56.
The ’134 patent states that “with reference to
FIG. 5, the gusset 20 may be formed with the base
material 30 being inherently significantly porous” (id.
at 2:43–45) and that the “porosity of the base material
30 may be substantially greater than the porosity of
the material forming the first panel 16 and/or . . . the
second panel 18” (id. at 2:51–54). “[G]usset 20 may
include one or more of the open cell configurations

231a
described above in connection with FIGS. 3–5
singularly or in any combination.” Id. at 2:61–63.
E. Challenged Independent Claims
The ’134 patent has 24 claims, of which
Petitioner challenges claims 1–6, 8–13, 15–18, and
20–24. Of the challenged claims, claims 1, 11, 17, and
22 are independent and reproduced below:
1.

A pillow comprising:

a cover having opposing first
and second panels, and a gusset
perimetrically bounding, and joining,
said first and second panels, said gusset
being formed of an open cell
construction, said open cell construction
is formed by interlaced or spaced-apart
strands; and,
compliant fill material disposed
within said cover.
11.

A pillow comprising:

a cover having opposing first
and second panels, and a gusset
perimetrically bounding, and joining,
said first and second panels, said gusset
being formed of an open cell construction
and a base material, and said open cell
construction is formed by apertures
defined in said base material, said
apertures being larger than any pores
inherently defined in said base material;
and
compliant fill material disposed
within said cover.

232a
17.

A pillow comprising:

a cover having opposing first
and second panels, and a gusset
perimetrically bounding, and joining,
said first and second panels, said gusset
being formed of an open cell construction
and a base material, and said open cell
construction is formed by porosity of said
base material being substantially
greater than porosity of material
forming
said
first
panel
and
substantially greater than porosity of
material forming said second panel; and
compliant fill material disposed
within said cover.
22.

A pillow comprising:

a cover having opposing first
and second panels, and a gusset
perimetrically bounding, and joining,
said first and second panels, said gusset
being formed of an open cell
construction, said gusset including 3D
spacer material; and
compliant fill material disposed
within said cover.
Ex. 1049, 5:19–25, 5:50–6:3, 6:19–28, 6:42–48.
II.

CLAIM INTERPRETATION

In an inter partes review, claim terms in an
unexpired patent are interpreted according to their
broadest reasonable construction in light of the
specification of the patent in which they appear. 37
C.F.R. § 42.100(b); Cuozzo Speed Techs., LLC v. Lee,

233a
136 S. Ct. 2131, 2144–46 (2016) (upholding the use of
the broadest reasonable interpretation standard).
A. “open cell construction” (claims 1, 11, 17,
and 22)
Petitioner
contends
that
“‘open
cell
construction’ need not be construed or given
independent patentable weight beyond the specific
structure recited in the claims” and that an
interpretation would “not impact the prior art
analysis herein.” Pet. 20 (citing Ex. 1060 ¶¶ 81–82).
In the Decision on Institution, we did not interpret
“open cell construction” expressly. Dec. on Inst. 7.
Patent Owner states that “[b]oth parties agree
that the express definition for the term ‘open cell
construction’ . . . should be adopted, namely a
‘construction having overall porosity greater than the
inherent porosity of the constituent material or
inherently having high porosity.’” PO Resp. 41 (citing
Pet. 19). Petitioner also states that the parties “agree
that the specification expressly defines ‘open cell
construction’ as ‘a construction having overall
porosity greater than the inherent porosity of the
constituent material or inherently having high
porosity.” Pet. Reply 2–3 (citing Pet. 19–20; PO Resp.
41; Ex. 1001,5 1:41–44).
The specification of the ’134 patent states that
an “‘open cell construction’ as used herein refers to a
The parties cite to the specification of related U.S. Patent No.
8,887,332 B2, which has substantially the same specification
(Ex. 1001). See also Parachuru Decl. ¶ 3 (“I also understand that
the ’134, ’332, and ’883 Patents share substantially the same
specification.”). We cite to the corresponding portion of the
specification of the ’134 patent (Ex. 1049).
5

234a
construction having overall porosity greater than the
inherent porosity of the constituent material or
inherently having high porosity.” Ex. 1049, 1:37–40.
Based on the full record, we agree with parties that
“open cell construction” is defined in the specification,
and we interpret it in accordance with that definition
to mean “a construction having overall porosity
greater than the inherent porosity of the constituent
material or inherently having high porosity.” See In
re Paulsen, 30 F.3d 1475, 1480 (Fed. Cir. 1994)
(“Although an inventor is indeed free to define the
specific terms used to describe his or her invention,
this must be done with reasonable clarity,
deliberateness, and precision.”).
B. “said open cell construction is formed by
interlaced or spaced-apart strands” (claim 1);
Patent Owner contends that “distinct open cell
claim phrases should be construed separately in order
to address Petitioner’s conflation of these different
claims phrases, and give proper weight to the express
limitations in each claim that require specific open
cell configurations.” PO Resp. 45. In support of its
position, Patent Owner cites the claim language (id.
at 42–43 (discussing claims 1, 11, 17, and 22)), the
specification (id. at 41–42 (citing Ex. 1049, Figs. 3–
5)), the prosecution history (id. at 43–44), and
declarant testimony (id. at 42–44 (citing Ex. 2001 ¶¶
50, 55–56; Ex. 2004 ¶¶ 101, 115–119)). Patent Owner
also refers to related district court litigation. Id. at 44
(citing Ex. 2017, 18).
Patent Owner proposes interpreting “said open
cell construction is formed by interlaced or spacedapart strands,” as recited by claim 1, to mean “a

235a
construction in which open cells are defined by
strands arranged in an [interlaced/spaced-apart]
manner, such that the overall porosity is greater than
the porosity of the constituent material itself.” PO
Resp. 45–46. Patent Owner cites the specification,
prosecution history, and Dr. Parachuru’s testimony.
Id. (citing Ex. 1001, 2:20–35, Fig. 3; Ex. 1004, 45;
Parachuru Decl. ¶¶ 120–125). Patent Owner also
argues that the phrase at issue is “directed to the
Arranging Strands Embodiment (FIG. 3).” Id. at 46.
The language of claim 1 does not include
expressly “such that the overall porosity is greater
than the porosity of the constituent material itself.”
Also, this portion of Patent Owner’s proposed
interpretation is substantially included in the parties’
agreed-to interpretation of “open cell construction,”
which we adopted, as discussed above in Section II.A.
See Ex. 1049, 1:37–40 (“‘open cell construction’ as
used herein refers to a construction having overall
porosity greater than the inherent porosity of the
constituent material”) (emphasis added).
We also find that the specification of the ’134
patent describes that an open cell construction has
overall porosity greater than the inherent porosity of
a constituent material (Ex. 1049, 1:37–40), and in
certain embodiments, such as the one depicted in
Figure 3, may be defined by interlaced or spacedapart strands made of various materials and
arranged randomly or in various patterns (id. at 2:15–
31). The specification also associates open cell
construction with venting, airflow, or air exchange.
See, e.g., id. at 2:4–10, 4:9–14, 4:27–29. The
specification expressly states that open cell
construction can be the embodiment of Figure 3

236a
combined with other configurations. See id. at 2:15–
16 (“open cell construction of the gusset 20 may be
defined by various constructions”), 2:61–63 (“gusset
20 may include one or more of the open cell
configurations described above in connection with
FIGS. 3–5 singularly or in any combination.”).
The prosecution history of the ’134 patent
indicates that the claim was amended to include “said
open cell construction is formed by interlaced or
spaced-apart strands” in response to what the
Examiner believed was allowable subject matter in
the dependent claims. See Ex. 1003, 45 (Claim 1 was
amended to include “said open cell construction is
formed by interlaced or spaced-apart strands.”), 49
(“By way of this amendment, Claim 1 has been
amended to incorporate the allowable subject matter
of Claim 2.”). However, the prosecution history does
not indicate that Applicant intended the amendment
to result necessarily in Patent Owner’s proposed
interpretation. See id. In view of our determinations
above, the claim language, specification, and
prosecution history do not provide a sufficiently
persuasive reason for further specifying “such that
the overall porosity is greater than the porosity of the
constituent material itself” for the interpretation of
“said open cell construction is formed by interlaced or
spaced-apart strands.”
Thus, based on the full record, we interpret
“said open cell construction is formed by interlaced or
spaced-apart strands,” as recited by claim 1, to mean
that the open cell construction is formed by at least
interlaced or spaced-apart strands.

237a
C. “said open cell construction is formed by
apertures defined in said base material, said
apertures being larger than any pores
inherently defined in said base material”
(claim 11)
Patent Owner proposes interpreting “said open
cell construction is formed by apertures defined in
said base material, said apertures being larger than
any pores inherently defined in said base material,”
as recited by claim 11, to mean “a construction in
which open cells are defined by holes created in a
constituent material that are larger than any pores
naturally occurring in the material, such that the
overall porosity is greater than the porosity of the
constituent material itself.” PO Resp. 47–48; see also
id. at 42–45 (arguing that open cell claim phrases
should be construed separately). Patent Owner cites
the specification, the prosecution history, and Dr.
Parachuru’s testimony. Id. at 47–48 (citing Ex. 1001,
2:36–46, Fig. 4; Ex. 1003, 46; Parachuru Decl. ¶¶ 129–
131). Patent Owner also argues that the claim
language is “directed to the Creating Apertures
Embodiment (FIG. 4).” Id. at 47.
For the same reasons discussed above in
Section II.B., we determine that the language of claim
11 does not require expressly “such that the overall
porosity is greater than the porosity of the constituent
material itself,” which is substantially included in our
interpretation of “open cell construction.” See Ex.
1049, 1:37–40. We also find that the specification of
the ’134 patent describes that an open cell
construction has overall porosity greater than the
inherent porosity of a constituent material (see id.),
and in certain embodiments, such as the one depicted

238a
in Figure 4, apertures defining open cells may be
formed in the base material during or after its
manufacture (id. at 2:32–42). The specification also
associates open cell construction with venting,
airflow, or air exchange. See, e.g., id. at 2:4–10, 4:9–
14, 4:27–29. The specification expressly states that
open cell construction can be the embodiment of
Figure 4 combined with other configurations. See id.
at 2:15–16, 2:61–63.
Also, for the same reasons discussed above in
Section II.B., we determine that the prosecution
history does not indicate that Applicant intended the
amendment to result necessarily in Patent Owner’s
proposed interpretation. See Ex. 1003, 45, 49. In view
of our determinations above, the claim language,
specification, and prosecution history, therefore, do
not provide a sufficiently persuasive reason for
further specifying that “apertures defined in the base
material” are “holes created in a constituent
material,” that “pores inherently defined in said base
material” are “pores naturally occurring in the
material,” and “that the overall porosity is greater
than the porosity of the constituent material itself” for
the interpretation of “said open cell construction is
formed by apertures defined in said base material,
said apertures being larger than any pores inherently
defined in said base material.”
Thus, based on the full record, we interpret
“said open cell construction is formed by apertures
defined in said base material, said apertures being
larger than any pores inherently defined in said base
material,” as recited by claim 11, to mean that the
open cell construction is formed by at least apertures
defined in the base material and the apertures are

239a
larger than any pores inherently defined in the base
material.
D. “said open cell construction is formed by
porosity of said base material being
substantially greater than porosity of
material forming said first panel and . . .
said second panel” (claim 17)
Patent Owner proposes interpreting “said open
cell construction is formed by porosity of said base
material being substantially greater than porosity of
material forming said first panel and . . . said second
panel,” as recited by claim 17, to mean “a construction
made up of a constituent material that, by itself, has
substantially higher porosity than the material of the
first and second panels” with cites to the specification,
prosecution history, and Dr. Parachuru’s testimony.
PO Resp. 48–49 (citing Ex. 1001, 2:47–64, Fig. 5; Ex.
1003, 47; Parachuru Decl. ¶¶ 132–134); see also id. at
42–45 (arguing that open cell claim phrases should be
construed separately). Patent Owner argues that the
claim phrase is directed to the “Using High-Porosity
Materials Embodiment (FIG. 5).” Id.
As for “substantially greater,” Petitioner
contends that the ’134 patent “expressly defined this
term to mean simply ‘greater than.’” Pet. 20; Ex. 1049,
2:54–56. “Patent Owner agrees to adopt Petitioner’s
proposed construction solely for the purposes of this
IPR.” PO Resp. 49–50.
The specification states that “‘[s]ubstantially
greater’ refers to being at least greater than, but
preferably being at least twice greater than.” Ex.
1049, 2:54–56. Based on the full record, we interpret

240a
“substantially greater” to mean “greater than.” See In
re Paulsen, 30 F.3d at 1480.
Also, the language of claim 17 does not require
expressly that the constituent base material by itself
has higher porosity than the material of the first and
second panels. Patent Owner’s proposed interpretation
also narrows the interpretation of “open cell
construction,” that is analyzed above in Section II.A.
We find that the specification of the ’134 patent
describes that an open cell construction has overall
porosity greater than the inherent porosity of a
constituent material. Ex. 1049, 1:37–40. We also find
that the ’134 patent states that “with reference to
FIG. 5, the gusset 20 may be formed with the base
material 30 being inherently significantly porous” (id.
at 2:43–45) (emphasis added) and that the “porosity
of the base material 30 may be substantially greater
than the porosity of the material forming the first
panel 16 and/or . . . the second panel 18” (id. at 2:51–
54) (emphasis added). We find that these portions
of the ’134 patent contemplate embodiments in
addition to ones encompassed by Patent Owner’s
proposed interpretation. As discussed previously, the
specification expressly states that open cell
construction can be the embodiment of Figure 5
combined with other configurations. See id. at 2:15–
16, 2:61–63.
For the same reasons discussed above in
Section II.B., we determine that the prosecution
history does not indicate that Applicant intended the
amendment to result necessarily in Patent Owner’s
proposed interpretation. See Ex. 1003, 45, 49. In view
of our determinations above, the claim language,

241a
specification, and prosecution history do not provide a
sufficiently persuasive reason for further specifying
that the constituent base material by itself has higher
porosity than the material of the first and second
panels.
Based on the full record, we interpret “said
open cell construction is formed by porosity of said
base material being substantially greater than
porosity of material forming said first panel and . . .
said second panel,” as recited by claim 17, to mean
that the open cell construction is formed by at least
the porosity of the base material being greater than
the porosity of the material of the first and second
panels.
E. Other Terms
Petitioner contends that “the broadest
reasonable construction of ‘gusset’ is ‘a generally
vertically-oriented portion of a pillow between the top
and bottom panels of a pillow to provide for
enlargement or expansion of the pillow.’” Pet. 19
(citing Rhodes Decl. ¶ 78). In our Decision on
Institution, we agreed with Patent Owner that
“nothing in the claim language requires that the
gusset be ‘generally vertically oriented’ or that it must
‘provide for enlargement or expansion of the pillow.’”
Dec. on Inst. 6; see also PO Resp. 40 (“[T]he Board
decided that ‘gusset’ did not require an express
interpretation.”); Pet. Reply 2 (“The Board
determined no construction was necessary.”).
Patent Owner responds that “that there is no
need to construe the term” “[f]or purposes of this IPR
proceeding.” PO Resp. 40. “Petitioner also agrees

242a
express construction is
proceeding.” Pet. Reply 2.

unnecessary

for

this

Based on the full record, we concur with the
parties that an express interpretation for “gusset” is
not necessary for determining whether Petitioner has
demonstrated by a preponderance of the evidence that
the challenge claims are unpatentable. See Vivid
Techs., Inc. v. Am. Sci. & Eng’g, Inc., 200 F.3d 795,
803 (Fed. Cir. 1999) (construing explicitly only those
claim terms in controversy and only to the extent
necessary to resolve the controversy). We also
determine that express interpretation of any other
claim term is not necessary. See id.
III.

ANTICIPATION CHALLENGES

Petitioner contends that claims 1, 4–6, 8, 11,
13, 17, 18, 22, and 23 are anticipated by Rasmussen
(Ex. 1006). Pet. 14, 21–38, 40–51; Pet. Reply 7–23. In
support of these contentions, Petitioner cites to
Rasmussen, the Rhodes Declaration, the Rhodes
Reply Declaration, and deposition transcripts. See
Pet. 21–38, 40–51. Patent Owner responds to the
alleged anticipation with citations to Rasmussen, the
Parachuru Declaration, and other record evidence.
PO Resp. 50–75.
To prevail in its anticipation challenges,
Petitioner must prove unpatentability by a
preponderance of the evidence. 35 U.S.C. § 316(e); 37
C.F.R. § 42.1(d). To anticipate a claim under 35 U.S.C.
§ 102, “a single prior art reference must expressly or
inherently disclose each claim limitation.” Finisar
Corp. v. DirecTV Group, Inc., 523 F.3d 1323, 1334
(Fed. Cir. 2008). That “single reference must describe
the claimed invention with sufficient precision and

243a
detail to establish that the subject matter existed in
the prior art.” Verve, LLC v. Crane Cams, Inc., 311
F.3d 1116, 1120 (Fed. Cir. 2002).
Petitioner also argues that the claims of the
’134 patent are not entitled to a priority date before
June 22, 2012. Pet. 4–7, 21. Petitioner provides
arguments that Rasmussen (Ex. 1006) is § 102(b)
prior art, if the challenged claims are entitled only to
a priority date of June 22, 2012. Petitioner
alternatively argues that a provisional application
(Ex. 1007, to which Rasmussen claims priority, see
Ex. 1006(30)) is § 102(e) prior art, if the challenged
claims are entitled to the earlier priority date of June
22, 2011. Pet. 21–22. Petitioner, thus, provides
parallel citations to Rasmussen and the provisional
application, which Petitioner asserts is identical to
Rasmussen. Pet. 22 n.1; Ex. 1008 (comparison of
Rasmussen and its provisional).
After reviewing the complete record, for the
reasons discussed below, we conclude that Petitioner
shows by a preponderance of the evidence that claims
1, 4–6, 8, 11, 13, 17, 18, 22, and 23 are anticipated by
Rasmussen under 35 U.S.C. § 102(b) and § 102(e).
A. Rasmussen (Ex. 1006)
Rasmussen describes a “pillow assembly
including a visco-elastic foam core and a cover having
a top portion and a side portion that is more
permeable than the top portion.” Ex. 1006, [57].
Figure 1 of Rasmussen is reproduced below.

244a

Figure 1 shows a perspective view of a pillow
with a portion of its cover removed to expose its core.
Ex. 1006 ¶ 10. Pillow 100 includes core 110, and core
110 includes top layer 140, bottom layer 150, and
sidewalls 160 connecting top layer 140 and bottom
layer 150. Id. ¶¶ 14, 15.
Sidewalls 160 can be “highly porous, and
therefore provide a significant degree of ventilation
for the pillow,” and “this capability is achieved
through use of a 3D textile core sidewall 160.” Id. ¶
29. Top layer 140, bottom layer 150, and sidewalls 160
define cavity 170 that receives filler material 180. Id.
¶ 15, Fig. 2. “[F]iller material 180 of the pillow 100
can include, but is not limited to, granulated viscoelastic foam” with “hardness . . . for desirable softness
and body-conforming qualities.” Id. ¶¶ 19, 30.
Pillow 100 can include a rib where top layer
140 and sidewall 160 “meet and are joined.” Id. ¶ 15.
According to Rasmussen,

245a
top layer 140, bottom layer 150 and
sidewalls 160 can include one or more
releasable fasteners (e.g., zippers,
buttons, clasps, laces, hook and loop
fastener material pieces, hook and eye
sets, tied ribbons, strings, cords, or other
fastener elements) . . . located between
the top layer 140 and sidewall 160,
between a sidewall 160 and the bottom
layer 150, or within an opening in the
top layer 140, sidewall 160, and/or
bottom layer 150.
Id. ¶ 18.
The “core can be enclosed within a cover having
highly porous sides.” Id. ¶ 6. Cover 190 includes top
portion 200, bottom portion 210, and side portions
220. Id. ¶ 48. Top portion 200 “can be less porous than
the side portions 220 or the bottom portion 210 of the
cover 190.” Id. ¶ 50. Side portions 220 “can be highly
porous (e.g., made of a 3D textile material or a velour
or stretch velour material) . . . and covering the highly
porous material of the core sidewalls 160.” Id. ¶ 49.
“[S]ide portions 220 of the cover 190 . . . can permit
significant ventilation into and out of the pillow.” Id.
“Alternatives to the materials described above for the
pillow cover 190 include any sheet material desired,
including without limitation . . . polyester [and] a
cotton/polyester blend.” Id. ¶ 52. “[C]over 190 can
have one or more seams” that “can be attached by . . .
conventional fasteners (e.g., zippers, buttons, clasps,
laces, hook and loop fastener material, hook and eye
sets, tied ribbons, strings, cords, or other similar
elements, and the like).” Id.

246a
For embodiments “in which reticulated or nonreticulated visco-elastic foam is used to construct
portions of the core (e.g., the top layer 140, the bottom
layer 150, and/or the filler material 180), the pillow
100 provides a soft and comfortable surface for a
user’s body” and “can also conform to a user’s body,
thereby distributing the force applied by the user’s
body upon the top layer 140.” Id. ¶ 46. The “use of
reticulated foam can also enhance the ability of the
pillow 100 to wick moisture away from the user’s body
thereon.” Id. ¶ 22.
B. Independent Claims 1, 11, 17, and 22
Petitioner states that “Rasmussen anticipates
claim 1 both by virtue of: i) its ‘core 110’ structure,
including top layer 140, bottom layer 150, and
sidewalls 160, as well as, separately and
independently, by virtue of ii) its pillow ‘cover 190’
structure, including top portion 200, bottom portion
210, and side portions 220.” Pet. 27; see also id. at 22–
27 (asserting what Rasmussen discloses).
1. Challenge Based on the Core of
Rasmussen
In its description of Rasmussen, Petitioner
provides an annotated Figure 2 from Rasmussen that
is reproduced below. Id. at 24.

247a

The annotated Figure 2 from Rasmussen
illustrates the components of core 110. Id. at 23–24.
a. Uncontested Limitations of
Independent Claims 1, 11, 17,
and 22
For claim 1, Petitioner argues that Rasmussen
discloses a pillow comprising “a cover having opposing
first and second panels” and “compliant fill material
disposed within said cover.” Pet. 27 (citing Ex. 1006 ¶
15, Figs. 1, 2; Ex. 1007 ¶ 11, Figs. 1, 2), 36–37 (citing
Ex. 1006 ¶¶ 15, 19, 30–45, Figs. 1, 2; Ex. 1007 ¶¶ 11,
15, 26–41, Figs. 1, 2; Rhodes Decl. ¶¶ 120–122). For
independent claims 11, 17, and 22, which also include
these identical limitations, Petitioner relies on its
arguments for claim 1. Id. at 42–43, 45, 48. Patent
Owner does not present arguments addressing these
limitations of claims 1, 11, 17, and 22. See PO Resp.
53–74.
We find that the portions of Rasmussen cited
by Petitioner disclose and depict that “pillow 100
includes a top layer 140” and “a bottom layer 150

248a
opposite the top layer 140.” Ex. 1006 ¶ 15, Figs. 1, 2.
We also find that the cited portions of Rasmussen
teach and depict that the “top layer 140, bottom layer
150 and sidewalls 160 define a cavity 170 shaped to
receive filler material 180.” Ex. 1006 ¶ 15, Figs. 1, 2;
Ex. 1007 ¶ 11, Figs. 1, 2. We further find that the cited
portions teach that “visco-elastic foam . . . can have a
hardness of at least 30 N and no greater than about
175 N for desirable softness and body-conforming
qualities” and that “filler material 180 of the pillow
100 can include, but is not limited to, granulated
visco-elastic foam.” Ex. 1006 ¶¶ 19, 30; Ex. 1007 ¶¶
15, 26.
We, thus, find that the core of Rasmussen
discloses a pillow comprising “a cover having opposing
first and second panels” and “compliant fill material
disposed within said cover,” as recited by claims 1, 11,
17, and 22.
b. “a
gusset
perimetrically
bounding, and joining, said
first and second panels” (claims
1, 11, 17, and 22)
Petitioner argues that Rasmussen discloses “a
gusset perimetrically bounding, and joining, said first
and second panels,” as recited by independent claims
1, 11, 17, and 22. Pet. 27–30 (citing Ex. 1006 ¶¶ 15,
Figs. 1, 2; Ex. 1007 ¶¶ 11, Figs. 1, 2; Rhodes Decl. ¶¶
104–107), 42–43, 45, 48.
We find that Rasmussen discloses “sidewalls
160 connecting the top layer 140 and the bottom layer
150” and that the “top layer 140, bottom layer 150 and
sidewalls 160 define a cavity 170 shaped to receive
filler material 180.” Ex. 1006 ¶ 15; Ex. 1007 ¶ 18. We

249a
also find that Figures 1 and 2 show sidewall 160 of
core 110 joined to top and bottom layers 140, 150. We
also credit the testimony of Petitioner’s declarant that
“[a]lthough [Fig. 1] does not show the back side of the
pillow, a person of ordinary skill in the art would
understand from the figures and from the description
of Rasmussen, that if the pillow were turned, one
could see where the top edge of the sidewall 160
engages and joins the peripheral edge of the top layer
140” and “where the bottom edge of the sidewall 160
engages and joins the peripheral edge of the bottom
layer 140.” Rhodes Decl. ¶ 106; see also id. ¶ 107
(“Rasmussen’s core anticipates the requirements of
claim 1 of a gusset ‘perimetrically bounding and
joining said first and second panels,’ a limitation also
found in claims 11, 17, and 22.”); Ex. 2016, 95:11–15
(stating, during deposition, that “[a]s a person with
many years of experience in the industry, one can
read the Rasmussen patent and completely
understand and expect to find that as described, the
side wall goes around all of the edges of the pillow”),
103:3–9 (stating that “a person with experience, such
as mine, in understanding of the product and that the
consumer is expecting to find a cover that covers all
sides of the pillow, Rasmussen makes it clear through
description and illustration that the cover is on all
sides of the pillow”). Moreover, in view of Rasmussen’s
disclosure that “granulated filler material 180 can be
as short as 0.3 cm and as long as 4 cm” (Ex. 1006 ¶
36), we find that Rasmussen discloses that its
sidewall 160 “perimetrically bounding, and joining,”
its top and bottom layers so as to contain filler
material as small as 0.3 cm.
Patent Owner responds that none of the cited
portions of Rasmussen expressly discloses that its

250a
sidewalls perimetrically bound and join its top and
bottom layers. PO Resp. 74 (addressing Pet. 27–32).
Patent Owner also argues that Petitioner ultimately
asserts that the feature would have been obvious and
Petitioner’s declarant admitted that Rasmussen does
not expressly disclose this feature. Id. (citing Pet. 32–
33; Ex. 2016, 94:18–95:15, 102:20–103:9).
After weighing Petitioner’s evidence (Ex. 1006
¶ 15; Ex. 1007 ¶ 18; Rhodes Decl. ¶ 106) and Patent
Owner’s evidence (Ex. 2016, 94:18–95:15, 102:20–
103:9), we determine that Petitioner carries its
burden of showing by a preponderance of the evidence
that Rasmussen discloses “a gusset perimetrically
bounding, and joining, said first and second panels,”
as recited by independent claims 1, 11, 17, and 22,
based on descriptions related to the core.
c. “said gusset being formed of an
open cell construction, said open
cell construction is formed by
interlaced or spaced-apart
strands” (claim 1)
Petitioner contends that Rasmussen’s description
of “highly porous” and “3D textile materials” for
sidewalls 160 of core 110 discloses “said gusset being
formed of an open cell construction, said open cell
construction is formed by interlaced or spaced-apart
strands.” Pet. 33–35 (citing Ex. 1006 ¶ 29; Ex. 1007 ¶
25; Rhodes Decl. ¶¶ 111–117). Petitioner also argues
that “3D textile material” is 3D spacer fabric. Id. at
34 (citing Rhodes Decl. ¶¶ 118, 135).
We find that the cited portion of Rasmussen
discloses that “pillow 100 is provided with sidewalls
160 that are highly porous . . . achieved through use

251a
of a 3D textile core sidewall 160.” Ex. 1006 ¶ 29; see
also Ex. 1007 ¶ 25 (disclosing the same). In view of
our interpretation of “open cell construction” to mean
“a construction having overall porosity greater than
the inherent porosity of the constituent material or
inherently having high porosity,” as determined
above in Section II.A., we determine that the “highly
porous” sidewalls 160 of Rasmussen disclose “said
gusset formed of an open cell construction,” as recited
by claim 1. Ex. 1006 ¶ 29; Ex. 1007 ¶ 25.
Also, as determined above in Section II.B., we
interpret “said open cell construction is formed by
interlaced or spaced-apart strands” to mean that the
open cell construction is formed by at least interlaced
or spaced-apart strands. Petitioner’s declarant states
that
“highly porous” “3D textile material”
used for the gusset of Rasmussen’s core
110 and cover 190 has interlaced strands
in that the fibers are interlaced to create
the three dimensional textile structure
of the material, and that the material
has spaced apart strands in that the
fibers have spacing sufficient to make
the material “highly porous.”
Rhodes Decl. ¶ 117.
Patent Owner states that the “building block of
textiles is the fiber(s)” (PO Resp. 4), “fibers can then
be ‘spun’ into yarn to create various textiles” (id.),
“there are four primary techniques for constructing
fabrics, namely: weaving, knitting, braiding, and
nonwoven manufacturing” (id. at 12), “[s]tandard
weaving used two perpendicular yarn sets” (id.),

252a
“knitting is characterized by rows and columns of
interconnected yarn loops” (id.), “[b]raiding can use a
single yarn set, wherein two oriented braiders are
intertwined/interlaced with each other” (id.), and
“non-wovens use fibers, rather than yarns” (id. at 13).
Reproduced below is a figure of non-woven fabric that
Patent Owner provides.

The figure shows “[b]asic non-woven fabric.”
PO Resp. 13 (citing Ex. 2007, 6). Thus, the parties
agree that a fabric or textile material would include
strands. See also Ex. 2016, 27:12–13 (“A fabric in its
most generic description would be a textile.”), 27:15–
16, 18–19 (In response to “are there differences
between a fabric and a textile,” Petitioner’s declarant
answers “I would say that the terms are largely
synonymous.”).
Patent Owner also states that “[b]y extending
the basic 2-D techniques of knitting, weaving,
braiding, and non-wovens and adding further

253a
complexity a wide array of different 3-D textiles can
be created.” PO Resp. 13. Patent Owner provides
examples of 3D textiles, all of which include
“interlaced strands or spaced-apart strands.” See PO
Resp. 14–27. For example, reproduced below is a
figure of 3-D non-woven structures that Patent
Owner provides.

The figures shows “[e]xamples of 3-D nonwoven structures.” PO Resp. 26 (citing Ex. 2007, 26).
Both parties also agree that highly porous
textiles have spaced-apart strands. Id. at 28 (“The
tightness of the 3D structure itself can also impact the
overall porosity. Tighter structures tend to have lower
porosity because there is less space between the yarns
forming the structure.”); Rhodes Decl. ¶ 117;
Parachuru Decl. ¶ 93 (“Similarly, loose structures
tend to have higher porosity due to the increased
space between the yarns forming the structure.”).
In view of the above, we find that Rasmussen’s
“highly porous” “3D textile material” discloses “said
open cell construction being formed by interlaced or
spaced-apart strands,” as recited by claim 1.

254a
Patent Owner responds that Rasmussen does
not disclose expressly an open cell construction
formed by “interlaced or spaced-apart strands,” as
required by claim 1. PO Resp. 52–53; see also id. at
53–54 (describing the disclosure of the ’134 patent)
(citing Ex. 1001, 2:21–24, 2:36–46; Ex. 2016, 19:2–11,
140:13–22). According to Patent Owner, Petitioner’s
declarant admitted that Rasmussen does not disclose
the open cell construction of claim 1. Id. at 53 (citing
Ex. 2016, 76:17–78:7). Patent Owner also argues that
Rasmussen’s “3D textile material” or “highly porous
3D textiles” are broad terms that encompass many
different types of material and fall short of
demonstrating that Rasmussen discloses the specific
claimed structures of the claims. Id. at 54–55.
Relying on its proposed interpretation of “open
cell construction,” Patent Owner argues that
Rasmussen does not disclose open cells defined by
“interlaced or spaced-apart strands,” as required by
claim 1. PO Resp. 65–66; see also id. at 66 (citing
Parachuru Decl. ¶¶ 154–157). Patent Owner argues
that “3D textile material” would not be understood to
have such a structure, as asserted by Petitioner and
Petitioner’s declarant. Id. at 66–67 (citing Pet. 35;
Rhodes Decl. ¶¶ 116–117). Patent Owner also argues
that Petitioner does not indicate where Rasmussen
teaches such open cell construction. Id. (citing Pet.
35). Patent Owner further argues that 3D textiles and
highly porous textiles do not require interlaced or
spaced-apart strands. Id. at 67–68 (citing Parachuru
Decl. ¶¶ 158–162, 167–173). Patent Owner further
contends that Petitioner’s analysis renders claim
limitations meaningless. Id. at 68; see also id. at 66
(citing Parachuru Decl. ¶ 161).

255a
For the reasons discussed above, the evidence
cited by the parties show that “highly porous” “3D
textile” has “interlaced or spaced-apart strands.”
Patent Owner also responds that “Petitioner
never argues that the ‘interlaced,’ ‘spaced-apart,’ or
‘apertures’ are inherent from Rasmussen’s disclosure
of 3-D textiles.” PO Resp. 55. Patent Owner states
that “both parties’ experts acknowledge that 3D
textiles, as well as highly porous 3D textiles, can have
multiple possible configurations other than the ones
recited in the claims,” and thus, Rasmussen does not
disclose inherently the claimed structures. Id. at 55–
56 (citing Parachuru Decl. ¶¶ 67–73, 92–94, 158–164,
168–169; Ex. 2016, 15:23–16:7, 31:21–32:6, 36:3–7,
36:14–18, 37:7–21, 49:4–12, 50:15–51:12, 52:19–53:3,
123:7–23, 135:23–136:24).
Patent Owner further responds that
Rasmussen’s generic reference to 3D textiles does not
disclose sufficiently the species set forth in the claims.
PO Resp. 57. Patent Owner argues that both parties’
experts agree that “3D textiles” is a broad genus that
covers an exponential number of materials. Id. at 58–
59 (citing Parachuru Decl. ¶¶ 91–94; Ex. 2016, 31:21–
32:6, 37:7–21).
Patent Owner additionally responds that
Rasmussen’s generic disclosure does not enable the
specific, claimed species, and thus, does not anticipate
the challenged claims. PO Resp. 59–60, 68.
Specifically, Patent Owner argues that Rasmussen
discloses “3D textiles,” which undisputedly
encompasses an exponential number of materials and
“is completely devoid of any discussion of any
particular species within such a broad genus.” Id. at
60–61. Patent Owner also argues that the claimed

256a
structures “result from . . . modifying or transforming
a constituent base material,” and Rasmussen
provides no guidance regarding how to transform
constituent materials to arrive at the claimed
structures. Id. at 61 (citing Parachuru Decl. ¶ 153).
Patent Owner further argues that undue
experimentation would be required to arrive at the
claimed structure and one of ordinary skill in the art
would not be motivated to try based on Rasmussen’s
generic disclosure. Id. at 61–62. Patent Owner
contends that “Petitioner’s conclusory assertion that
one of skill in the art could arrive at Patent Owner’s
claimed invention without undue experimentation
falls far short of meeting its burden.” PO Resp. 59
(citing Pet. 35, 39). Patent Owner notes that
Rasmussen never issued as a patent in any country
and is not entitled to a presumption of enablement.
Id. at 62. Patent Owner contends that, even if
presumed to be enabling, the presumption can be
overcome when a patentee provides persuasive
evidence of nonenablement, as in this proceeding. Id.
Based on the full record, Petitioner sufficiently
shows that Rasmussen’s “highly porous” “3D textile
material” discloses the open cell construction of claim
1. Also, even if Rasmussen uses the “3D textile”
broadly, the full record persuades us that Rasmussen
discloses the limitations of claim 1. PO Resp. 4, 12–
28; Rhodes Decl. ¶ 117; Ex. 1006 ¶ 29; Ex. 1007 ¶ 25;
Parachuru Decl. ¶ 93. Also, our interpretation of the
limitations of claim 1 does not require modifying or
transforming a constituent base material.
Patent Owner also responds that “Petitioner
never even argues that the ‘interlaced,’ ‘spaced-apart,’
or ‘mesh’ strand structures are inherent from

257a
Rasmussen’s disclosure of 3-D textiles.” PO Resp. 55.
Patent Owner states that “both parties’ experts
acknowledge that 3D textiles, as well as highly porous
3D textiles, can have multiple possible configurations
other than the ones recited in the claims,” and thus,
Rasmussen does not disclose inherently the claimed
structures. Id. at 55–57 (citing Parachuru Decl. ¶¶
67–73, 92–94, 158–160, 168–169; Ex. 2016, 15:23–
16:7, 31:21–32:6, 36:3–7, 36:14–18, 37:7–21, 49:4–12,
50:15–51:12, 52:19–53:3, 123:7–23, 135:23–136:24).
The record, however, indicates that “highly porous”
“3D textile material” has “interlaced strands or
spaced-apart strands,” as argued by Petitioner and as
required by claim 1.
For the above reasons, Petitioner persuades us
by a preponderance of the evidence that Rasmussen
anticipates claim 1 based on disclosures related to its
core.
d. “said gusset being formed of an
open cell construction and a
base material, and said open
cell construction is formed by
apertures defined in said base
material, said apertures being
larger
than
any
pores
inherently defined in said base
material” (claim 11)
Independent claim 11 requires the gusset be
formed of an open cell construction and a base
material. See Ex. 1049, 5:50–6:3. It recites “said open
cell construction is formed by apertures defined in
said base material, said apertures being larger than
any pores inherently defined in said base material,”
instead of reciting “said open cell construction is

258a
formed by interlaced or spaced-apart strands,” as in
claim 1. Id.
Petitioner states that its “analysis for claim 1
also applies to claim 11 and is incorporated herein by
reference.” Pet. 42–43 (citing also Rhodes Decl. ¶¶
104–125, 138). Petitioner also argues that Rasmussen
discloses that its “side layer is more permeable,” that
sidewalls 160 of core 110 are “highly porous,” and that
ventilation is “achieved through use of a 3D textile
core sidewall 160.” Id. at 43 (citing Ex. 1006 ¶¶ 8, 29;
Ex. 1007 ¶ 25). Petitioner further argues that one of
ordinary skill in the art would understand
“Rasmussen’s highly porous 3D textile would have
‘apertures’ larger than the pores inherently present in
the base material from which the 3D textile is made.”
Id. at 44 (citing Ex. 1006 ¶ 52; Ex. 1007 ¶ 48; Rhodes
Decl. ¶¶ 126–127).
We find that the cited portions of Rasmussen
disclose that “side layer is more permeable than the
top layer and the bottom layer” and that “pillow 100
is provided with sidewalls 160 that are highly porous
. . . achieved through use of a 3D textile core sidewall
160.” Ex. 1006 ¶¶ 8, 29; see also Ex. 1007 ¶¶ 25
(disclosing the same). In view of our interpretation of
“open cell construction” to mean “a construction
having overall porosity greater than the inherent
porosity of the constituent material or inherently
having high porosity,” as determined above in Section
II.A., we determine that the “highly porous” sidewalls
160 of Rasmussen disclose “said gusset formed of an
open cell construction,” as recited by claim 11. Ex.
1006 ¶ 29; Ex. 1007 ¶ 25.

259a
Also, as determined above in Section II.C., we
interpret “said open cell construction is formed by
apertures defined in said base material, said
apertures being larger than any pores inherently
defined in said base material” to mean that the open
cell construction is formed by at least apertures
defined in the base material and the apertures are
larger than any pores inherently defined in the base
material. Petitioner’s declarant states that “‘highly
porous’ 3D textile material” has apertures
“significantly larger than the pores that would be
inherently present in the base polyester or other
fibers from which the 3D textile material is made,”
that the “apertures need not be formed by cutting or
removing material,” and that the “apertures could be
created from the way in which the base material is
formed.” Rhodes Decl. ¶ 126.
As discussed above for claim 1, Patent Owner
indicates that fibers form yarns that are then
constructed into textile by weaving, knitting,
braiding, and nonwoven manufacturing. See PO Resp.
4, 12–13. Patent Owner also indicates that “[b]y
extending the basic 2-D techniques of knitting,
weaving, braiding, and non-wovens and adding
further complexity a wide array of different 3-D
textiles can be created.” Id. at 13. Both parties also
agree that more space between yarns leads to higher
porosity. PO Resp. 28; Rhodes Decl. ¶ 117; Parachuru
Decl. ¶ 93.
Thus, we find that Rasmussen’s “highly
porous” “3D textile material” discloses an open cell
construction that is formed by at least apertures
(space between yarns made by weaving, knitting,
braiding, or non-woven manufacture) defined in the

260a
base material (fiber) and the apertures are larger
than any pores inherently defined in the base
material (pores, if any, in the fiber), as argued by
Petitioner and as recited by claim 11. Rhodes Decl. ¶
126.
Patent Owner responds that Rasmussen does
not disclose expressly an open cell construction
formed by “apertures defined in said base material,
said apertures being larger than any pores inherently
defined in said base material,” as required by claim
11. PO Resp. 52–53; see also id. at 53–54 (describing
the disclosure of the ’134 patent) (citing Ex. 1001,
2:21–24, 2:36–46; Ex. 2016, 19:2–11, 140:13–22).
According to Patent Owner, Petitioner’s declarant
admitted that Rasmussen does not disclose the open
cell construction of claim 11. Id. at 53 (citing Ex. 2016,
76:17–78:7). Patent Owner also argues that
Rasmussen’s “3D textile material” or “highly porous
3D textiles” are broad terms that encompass many
different types of material and fall short of
demonstrating that Rasmussen discloses the specific
claimed structures of the claims. Id. at 54–55. Patent
Owner further contends that Rasmussen does not
enable claim 11, for the same reasons summarized
above for claim 1. Id. at 59–62.
Also, relying on its proposed interpretation of
“open cell construction,” Patent Owner argues that
Rasmussen does not disclose open cells defined by
apertures, as required by independent claim 11. PO
Resp. 69. Patent Owner argues that Petitioner does
not indicate where Rasmussen teaches such open cell
construction. Id. at 70 (citing Parachuru Decl. ¶¶
165–167). According to Patent Owner, Petitioner
argues that 3D textiles would have apertures larger

261a
than pores in the base material but also argues that a
person of ordinary skill in the art would understand
that pores result from apertures or macro-pores
created during the manufacture of 3D textile, not the
pores inherent in the base material. Id. (quoting Pet.
44). Patent Owner also argues that Petitioner’s
declarant does not provide examples of 3D textiles
containing macro-pores, and her analysis parrots the
Petition. Id. (discussing Rhodes Decl. ¶¶ 126–127).
Patent Owner contends that many 3D textiles do not
have macro-pores. Id. at 70 (citing Parachuru Decl. ¶
168).
Patent Owner also contends that, in equating
“macro-pores” with “open cells,” Petitioner identifies
polyester fibers as the base material and is relying on
a combination of different embodiments. Id. at 70–71
(citing Pet. 44; Rhodes Decl. ¶ 126). Patent Owner
argues that apertures can be created in fibers by
pulling apart or separating such fibers. Id. at 71
(citing Parachuru Decl. ¶¶ 170–171, 173). Patent
Owner asserts that apertures or pores would be
defined between strands or fibers of the base
material, not in the fibers themselves. Id. at 72 (citing
Parachuru Decl. ¶¶ 172–174).
Patent Owner further contends that Petitioner
improperly conflates the embodiments of claims 1 and
11. Id. at 71–72 (citing Rhodes Decl. ¶ 127). Patent
Owner additionally asserts that Rasmussen’s generic
reference to 3D textiles is not enabling and cannot
anticipate the claims. Id. at 72 (citing Rhodes Decl. ¶
127).
Based on the full record, the evidence cited in
the Petition sufficiently shows that Rasmussen’s
“highly porous” “3D textile material” discloses the

262a
open cell construction of claim 11. Also, even if
Rasmussen uses the “3D textile” broadly, the full
record persuades us that Rasmussen discloses the
limitations of claim 11. PO Resp. 4, 12–28; Rhodes
Decl. ¶ 117; Ex. 1006 ¶ 29; Ex. 1007 ¶ 25; Parachuru
Decl. ¶ 93. Also, our interpretation of the limitations
of claim 11 does not require modifying or
transforming a constituent base material.
Thus, Petitioner persuades us by a
preponderance of the evidence that Rasmussen
anticipates claim 11 based on disclosures related to
its core.
e. “said gusset being formed of an
open cell construction and a
base material, and said open
cell construction is formed by
porosity of said base material
being substantially greater
than porosity of material
forming said first panel and
substantially greater than
porosity of material forming
said second panel” (claim 17)
Independent claim 17 recites, inter alia, “said
open cell construction is formed by porosity of said
base material being substantially greater than
porosity of material forming said first panel and
substantially greater than porosity of material
forming said second panel.” Ex. 1049, 6:19–28.
Petitioner incorporates its analysis regarding the
anticipation of claim 1 for corresponding limitations
found in claim 17. Pet. 45 (citing Rhodes Decl. ¶¶ 104–
125, 138).

263a
Petitioner asserts that, because sidewalls 160
of core 110 can be formed of “highly porous” “3D
textile material” and be “more permeable than the top
layer and the bottom layer,” sidewalls 160 of
Rasmussen disclose a gusset more porous than the
first and second panels. Id. at 46–47 (citing Ex. 1006
¶¶ 8, 29, 49; Ex. 1007 ¶¶ 25, 45, 46; Rhodes Decl. ¶¶
130–132).
We find that Rasmussen discloses highly
porous sidewall 160. Ex. 1006 ¶ 29 (“the pillow 100 is
provided with sidewalls 160 that are highly porous,
and therefore provide a significant degree of
ventilation for the pillow, allowing air to enter and
exit the pillow 100 readily through the sides of the
pillow 100” and “this capability is achieved through
use of a 3D textile core sidewall 160”); see also Ex.
1007 ¶ 25 (disclosing the same).
Patent Owner responds Rasmussen does not
disclose its limitation of an “open cell construction . . .
formed by porosity of said base material being
substantially greater than porosity of material
forming said first panel and . . . said second panel.”
PO Resp. 72. Patent Owner argues that, under either
of Petitioner’s interpretations of Rasmussen, it
teaches at best that Petitioner’s alleged gusset is more
porous than the alleged panels, not that the base
material of the alleged gusset is more porous than the
materials of the alleged panels. Id. at 72–73 (citing
Pet. 46; Ex. 1006 ¶¶ 8, 50; Parachuru Decl. ¶¶ 175–
178). Patent Owner additionally asserts that
Rasmussen’s generic reference to 3D textiles is not
enabling and cannot anticipate the claims. Id. at 74.

264a
The portions of Rasmussen cited in the
Petition, however, disclose that the “side layer is more
permeable than the top layer and the bottom layer”
and that “highly porous” sidewalls 160 allow air to
enter and exit its sides “through use of a 3D textile
core sidewall 160.” Pet. 52–53 (citing Ex. 1006 ¶ 29;
Ex. 1007 ¶ 25). In connection with “3D textile,”
Rasmussen states that the “sides of the core can be
defined by highly porous material (such as a 3D
textile material).” Ex. 1006 ¶ 6; Ex. 1007 ¶ 5. We,
therefore, find that the portions of Rasmussen cited
in the Petition discloses that the 3D textile making up
sidewalls 160 has a greater porosity than the material
forming its top and bottom layers 140, 150.
Thus, based on the full record, we determine
that Petitioner shows by a preponderance of the
evidence that Rasmussen anticipates independent
claim 17 based on disclosures related to its core.
f. “said gusset being formed of an
open cell construction, said
gusset including 3D spacer
material” (claim 22)
Independent claim 22 recites, inter alia, “said
gusset including 3D spacer material.” Ex. 1049, 6:42–
48. As with its arguments for the other independent
claims, Petitioner incorporates its analysis regarding
the anticipation of claim 1 for similar limitations
found in claim 22. Pet. 45 (citing Rhodes Decl. ¶¶ 104–
125, 138). Petitioner also contends that Rasmussen’s
core 110 has highly porous sidewalls 160 formed of
“3D textile” that “provide a significant degree of
ventilation for the pillow, allowing air to enter and
exit the pillow 100 readily through the sides of the

265a
pillow 100.” Id. at 48–49 (citing Ex. 1006 ¶ 29; Ex.
1007 ¶ 25; Rhodes Decl. ¶¶ 134–135).
As discussed above, we find that the cited
portion of Rasmussen discloses that “pillow 100 is
provided with sidewalls 160 that are highly porous . .
. achieved through use of a 3D textile core sidewall
160.” Ex. 1006 ¶ 29; Ex. 1007 ¶ 25. Thus, we
determine that the “highly porous” sidewalls 160 of
Rasmussen disclose “said gusset formed of an open
cell construction,” as recited by claim 22.
We also find that sidewalls 160 can be “highly
porous, and therefore provide a significant degree of
ventilation for the pillow,” and “this capability is
achieved through use of a 3D textile core sidewall
160.” Ex. 1006 ¶ 29; Ex. 1007 ¶ 25. The full record
indicates that both parties’ declarants agree that
“spacer fabric” is also known as “3-dimensional
fabric.” Ex. 1009 ¶ 16 (“Spacer fabric, also known as
double needle bar fabrics (typically knitted on a
double needle bar machine) or 3-dimensional fabric,
is typically made by knitting two fabric layers.”);
Rhodes Decl. ¶¶ 53 (citing Ex. 1009 ¶ 16), 59 (citing
Ex. 1009 ¶ 16); Parachuru Decl. ¶ 83 (quoting Ex.
1009 ¶ 16); see also PO Resp. 22 (quoting the same).
Second, the full record indicates that both
parties agree that 3D spacer material is “highly
porous.” Pet. 11–12 (“it was known to use spacer
fabrics for breathability and cooling in bedding” and
“were already being used for their ‘airy’ and ‘mesh’
construction to provide laterally ventilated side walls
to ‘optimize the sleeping climate’ for mattresses”), 12
(“spacer fabric was known for use in pillows, including
for pillow covers, and, as demonstrated by the

266a
Rasmussen reference discussed in detail below in
Section IV., to provide a breathable gusset comprised
of a highly porous 3D textile for lateral ventilation
and cooling”); PO Resp. 21 (“The spacer fabric is
highly porous because the sides of the fabrics between
the top and bottom layers are only partially filled with
spacer fibers.”); Rhodes Decl. ¶ 53 (“3D spacer fabrics
have been well known by skilled artisans before the
’134 Patent to be ‘highly breathable’ based on their
high air permeability, ability to transport water
vapor, and thermal conductivity.”) (citing Ex. 1009 ¶
16; Ex. 1029, 1; Ex. 1030, 22–25); Parachuru Decl. ¶
84 (“spacer fabric is highly porous”).
Further, Rasmussen discloses
a cover having highly porous sides (e.g.,
made of a 3D textile material or a velour
or stretch velour material) corresponding
to and covering the sides of the core
and/or a highly porous bottom (e.g.,
again, made of a 3D textile material or a
velour or a stretch velour material).
Ex. 1006 ¶ 6; Ex. 1007 ¶ 5. We find that Rasmussen’s
disclosure of “velour or a stretch velour material” as
an alternative to “3D textile material” indicates that
“3D textile material” has similar specificity as “velour
or a stretch velour material.” See also Ex. 2016,
36:14–17 (In response to “[c]an you give me some
examples of 3D knitted textiles,” Petitioner’s
declarant answering “[v]elour, you can knit Terry
cloth as well, fleece, 3D spacer fabrics,” thus
indicating 3D spacer fabric and velour are in a same
group). If “3D textile material” has less specificity,
especially in the manner contended by Patent Owner,

267a
then the additional alternative of “velour or a stretch
velour material” would be unnecessary. Thus, the
record provides evidence that “3D textile material” is
3D spacer material and not materials that include 3D
spacer material and “velour or stretch velour
material.”
In the context of Rasmussen’s description of
materials that are highly porous and applicable for its
sidewalls and side portions of a pillow, we find that
“3D textile” must mean something appropriate for a
pillow, and therefore mean something more specific,
like “velour or stretch velour material.” Record
evidence does not indicate which other material is
highly porous, 3-dimensional, and appropriate for a
ventilated pillow. See Tr. 16:15–17:21, 18:3–19:10.
Finally, Patent Owner’s declarant indicates that
spacer fabric includes a mesh component. Parachuru
Decl. ¶ 83 (“spacer fabric . . . is typically made by
knitting two fabric layers” that “could be the same or
different, i.e. mesh or solid”).
In view of the above, we find that the highly
porous “3D textile material” of Rasmussen is 3D
spacer fabric, not a generic reference to any 3D fabric.
Therefore,
Petitioner
persuades
us
by
a
preponderance of the evidence that Rasmussen’s
“highly porous” “3D textile material” is 3D spacer
fabric and anticipates claim 22.
For independent claim 22, Patent Owner
responds that Rasmussen does not disclose its
limitation of a “gusset including 3D spacer material.”
PO Resp. 62–63. Patent Owner argues that Petitioner
incorrectly equates 3D spacer material with “3D
textile materials” and that 3D spacer material is one

268a
of many 3D textiles. Id. at 63 (citing Pet. 49). Patent
Owner also argues that Petitioner’s declarant
admitted that Rasmussen does not use the term “3D
spacer material,” that the term “spacer fabrics” was
well-known prior to Rasmussen but is not used in
Rasmussen, and that 3D spacer material is not the
only 3D textile that can be used in a pillow. Id. (citing
Ex. 1006 ¶ 49; Ex. 2016, 34:7–13, 36:14–18, 47:24–
48:12, 46:9–47:3, 137:2–17).
Patent Owner further argues that, to the
extent Petitioner is arguing that 3D spacer material
would be understood as a type of 3D textile, such
argument is an obviousness challenge. Id. at 63–64.
Patent Owner asserts that Petitioner’s declarant
opines that it would be obvious to choose 3D spacer
fabric. Id. at 64 (citing Ex. 2016, 138:2–10). Patent
Owner also asserts that Petitioner relies on
knowledge of one of ordinary skill in the art, and thus,
must go beyond Rasmussen’s disclosure. Id. (citing
Pet. 38, 39, 44, 48). Patent Owner argues that
“Petitioner failed to demonstrate that the four corners
of Rasmussen either expressly or inherently disclose
the specific structures recited in claims 1, 11, and 22.”
Id. at 64–65.
For the reasons stated above, Petitioner
persuades us that Rasmussen’s “3D textile material”
is 3D spacer fabric, used synonymously for 3D spacer
fabric, and not a generic reference to 3D fabrics. Thus,
based on the full record, Petitioner persuades us by a
preponderance of the evidence that Rasmussen
anticipates claim 22 based on disclosures related to
its core.

269a
2. Challenge Based on the Cover of
Rasmussen
Petitioner contends that Rasmussen’s cover
190 with top portion 200, bottom portion 210, and side
portions 220, separately and independently, discloses
the limitations of claim 1. Pet. 27; see also id. at 22–
27 (asserting what Rasmussen discloses). Petitioner
provides an annotated Figure 2 from Rasmussen that
is reproduced below. Id. at 25.

The annotated Figure 2 from Rasmussen
illustrates components of cover 190. Id. at 25.
a. Uncontested Limitations of
Independent Claims 1, 11, 17,
and 22
For claim 1, Petitioner argues that Rasmussen
discloses a pillow comprising “a cover having opposing
first and second panels” and “compliant fill material
disposed within said cover.” Pet. 30–31 (citing Ex.
1006 ¶ 48, Figs. 1, 2; Ex. 1007 ¶ 44, Figs. 1, 2; Rhodes

270a
Decl. ¶ 108), 37–38 (citing Ex. 1006 ¶¶ 19, 22, 30, 31,
36, 48, Figs. 1, 2; Ex. 1007 ¶¶ 15, 18, 26, 27, 32, 44,
Figs. 1, 2; Rhodes Decl. ¶¶ 122, 123, 124). For
independent claims 11, 17, and 22, which also include
these identical limitations, Petitioner relies on its
arguments for claim 1. Id. at 42–43, 45, 48. Patent
Owner does not present arguments addressing these
limitations of claims 1, 11, 17, and 22. See PO Resp.
53–74.
We find that the cited portions of Rasmussen
disclose and depict that “pillow 100 can have a cover
190 substantially enclosing the pillow 100” and that
“cover 190 can include a top portion 200, a bottom
portion 210 opposite the top portion 200, and side
portions 220 extending between the top portion 200
and the bottom portion 210.” Ex. 1006 ¶ 48, Figs. 1, 2;
Ex. 1007 ¶ 44, Figs. 1, 2. We also find that the cited
portions of Rasmussen teach and depict that cover
190 encloses core 110 that has “a cavity 170 shaped to
receive filler material 180.” Ex. 1006 ¶ 15, Figs. 1, 2;
Ex. 1007 ¶ 11, Figs. 1, 2.
We further find that the cited portions teach
that “visco-elastic foam . . . can have a hardness of at
least 30 N and no greater than about 175 N for
desirable softness and body-conforming qualities” and
that “filler material 180 of the pillow 100 can include,
but is not limited to, granulated visco-elastic foam.”
Ex. 1006 ¶¶ 19, 30; Ex. 1007 ¶¶ 15, 26.
We, thus, find that the cover of Rasmussen
discloses a pillow comprising “a cover having opposing
first and second panels” and “compliant fill material
disposed within said cover,” as recited by claims 1, 11,
17, and 22.

271a
b. “a
gusset
perimetrically
bounding, and joining, said
first and second panels” (claims
1, 11, 17, and 22)
Petitioner argues that Rasmussen discloses “a
gusset perimetrically bounding, and joining, said first
and second panels,” as recited by independent claims
1, 11, 17, and 22. Pet. 30–32 (citing Ex. 1006 ¶¶ 48,
52, Fig. 2; Ex. 1007 ¶¶ 44, 48, Fig. 2; Rhodes Decl. ¶¶
105, 108).
We find that Figure 2 shows side portion 220 of
cover 190 joined to top and bottom portions 200, 210.
We also credit the testimony of Petitioner’s declarant.
Rhodes Decl. ¶ 108 (“Although the figures do not show
all sides of the pillow, a person of ordinary skill in the
art would understand from the figures and from the
description of Rasmussen, that if the pillow were
turned, one could see where the top edge of the side
portion 220 engages and joins the peripheral edge of
the top portion 200 and where the bottom edge of the
side portion 220 engages and joins the peripheral edge
of the bottom portion 210.”); Ex. 2016, 95:11–15
(stating, during deposition, that “[a]s a person with
many years of experience in the industry, one can
read the Rasmussen patent and completely
understand and expect to find that as described, the
side wall goes around all of the edges of the pillow”),
103:3–9 (stating that “a person with experience, such
as mine, in understanding of the product and that the
consumer is expecting to find a cover that covers all
sides of the pillow, Rasmussen makes it clear through
description and illustration that the cover is on all
sides of the pillow”).

272a
Patent Owner responds that none of the cited
portions of Rasmussen expressly disclose that its side
portions perimetrically bound and join its top and
bottom portions. PO Resp. 74 (addressing Pet. 27–32).
Patent Owner also argues that Petitioner ultimately
asserts that the feature would have been obvious and
Petitioner’s declarant admitted that Rasmussen does
not expressly disclose this feature. Id. (citing Pet. 32–
33; Ex. 2016, 94:18–95:15, 102:20–103:9).
After weighing Petitioner’s evidence (Ex. 1006
¶¶ 48, 52, Fig. 2; Ex. 1007 ¶¶ 44, 48; Rhodes Decl. ¶
108) and Patent Owner’s evidence (Ex. 2016, 94:18–
95:15, 102:20–103:9), we determine that Petitioner
carries its burden of showing by a preponderance of
the evidence that Rasmussen discloses “a gusset
perimetrically bounding, and joining, said first and
second panels,” as recited by independent claims 1,
11, 17, and 22, based on descriptions related to the
cover.
c. “said gusset being formed of an
open cell construction, said open
cell construction is formed by
interlaced or spaced-apart
strands” (claim 1)
Petitioner
contends
that
Rasmussen’s
description of “highly porous” and “3D textile
materials” for side portions 220 of cover 190 discloses
“said gusset being formed of an open cell construction,
said open cell construction is formed by interlaced or
spaced-apart strands.” Pet. 33–35 (citing Ex. 1006 ¶¶
49, 50, Fig. 2; Ex. 1007 ¶¶ 45, 46, Fig. 2; Rhodes Decl.
¶¶ 111–117).

273a
We find that the cited portions of Rasmussen
disclose that “side portions 220 of the cover 190 can
be highly porous (e.g., made of a 3D textile material
or a velour or stretch velour material), corresponding
to and covering the highly porous material of the core
sidewalls 160” (Ex. 1006 ¶ 49) and “the top portion
200 and bottom portion 210 of the cover 190 are less
porous than the side portions 220 of the cover 190” (id.
¶ 50). See also Ex. 1007 ¶¶ 45, 46 (disclosing the
same). In view of our interpretation of “open cell
construction” to mean “a construction having overall
porosity greater than the inherent porosity of the
constituent material or inherently having high
porosity,” as determined above in Section II.A., we
determine that the “highly porous” side portions 220
of Rasmussen disclose “said gusset formed of an open
cell construction,” as recited by claim 1. Ex. 1006 ¶ 49;
Ex. 1007 ¶ 45.
Also, as determined above in Section II.B., we
interpret “said open cell construction is formed by
interlaced or spaced-apart strands” to mean that the
open cell construction is formed by at least interlaced
or spaced-apart strands. Petitioner’s declarant states
that
“highly porous” “3D textile material”
used for the gusset of Rasmussen’s core
110 and cover 190 has interlaced strands
in that the fibers are interlaced to create
the three dimensional textile structure
of the material, and that the material
has spaced apart strands in that the
fibers have spacing sufficient to make
the material “highly porous.”
Rhodes Decl. ¶ 117.

274a
Patent Owner also states that “[b]y extending
the basic 2-D techniques of knitting, weaving,
braiding, and non-wovens and adding further
complexity a wide array of different 3-D textiles can
be created.” PO Resp. 13. Patent Owner provides
examples of 3D textiles, all of which include
“interlaced strands or spaced-apart strands.” See PO
Resp. 14–27. Both parties also agree that highly
porous textiles have space-apart strands. Id. at 28
(“The tightness of the 3D structure itself can also
impact the overall porosity. Tighter structures tend to
have lower porosity because there is less space
between the yarns forming the structure.”); Rhodes
Decl. ¶ 117; Parachuru Decl. ¶ 93 (“Similarly, loose
structures tend to have higher porosity due to the
increased space between the yarns forming the
structure.”).
In view of the above, we find that Rasmussen’s
“highly porous” “3D textile material” discloses “said
open cell construction being formed by interlaced or
spaced-apart strands,” as recited by claim 1. Patent
Owner asserts the same arguments that it asserted
against Petitioner’s anticipation challenge based on
its core. See PO Resp. 52–62, 65–68. For the same
reasons, the evidence relied on by both parties
indicates that the highly porous 3D textile of
Rasmussen is formed by interlaced or spaced-apart
strands, as required by claim 1.
Thus, based on the full record, Petitioner
persuades us by a preponderance of the evidence that
Rasmussen anticipates claim 1 based on disclosures
related to its cover.

275a
d. “said gusset being formed of an
open cell construction and a
base material, and said open
cell construction is formed by
apertures defined in said base
material, said apertures being
larger than any pores inherently
defined in said base material”
(claim 11)
Petitioner states that its “analysis for claim 1
also applies to claim 11 and is incorporated herein by
reference.” Pet. 42–43 (citing also Rhodes Decl. ¶¶
104–125, 138). Petitioner argues that side portions
220 of cover 190 are more porous. Id. at 43 (citing Ex.
1006 ¶¶ 49–50; Ex. 1007 ¶¶ 45–46). Petitioner further
argues that one of ordinary skill in the art would
understand “Rasmussen’s highly porous 3D textile
would have ‘apertures’ larger than the pores
inherently present in the base material from which
the 3D textile is made.” Id. at 44 (citing Ex. 1006 ¶ 52;
Ex. 1007 ¶ 48; Rhodes Decl. ¶¶ 126–127).
We find that the cited portions of Rasmussen
disclose highly porous side portions 220. Ex. 1006 ¶¶
49 (“side portions 220 of the cover 190 can be highly
porous (e.g., made of a 3D textile material or a velour
or stretch velour material)” and “can permit
significant ventilation into and out of the pillow”); see
also Ex. 1007 ¶ 45 (disclosing the same). In view of
our interpretation of “open cell construction” to mean
“a construction having overall porosity greater than
the inherent porosity of the constituent material or
inherently having high porosity,” as determined
above in Section II.A., we determine that the “highly
porous” side portions 220 of Rasmussen disclose “said

276a
gusset formed of an open cell construction,” as recited
by claim 11. Ex. 1006 ¶ 29; Ex. 1007 ¶ 25.
Also, as determined above in Section II.C., we
interpret “said open cell construction is formed by
apertures defined in said base material, said
apertures being larger than any pores inherently
defined in said base material” to mean that the open
cell construction is formed by at least apertures
defined in the base material and the apertures are
larger than any pores inherently defined in the base
material. Petitioner’s declarant states that “‘highly
porous’ 3D textile material” has apertures
“significantly larger than the pores that would be
inherently present in the base polyester or other
fibers from which the 3D textile material is made,”
that the “apertures need not be formed by cutting or
removing material,” and that the “apertures could be
created from the way in which the base material is
formed.” Rhodes Decl. ¶ 126.
As discussed above for claim 1, Patent Owner
indicates that fibers form yarns that are then
constructed into textile by weaving, knitting,
braiding, and nonwoven manufacturing. See PO Resp.
4, 12–13. Patent Owner also indicates that “[b]y
extending the basic 2-D techniques of knitting,
weaving, braiding, and non-wovens and adding
further complexity a wide array of different 3-D
textiles can be created.” Id. at 13. Both parties also
agree that more space between yarns lead to higher
porosity. PO Resp. 28; Rhodes Decl. ¶ 117; Parachuru
Decl. ¶ 93.
Thus, we find that Rasmussen’s “highly
porous” “3D textile material” discloses an open cell

277a
construction that is formed by at least apertures
(space between yarns made by weaving, knitting,
braiding, or non-woven manufacture) defined in the
base material (fiber) and the apertures are larger
than any pores inherently defined in the base
material (pores, if any, in the fiber), as argued by
Petitioner and as recited by claim 11. Rhodes Decl. ¶
126. Patent Owner asserts the same arguments for
Petitioner’s anticipation challenge based on its core.
See PO Resp. 52–62, 69–72.
Thus, based on the full record, Petitioner
persuades us by a preponderance of the evidence that
Rasmussen anticipates claim 11 based on disclosures
related to its cover.
e. “said gusset being formed of an
open cell construction and a
base material, and said open
cell construction is formed by
porosity of said base material
being substantially greater
than porosity of material
forming said first panel and
substantially greater than
porosity of material forming
said second panel” (claim 17)
Petitioner incorporates its analysis regarding
the anticipation of claim 1 for corresponding
limitations found in claim 17. Pet. 45 (citing Rhodes
Decl. ¶¶ 104–125, 138).
Petitioner asserts that, because side portion
220 of cover 190 can be formed of “highly porous” “3D
textile material” and “top portion 200 and bottom
portion 210 of the cover 190 are less porous than the

278a
side portions 220,” side portion 220 of Rasmussen
discloses a gusset more porous than first and second
panels, as required by claim 17. Pet. 46–47 (citing Ex.
1006 ¶¶ 49, 50, Fig. 2, claims 11, 12; Ex, 1007 ¶¶ 45,
46, Fig. 2; Rhodes Decl. ¶¶ 130–132).
We find that Rasmussen discloses highly
porous side portion 220. Ex. 1006 ¶ 49 (“side portions
220 of the cover 190 can be highly porous (e.g., made
of a 3D textile material or a velour or stretch velour
material)” and “can permit significant ventilation into
and out of the pillow”); see also Ex. 1007 ¶ 45
(disclosing the same).
Patent Owner responds Rasmussen does not
disclose the limitation of an “open cell construction . . .
formed by porosity of said base material being
substantially greater than porosity of material
forming said first panel and . . . said second panel.”
PO Resp. 72. Patent Owner argues that, under either
of Petitioner’s interpretations of Rasmussen, it
teaches at best that Petitioner’s alleged gusset “as a
whole” is more porous than the alleged panels, not
that the base material of the alleged gusset is more
porous than the materials of the alleged panels. Id. at
72–73 (citing Pet. 46; Ex. 1006 ¶¶ 8, 50; Parachuru
Decl. ¶¶ 175–178). According to Patent Owner, “even
if the alleged gusset in Rasmussen is more porous
than the first and second panels, it is not necessary
(and thus not inherent) for the gusset base material
to be of greater porosity than the material forming the
first and second panels.” Id. at 73. Patent Owner
additionally asserts that Rasmussen’s generic
reference to 3D textiles is not enabling and cannot
anticipate the claims. Id.

279a
Petitioner shows sufficiently that Rasmussen
discloses that the material of side portions 220 has a
greater porosity than the material of top and bottom
portions 200, 210. See also Ex. 1006 ¶ 6; Ex. 1007 ¶ 5
(disclosing “highly porous material (such as a 3D
textile material)”).
Thus, based on the full record, we determine
that Petitioner shows by a preponderance of the
evidence that Rasmussen anticipates independent
claim 17 based on disclosures related to both its cover.
f. “said gusset being formed of an
open cell construction, said
gusset including 3D spacer
material” (claim 22)
Petitioner incorporates its analysis regarding
the anticipation of claim 1 for similar limitations
found in claim 22. Pet. 45 (citing Rhodes Decl. ¶¶ 104–
125, 138). Petitioner also contends that Rasmussen’s
cover 190 has highly porous side portions 220 made of
“3D textile material” that “can permit significant
ventilation into and out of the pillow.” Id. at 49 (citing
Ex. 1006 ¶ 49; Ex. 1007 ¶ 45; Rhodes Decl. ¶¶ 134–
135).
We find that Rasmussen discloses that side
portions 220 “can be highly porous (e.g., made of a 3D
textile material or a velour or stretch velour material)
. . . and covering the highly porous material of the core
sidewalls 160.” Ex. 1006 ¶ 49; Ex. 1007 ¶ 45. We, thus,
determine that the “highly porous” side portions 220
of Rasmussen disclose “said gusset formed of an open
cell construction,” as recited by claim 22.

280a
We also find that “side portions 220 of the cover
190 . . . can permit significant ventilation into and out
of the pillow.” Ex. 1006 ¶ 49; Ex. 1007 ¶ 45. For the
reasons discussed above, the full record persuades us
that the highly porous 3D textile material of
Rasmussen is 3D spacer fabric, not a generic reference
to any 3D fabric. Therefore, Petitioner persuades us
by a preponderance of the evidence that Rasmussen’s
“highly porous” “3D textile material” is 3D spacer
fabric and anticipates claim 22. Pet. 11–12; PO Resp.
21, 22; Tr. 16:15–17:21, 18:3–19:10; Ex. 1006 ¶ 49; Ex.
1007 ¶ 45; Ex. 1009 ¶ 16; Rhodes Decl. ¶¶ 53, 59;
Parachuru Decl. ¶¶ 83, 84; Ex. 2016, 36:14–17.
Patent Owner responds that Rasmussen does
not disclose a “gusset including 3D spacer material,”
for the same reasons asserted against Petitioner’s
anticipation challenge based on disclosures related to
its core. PO Resp. 62–65. For the reasons discussed
above in connection with Petitioner’s challenge based
on disclosures related to its core, Petitioner persuades
us that Rasmussen’s “3D textile material” is 3D
spacer fabric, used synonymously for 3D spacer
fabric, and not a generic reference to 3D fabrics.
Thus, based on the record after trial, Petitioner
persuades us by a preponderance of the evidence that
Rasmussen anticipates claim 22 based on disclosures
related to its cover.
C. Dependent Claims 4–6, 8, 13, 18, and 23
1. Challenge Based on the Core of
Rasmussen
Claims 4 and 5 depend from claim 1. Ex. 1049,
5:31–36. For the reasons discussed above in Section

281a
III.B., the record persuades us that Petitioner shows
by a preponderance of the evidence that independent
claim 1 is anticipated by Rasmussen based on
disclosures related to its core.
Petitioner argues that Rasmussen discloses
“wherein said first panel is formed with a moisture
dispersing material,” as recited by claim 4. Pet. 40–41
(citing Ex. 1006 ¶¶ 22, 24; Ex. 1007 ¶¶ 18, 20; Rhodes
Decl. ¶ 141). We find that a cited portion of
Rasmussen teaches “advantages are achieved by
utilizing reticulated visco-elastic foam for the top
layer 140 and/or bottom layer 150 of the pillow” and
“use of reticulated foam can also enhance the ability
of the pillow 100 to wick moisture away from the
user’s body thereon.” Ex. 1006 ¶ 22; Ex. 1007 ¶ 18.
Petitioner argues that Rasmussen discloses
“wherein said cover is formed by at least two partially
or wholly separable portions, with said separable
portions being selectively joinable by a fastening
means,” as recited by claim 5. Pet. 41 (citing Ex. 1006
¶ 18; Ex. 1007 ¶ 14; Rhodes Decl. ¶ 143). We find that
the cited portion of Rasmussen teaches
top layer 140, bottom layer 150 and
sidewalls 160 can include one or more
releasable fasteners (e.g., zippers,
buttons, clasps, laces, hook and loop
fastener material pieces, hook and eye
sets, tied ribbons, strings, cords, or other
fastener elements) . . . located between
the top layer 140 and sidewall 160,
between a sidewall 160 and the bottom
layer 150, or within an opening in the

282a
top layer 140, sidewall 160, and/or
bottom layer 150.
Ex. 1006 ¶ 18; Ex. 1007 ¶ 14.
Patent Owner responds that Rasmussen does
not anticipate dependent claims 2–10, 12–16, 18–21,
23, and 24 because these claims include all the
limitations of independent claims 1, 11, 17, and 22.
PO Resp. 75; see also Pet. Reply 23 (“PO makes no
separate arguments for the patentability of
dependent claims 4–6, 8, 13, 18, and 23, which are,
therefore, also anticipated by Rasmussen.”). For the
reasons stated in Section III.B., the record persuades
us that Petitioner shows by a preponderance of the
evidence that claims 1, 11, 17, and 22 are anticipated
by Rasmussen based on disclosures related to its
cover.
Thus, based on the full record, Petitioner
persuades us by a preponderance of the evidence that
claims 4 and 5 are anticipated by Rasmussen based
on disclosures related to its core.
2. Challenge Based on the Cover of
Rasmussen
Claims 4–6 and 8 depend from claim 1. Ex.
1049, 5:31–39, 5:43–45. Claims 13, 18, and 23 depend
from independent claims 11, 17, and 22, respectively.
Ex. 1049, 5:37–39, 6:7–9, 6:29–31, 6:52–53. For the
reasons discussed above in Section III.B., the record
persuades us that Petitioner shows by a
preponderance of the evidence that independent
claims 1, 11, 17, and 22 are anticipated by Rasmussen
based on disclosures related to its cover.

283a
Petitioner argues that Rasmussen discloses
“wherein said first panel is formed with a moisture
dispersing material,” as recited by claim 4. Pet. 40
(citing Ex. 1006 ¶ 52; Ex. 1007 ¶ 48; Rhodes Decl. ¶¶
139–140). We find that the cited portions of
Rasmussen teach “[a]lternatives to the materials
described above for the pillow cover 190 include
any sheet material desired, including without
limitation . . . polyester [or] a cotton/polyester blend,”
a moisture wicking material. Ex. 1006 ¶ 52; Ex. 1007
¶ 48; Rhodes Decl. ¶ 139.
Petitioner argues that Rasmussen discloses
“wherein said cover is formed by at least two partially
or wholly separable portions, with said separable
portions being selectively joinable by a fastening
means,” as recited by claim 5. Pet. 42 (citing Ex. 1006
¶¶ 52, 53; Ex. 1007 ¶¶ 48, 49; Rhodes Decl. ¶ 144). We
find that Rasmussen teaches that “cover 190 can have
one or more seams” that “can be attached by . . .
conventional fasteners (e.g., zippers, buttons, clasps,
laces, hook and loop fastener material, hook and eye
sets, tied ribbons, strings, cords, or other similar
elements, and the like).” Ex. 1006 ¶ 52; Ex. 1007 ¶ 48.
We also find that Rasmussen teaches that “fasteners
can be positioned to releasably secure at least one
portion of a cover 190 to another portion of the cover
190.” Ex. 1006 ¶ 53; Ex. 1007 ¶ 49.
Each of dependent claims 6, 13, 18, and 23
recites “an inner cover disposed inside of said cover,
at least a portion of said compliant material being
disposed within said inner cover.” Ex. 1049, 5:37–39,
6:7–9, 6:29–31, 6:52–53. Claim 8 recites “an inner
cover disposed inside of said cover, said compliant fill

284a
material being disposed within said inner cover.” Ex.
1049, 5:43–45.
Petitioner argues that cover 190 of Rasmussen
discloses “said cover” and core 110 of Rasmussen
discloses “an inner cover.” Pet. 51 (citing Ex. 1006 ¶
15, Fig. 2; Ex. 1007 ¶ 11, Fig. 2; Rhodes Decl. ¶¶ 146–
147). We find that the cited portions of Rasmussen
disclose and depict core 110 disposed inside of cover
190 and core 110 defines a cavity that contains filler
material 180. Ex. 1006 ¶ 15 (“top layer 140, bottom
layer 150 and sidewalls 160 define a cavity 170
shaped to receive filler material 180”), Fig. 2; Ex. 1007
¶ 11, Fig. 2.
Moreover, we find that Rasmussen discloses
and depict that “pillow 100 can have a cover 190
substantially enclosing the pillow 100” and that
“cover 190 can include a top portion 200, a bottom
portion 210 opposite the top portion 200, and side
portions 220 extending between the top portion 200
and the bottom portion 210.” Ex. 1006 ¶ 48, Figs. 1, 2;
Ex. 1007 ¶ 44, Figs. 1, 2.
Patent Owner responds that Rasmussen does
not anticipate dependent claims 2–10, 12–16, 18–21,
23, and 24 because these claims include all the
limitations of independent claims 1, 11, 17, and 22.
PO Resp. 75; see also Pet. Reply 23 (“PO makes no
separate arguments for the patentability of
dependent claims 4–6, 8, 13, 18, and 23, which are,
therefore, also anticipated by Rasmussen.”). For the
reasons stated in Section III.B., the record persuades
us that Petitioner shows by a preponderance of the
evidence that claims 1, 11, 17, and 22 are anticipated
by Rasmussen based on disclosures related to its
cover.

285a
Thus, based on the full record, Petitioner
persuades us by a preponderance of the evidence that
claims 4–6, 8, 13, 18, and 23 are anticipated by
Rasmussen based on disclosures related to its cover.
D. Conclusion
Challenges

as

to

the

Anticipation

For the reasons above and based on our review
of the full record, Petitioner persuades us by a
preponderance of the record (1) that claims 1, 4, 5, 11,
17, and 22 are anticipated by Rasmussen based on
disclosures related to its core and (2) that claims 1, 4–
6, 8, 11, 13, 17, 18, 22 and 23 are anticipated by
Rasmussen based on disclosures related to its cover.
IV.

OBVIOUSNESS CHALLENGES

Petitioner contends that, under 35 U.S.C.
§ 103(a), (1) claims 2, 3, and 12 are unpatentable over
Rasmussen and Doak, (2) claims 9, 15, and 20 are
unpatentable over Rasmussen and Vuiton, and (3)
claims 10, 16, 21, and 24 are unpatentable over
Rasmussen and Mason. Pet. 56–68. Petitioner cites to
the asserted references and the Rhodes Declaration.
See id. Patent Owner disputes the alleged
obviousness of these claims with citations to the
references and its Parachuru Declaration. PO Resp.
75–81.
To prevail in its challenges, under 35 U.S.C.
§ 103(a), Petitioner must prove unpatentability by a
preponderance of the evidence. 35 U.S.C. § 316(e); 37
C.F.R. § 42.1(d). A claim is unpatentable under 35
U.S.C. § 103(a) if the differences between the subject
matter sought to be patented and the prior art are
such that the subject matter as a whole would have

286a
been obvious at the time the invention was made to a
person having ordinary skill in the art to which said
subject matter pertains. KSR Int’l Co. v. Teleflex Inc.,
550 U.S. 398, 406 (2007). The question of obviousness
is resolved on the basis of underlying factual
determinations including: (1) the scope and content of
the prior art; (2) any differences between the claimed
subject matter and the prior art; (3) the level of
ordinary skill in the art; and (4) objective evidence of
nonobviousness. See Graham v. John Deere Co., 383
U.S. 1, 17–18 (1996).
As discussed below, the parties’ disputes are
related to the scope and content of the prior art,
differences between claims 2, 3, 9, 10, 12, 15, 16, 20,
21, and 24 and the prior art, and the level of ordinary
skill in the art. The parties do not dispute nor direct
us to any objective evidence of nonobviousness.
After reviewing the complete record, we
conclude that Petitioner has shown by a
preponderance of the evidence that the asserted
references teach or suggest each limitation of claims
2, 3, 9, 10, 12, 15, 16, 20, 21, and 24, that a person of
ordinary skill in the art would have had a reason to
combine the teachings of the asserted references, and
that a person of ordinary skill in the art would have
had a reasonable expectation of success in combining
the teachings of those references.
A. Level of Ordinary Skill
Petitioner asserts that a person of ordinary
skill in the art, whether the priority date is June 2011
or June 2012, would have

287a
at least a bachelor’s degree in textile
design,
textile
science,
textile
engineering or a similar field and at
least one year of experience in the design
of pillows and other sleep-related textile
products; or, alternatively, a person
having at least three to five years of
experience in the design of pillows and
other sleep-related textile products.
Pet. 15–16 (citing Rhodes Decl. ¶¶ 68–70).
Patent Owner contends that a person of
ordinary skill in the art would have
at least a bachelor’s degree in textile
science, textile engineering or a similar
field along with several years of industry
experience in applying the moisture and
heat transfer properties of materials
which typically come into close direct or
indirect contact with human skin.
Additional graduate education in textile
or material sciences might substitute for
experience.
PO Resp. 29 (citing Parachuru Decl. ¶¶ 20–25).
Patent Owner also argues that Petitioner’s proposed
level of ordinary skill
fails to adequately reflect the relevant
technical experience and knowledge
that would have been necessary to
understand and implement the technical
aspects of the ‘134 Patent and
asserted references, such as how the
thermodynamic processes of conduction,

288a
convection, and radiation interact at the
interface between humans and various
fabrics as well as the moisture
dispersing properties of fabrics as they
relate to liquid and vapor forms of
perspiration.
Id. (citing Parachuru Decl. ¶¶ 36–52). Petitioner
replies that Patent Owner’s declarant “conceded that
the challenged patent is directed to ‘pillow design’ . . .
and that it was ‘desirable’ for a [person of ordinary
skill in the art] to have pillow design experience.” Pet.
Reply 7 (citing Ex. 1061, 26:16–19, 31:9–13).
Factual indicators of the level of ordinary skill
in the art include “the various prior art approaches
employed, the types of problems encountered in the
art, the rapidity with which innovations are made, the
sophistication of the technology involved, and the
educational background of those actively working in
the field.” Jacobson Bros., Inc. v. U.S., 512 F.2d 1065,
1071 (Ct. Cl. 1975); see also Orthopedic Equip. Co. v.
U.S., 702 F.2d 1005, 1011 (Fed. Cir. 1983) (quoting
with approval Jacobson Bros.). We find, based on our
review of the record before us, that Petitioner’s stated
level of ordinary skill in the art is reasonable because
it is consistent with the record’s indication of “the
various prior art approaches employed, the types of
problems encountered in the art, the rapidity with
which innovations are made, the sophistication of the
technology involved, and the educational background
of those actively working in the field.” See, e.g., Pet.
7–12 (“Technology Background”); PO Resp. 3–4
(“Background of the Relevant Technology at the Time
of the ’134 Patent”); Ex. 1006 ¶¶ 2–4; Ex. 1008; Ex.
1012 ¶¶ 3–6; Ex. 1044; Ex. 2001 ¶¶ 36–54.

289a
We resolve any differences in favor of including
“several years of industry experience in applying the
moisture and heat transfer properties of materials” as
part of “at least one year of experience in the design
of pillows and other sleep-related textile products” of
a person holding a “bachelor’s degree in textile
science, textile engineering, or a similar field.” See
Rhodes Decl. ¶ 5 (“I am also an adjunct professor . . .
teaching . . . an entry level course for textile and
fashion majors.”), ¶ 6 (“I received a Bachelor of
Science degree in Textile Design.”), ¶ 70 (“I met at
least these minimum qualifications to be a person
having ordinary skill in the art at the time of the
claimed invention.”); Ex. 1062 ¶ 4 (“I teach concepts
relating to moisture and heat transfer in my textile
curriculum in my academic role as a professor”).
Therefore, we apply Petitioner’s definition,
quoted above, in our analysis of the challenges under
35 U.S.C. § 103(a). Pet. 15–16.
B. Challenge Based on Rasmussen and Doak
Petitioner contends that claims 2, 3, and 12 are
unpatentable over Rasmussen and Doak. Pet. 56–60.
Claims 2 and 3 depend from claim 1, and claim 12
depends from independent claim 11. Ex. 1049, 5:26–
30, 6:4–6.
Claim 2 recites “wherein said first and second
panels each define a generally rectangular footprint
common with said gusset.” Id. at 5:26–28. Claim 3
recites “wherein said first and second panels are
arcuately bowed out in opposing directions.” Id. at
5:29–30. Claim 12 recites “wherein said first and
second panels each define a generally rectangular
footprint common with said gusset.” Id. at 6:4–6.

290a
1. Doak (Ex. 1008)
Doak relates to “pillows . . . or the like.” Ex.
1008, 1:9–10. Figures 1 and 4 of Doak are reproduced
below.

Figure 1 shows pillow 10, and Figure 4 is a
sectional view taken along line 4–4 of Figure 1. Id. at
1:51–52, 1:58–59. Pillow 10 has filling 12 enclosed in
cover 20. Id. at 1:63–67, 2:12–15. Cover 20 comprises
web portion 25, “which extends around the perimeter
of the pillow and may be of substantial width.” Id. at
2:15–17.

291a
2. Claims 2, 3, and 12
Petitioner argues that Rasmussen teaches the
limitations of independent claims 1 and 11, from
which claims 2, 3, and 12 depend. Pet. 57. For the
reasons stated above in Section III.B., Petitioner
persuades us by a preponderance of the evidence that
Rasmussen teaches the limitations of claims 1 and 11.
Petitioner also argues that Doak teaches first
and second panels that each define a generally
rectangular footprint common with a gusset, as
required by claims 2 and 12, and that are arcuately
bowed in opposing directions, as required by claim 3.
Pet. 59 (citing Ex. 1008, Figs. 1, 4; Rhodes Decl. ¶¶
163–164). We find that Petitioner’s citations to
Figures 1 and 4 of Doak teach the limitations of
claims 2, 3, and 12.
We also determine that one of ordinary skill in
the art would have had a reason to combine
Rasmussen and Doak to “satisfy known consumer
expectations for a conventionally shaped pillow.” Pet.
60; Rhodes Decl. ¶ 165 (“A person of ordinary skill in
the art would have had a credible reason to combine
Rasmussen with Doak to use the shape of Doak to
satisfy consumer expectations for a conventionally
shaped pillow.”); see also KSR, 550 U.S. at 421 (“When
there is a design need or market pressure to solve a
problem and there are a finite number of identified,
predictable solutions, a person of ordinary skill has
good reason to pursue the known options within his
or her technical grasp.”).
We further determine that Petitioner shows a
reasonable expectation of success for combining

292a
Rasmussen and Doak in the manner asserted by
Petitioner. Rhodes Decl. ¶ 165 (“The use of arcuately
bowed out opposing top and bottom panels joined by
a perimetric gusset that shares a rectangular
footprint with the top and bottom panels is a basic
pillow design that has been commonplace . . . as Doak
itself demonstrates.”) (“[M]odifying the pillow of
Rasmussen to have the shape characteristics of the
pillow of Doak would have been a simple combination
for a POSITA that would have yielded predictable
results without requiring undue experimentation.”).
Patent Owner responds that Rasmussen does
not anticipate claims 1 and 11, from which claims 2,
3, and 12 depend. PO Resp. 75. Patent Owner also
argues that Petitioner does not rely on Doak for
features of claims 1 and 11 that are missing in
Rasmussen. Id. For the reasons discussed above in
Section III.B., we determine that Petitioner has met
its burden of showing by a preponderance of the
evidence that Rasmussen anticipates claims 1 and 11.
Patent Owner further responds for claims 2
and 12 that one of ordinary skill in the art would not
have been motivated to modify Rasmussen to have
a rectangular shape because “such a modification
would undermine the fundamental principles of
Rasmussen’s design, which relies on a pillow having
a plurality of lobes,” a feature that Patent Owner
contends is critical and provides benefits. Id. at 75–76
(citing Ex. 1006 ¶ 14, Fig. 1; Parachuru Decl. ¶¶ 179–
180). Patent Owner additionally argues that
Petitioner provides no evidence why one of ordinary
skill in the art would make the modification and
forego the associated benefits and that Rasmussen

293a
does not indicate a rectangular shape would be
appropriate. Id. at 76. Patent Owner contends that
Petitioner’s declarant admitted to not understanding
Rasmussen’s lobes. Id. (citing Ex. 2016, 58:13–22).
Petitioner replies that Rasmussen does not teach that
“its lobes are ‘fundamental’ or ‘critical’” and “merely
teaches various embodiments having lobes.” Pet.
Reply 23–24 (citing Ex. 1006 ¶¶ 6, 14, claims 1–20;
Ex. 1062 ¶¶ 35–37).
Patent Owner points us to paragraph 14 of
Rasmussen, and in that paragraph, we find that
Rasmussen teaches that “in other embodiments, . . .
the lobes 120, 130 can have different sizes” and “[a]ny
combination of lobes having the same size or different
sizes is possible.” See PO Resp. 75. This paragraph
does not address whether these embodiments of
Rasmussen “define a generally rectangular footprint
common with said gusset,” as recited by claims 2 and
12. Second, it does not indicate that a rectangular
lobed pillow would fail to provide the benefits of a
lobed pillow, thereby undermining the asserted
fundamental principles of Rasmussen’s design. See
Ex. 1006 ¶ 14 (“The lobed shape of the pillow 100
provides a number of support surfaces for a user,”
“can enhance breathing of a user resting his or her
head against the pillow 100,” and “can also provide
support for the shoulder and/or neck of the user when
the user is sleeping on his or her side or back.”).
Further, we find that Rasmussen teaches that
the same listed benefits can be provided by a
rectangular pillow. See Ex. 1006 ¶ 2 (“Conventional
pillows can be found in a wide variety of shapes and
sizes, and are often adapted for supporting one or
more body parts of a user.”). Even if the lobes of

294a
Rasmussen are critical, as contended by Patent
Owner, Rasmussen does not indicate having a
rectangular shape would somehow be incompatible
with having lobes, as argued by Patent Owner. See id.
¶¶ 2, 14.
For the reasons above, the full record
persuades us that Petitioner carries its burden of
showing by a preponderance of the evidence that
claims 2, 3, and 12 would have been obvious over
Rasmussen and Doak.
C. Challenge Based on Rasmussen and Vuiton
Petitioner contends that claims 9, 15, and 20
are unpatentable over Rasmussen and Vuiton. Pet.
61–65. Claim 9 depends from claim 8, which depends
from claim 1. Ex. 1049, 5:46–47. It recites “wherein
said inner cover is formed of one or more layers of
nonwoven material.” Id.
Claims 15 and 20 depend from claim 13, which
depends from independent claim 11. Id. at 6:12–16,
6:35–39. Claims 15 and 20 recite “wherein said inner
cover is formed by one or more layers of a material
selected from the group consisting of a non-woven . . .
materials and combinations thereof such that said
inner cover is relatively resistant to air flow
therethrough.” Id.
1. Vuiton (Ex. 1044)
Vuiton relates to an “article of bedding such as
a pillow.” Ex. 1044 ¶¶ 1, 3, 7. Figure 1 of Vuiton is
reproduced below.

295a

Figure 1 is a sectional view of a pillow. Id. ¶ 11.
Pillow 1 includes cover 2, inner filling 3, and inner
casing 4 that encloses inner filling 3. Id. ¶¶ 12, 13.
Inner casing 4 consists of panels 4a, 4b made from a
non-woven fabric, “thereby providing a barrier
against the migration of bacteria towards the inside
of the pillow.” Id. ¶ 13. In medical applications, the
panels of the inner casing may be coated with a plastic
layer on its outer surface. Id. ¶ 23.
2. Claims 9, 15, and 20
Petitioner argues that the cover of Rasmussen
teaches the limitations of claim 8, from which claim 9
depends. Pet. 62. As discussed above, Petitioner
contends that claim 1, from which claim 8 depends, is
anticipated by Rasmussen based on disclosures
related to its cover. Petitioner also argues that the
cover of Rasmussen teaches the limitations of claims
11 and 13, from which claims 15 and 20 depend. Id. at
63–64.

296a
For the reasons stated above in Section III.B.,
Petitioner persuades us by a preponderance of the
evidence that Rasmussen teaches the limitations of
independent claims 1 and 11 based on disclosures
regarding its cover. For the reasons discussed above
in Section III.C.2., we determine that Petitioner has
met its burden of showing by a preponderance of the
evidence that Rasmussen anticipates claims 8 and 13.
Petitioner contends that Vuiton teaches a
pillow with an inner cover made from a non-woven
fabric, as required by claims 9, 15, and 20. Pet. 61–
62 (citing Ex. 1044 ¶¶ 7, 12, 13, Fig. 1; Rhodes Decl.
¶¶ 167–169), 64 (citing Ex. 1044 ¶¶ 13, 23, Fig. 1;
Rhodes Decl. ¶¶ 169, 171). We find that the cited
portions of Vuiton teach the limitations of claims 9,
15, and 20. Ex. 1044 ¶¶ 7 (“the present invention
relates to an article of bedding such as pillow . . .
consisting of a cover or outer casing . . . stuffed with
an inner filling, characterized in that the inner filling
is enclosed in an inner casing consisting of at least two
panels made of a non-woven fabric”), 12 (“pillow 1
consisting of a cover 2 . . . with an inner filling 3”), 13
(“inner filling 3 is enclosed in an inner casing 4
consisting of two panels 4a, 4b made from a nonwoven fabric”).
We also determine that one of ordinary skill in
the art would have modified Rasmussen with the
teachings of Vuiton “to impart anti-microbial and
flame retardance properties.” Pet. 62; Rhodes Decl. ¶
169. Petitioner’s reason for combining Rasmussen
and Vuiton also finds support in Vuiton. See Ex. 1044
¶ 13 (“two panels 4a, 4b made from a non-woven fabric
. . . thereby providing a barrier against the migration
of bacteria towards the inside of the pillow”). We

297a
further determine that Petitioner shows a reasonable
expectation of success for combining Rasmussen and
Vuiton in the manner asserted by Petitioner. Rhodes
Decl. ¶ 169 (“A well-known way to provide [microbial
and flame retardance] properties is through using a
non-woven material to form the inner cover.”).
Patent Owner responds that Rasmussen does
not anticipate the independent claims, from which
claims 9, 15, and 20 ultimately depend. PO Resp. 76–
77 (citing Pet. 61–64). Patent Owner also argues that
Petitioner does not rely on Vuiton for features of the
independent claims that are missing in Rasmussen.
Id. at 77. For the reasons discussed above in Section
III.B., we determine that Petitioner has met its
burden of showing by a preponderance of the evidence
that Rasmussen anticipates independent claims 1
and 11, and for the reasons discussed above in Section
III.C., we determine that Petitioner has met its
burden of showing by a preponderance of the evidence
that Rasmussen anticipates claims 8 and 13.
Patent Owner also responds that Petitioner
does not “adequately set forth how Vuiton’s alleged
non-woven cover is being incorporated into
Rasmussen’s design.” PO Resp. 77 (citing Pet. 62).
Patent Owner is unclear “whether Vuiton’s inner
cover is replacing Rasmussen’s alleged inner cover or
is being added as an additional inner cover.” Id.
Patent Owner contends that “Petitioner merely
provides an equivocal statement as to the intended
combination but never provides any specificity.” Id.
(quoting Pet. 62–63). However, Petitioner cites to its
declarant testimony, which states that a “well-known
way to provide [microbial and flame retardance]
properties is through using a non-woven material to

298a
form the inner cover.” Rhodes Decl. ¶ 169 (emphasis
added); see also Pet. 62 (citing id.).
For claims 15 and 20, Patent Owner further
responds that Petitioner relies on Vuiton’s description
of a plastic layer for the recited “inner cover is
relatively resistant to air flow therethrough,” but
Vuiton never describes its plastic layer as altering air
flow through its inner casing. PO Resp. 77–78 (citing
Pet. 63). Petitioner, however, cites to its declarant
testimony. Pet. 63 (arguing one of ordinary skill in
the art would “understand that Vuiton teaches
embodiments in which its non-woven inner cover can
be coated with plastic and can thus be ‘relatively
resistant to air flow therethrough,’ as required by
claims 15 and 20”) (citing Rhodes Decl. ¶ 170).
Patent Owner also argues that Vuiton teaches
its connection between inner and outer casings
prevents bacterial migration, not its inner layer
coated with a plastic layer, as argued by Petitioner.
PO Resp. 78 (citing Pet. 62; Ex. 1044 ¶ 13, Fig. 1;
Parachuru Decl. ¶ 181–182). Petitioner, however,
argues that one of ordinary skill would understand
that a non-woven inner cover coated with plastic
would help prevent bacterial migration. See Pet. 64;
Rhodes Decl. ¶ 170.
Patent Owner further argues that one of
ordinary skill in the art would have understood
Vuiton’s plastic layer does not teach the subject
matter of claims 15 and 20 because (1) its plastic layer
would render the inner case impermeable to air, (2)
claims 15 and 20 require the inner cover to be
“relatively resistant to air flow therethrough,” and (3)
a plastic layer is not a non-woven, knit, or woven

299a
material. Id. at 78–80 (citing Ex. 1044 ¶ 23; Ex. 2004
¶¶ 183–187; Ex. 2014, 118; Ex. 2015 ¶ 10; Ex. 2016,
110:8–19). Patent Owner additionally argues that
Petitioner does not address how Vuiton’s plastic layer
would affect Rasmussen’s use of porosity to increase
ventilation and heat transport, thus undermining
Petitioner’s proposed combination. Id. at 80 (citing
Ex. 1006 ¶¶ 24, 29, 30; Parachuru Decl. ¶¶ 188–189;
Ex. 2016, 75:12–18). As discussed above, Petitioner
proposes to modify the alleged inner cover of
Rasmussen to be non-woven and plastic coated in
view of Vuiton’s teachings. Petitioner is not proposing
to coat the alleged inner cover of Rasmussen so as to
be impermeable to air, as argued by Patent Owner.
See Pet. 64 (“it would be desirable to use a non-woven
inner cover that is relatively resistant to airflow
therethrough to provide anti-microbial properties”);
Rhodes Decl. ¶ 170 (“having read Vuiton, it would be
obvious to one of ordinary skill that the plastic-coated
non-woven inner cover embodiment of Vuiton would
naturally be relatively resistant to air flow and that
this would help prevent bacterial migration”).
For the reasons above, the record after trial
persuades us that Petitioner carries its burden of
showing by a preponderance of the evidence that
claims 9, 15, and 20 would have been obvious over
Rasmussen and Vuiton.
D. Challenge Based on Rasmussen and Mason
Petitioner contends that claims 10, 16, 21, and
24 are unpatentable over Rasmussen and Mason. Pet.
65–68. Claims 10, 16, 21, and 24 depend from claims
1, 11, 17, and 22, respectively. Ex. 1049, 5:48–49,
6:17–18, 6:40–41, 6:52–53. Each of claims 10, 16, 21,

300a
and 24 recites “wherein the compliant fill material
includes gel.” Id.
1. Mason (Ex. 1012)
Mason “is directed to methods of preparing
apparatuses comprising a gel layer and an additional
layer, such as a foam layer.” Ex. 1012 ¶ 2. The
apparatus according to Mason “generally comprises a
gel layer” and “can also comprise a covering
overlaying the gel layer.” Id. ¶¶ 8, 13. “Non-limiting
examples of further support apparatuses prepared
according to the methods of the invention include . . .
pillows.” Id. ¶ 14; see also id. ¶¶ 57, 58, 64 (listing
pillows as an embodiment).
According to Mason, “while the initial warmth
maintained by the contact with the foam may be of a
comfortable level, an eventual heat build-up leads to
discomfort for the user” and the “heat exchange
capacity of the gel materials used in the methods of
the invention therefore further contributes to the
good ‘feel’ users desire . . . in a . . . pillow.” Id. ¶¶ 41,
43. Mason states that “[i]n light of the desirable
properties afforded by gel materials, it is not
surprising that demand for support apparatuses
comprising gels continues to increase.” Id. ¶ 6. The gel
layer can be combined with a foam layer, a cover
layer, or optional further layers. Id. ¶¶ 8, 84, 85, 94,
95.
2. Claims 10, 16, 21, and 24
Petitioner argues that Rasmussen teaches the
limitations of independent claims 1, 11, 17, and 22,
from which claims 10, 16, 21, and 24 depend. Pet. 65,
67. For the reasons stated above in Section III.B.,

301a
Petitioner persuades us by a preponderance of the
evidence that Rasmussen teaches the limitations of
claims 1, 11, 17, and 22.
Petitioner also argues that Mason teaches
“wherein the compliant fill material includes gel,” as
required by dependent claims 10, 16, 21, and 24. Pet.
65 (citing Ex. 1012 ¶¶ 8, 13, 14, 43, 57, 58, 64, 80–85,
94, 95; Rhodes Decl. ¶¶ 172–173), 67. We find that
Petitioner’s citations to Mason teach the limitations
of these claims. Ex. 1012 ¶¶ 8 (“The apparatus
prepared according to the invention generally
comprises a gel layer.”), 13 (“[T]he apparatus can
also comprise a covering overlaying the gel layer.”),
14 (“Non-limiting examples of further support
apparatuses prepared according to the methods of the
invention include . . . pillows.”), 57, 58, 64.
We also determine that one of ordinary skill in
the art would have had a reason to combine
Rasmussen and Mason because the “addition of ‘gel’
can be used to provide a cooling effect to address the
known problem of heat buildup in foam,” “can
‘contribute[] to the “good” feel users desire in a
support apparatus,’” and addresses “increased
demand, known ability to address heat buildup in
foam with gel, and Rasmussen’s stated desire to
enhance cooling,” as argued by Petitioner. Ex. 1012
¶¶ 6 (“In light of the desirable properties afforded by
gel materials, it is not surprising that demand for
support apparatuses comprising gels continues to
increase.”), 41 (“[W]hile the initial warmth
maintained by the contact with the foam may be of a
comfortable level, an eventual heat build-up leads to
discomfort for the user.”), 42, 43 (“The heat exchange
capacity of the gel materials used in the methods of

302a
the invention therefore further contributes to the
good ‘feel’ users desire . . . in a . . . pillow.”); Rhodes
Decl. ¶¶ 174, 175; see also Pet. 66 (citing Ex. 1012 ¶¶
6, 41–43; Rhodes Decl. ¶¶ 174, 175), 68.
We further determine that Petitioner shows a
reasonable expectation of success for combining
Rasmussen and Mason in the manner asserted by
Petitioner. Rhodes Decl. ¶¶ 174 (“[U]se [of gel] was
increasingly common prior to the alleged invention.”),
175 (“Use of fill material comprising gel in the pillow
taught by Rasmussen would have yielded predictable
results with little or no experimentation.”).
Patent Owner responds that Petitioner “does
not rely on disclosure in Mason with respect to the
open cell constructions that are entirely missing from
Rasmussen’s disclosure” and thus, “Rasmussen in
view of Mason fails to render obvious claims 10, 16,
21 and 24.” PO Resp. 81; see also Pet. Reply 27 (“PO
does not independently address the obviousness of
claims 10, 16, 21, and 24 based on Rasmussen in view
of Mason, except for relying on arguments it raised for
independent claims from which these claims
depend.”). For the reasons discussed above in Section
III.B., we determine that Rasmussen anticipates the
challenged independent claims.
For the reasons above, the record after trial
persuades us that Petitioner carries its burden of
showing by a preponderance of the evidence that
claims 10, 16, 21, and 24 would have been obvious
over Rasmussen and Mason.

303a
V.

IMPROPER REPLY ARGUMENTS

Patent Owner filed a List of Improper Reply
Arguments (Paper 32), to which Petitioner also filed a
response (Paper 33). Patent Owner asserts that, in its
Reply, Petitioner argues for the first time that
“material” and “base material” of claims 11 and 17 can
be fibers, that Vuiton’s inner cover non-woven cover
is relatively resistant to air flow, and that
Rasmussen’s design can be modified to have lobes and
a rectangular shape. Paper 31, 1–2 (citing Pet. Reply
17, 21, 24, 26). The parties also filed a Joint Notice of
Unresolved Demonstrative Objections (Paper 35), in
which Patent Owner alleges that slides 13, 26, 29, 31,
and 32 contain new arguments as discussed above
and Petitioner alleges that slide 47 contains a new
argument from Patent Owner’s Observations (Paper
31).
We do not rely on any of the portions of the
Petitioner’s Reply that argue that “material” and
“base material” of claims 11 and 17 can be fibers and
that Vuiton’s inner cover non-woven cover is
relatively resistant to air flow. We also do not rely on
the demonstratives.
We cite and analyze the arguments from the
Petition for the challenge of claims 11 and 17 and the
challenges based on Rasmussen combined with
Vuiton or Doak. Further, because Petitioner initially
argued that one of ordinary skill in the art would
“modify the shape of the pillows taught by Rasmussen
to utilize the shape taught by Doak, including . . . its
rectangular shape” (Pet. 63), Petitioner’s argument in
its Reply—that “four subtle lobes at the corners could
even be maintained, if desired, and still yield a
‘generally rectangular’ pillow” (Pet. Reply 25)—is not

304a
a new argument, as contended by Patent Owner. A
lobed and generally rectangular pillow would be the
result of Petitioner’s proposed modification and would
still “satisfy known consumer expectations for a
conventionally shaped pillow,” discussed above in
Section IV.C.2.
VI.

CONCLUSION

For the foregoing reasons, based on the full
record before us, we determine that Petitioner has
demonstrated, by a preponderance of the evidence,
that claims 1–6, 8–13, 15–18, and 20–24 of the ’134
patent are unpatentable.
VII.

ORDER

Accordingly, it is:
ORDERED that claims 1–6, 8–13, 15–18, and
20–24 of U.S. Patent No. 8,646,134 B1 have been
shown, by a preponderance of the evidence, to be
unpatentable; and
FURTHER ORDERED that, because this is a
Final Written Decision, the parties to the proceeding
seeking judicial review of the decision must comply
with the notice and service requirements of 37 C.F.R.
§ 90.2.
PETITIONER:
Jason R. Mudd
Eric A. Buresh
ERISE IP, P.A.
jason.mudd@eriseip.com
eric.buresh@eriseip.com
ptab@eriseip.com

305a
PATENT OWNER:
Joseph J. Richetti
Frank M. Fabiani
Alexander Walden (pro hac vice)
BRYAN CAVE LLP
joe.richetti@bryancave.com
frank.fabiani@bryancave.com
alexander.walden@bryancave.com
PTAB-NY@bryancave.com

306a
[ENTERED: April 29, 2020]
NOTE: This order is nonprecedential.
United States Court of Appeals
for the Federal Circuit
______________________
BEDGEAR, LLC,
Appellant
v.
FREDMAN BROS. FURNITURE
COMPANY, INC.,
Appellee
______________________
2018-2170
______________________
Appeal from the United States Patent and
Trademark Office, Patent Trial and Appeal Board in
No. IPR2017-00524.
______________________
ON PETITION FOR PANEL REHEARING
______________________
Before LOURIE, MAYER, and TARANTO, Circuit
Judges.
PER CURIAM.
ORDER
Bedgear, LLC petitions the court for panel
rehearing on the basis that it raised an Appointments
Clause challenge in its opening brief. In view of this

307a
court’s decision in Arthrex, Inc. v. Smith & Nephew,
Inc., 941 F.3d 1320 (Fed. Cir. 2019), and this court’s
precedential order denying the petitions for rehearing
in Arthrex, Inc. v. Smith & Nephew, Inc., 953 F.3d 760
(Fed. Cir. 2020),
IT IS ORDERED THAT:
1) Bedgear LLC’s petition for panel rehearing
is granted.
2) The court’s decision affirming the decision
of the Patent Trial and Appeal Board is
vacated.
3) The Patent Trial and Appeal Board’s
decision in No. IPR2017-00524 is vacated
and the case is remanded to the Board for
proceedings consistent with this court’s
decisions in Arthrex.
FOR THE COURT
April 29, 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

308a
[ENTERED: June 12, 2020]
NOTE: This order is nonprecedential.
United States Court of Appeals
for the Federal Circuit
______________________
BEDGEAR, LLC,
Appellant
v.
FREDMAN BROS. FURNITURE
COMPANY, INC.,
Appellee
______________________
2018-2082, 2018-2083, 2018-2084
______________________
Appeals from the United States Patent and
Trademark Office, Patent Trial and Appeal Board in
Nos. IPR2017-00350, IPR2017-00351, IPR201700352.
______________________
ON PETITION FOR PANEL REHEARING AND
REHEARING EN BANC
______________________
Before PROST, Chief Judge, NEWMAN, LOURIE, DYK,
MOORE, O’MALLEY, REYNA, WALLACH, TARANTO,
CHEN, HUGHES, and STOLL, Circuit Judges.
PER CURIAM.

309a
ORDER
Appellee Fredman Bros. Furniture Company,
Inc. filed a combined petition for panel rehearing and
rehearing en banc. A response to the petition was
invited by the court and filed by Appellant Bedgear,
LLC. The petition was referred to the panel that
heard the appeal, and thereafter the petition for
rehearing en banc was referred to the circuit judges
who are in regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
2020.

The mandate of the court will issue on June 19,
FOR THE COURT

June 12, 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

